<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2009</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                                                      ?

             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2009

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS
                             SECOND SESSION
                                ________
                         SUBCOMMITTEE ON DEFENSE
                 JOHN P. MURTHA, Pennsylvania, Chairman

NORMAN D. DICKS, Washington             C. W. BILL YOUNG, Florida
PETER J. VISCLOSKY, Indiana             DAVID L. HOBSON, Ohio
JAMES P. MORAN, Virginia                RODNEY P. FRELINGHUYSEN, New Jersey
MARCY KAPTUR, Ohio                      TODD TIAHRT, Kansas
ROBERT E. ``BUD'' CRAMER, Jr., Alabama  JACK KINGSTON, Georgia
ALLEN BOYD, Florida                     KAY GRANGER, Texas
STEVEN R. ROTHMAN, New Jersey           
SANFORD D. BISHOP, Jr., Georgia         

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
 Paul Juola, Greg Lankler, Sarah Young, Paul Terry, Kris Mallard, Linda 
   Pagelsen, Adam Harris, Ann Reese, Tim Prince, Brooke Boyer, Matt 
Washington, B G Wright, Chris White, Celes Hughes, and Adrienne Ramsay, 
                            Staff Assistants
                  Sherry L. Young, Administrative Aide
                                ________
                                 PART 3
                                                                   Page
 Defense Health Program...........................................    1
 National Guard and Reserve Issues................................   83
 Department of the Air Force......................................  197
 United States Central Command....................................  243
 Air Force Posture................................................  315
                                ________

         Printed for the use of the Committee on Appropriations





             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2009

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS
                             SECOND SESSION
                                ________
                         SUBCOMMITTEE ON DEFENSE
                 JOHN P. MURTHA, Pennsylvania, Chairman

NORMAN D. DICKS, Washington             C. W. BILL YOUNG, Florida
PETER J. VISCLOSKY, Indiana             DAVID L. HOBSON, Ohio
JAMES P. MORAN, Virginia                RODNEY P. FRELINGHUYSEN, New Jersey
MARCY KAPTUR, Ohio                      TODD TIAHRT, Kansas
ROBERT E. ``BUD'' CRAMER, Jr., Alabama  JACK KINGSTON, Georgia
ALLEN BOYD, Florida                     KAY GRANGER, Texas
STEVEN R. ROTHMAN, New Jersey           
SANFORD D. BISHOP, Jr., Georgia         

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

 Paul Juola, Greg Lankler, Sarah Young, Paul Terry, Kris Mallard, Linda 
   Pagelsen, Adam Harris, Ann Reese, Tim Prince, Brooke Boyer, Matt 
Washington, B G Wright, Chris White, Celes Hughes, and Adrienne Ramsay, 
                            Staff Assistants
                  Sherry L. Young, Administrative Aide
                                ________
                                 PART 3
                                                                   Page
 Defense Health Program...........................................    1
 National Guard and Reserve Issues................................   83
 Department of the Air Force......................................  197
 United States Central Command....................................  243
 Air Force Posture................................................  315
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 46-475                     WASHINGTON : 2009

                                  COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman

 JOHN P. MURTHA, Pennsylvania              JERRY LEWIS, California
 NORMAN D. DICKS, Washington               C. W. BILL YOUNG, Florida
 ALAN B. MOLLOHAN, West Virginia           RALPH REGULA, Ohio
 MARCY KAPTUR, Ohio                        HAROLD ROGERS, Kentucky
 PETER J. VISCLOSKY, Indiana               FRANK R. WOLF, Virginia
 NITA M. LOWEY, New York                   JAMES T. WALSH, New York
 JOSE E. SERRANO, New York                 DAVID L. HOBSON, Ohio
 ROSA L. DeLAURO, Connecticut              JOE KNOLLENBERG, Michigan
 JAMES P. MORAN, Virginia                  JACK KINGSTON, Georgia
 JOHN W. OLVER, Massachusetts              RODNEY P. FRELINGHUYSEN, New Jersey
 ED PASTOR, Arizona                        TODD TIAHRT, Kansas
 DAVID E. PRICE, North Carolina            ZACH WAMP, Tennessee
 CHET EDWARDS, Texas                       TOM LATHAM, Iowa
 ROBERT E. ``BUD'' CRAMER, Jr., Alabama    ROBERT B. ADERHOLT, Alabama
 PATRICK J. KENNEDY, Rhode Island          JO ANN EMERSON, Missouri
 MAURICE D. HINCHEY, New York              KAY GRANGER, Texas
 LUCILLE ROYBAL-ALLARD, California         JOHN E. PETERSON, Pennsylvania
 SAM FARR, California                      VIRGIL H. GOODE, Jr., Virginia
 JESSE L. JACKSON, Jr., Illinois           RAY LaHOOD, Illinois
 CAROLYN C. KILPATRICK, Michigan           DAVE WELDON, Florida
 ALLEN BOYD, Florida                       MICHAEL K. SIMPSON, Idaho
 CHAKA FATTAH, Pennsylvania                JOHN ABNEY CULBERSON, Texas
 STEVEN R. ROTHMAN, New Jersey             MARK STEVEN KIRK, Illinois
 SANFORD D. BISHOP, Jr., Georgia           ANDER CRENSHAW, Florida
 MARION BERRY, Arkansas                    DENNIS R. REHBERG, Montana
 BARBARA LEE, California                   JOHN R. CARTER, Texas
 TOM UDALL, New Mexico                     RODNEY ALEXANDER, Louisiana
 ADAM SCHIFF, California                   KEN CALVERT, California
 MICHAEL HONDA, California                 JO BONNER, Alabama
 BETTY McCOLLUM, Minnesota                 
 STEVE ISRAEL, New York                    
 TIM RYAN, Ohio                            
 C.A. ``DUTCH'' RUPPERSBERGER, Maryland    
 BEN CHANDLER, Kentucky                    
 DEBBIE WASSERMAN SCHULTZ, Florida         
 CIRO RODRIGUEZ, Texas                     

                  Rob Nabors, Clerk and Staff Director

                                  (ii)

 
             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2009

                              ----------                              --
--------

                                       Thursday, February 28, 2008.

                         DEFENSE HEALTH PROGRAM

                               WITNESSES

HON. S. WARD ``TRIP'' CASSCELLS, M.D., ASSISTANT SECRETARY OF DEFENSE 
    FOR HEALTH AFFAIRS
LIEUTENANT GENERAL ERIC B. SCHOOMAKER, M.D., PH.D., ARMY SURGEON 
    GENERAL, COMMANDER, U.S. ARMY MEDICAL COMMAND
VICE ADMIRAL ADAM M. ROBINSON, M.D., SURGEON GENERAL, U.S. NAVY
LIEUTENANT GENERAL JAMES G. ROUDEBUSH, M.D., SURGEON GENERAL, U.S. AIR 
    FORCE

                              Introduction

    Mr. Murtha. I want to welcome this distinguished panel 
before the Committee. This is an open hearing. And we 
appreciate what you folks have done. I was just talking to some 
of you privately, and Mr. Young was, too. And of course, what 
we have been wrestling with is trying to figure out, is there a 
better time to intervene? Can we intervene sooner?
    And Admiral Mullen gave me a book, ``War and Redemption,'' 
which talks about the difficulties and struggles people had in 
World War II and Iraq and so forth. And I have read three or 
four books. John Parrish, Dr. Parrish, wrote a book about his 
experience in Vietnam. And a couple other books I have read 
talked about the emotional and mental problems that they have 
had.
    One thing I found is when I went to Fort Hood, I found a 
much better clinical screening course than I saw before, a much 
better counseling service. And I think, as we work our way 
through this extra money we put in last year and we get case 
workers out there who can follow people through the whole 
system, I think we are going to be much better off. But we 
welcome you. And there are a lot of different hearings going 
on, and many of our members are both chairmen and ranking 
members, because they are senior before they can get on this 
subcommittee anyway, so we will go as quickly as we can. We 
will take your testimony, if you will summarize it for us, and 
we will get right to the questions.
    Mr. Young.
    Mr. Young. Mr. Chairman, I just want to extend my welcome 
also to the witnesses today. And as I have said so many times 
before, you know, I do not have much of a medical background, 
but I have seen what I consider to be some real miracles in our 
military hospitals. And we have had some problems, but we deal 
with the problems. We are just glad to have you here, and I 
look forward to hearing your testimony.
    Mr. Murtha. Nobody has been in the forefront more than Mr. 
Young and his wife going to the hospitals, talking to people, 
making sure that they had--and I have done my bit, and we want 
to make sure medical services get their share of the budget. 
And some of the things we have done I think have been obviously 
very important to the overall ability of the medical services 
to respond to the needs that are out there of the troops.
    So, Dr. Casscells, we will start with you and go right 
through the surgeons general. But we want to keep your opening 
statements as short as you can.
    Dr. Casscells. Thank you, Mr. Chairman, Congressman Young. 
I really want to say, on behalf of the Under Secretary, Dr. 
Chu, and Gordon England, and all the Pentagon leaders, and you 
will hear from the services, we appreciate this chance to visit 
with you. We come here, as usual, with two eyes open, two ears 
open, and great appreciation for what this committee has done.
    Mr. Murtha. Is his microphone turned on there?

                   Summary Statement of Dr. Casscells

    Dr. Casscells. Sorry, sir. Thank you, Mr. Chairman, 
Congressman Young. I really want to say, on behalf of the Under 
Secretary, Dr. Chu, and Gordon England and all the Pentagon 
leaders, and you will hear from the Services, we appreciate 
this opportunity to get your guidance. We have gotten a lot of 
excellent guidance over the past year, in addition to some 
extraordinary support. And as I mentioned to you a minute ago, 
you and this Committee have been the leading advocates for the 
healthcare for our members. And it is deeply, deeply 
appreciated because it is an arm wrestle in the Pentagon. 
Dollars do count, as well as the other guidance. So your 
continued interest in this and Mr. Young's and Mrs. Young's is 
deeply, deeply appreciated, sir.
    So we are today, again, to get guidance and to give you a 
report. The simple form of the report is, we are making pretty 
good progress. The GAO report this morning in the Washington 
Post on the situation at Walter Reed, for example, is 
encouraging. We have got a ways to go. I actually have some 
data, which I can share with you, which just came out 
yesterday, from a survey that we commissioned done by an 
independent pollster of 600 of our recently wounded warriors. 
That, too, shows a big change compared to last year. Again, 
there is some room for improvement. So we are always looking 
for new ideas, and we welcome this opportunity to get some 
input from you, sir. Thank you.
    [The statement of Dr. Casscells follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                 Summary Statement of General Roudebush

    General Roudebush. Chairman Murtha, Ranking Member Young, 
distinguished members, it really is a pleasure to be before you 
here today. You all very well understand the challenges that we 
face. Our first task is to provide a healthy, fit force; fit 
and able and resilient; able to go forward and do the mission 
in some very challenging places. And while we are doing that, 
taking care of family members as well as retirees to the full 
extent that we can; you understand that this is a challenge 
always in a resource-constrained environment, providing the 
right resources, both manpower as well as money and facilities, 
to do that. And you all have been very forthcoming in 
supporting and working with us to find that right balance 
within a very challenging environment to do that.
    But as we work the challenges for today, I think the focus 
certainly of this committee in working with us to do the 
mission today is also to look forward to tomorrow, to 
understand the challenges of those missions, because they may 
be rather different than we face today. Certainly, in the Air 
Force, as we use the Chief's priorities as our direct vector, 
winning today's fight, taking care of our people, and preparing 
for tomorrow's challenges, that is the task before us, while we 
work to recapitalize facilities and equipment, reset equipment 
to be sure that it is prepared for tomorrow. So we truly 
appreciate the energy, the focus, the understanding, and 
certainly the enduring support that you all bring to assist us 
as we take care of our Nation's most precious treasure. For 
that we thank you, and I certainly look forward to your 
questions. Thank you, sir.
    [The statement of General Roudebush follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    
                 Summary Statement of Admiral Robinson

    Admiral Robinson. Chairman Murtha, Ranking Member Young, 
distinguished members of the Committee, it is a pleasure to be 
here with you again to share my vision of Navy Medicine in the 
upcoming fiscal year. You have been very supportive of our 
mission in the past, and I want to express my gratitude, and on 
behalf of all of those who work for Navy Medicine, we certainly 
appreciate everything you have done for us.
    Navy Medicine is at a particularly critical time in 
history, as the Military Health System has come under increased 
scrutiny. Resource constraints are real, along with the 
increasing pressure to operate more efficiently, while 
compromising neither mission nor healthcare quality. The budget 
for the Defense Health Program contains fiscal limits that 
continue to be a challenge. The demands for wounded warrior 
care continue to steadily increase due to military operations 
in Iraq and Afghanistan.
    At the same time, Navy Medicine must meet the requirement 
to maintain a peacetime mission of family and retiree 
healthcare as well as provide a new strategic, imperative 
humanitarian assistance and disaster relief as needed around 
the globe. Our mission is force health protection, a fit and 
ready force deployed with the warfighters, support the 
warfighters in everything they do, and then make sure that we 
care for eligible family members and those who have worn the 
cloth of our Nation. That is what force health protection is, 
and that is what Navy Medicine is all about.
    Navy Medicine must ensure that we have the excellence in 
clinical care, the excellence in graduate health education, and 
the excellence in biomedical research in order to meet that 
mission. And those missions--and those are the foundations and 
the core of Navy Medicine. Thank you, again, sir, for your help 
in the past. Thank this Committee for all of its help. And I 
stand by and look forward to answering your questions.
    [The statement of Admiral Robinson follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    
                Summary Statement of General Schoomaker

    General Schoomaker. Well, let me join my distinguished and 
esteemed colleagues in thanking you, Chairman Murtha and 
Congressman Young and other distinguished members of this 
subcommittee, for providing me an opportunity to discuss Army 
Medicine and the Defense Health Program. I have been in front 
of a number of congressional committees in the past few weeks 
and have spoken at length about the Army Medical Action Plan 
and the Army's care and support of our wounded, ill, and 
injured warriors. The care of these great warriors and their 
families is the most important thing we do. We are committed to 
getting it right and providing a level of care and support that 
is equal to the quality of their service.
    However, as my colleagues have each mentioned, this is not 
the only thing we do in Army Medicine. In fact, the care we 
provide to wounded, ill, and injured warriors is less than 10 
percent of our outpatient healthcare managed by the Army. So I 
appreciate the opportunity today to talk about the other 90 
percent of what we do, the extremely important work that is 
done by the dedicated men and women, military and civilian, of 
the Army Medical Department who really, in my view, personify 
the value of selfless service.
    In January, I traveled to Iraq with a congressional 
delegation to see firsthand the incredible performance of Army 
soldiers and medics and medics within the Joint Force. In fact, 
those of us on the panel here today had a kind of reunion of 
sort in the Air Force Hospital at Balad because we were all 
downrange seeing firsthand how our medical personnel were 
performing. During that trip, and many times visiting hospitals 
and seeing wounded, ill, and injured soldiers, and seeing 
family members that were caring for them and retirees, I am 
reminded of the parallels that exist between how the Joint 
Force fights and how the Joint Medical Force protects health 
and delivers healing. The joint warfighting community employs 
all tools of intelligence and this fearsome array of lethal and 
nonlethal weapons to deliver precise force to bear on our 
enemies.
    The medical force, represented by those of us at this panel 
here, work in parallel but on behalf of healing and health. We 
employ tools of medical information about the individual 
soldier patient, his or her state of health or injury and 
illness, to deliver the right care by the right medic, and by 
medic, it is a capital M, all uniforms, all roles, at the right 
time and the right place from the point of injury on a 
battlefield through evacuation to rehab centers in the United 
States.
    In the Army, we promote best clinical practices by aligning 
business practices with incentives for our clinicians, 
administrators and commanders. We do not simply fund commanders 
based upon what they got last year and add a factor for 
inflation. We do not just pay for productivity, although it is 
a very important element of what we do. We focus on quality and 
best value for the efforts that our caregivers have. At the end 
of the day, that is what our families, that is what our 
patients really want and deserve. They want to remain healthy, 
and they want to know that we are addressing their problems and 
they are better off for their encounters with us.
    We then address this through evidence-based medicine and a 
focus on clinical outcomes. We have used the system of 
outcomes-based incentives for now 4 years. It has been 
implemented across the entire Medical Command last year after 
an initial trial in the southeast for several years. I strongly 
support this approach. It promotes a focus, again, on adding 
value to people's lives through the efforts of health promotion 
and in the healthcare delivery community. Our results have 
resulted in the Army's being able to raise the measurable 
health of our population and deliver more healthcare every year 
since 2003.
    As the Army and the Military Health System moves forward, I 
have three principal areas of concern that require attention. 
These concerns are our people, the care we deliver in our 
distributed system of clinics and hospitals, which we call the 
Direct Care System, and our aging facility infrastructure. You 
know, I am really impressed with the professionalism, 
commitment, and selfless service of our people in Army Medicine 
and in the Joint Force. Nothing is more important to our 
success than our dedicated workforce. And I have asked our 
former assistant--or excuse me, Acting Surgeon General, Major 
General Gale Pollock to serve as the Deputy Surgeon General for 
Force Management. She is putting together a human capital 
strategy for Army Medicine to make it the employer of choice 
for healthcare professionals. We need your help in breaking the 
notion that we are one-size-fits-all mentality. We need to have 
tailored approaches, with flexibility and innovation, that 
attract and retain the very best civilians and uniformed 
personnel in the uniform.
    Second, I would like to emphasize the importance of the 
Direct Care System and our ability to maintain an all-volunteer 
force in an era of persistent conflict. One of the major 
lessons that has been reinforced throughout the global war on 
terror, and especially this last year in caring for our 
casualties, and reinforced by my colleagues here is the Direct 
Care System is the foundation for caring for wounded, ill, and 
injured service members. The Direct Care System, what we do in 
our military hospitals every day, and clinics, is the 
foundation for our caring for our wounded, ill, and injured 
soldiers. All of our successes on the battlefield, through 
evacuation, through our medical facilities back home, derives 
from the success of our Direct Care System.
    And sir, I know this is a particular interest of you, 
Chairman, and you, Congressman Young. I want to tell you 
publicly how much we appreciate your personal investment in our 
Direct Care System and your continuing to emphasize the 
importance and support that we require. It is where we educate. 
It is where we train. It is where we develop critical skills 
that we use then to protect the warfighter and to save lives. 
It is the foundation of military medicine. And it is very 
vulnerable. Congress, especially this committee, has been very 
supportive of our Direct Care System. Thank you for recognizing 
our importance. Last year, in addition to funding the Direct 
Care System, you provided us additional supplemental funding 
for operations and maintenance, procurement and research. I 
want to again thank you for doing that and providing us those 
additional funds. We are ensuring that that money is used for 
what you intended it to be. And we appreciate that continued 
support for our infrastructure and Direct Care System.
    My last concern is about this aging infrastructure of our 
medical facilities. If we are going to provide consistent world 
class healing, we need environments that promote that. The 
quality of our facilities, whether they are treatment 
facilities or research and development and support, is a 
tangible demonstration of our commitment to our most valuable 
assets, our families and our Military Health System staff. It 
is the bedrock of our generating force; it is how we continue 
to support the Joint Force. And we need your help.
    In closing, I want to reassure you that Army Medicine is 
committed to the highest priority of caring for our wounded, 
ill, and injured soldiers and their families. I am proud of the 
Army Medical Department's efforts over the last 232 years, and 
especially the last 12 months, in this regard. I am convinced 
that with the help of the Department of Defense and with the 
Veterans Affairs, we have turned the corner on some of the 
problems we suffered last year.
    Thank you for this opportunity to appear before this 
committee, and I look forward to your questions.
    [The statement of General Schoomaker follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    
                         MEDICAL INFRASTRUCTURE

    Mr. Murtha. Thank you very much, gentlemen. Let me just say 
that we have asked for a list of the infrastructure, medical 
infrastructure deficiencies, and we have gotten it from the 
Army. We got it from all three? Okay. Well, Mr. Young and I, 
are going to present to the committee that we are going to 
transfer the money to the Military Construction Committee to 
take care of those deficiencies. If it does not get done in 
those next 2 years, it won't get done.
    In talking to Major Rozelle, I asked him how it was going 
with the center that he works so effectively with, and he said 
it is so much better. He believes that the troops now 
understand, if something happens to them, they have some place 
they can go and get rehabilitated. And I appreciate that. That 
is the kind of thing that we do all the time.
    I do not know about the Defense Department, because we have 
some arguments with the Defense Department about their 
priorities, but this committee stands ready to make sure that 
the troops have what they need when they come home. And 
infrastructure is such an important part of it. So we will 
continue to ask you questions, and as long as you give us the 
answers, we will take care of it financially in the next--I do 
not know if we will get it all in 1 year, but we will get it in 
the next 2 years because it is going to amount to $6 billion or 
$7 billion. We will work it out. We are looking for places to 
find other money. And the staff has been very good in ferreting 
out some of the extra spending in some of the other agencies 
that have asked us for money.
    Mr. Young.

                        WARRIOR TRANSITION UNITS

    Mr. Young. Mr. Chairman, thank you very much.
    And I think all of you know of Chairman Murtha's 
dedication, especially to the wounded troops and their 
families. And I really like to visit the hospitals and visit 
the wounded kids along with Mr. Murtha, because when my wife 
finds out about a family that needs financial help, she makes 
me empty my wallet. She also makes him empty his wallet.
    Mr. Murtha. I empty my wallet before I see her.
    Mr. Young. I want to ask or talk about the Army's Warrior 
Transition Units. And my first question is going to be, does 
the Navy and the Air Force have similar programs like the 
Warrior Transition Unit?
    General Roudebush. Sir, I can speak for the Air Force. Our 
focus is to transition those individuals back to their unit, 
preferably, or back to their home of record for recovery, 
rehabilitation. We do that through a variety of activities. The 
Air Force Wounded Warrior Program, formerly Palace HART, has a 
family liaison officer assigned to each severely wounded 
individual, who assists in not only the immediate delivery of 
care, the immediate recuperation, but continues to follow 
through rehabilitation back to the unit and then onto 
transition to the Veterans Administration (VA) if that is 
appropriate. So we track those individuals one by one with 
their unit commander, their line commander, principally with 
view and responsibility and accountability for those folks as 
they work in close collaboration with the medics. So, for us, 
it is not so much a unit activity as it is a, one by one, 
returning them to their unit of record or their home of record 
to assist them in their rehabilitation.
    Admiral Robinson. Congressman Young, the Navy has a program 
which includes a Wounded Warrior Regiment that is located in 
D.C. And the commanding officer is Colonel Boyle. And then we 
have Wounded Warrior Battalions at Camp Lejeune and at Camp 
Pendleton. The concept is to make sure that Navy Medicine 
partners with the line of both blue Navy and also the green 
side, the Marine Corps, to make sure that the nonmedical and 
the medical care needs of the individuals are taken into 
consideration. Our goal is to decentralize the care, get it 
away from the medical place of treatment as soon as that is 
advisable, not a day or a second before, do the nonmedical and 
the medical case management from the administrative and the 
medical perspective, then if, I can use the word, repatriate 
the patients back with their units and back into their home 
environments or their units' environments because we think that 
there is better healing and there is a better transition that 
occurs. So we do in fact take care of those young men and women 
that are coming through in that regard. And I will leave it at 
that.
    Mr. Young. I am glad you mentioned the Wounded Warrior at 
Pendleton and Lejeune. Just a couple weeks ago, I had a chance 
to visit with the Wounded Warrior Battalion at Camp Pendleton. 
It was very impressive I have to tell you. And the reason I 
asked about this, and I knew that you all had similar programs, 
and when you talk about returning them to duty, what I am 
concerned about is going beyond that and preparing them for a 
successful life as a veteran in their community. And I just 
wonder how much follow-up, and this may not be the right group 
of witnesses to ask this question of. It may be better asked of 
the VA, and I am doing that, too. But I want to tell you, just 
give you an example of a situation that we dealt with. In fact, 
it was a Marine that was from my area in Florida. I got to know 
him very well and the family. His injuries were serious. And 
after going through Bethesda and after going through the VA 
Hospital at Haley in Tampa, the VA decided that he was never 
going to get any better. He was more or less totally 
incapacitated. His family would not settle for that. And they 
took him to a private facility in California. And this private 
facility brought this Marine back to life. He is able to walk. 
He is able to talk. He had some legal matters, and he was able 
to appear in court to the satisfaction of the Judge to make 
decisions. Somewhere along the line, he was warehoused because 
he was never going to survive. The family decided that was not 
good enough. Now, did the Warrior Transition Units that have 
organizations in all those services, do you follow up on those 
young men and women that have gone into the VA system to a 
conclusion one way or the other? Because you know, this man is 
returning to a very useful life, a life that he can enjoy. And 
the government had given up on him.
    Admiral Robinson. I think that, from the Navy's 
perspective, we have case managers that, once a wounded person 
has come back, will stay with them throughout the care process. 
So that means that as they transition to the Department of 
Veterans Affairs and to VA Hospitals, our case managers will 
still track them and keep up with them. I am not going to tell 
you that at any point we are going to make sure that we take 
care of everyone and have the success of this one individual. 
But your example actually has been repeated more than one time 
during this particular war. So it needs to be looked at. And 
that is the capacity for the injuried, particularly on the 
neurologic point of view, to come back even after we, from a 
medical perspective, have thought that they could not. And 
certainly at the National Naval Medical Center at Bethesda, we 
have learned that repeatedly with the very traumatic and 
extensive head injuries that we have received. We have seen 
people, who heretofore medically it had been concluded were not 
going to have a good quality of life, then come back and go to 
college and become very productive.
    So the answer to your question is, yes, we try to track 
everyone. I am not sure that we are always successful at 
providing the long-term systematic rehabilitative care that 
they need. We have to depend on DVA, Department of Veterans 
Affairs, to help us with it, but we still track them, even as 
they go to the VA.
    Mr. Young. I have talked to General Peake about this 
considerably since he became Secretary of Veterans Affairs. You 
will remember this case, Admiral, because he was the Marine 
that was so tall you had to get a long extension to put on his 
bed. And I know you remember that very well.
    Admiral Robinson. Yes. I do.
    General Schoomaker. Yes, sir, and I would just add my 
comments. We have obviously three very similar parallel systems 
with case managers that are especially engaged during the acute 
phase of treatment and intermediate rehabilitation. A major 
provision I think of Dole-Shalala recommendations, as well as 
the work of the senior oversight committee between the VA and 
the Department of Defense, the committee chaired by Deputy 
Secretary Mansfield from the VA and Deputy Secretary of Defense 
Gordon England, is the development of these Federal care 
coordinators who exist, as I describe them, as AWACs that fly 
over the two environments, DOD Medicine and the VA Medicine, 
and even into the network of private care and rehabilitation. 
And they reduce the interagency friction that may occur. But 
they are also committed to lifetime management. Because, 
frankly, three decades from now, none of us sitting at this 
table are going to be around for the management of that young 
Marine or that young soldier or airman or sailor. What we need 
is that warm hand off and continued handshake between the 
agencies to make that happen. And, sir, I think we are working 
very hard at exactly that. And I know Secretary Peake is 
focused on it.
    General Roudebush. Yes, Congressman Young, relative to the 
Air Force, we follow three tracks for our severely injured and 
wounded Airmen. First is obviously full recuperation or 
rehabilitation, and if they desire, back to active duty, and if 
that is able to be accommodated within the demands and the 
construct of the active duty service requirements. If they are 
not able to come back to active duty, but wish to continue to 
serve in the Air Force, we facilitate and aggressively work to 
place them within Department of the Air Force civilian 
positions, and have done that. But for those who either transit 
into civilian positions or transit to the VA, by policy, our 
Air Force Wounded Warrior Program follows them for a minimum of 
five years with contact, with query, with support to assure 
that they are in fact continuing to do well so that each is 
returned to the maximum in terms of lifestyle and capabilities.
    Mr. Young. Well, thank you all very much. We owe these 
heroes the very best that we can provide them and their 
families. It is really important. And we appreciate all of you. 
Mr. Chairman, I know I have gone over time, but thank you very 
much.
    Mr. Murtha. Mr. Moran.

                         TRAUMATIC BRAIN INJURY

    Mr. Moran. Thanks very much, Mr. Chairman.
    Mr. Chairman, have you asked why the Pentagon has only 
obligated $53 million of the $900 million that this Committee 
provided for traumatic brain injury? It might be useful to--I 
do not want to take up a lot of time on that, and there is 
probably a good reason, but it is a pretty small amount given 
the priority that this Defense Appropriations Subcommittee gave 
to traumatic brain injury. Is there a quick, concise 
explanation for that?
    Dr. Casscells. Mr. Moran----
    Mr. Moran. Good to see you, Dr. Casscells.
    Dr. Casscells. Thank you, sir.
    We, as you know, feel this is job number one. And we had a 
little delay in getting it out of the Pentagon to the Army as 
the executive agent for this research. And what the Army has 
done now, and I will brag about them because they will not brag 
about themselves, is they have reached out, sir, to NIH, to top 
academic centers around the country, all the hands, everybody 
welcome, competitive process, and they set these requirements 
for, what does it really mean? How can we have a balanced 
program where we work hard to reduce the stigma and study it 
and where we get the caregivers in there? And now this money is 
flowing. They are obligating it. They are spending it. And more 
importantly, sir, they are getting quick returns on investment, 
and two types primarily. One is, General Schoomaker can talk to 
this, it is about they are studying the impact on stigma, 
people's reluctance to ask for help. That is one issue. Second 
is the tremendous number of top notch academic proposals, 
people wanting to work with us.
    Mr. Moran. That is what I want to hear, Dr. Casscells. I 
have got a lot of question areas. I just----
    Mr. Murtha. Would the gentleman yield?
    Mr. Moran. Sure.
    Mr. Murtha. You are not telling me we are spending a lot of 
money on administration and not spending money on taking care 
of people?
    General Schoomaker. Sir, maybe, I can intervene for just a 
second to say, of the $900 million, sir, $300 million has gone 
to research, as Dr. Casscells said; $600 million is going to 
care. Of the $300 million, the bulk of those dollars will be 
obligated in June and July. They are all programmed. There will 
be 100 percent obligation by the end of the fiscal year for the 
$300 million. Of the $600 million, the bulk of that came to the 
Army, $262 million. All of it is programmed. Not all of it is 
obligated yet, because we want to do a deliberate process of 
contracting and the like. But at least for this Service, and I 
think for the other Services as well, we have a very good 
program. We understand your interest in ensuring that we 
obligate those dollars before the end of the fiscal year. And 
frankly, we have to.
    Mr. Moran. That is the point of asking the question, to 
emphasize the priority that this Committee has given that. And 
this is one of the--the four of you, and those folks whom you 
represent--is the real success story that we have the most 
agreement with on this Committee. When you consider the fact 
that killed-in-action rate is half what it was in World War II; 
it is a third less than it was in Vietnam; the survivability 
rate is 90 percent, that shows that in this particular area we 
have made enormous progress. When you think that these soldiers 
have such a higher chance of surviving being wounded in action, 
in some cases as Mr. Young said, if it were Vietnam or World 
War II, they would be goners. And they are not today because of 
what you have done.

                     Prosthetic Improvement Program

    Now I was over at DARPA recently, and they were showing us 
some tremendous progress. I am going to take a little more time 
since you extended a bit there, but there they showed 
tremendous progress. They were showing us some monkeys that 
they regularly fed them, and then the monkeys, they were not 
able to reach it, and they found that there are brain waves 
that can actually cause prosthetic limbs to move and get the 
food and so on. And they say that they are ready now for brain 
waves to really control these prosthetic devices. And they want 
to introduce it at Walter Reed, but they are a little concerned 
that, again, as the chairman says, the administrative process 
of getting this stuff working for soldiers. And, you know, 
these are just scientists, but they said, you know, it really 
troubles us, we have got it working now, and it would mean so 
much to us if we could see it working on soldiers at Walter 
Reed, and it is not just because there is this administrative 
delay. We know we can give them a prosthetic device that can be 
controlled by the brain waves. Now, are we trying to facilitate 
this? You know, I know you have got so much bureaucracy you 
have to work with, but----
    General Schoomaker. Sir, I am actually very familiar with 
that program.
    Mr. Moran. You are. Good.
    General Schoomaker. That is the third phase of the 
Prosthetic Improvement Program. We have gone through the first 
phase that has been around a hundred years. We are into the 
second phase in which we actually put now myoelectric 
connectors to the stump. And DARPA is helping us to develop the 
implanted chip in the brain that works on the brain's intent to 
move the prosthesis. And so that program is actually aligned 
with the Blast Injury Program that is being administered for 
the Department of Defense out of the United States Army Medical 
Research and Materiel Command.

                  Shortage of Healthcare Professionals

    Mr. Moran. So we are going to implement it while they are 
still in the hospital.
    Third thing, I am concerned--we have been talking about 
Walter Reed. And we are replacing it, and we are going to get 
first class facilities, but we are not going to close down 
Walter Reed until we are ready. DeWitt is one of those 
replacement facilities. And it is going to be one of the finest 
military medical facilities in the country. But I am told one 
of their concerns is that, while they have the facility up, 
they are afraid they are going to have a major shortage of 
nurses, physical therapists, mental health counselors, the 
Warrior Transition Teams. They do not have the personnel ready 
to fill in. So they will have a big building, and they will 
have lots of wounded warriors needing help, but they are not 
going to have the health professionals, particularly the 
healthcare professionals, that they desperately need. Are we 
going to be able to fill that gap in time, Dr. Casscells?
    Dr. Casscells. Congressman Moran, that is a great question, 
and we are continually having to increase the special incentive 
pays for caregivers, nurses in particular, and dentists are in 
short supply, certain surgical specialties are in short supply. 
In addition, we want to be able to take advantage of people who 
are local. That is why, with your help, we met with people at 
Northern Virginia College and Inova Mount Vernon. We are 
looking forward to interaction there. There are a lot of 
opportunities there to work with them. So, in some places, it 
will be--the situations will be adapted to the local 
opportunities.

                          MEDICARE TRUST FUND

    Mr. Moran. All right. Thanks. As long as you are on top of 
that. I have one other question. Mr. Horner asked, and maybe 
you can answer it for the record, but I wonder, too, we just 
passed this major Medicare--you know, we have this major 
Medicare Part B program. If you are in a military treatment 
facility that is reimbursed by Medicare, can they get 
reimbursement from Medicare Part B if they are providing care 
to our TRICARE For Life personnel? Are you going after that 
money to reimburse the military budget?
    Dr. Casscells. Yes, sir. You know, we put I think it is $15 
billion into the Medicare Trust Fund every year, but in 
addition, when patients are hospitalized we do bill third-party 
providers. And one of the things that we have learned in the 
last few years is that if all of those moneys come back to my 
office, nobody bothers to collect them. Now leaving those 
moneys with the commander who collects them, there is an 
incentive, and they are collecting those third-party payments. 
They can use them for operations, or education and research. 
That is the way to go. As I said before, healthcare is local, 
and the commanders learn from each other. We want to make sure 
that there is plenty of decentralization in our system for that 
kind of reason.
    Mr. Moran. All right. Well, that is a lot of money. I am 
glad you are doing that. We will ask later about the 30-minute 
drive time standard that is affecting a lot of our seniors that 
was just implemented.
    But thank you very much, Mr. Chairman.
    Mr. Murtha. I am encouraged to hear from the staff that you 
have requested more money for--to continue the PTSD and the 
brain damage money for next year. We want to make sure that 
this is not just a one-time deal; this is something that is 
going to take a long time. And we just obviously do not want to 
appropriate money that is not needed, but I am encouraged that 
you have already come to us and said, okay, this is something 
we need in addition to the military medical infrastructure.
    Dr. Casscells. Thank you, sir.
    May I just say, the more we have gotten into this, the more 
we have found what the opportunities are. Several things have 
happened since we first got the--for example, the $300 million 
research fund and the $600 million for operations. On the 
research side, one of the exciting things is that we had the 
developments in November with the Japanese and Jim Thompson 
from the University of Wisconsin found that you could take your 
own skin cells and reprogram them to become stem cells. This is 
obviously a blockbuster breakthrough. And we think this is 
going to help. We have got 150 people or so with spinal cord 
trauma. We have got about the same number of bad eye injuries, 
people who are really functionally blind. This is probably 
their best hope, this kind of thing. Now that is on the basic 
science side.
    In addition, sir, we have been reminded by our patients 
that there are a lot of therapies that patients are very 
interested in and keen on that are what you might call soft 
therapies. They might be meditation. They might be sunshine, 
exercise, diet, vitamin supplements, or electromagnetic. There 
are all kinds of things people are keen on, and they are doing 
them anyway in an uncontrolled way. So one of the things we 
would like to do with these funds, sir, is take a what I call a 
hard look at soft therapies, put a scientific look on some of 
these things that are--some of them are very valuable. Some of 
them could be voodoo. So we want to look. We would like to 
recognize that people make their own decisions in healthcare. 
But we ought to factor them into what we are doing.
    The third thing, sir, is that we had a report yesterday 
from the Iraqi ambassador and the Iraqi surgeon general. They 
estimate that 60 percent of the country has PTSD. I do not mean 
PTS, I mean PTSD. And they have asked for our help in 
developing culturally sensitive ways to reach out to that 
country. And as we go into Africa, where there are many 
traumatized people, Asia, their concept of psychology is 
different than ours. And it has different cultural roots.
    But I believe, sir, that the Uniformed Services University 
and Armed Services, which are highly diverse, particularly in 
our enlisted population, we have got 11 percent foreign born. 
These are people who want to give back to the world. And mental 
health is a big deal. And I will just close by saying the 
number two at World Health Organization visited me this week. 
He said, in two years--this is Dr. Ala Alwan--depression will 
be the biggest cause of death globally. Depression. Because it 
causes so much mayhem, heart attacks, and suicide and so on. 
And he said this is the number one cause of death. So he said 
the U.S. military sounds like it is going to become the world 
leader in psychological health, and I applaud that. And to hear 
that from the World Health Organization, sir, that was a new 
day. Thank you.
    Mr. Murtha. Ms. Kaptur.

                         Remarks of Ms. Kaptur

    Ms. Kaptur. Thank you.
    Dr. Casscells, could you repeat the percentage of Iraqis 
you stated were symptomatic with PTSD?
    Dr. Casscells. The figure I got from Drs. Shakir and Samir 
was about 65 percent. They feel that about two-thirds of the 
people have had some kind of--have been traumatized either by 
trauma to themselves, a family member, a close associate at 
work, and they are struggling with that. Now, most people 
recover from PTSD. Most people recover. But this is an 
opportunity and an obligation. You know, of course, we saw this 
in Europe after World War II. We saw it in Vietnam. And these 
societies have rebounded. One of our questions is, how can we 
be of help?
    Ms. Kaptur. Maybe I will start my questioning here, and I 
want to thank the Chairman for showing such a deep interest in 
this health issue. I think every member and every soldier we 
represent thanks him very, very much for that. I certainly do. 
Thank you gentlemen, Doctor, Generals, Admiral. I have great 
admiration for your work and for what you are trying to do. I 
will begin with an analogy from a meeting the other day, 
because you work for the largest bureaucracy in the world. 
Maybe I should say the largest organization in the world. We 
had a hearing on defensive missile systems. And I asked a 
question of the Defense researchers whether they knew about the 
Harpoon, which is an offensive system. It was very interesting 
to me they did not. That was a shocking moment. And it just 
said to me how massive the institution is that people often do 
not know what one another are doing. I can't imagine in the 
medical area it is much different. There may be something 
happening on the Air Force side that Navy does not know or 
Army. And then I wonder about Guard and Reserves, because it is 
such a large organization. So I am going to ask some specific 
questions, because I can only understand how effective we are 
working together for our country if I follow specific cases up 
the bureaucracy and figure out what happened. I am going to ask 
you to report back to us, if you could, on Ohio, the State I 
represent, and our efforts, our extraordinary efforts long 
before the $900 million was passed in the last budget to deal 
with the issues of neuropsychiatric care for our returning 
vets. Because we had so many combat vets not just from--we do 
not have bases like Fort Hood, but we have Guard and Reserve 
units that have been in theater multiple times. And it is my 
impression they are not being properly diagnosed and treated. I 
have actually--I know that. That is not a hypothesis; that is a 
fact. So here is what I am going to ask you kindly to report 
back to us on in some way. I do not know, Dr. Casscells, if you 
are in charge or if each branch is in charge. I do not know who 
I am asking to report back, but I wish you would do it all 
together somehow. I am interested in the following facts: 
Number one, for 2009, in your proposed budget, how many more 
psychiatrists will work for the Department of Defense to treat 
these illnesses we are talking about in the neuropsychiatric 
area, right now I am focusing on, including traumatic brain 
injury, which is not a neuropsychiatric illness, but concussion 
related, but head-related injuries? And how many psychiatric 
nurses, how many more psychiatric nurses will be working for 
the Department based on the legislation that we have passed 
this coming year compared to last year and this year? Look at 
this 3-year period. So we look at before we passed the 
legislation, this fiscal year, which is the first year, and 
then looking toward next year in your proposed budget. All I am 
looking at are psychiatrists and psychiatric nurses.
    Number two, I would like you to look at Ohio. Our 
commanding officer for the Guard and Reserves is General Wayt, 
W-A-Y-T. General Wayt is working with Case Western Reserve 
University, and a preeminent neuropsychiatrist by the name of 
Dr. Joseph Calabrese. And I do not think I am speaking out of 
turn to say Dr. Calabrese says the worst experience of his 
entire career, and he is in his mid-50s, is trying to get the 
funds from the Department of Defense that we voted over 
multiple years now to deal with returning vets.
    My question to you is, why has it been so hard? What is 
going on in there that a brilliant set of doctors who are 
trying--and I do not even represent Case. All I know is it is 
the best institution in my State to help to spearhead this 
effort working with all of our medical facilities and with our 
Guard and Reserve. What happened inside of Defense for him to 
say to me, ``this is the worst experience of my professional 
career, trying to work with that bureaucracy''? I am not 
blaming anyone. All I want to do is take care of sick veterans 
coming home, and I can't get it done. All right. So I want to 
know why--I would like somebody to call Dr. Calabrese, figure 
out, working with General Wayt at the State level, what is 
going on inside DoD that we can't get this done? So that is the 
second question.
    The third question I want to know, I am going to mention 
two specific veterans from my district who are wounded forever. 
One is Matthew Drake, who will be probably a quadriplegic--no, 
excuse me, Matthew Kyle, Matthew Kyle, quadriplegic for life. 
He is down somewhere near Fort Hood right now. I would like to 
know, I would like to have a profile on how he is being taken 
care of; why did he end up in Texas rather than Ohio where he 
is from? Why were we unable to take care of him in Ohio? Maybe 
it was a family choice. And also, veteran Matthew Drake, who I 
understand is in some family facility somewhere in Colorado. 
These are both Army. His family is in Ohio. But they took him 
out of the government medical facilities because they were 
unable to care for him. I want to know why. I just do not know 
why. He needs 24-hour-a-day care, but he is not near his 
family. He is over in Colorado. His family is in Ohio. Matthew 
Kyle, Matthew Drake. Okay.
    Another question, I have an asset I want to put on the 
table. Dr. Casscells, you talked about the Iraqi people. I have 
wondered about PTSD and all kind of things because of the 
bombing and the pressure on people for different reasons. I 
represent a lot of Arab-speaking doctors. I have wondered about 
backup in theater either for our own medical units or working 
with hospitals or medical facilities in Iraq, if we could not 
get telemedicine in there. The former head of our medical 
college in Toledo, Dr. Gohara, is Arabic speaking. We have a 
Marine now who is a head of our medical college back home, Dr. 
Lloyd Jacobs. I am looking at this asset I have of Arabic-
speaking doctors and saying to myself, how can we use 
telemedicine into several commands that are out there to treat 
both our soldiers and the Iraqi people where it is possible and 
develop relationships that help on the medical front? Does that 
make any sense or not? Could you report back to me on that?
    My time has probably expired, Mr. Chairman, but I would 
finally ask to use a unit in my district as a test case of 
whether what we are trying to do at this level is working at 
the ground level. And that is the 983rd Engineering Battalion 
Army Reserves located in Ohio, commanding officer in Chicago, 
Illinois. There are men and women in that unit, largely men, 
with PTSD untreated. How is that possible with all the money 
that I have been voting for here in the Congress?
    [The information follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Murtha. Let me just say, Mr. Young has to leave, and we 
have no Republican here, so we are going to have to shorten our 
questioning. So you will need to get that done here by 11 
o'clock, because Mr. Young has to leave. So if you will shorten 
your questions.
    Ms. Kaptur. That was my last one, Mr. Chairman. A lot of it 
is reporting back and asking them to comment on specifics so I 
can understand why what I voted for still does not create more 
help for my veterans that are coming home in our region.
    Mr. Murtha. I will say we would work, this Committee is in 
the forefront, we have been working hard trying to have case 
workers to take them not only through the stay in the military 
hospital, but in through the VA right through survival. And the 
examples I used are two civilians, two reporters that were hurt 
so badly and had civilian case workers help them. And Bill 
Young earlier talked about how the family got involved, and now 
we have case workers who are going to be following these 
people, and General Schoomaker talked about this, the whole way 
through. We all have the same problems and concerns. And the 
thing that I worry about, though, is not--talking about it does 
not solve it. We have got to make sure it happens. And I would 
hope--I went to Fort Hood just recently. I saw an improvement, 
substantial improvement of how it used to be. In other words, 
they talked to the troops. The troops reacted. They screened 
them, and then they started counseling them. I do not know when 
you intervene because the book I am reading about war and 
redemption that Admiral Mullen gave me said, if you intervene 
too soon, they will not talk. It is the worst thing you can do. 
It is the most delicate, difficult problem you can possibly 
face. And all of us struggle with it. I have been reading three 
or four books about it. And Vietnam, Korea. And so I think what 
you brought up is the point all of us are struggling with, 
trying to get to the bottom of it. But there is nobody that has 
done more than we have in this subcommittee for military 
medicine. So I appreciate what you have just said, and we work 
at it all the time. And if you folks will answer any questions 
she has for the record.
    Dr. Casscells. Sir, I will take the responsibility. I think 
I will have to get with your staff on some of these telephone 
numbers, ma'am, to contact these people and get you your 
answers. But as you can see, just a few people who are 
struggling with PTSD really capture your heart, as they 
captured yours. And if I could just follow up, I would say 
again, this is collectively the thing we are most focused on.
    [The information follows:]

    My staff has attempted on numerous occasions to contact Dr. 
Joseph Calabrese via email and phone and have not heard back 
from him.
    The Army staff has contacted your office regarding Matthew 
Drake and Matthew Kyle to address the specifics of their case.

    Mr. Murtha. I hate to interrupt you, Dr. Casscells, but you 
are going to have somebody call and talk to her, because we 
have to get to Mr. Bishop and then adjourn the committee.
    Mr. Bishop.
    Mr. Bishop. Thank you very much, Mr. Chairman.
    Gentlemen, welcome once again. My questions today, I want 
to focus on joint military-VA medical facilities. And I would 
be extremely interested in hearing the panel's views on the 
effectiveness and productivity of the joint military and VA 
medical facilities that we have now operating. For example, I 
think, the North Central Federal Clinic in San Antonio, which 
is the Air Force and the VA, as well as joint facilities in 
Chicago, Biloxi, Mississippi and Alaska, how viable an option 
is this moving forward, particularly as we are now going to be 
investing more of taxpayers funds in construction of new 
military medical facilities? And are there any obstacles, 
pitfalls, or other issues in establishing more such 
relationships that we should know about that would make it more 
difficult? And are you open to more cooperation and more 
utilization of joint facilities between the DOD and the VA?
    General Roudebush. Congressman Bishop, I will take the 
first turn at that one. The Air Force has four of the eight 
current joint venture relationships. And we have found those to 
be very, very productive. Our experience is that the most 
productive relationships are established locally when you have 
the local military facility commander and the local VA director 
leverage each other's capability, find the gaps, find the 
opportunities, and bring those together. We have had very 
productive relationships. We have a hundred sharing 
arrangements and agreements with the Guard, Reserve and Active 
activities with our VA counterparts. They are two different 
institutions with two different funding streams and rather 
different foci, if you will, or focus of their activities, with 
many areas of overlap. So, in short, I would say there are 
wonderful opportunities. My experience is they tend to be best 
leveraged locally but I think ought to be encouraged in every 
regard because this is not only good medicine, but it is good 
sense in getting the most out of every taxpayer dollar into the 
hands of the people that can really provide the care.
    General Schoomaker. Yes, sir, I will just say for the Army, 
we all agree I think about the value in planning and building 
coordinately with the VA. The VA has a very good way of 
predicting future populations for the VA. And we have done many 
coordinated plans with the VA for community-based outpatient 
clinics and the like. In your own district, I know that you are 
distressed, as we are, about the replacement of Martin Army 
Community Hospital. It is a $400 million to $450 million 
hospital that, because of priorities within the Defense Health 
Program, Military Construction Program, we had to split into 
two pieces as a bill payer for the United States Army Institute 
for Chemical Defense to replace it. So it became a bill payer 
for part of the construction of Martin. We are going to do that 
in two pieces. One piece of it is funded in 08-09, and then the 
balance in the 8 to 13 POM. We would like to have it as a 
single project. We have gone to the VA is my understanding. The 
VA does not have the money to pony up for a joint VA-DOD 
Hospital at Martin.
    Mr. Bishop. It is my understanding that, prior to my 
arrival this morning, the Chairman indicated that the 
subcommittee was considering transferring a substantial sum of 
money for medical facilities to the MILCON, which is slash also 
Veterans Affairs Subcommittee of Appropriations. I happen to 
serve on that subcommittee also. It would appear to me that 
that might be some indication that VA will not have that kind 
of a problem with resources if, of course----
    Mr. Murtha. If the gentleman would yield, let me just say 
this. We are going to fund this hospital. But you have to have 
35 percent design completed. We do not want to hold this thing 
up because of the VA. My experience dealing with VA, it will 
take a hell of a long time before you get done what you want to 
get done. And I know what Bishop has in mind. But you know, we 
want to go forward with this hospital. I do not want the damn 
thing slowed up because we got some bureaucratic beef. Not only 
will you be gone, we will all be gone before it gets done.
    Mr. Bishop. Mr. Chairman, my only concern, I just wanted to 
get an understanding that if we were to pursue that, that there 
would be no objection on the part of the DOD to that effect. I 
certainly do not want to hold it up, I want it to go forward. 
But once it goes forward, I would like very much for us to 
pursue the VA end of that.
    General Schoomaker. That is our oldest hospital in the 
inventory. Our hospitals in the top five are over two times the 
age of comparable civilian facilities. We are very much in 
agreement.
    Mr. Murtha. We will have the money to do it. Because of 
your suggestion, request, because of your diligence, and 
because of your influence with this Committee, they will have 
the money to do it. Thank you very much, gentlemen. I 
appreciate your coming before the Committee. And I just want to 
say one thing. General Schoomaker said before--I was talking 
about PTSD--he said he gets PTSD coming before the Committee. I 
get PTSD from visiting these troops sometimes. So I appreciate 
it very much for you coming before the Committee. Thank you 
very much.
    The Committee is adjourned to 1:30.
    [Clerk's note.--Question submitted by Mr. Murtha and the 
answer therefore follow:]

    Question. We understand that the Department of Veterans 
Affairs will be responsible for hiring all Federal Recovery 
Coordinators. Can you tell me what resources (both personnel 
and funding) the Department of Defense is providing to this 
program?
    Answer. DoD funds and personnel were used to support the 
development of the Federal Recovery Coordinators (FRC) training 
curriculum and training programs. DoD also provided funding to 
support development of the web-based National Resource 
Directory, an integral part of the Federal Individual Recovery 
Plan, that will allow wounded, ill and injured Service members, 
veterans, and their families as well as the FRCs to access 
nation-wide information on care and services.

    [Clerk's note.--End of question submitted by Mr. Murtha.]
                                       Thursday, February 28, 2008.

                   NATIONAL GUARD AND RESERVE ISSUES

                                PANEL I

                         WITNESSES FOR RESERVES

LIEUTENANT GENERAL JACK STULTZ, CHIEF, ARMY RESERVE
VICE ADMIRAL JOHN COTTON, CHIEF, NAVY RESERVE
LIEUTENANT GENERAL JOHN BERGMAN, COMMANDER, MARINE FORCES RESERVE
LIEUTENANT GENERAL JOHN BRADLEY, CHIEF, AIR FORCE RESERVE

                              Introduction

    Mr. Murtha. We are going to welcome this distinguished 
panel. And if you keep your testimony short we will keep our 
questions short, because I think we have gotten pretty well to 
the point where we want to be. And you have given us some good 
information about what we think needs to be done. So with that, 
I will ask Mr. Hobson if he has any opening remarks.
    Mr. Hobson. No. I have a few questions I am going to ask, 
but we will get to that.
    Mr. Murtha. All right. Without objection, we will put your 
full testimony in the record. And if you will each say a few 
words we will get right to the questions.
    General Bradley. Mr. Chairman, Committee members, thank 
you, sir, for having this hearing. I think this is important. 
It gives us a chance to talk about our people and advocate for 
things we need so that they are better prepared to do their 
jobs. I want to thank you particularly for the great help you 
have given us over the last few years.
    The National Guard and Reserve equipment account is our 
life blood to really improve our aircraft and other equipment 
so that the folks that we put over in the United States Central 
Command Area of Responsibility (AOR) can help look after their 
business and be safe and do good, close air support. We supply 
missions for Soldiers and Marines on the ground.
    So thanks for your help, and I look forward to your 
questions, sir.
    [The statement of General Bradley follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    
    General Bergman. Mr. Chairman, as always, it is a pleasure 
to be here in front of you and the Committee. Thanks for your 
continued support to the Marines and their families. In the 
last 5 years, with over $200 million for the Marine Corps in 
the degree account, you have allowed us to close out roughly 32 
programs or training allowance allocations where we have been 
able to get the equipment, both hard combat-deployable 
equipment and training assimilation technology that has allowed 
us to maintain and increase our readiness.
    There are a lot of things on the table today, and I look 
forward to your questions.
    [The statement of General Bergman follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    
    Admiral Cotton. Mr. Chairman, two things, and a comment. 
NGREA echoes same comments.
    TRICARE Reserve Select is enormous. Since October 1, 2007, 
if you are a drilling selected Reservist you have access to 
health care. In America this is unbelievable. We have noticed 
an uptick in retention and especially in recruitment of 
veterans that are going to college and need health benefits. We 
have got about 7,000 Reservists on the program now. So for 
about $260 for a family, $81 for a single, you now have health 
care. It is enormous. It has really helped.
    I have been chief for 4\1/2\ years. It is my last time 
before you. I have got to say, Active-Reserve Integration, this 
journey that Admiral Clark started, Admiral Mullen continued, 
and now Admiral Roughead is a huge advocate. It has really 
worked well for us. We are full partners in everything we do. 
The Navy tells our story. We are sailors for life in a 
continuum of service, and we thank you for your support.
    [The statement of Admiral Cotton follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    
    General Stultz. Yes, sir. Just to echo my comrades in arms 
here, thanks for all the support we have gotten from Congress. 
We are getting support for the Reserve components at record 
levels in terms of dollars being spent against our soldiers for 
the benefits and incentives as well as the equipment.
    At this time last year when I came before you, the Army 
Reserve had an end strength of 188,500; today we have got an 
end strength of 193,500--5,000 more than we had this time last 
year. At a time when we are at record op tempo, we keep 25,000 
to 30,000 soldiers deployed in 18 different countries in the 
world right now, and they are reenlisting at record rates.
    We are meeting our retention goals at record rates with our 
first-term soldiers. And the reason I believe they do that is 
they feel like, one, what they are doing is important and they 
feel good about it; but number two, that they have got the 
support of this Congress behind them.
    So thanks for what you are doing. I look forward to your 
questions.
    [The statement of General Stultz follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    
                            TRICARE MEDICAL

    Mr. Murtha. I appreciate those summaries.
    Let me just say TRICARE started in this committee before I 
was Chairman, as a demonstration project. We had a lot of 
problems at first, a lot of complaints and we adapted to that. 
And I think when I go to the field, I always ask about how 
TRICARE is going and how important is it. I get very high marks 
from the troops in the field. And I am glad to hear that it is 
helping with retention, because I found that if we don't take 
care of the families we are sure as hell going to have a 
problem retaining the people in the military, especially with 
the strain that our folks are under right now with extended 
deployments and with the fact they have been deployed so often.
    So I am pleased to hear that that is going well. We had all 
kinds of problems at first. We still have a lot of health care 
problems. We had the health care folks in front of us today, 
but it is getting better. We are going to adjust some of the 
budget requests to take care of them.
    For instance, military medical facilities we are going to 
improve substantially. There has been a backlog for a long-term 
with military medical facilities. We are going to do the same 
thing with infrastructure for the regulars. And where the Guard 
goes to train and where the Reserves go to train, we are going 
to increase that money for that infrastructure. I am going to 
transfer that to the Military Construction Committee so they 
have an opportunity to have better facilities, the same type of 
facilities the Regulars have.
    So the advice we get from you folks is invaluable. And of 
course, visiting the bases and having an opportunity to talk to 
the troops gives us some insight. Sometimes it gets so 
sanitized up here we don't get exactly what we need to hear in 
order to get the budget developed the way it should be 
developed.
    So I appreciate your coming before the committee, and we 
will ask Mr. Hobson if he has any questions.
    Mr. Hobson. I most certainly do. First of all, General 
Stultz, does what the Chairman just said help you fix the base 
I have been complaining about and some other bases and put you 
in a better line?
    General Stultz. Sir, we are getting funding, and 
specifically we are talking about Fort McCoy, Wisconsin, one of 
our heaviest used.
    Mr. Hobson. 10,000 to 12,000 people go through there a 
year.
    General Stultz. Go through there every year.
    Mr. Hobson. It looks like it did in 1958 when I was up 
there.
    General Stultz. Yes, sir. I will say the good news--and I 
will characterize that first--is we are getting funding for 
Fort McCoy for certain projects when it comes to the training 
facilities like ranges and things like that. The problem I have 
got is, as you very well know, sir, we need better billeting 
for the soldiers who are out there. We are still putting those 
soldiers in World War II buildings. And when we go into the 
construction program it seems like the facilities, places like 
McCoy and some of the other places, like Shelby and others with 
the Guard, are pushed back.
    We have got our first ORTC, which is the Operational 
Readiness Training Center, which is your brick training 
facilities billets scheduled for Fort McCoy in fiscal year 
2011. That is too late; we need it started now.
    Mr. Murtha. We have a list from--I assume you are included 
in that list--from all the services about infrastructure 
deficiencies.
    General Stultz. Yes, sir.
    Mr. Murtha. And it amounts to $7 billion or $8 billion. We 
intend over the next two supplementals to take care of that, 
plus military medical facilities that are deficient. So we have 
seen those facilities and we are sure as hell going to try to 
take care of them.
    General Stultz. We just can't afford to keep pouring money 
into putting wood on World War II buildings.

                        UNIT DEPLOYMENT/COHESION

    Mr. Hobson. One more thing in this round. General Bergman, 
he knows I am not happy. We have the former chief first 
sergeant of the Lima Company here with us today. Right, Auggie?
    Voice. XO, sir.
    Mr. Hobson. XO. He is here. He cares about these Marines. 
He cares about the Marines in Lima Company. I wish the Marine 
Corps, to be frank with you, cared as much about those Marines 
as I do. I want to--there is a memorandum of 19 January 2007 
from the Secretary of Defense: Mobilization of ground combat, 
combat support and combat service support will be managed on a 
unit basis. This will allow greater cohesion and predictability 
in how these Reserve units train and deploy. Exceptions will 
require my approval.
    Did you have that approval or do you need that approval 
now?
    General Bergman. Sir, we need that approval when that goes 
forward when there are exceptions to dwell time.
    Mr. Hobson. Do you have that today?
    General Bergman. The----
    Mr. Hobson. I am asking you a very straightforward 
question, sir.
    General Bergman. The book that goes to the SECDEF for unit 
activation goes at a defined time. Prior to that unit 
activation, there is a timing process. So the unit that we are 
talking about to activate those Marines out of Lima Company 
325, that book will not go forth to the SECDEF until a time 
here in the near future.
    Mr. Hobson. But you have already, you have----
    General Bergman. We have already identified them.
    Mr. Hobson. You have already told people----
    General Bergman. Yes, sir.
    Mr. Hobson [continuing]. Involuntarily, when you had 
volunteers to go forward in that unit who had not served 
overseas, you had volunteers, you said no, we don't want those 
volunteers, we want sergeants and we want corporals, and we are 
going to do cross-leveling. You didn't go to the IRR to get 
people out of the IRR, which is what it is for. And one of the 
basic tenets of the Marine Corps is to keep these units 
together, and all of a sudden we are going to do this.
    And then I asked somebody, I said, what about the schooling 
these kids were going to go to to help their unit? Some of them 
were going to go to sniper school. They were waiting 3 years to 
go to sniper school, and now 9 of the 11 are involuntary. That 
is a problem, sir.
    Secondly, what is your recruitment compared to the National 
Guard and even the Reserve? Is your recruitment up? Are you 
meeting everything?
    General Bergman. Yes, sir.
    Mr. Hobson. The same levels?
    General Bergman. We are at 100 percent. We were at 100 
percent for 2007. Basically 6,287.
    Mr. Hobson. You are not going to be with this kind of 
treatment of Marines, in my opinion. Marines are supposed to 
care about their people. When I ask what schools are going to 
be messed up by this, nobody knows. When I ask about certain 
types about these individuals nobody knows. All they know is we 
needed corporals and we needed sergeants. And I would like you 
to tell me why you didn't go to the IRR.
    General Bergman. Well, sir, we go to the IRR every day. We 
have scrubbed the IRR. Right now we have about over 2,000 IRR 
Marines on Active Duty that are in Iraq and Afghanistan and 
preparing to go. The reality is in caring about those Marines, 
we care deeply, just as everyone in this room does. One of the 
reasons that those corporals and sergeants were chosen is 
because those new first-time Marines need qualified leadership, 
because it is those corporals and sergeants. And quite 
honestly, sir, those are a little bit in short supply.
    Mr. Hobson. But let me tell you the other side of this, 
too. Lima Company may go back in 2009. Some of these kids were 
wounded that are going back in Iraq, their previous year. 
Sending them back. And when Lima deploys again in 2009, you are 
going to have this same problem, cause you have taken people 
out of Lima Company now and put them over in another company. 
And probably when they get back, I am not sure they are going 
to stay as Marines.
    General Bergman. Sir, Lima Company will go as part of the 
3rd Battalion, 25th Marines. And if we hold to the Force 
generation model we will go in June of 2010. And the fact of 
the matter is when we started deploying the infantry battalions 
in 2003, it took one battalion to make one battalion; 100 
percent unit cohesion. By 2006, because of the second 
activations and because we had at that time an unwritten policy 
of voluntary-involuntary activations, which through the model 
that the Marine Corps and the Marine Corps Reserve had set up 
for a year activation, which Secretary Gates referred to in his 
memo, that year made up of about not quite 4 months of 
predeployment training, a 7-month deployment and then a 
demobilization time, we got set back by, again, an unwritten 
policy on you couldn't involuntarily call someone a second 
time, because we had set our business model to utilize the 24 
months under law in two 12-month periods. And all the Marines 
and Marine Forces Reserve knew that at the time, that if a 
young Marine joined, you could go in your first year, you would 
have approximately between 4 and 5 years dwell time, and in 
your sixth year you would go a second time. That setback in the 
2006--2005-2006 time frame caused us to go from being able to 
make one battalion in one battalion, to make one regiment to 
make one battalion. So the folks in 25th Marines were just 
coming out of that.
    We project that when 1st Battalion, 23rd Marines goes in 
December of 2010, we will be at the virtually no or minimal 
just specialty MOS cross-leveling. It took us a 4\1/2\ year 
cycle to get back to where we started, which is exactly what 
you are talking about sir.
    Unfortunately the timing of 225 gone does catch us a little 
bit short of zero cross-leveling.
    Mr. Hobson. I think it is poor planning. And second of all, 
I think by the time this gets to the SECDEF, he doesn't even 
know where it is in the book you give him and it is already 
done. I mean, so what you have done, the way you are doing it 
is you are taking the action before you have the approval. And 
then, after the fact, is so buried that he won't even know that 
you violated the policy or you are intending to violate it when 
he signs off on whatever you give him. And if it is reviewed by 
the same people who send me memos, you know, that say nothing 
but bureaucratic mumbo-jumbo, certainly he will sign off on it.
    I mean this is just, I think, poor planning, poor treatment 
of people. It should have been foreseen. And you are telling me 
now you don't--basically what you are telling me is--when did 
anybody look at whether there were sergeants or corporals 
available in the IRR? I always forget which one. The guys that 
you give points to for doing nothing and standing around and 
now you are calling them up.
    General Bergman. That is ongoing, sir. We scrub that list 
continually, because those IRR Marines--oh, by the way, what we 
try to do, because most of those Marines who are in the IRR are 
coming right from Active Duty and have served multiple combat 
tours already. So the policy that we have tried to put together 
is that when a Marine enters the IRR they will have a 4-year 
time frame in the IRR. They serve 4 years on Active Duty and a 
4-year commitment in the IRR.
    We give that first year of Active Duty, a chance to 
refresh, get themselves established in their civilian careers, 
and then they are eligible during the second and third year for 
recall. We don't want to wait too long because individual skill 
sets combat capabilities are a perishable skill. And in that 
fourth year of the IRR, they are pretty much on their way out, 
and we do not touch them unless there is some type of greater 
national emergency.
    Sir, it is all about people, and we are short of people. 
And we felt we would err on the side of openness to tell these 
young Marines early, because they need to prepare for the 
eventuality, so they know they can have the medical benefits 
available. And if the SECDEF decides to say no, then he says 
no.
    Mr. Hobson. Let me ask, if you have some people who were 
willing to go, young Marines who were willing to go and willing 
to volunteer, and you have a period of time that you are giving 
people advance notice that you are going, if people have been 
in a while are you telling me none of those were promotable to 
the ranks that were necessary that they could go with this 
unit? I doubt that anybody looked at that. I think this was 
just a numbers game and they said, hey, these are the guys, you 
are done, you are going. We don't care about the three that are 
going to sniper school to help their unit. They have been 
waiting 3 years to do that. And you turned down the kids that 
volunteered, as I understand it.
    Now, maybe there is a different story to this, but I 
understand kids volunteered to do this. And that whoever the 
officer is that said we are not going to do that, nobody 
looks--did anybody look to see if there is anybody promotable 
that can go?
    General Bergman. Yes, sir. If a Marine is turned down for 
voluntary deployment, it is because, for whatever reason, they 
don't have the skill sets or the capabilities that we need in 
that particular mission.
    Mr. Hobson. Do you know that happened here?
    General Bergman. I will find out for you. I am willing to 
bet you--here is the key. 25th Marines is a regiment, and we 
seek to keep that regiment intact with its infantry battalions, 
so that we have that management at the level that they can look 
right down in those battalions and down into those companies to 
make sure we get it. But I will double-check to make sure and 
get back to you.
    [The information follows:]

    By choosing Company L NCOs to augment 2nd Battalion instead 
of volunteers, the command is able to fully utilize their 
combat-proven leadership and occupational skills to train and 
lead the Marines of 2nd Battalion. This plan also allows the 
junior Marines (who may have volunteered) within Company L to 
progressively assume greater responsibility during peacetime 
training events, and thereby be better prepared to assume NCO 
billets during 3rd Battalion's next deployment. Consequently, 
the current plan optimizes the quality and quantity of NCO 
leadership provided to both 2nd Battalion and 3rd Battalion 
during combat operations in support of the War on Terror.

    Mr. Hobson. When you looked down, it didn't happen here, 
because you didn't have it in the one unit that is going. You 
had it in some people in another unit to fill it. And that is 
called cross-leveling, which everybody, especially the Marine 
Corps, has been totally taboo on. The Air Force doesn't do it 
because they can volunteer their people.
    But anyway, it is just--this is a decorated group of 
people, they want to go, they are willing to go, but I don't 
think this is the right way to get them to go or to treat them 
to go, especially when they waited 3 years.
    I know the Army has the donkey as their mascot. I don't 
know what the Marine Corps' is, but it has got to be about the 
same.
    General Bergman. It is kind of a bulldog, a very friendly 
little one, unless you piss him off.
    Mr. Hobson. I have seen that one over there. But I will 
tell you I am just, as you can tell, frustrated.
    Mr. Murtha. Mr. Dicks.

                    STRATEGIC TO OPERATIONAL RESERVE

    Mr. Dicks. Thank you Mr. Chairman. Gentlemen, the 
Commission on National Guard and Reserves believes that the 
dramatic change from a Strategic Reserve to an Operational 
Reserve without any study is a far-reaching decision and is a 
mistake, because it is not clear that the public or Congress 
stand behind this new concept. What do you think of this 
criticism?
    Admiral Cotton. I will jump in first. I will tell you, I 
think the rules changed in 1989 when the Berlin Wall came down. 
We all got a wakeup call in 1991 with Desert Storm, and we did 
really well there. Afterwards, we all expected a peace 
dividend. The work did not go away. So we flexed and some of 
our Reservists started getting more operational.
    I was an F/A-18 team pilot, where we practiced for world 
war and we became trainers of Active component members before 
they deployed. So we have been doing a lot of operational 
support since 1991. The Air Force will tell you they have been 
at war since 1991 providing aircraft overseas, so we have been 
doing this. People have called it different things.
    I think the Commission on the National Guard and Reserves 
did a great job of looking for 2 years at all the things we are 
going to be dealing with, both in the past and the future. 
Operational support, I think, is here to stay. And the best 
proof is the customer likes it, the combatant commanders and 
our Sailors--I will speak for them--they love it, rather than 
staying in a----
    Mr. Murtha. If the gentleman will yield?
    Mr. Dicks. Yes, I yield.
    Mr. Murtha. I talked to the four generals before, and 
admiral before, and we talked about this. It is really a matter 
they just don't have enough troops. They can't deploy for any 
length of time without the Reserve in the first place, without 
the Guard in the second place. So we just don't have enough 
forces to sustain a deployment, one deployment, for any length 
of time. And that is basically the problem. That is the thing 
we face.
    Mr. Dicks. Well, the issue, then, is if we have done this, 
if we have moved the Guard to an--I mean the Reserve to be in 
an operational setting, then do we have a Strategic Reserve? 
Should we be worried about that? Should Congress be worried 
that everybody now is training for counterinsurgency, I guess, 
in the Marine Corps and the Army? And so do we any longer have 
a Strategic Reserve?
    General Bradley. Yes, sir I believe we do. I don't think we 
should be worried about it. We have highly trained Reservists 
who are not being used every day in an operational way, but we 
are available. I think this Operational Reserve is the right 
way to do it. But those that are not employed every day could 
still be considered a Strategic Reserve.
    Mr. Dicks. Have you guys debated this within your services 
to say, now what do we do; what are we going to have for our 
Strategic Reserve and what are we going to have for our 
Operational Reserve? Or is this one of those things that just 
happened? Not really anybody making a decision, it just 
happened. And now we are kind of stuck with it, because we 
don't have enough--as the Chairman said, we don't have enough 
forces, obviously, to do the whole operational mission with the 
Active force.
    General Bradley. Well, sir, I think the decision to do this 
predates any of us being in our current positions. I cannot 
answer the question whether it was debated in the service 
before we did it, because it goes back so far before my time in 
this position. But I will tell you, I think it is the right 
thing to do.
    I agree with Admiral Cotton. It helps our retention 
dramatically. Our people like being involved in the real-world 
things every day. It doesn't mean that 100 percent of our 
Reservists are involved in it every day. But the Active Air 
Force depends on the Air National Guard and the Air Force 
Reserve to do everything they do. We are spread across every 
mission area, practically every one, every mission area. Our 
volunteerism rate is high.
    I don't think there is enough money to put all of us on 
Active Duty so that you don't need the Guard and Reserve, and 
you just keep them as a Strategic Reserve. I don't think we can 
afford to do that anymore. I think it is an affordability 
issue. But it has paid off and is working well in my view, sir.

                               DWELL TIME

    General Stultz. Sir, I will just tell you from the Army 
Reserve's perspective, to answer your first question, I don't 
think it was a deliberate decision. I think what we did is we 
got into the war on terror, not really understanding that this 
was going to be an extended conflict. And that has led us into 
the process of saying we are going to have to depend on the 
Reserve for the enduring future if we are going to be engaged 
in a long war.
    So based on that we better get into some kind of an 
operational format because the soldiers are going to demand, to 
sustain an all-volunteer Reserve component, what my soldiers 
tell me is I need some predictability in my life; I have got to 
be able to know when I am going to be able to have a civilian 
job and a civilian life, and I have got to be able to know when 
I am expected to be in the military.
    So what we are doing in the Army Reserve is we are 
developing a 5-year model, and we are rating our forces across 
that 5 years, so that I can tell the Army and DoD each year, 
here is how much I can give you in terms of engineer capability 
or MP capability or transportation capability.
    The good news, I will tell you, is in the current sourcing 
for fiscal year 2008, 94 percent of the units I am sending into 
the war are coming out of the right year group. So we are 
starting to build that predictability.
    The challenge we have got is to your point; one, I can tell 
you how much I can give you, but the theater asks for more. So 
when I can say, here is what predictably I can give you in 
terms of engineer capability, but the theater comes back and 
says, but I need an extra engineer group in two more 
battalions, then I have got to pull somebody forward; which 
gets to the point of we are kind of breaking that dwell promise 
that we said we were going to give you years back.
    Mr. Dicks. The 1 in 5.
    General Stultz. The 1 in 5; yes, sir.
    Mr. Dicks. Now we are about 1 in 2 and 3.
    General Stultz. We are about 1 in 3 right now, because we 
have got to get the capability to sustain it. The other thing 
is for the strategic depth piece we have to look back and say, 
okay, if I have got units that are in this 5-year model, my 
Strategic Reserve is really probably in years 2 and 3 of this 
model. And if I don't have the equipment to train those units--
that is, the right equipment that they need to deploy to war 
with--then that degrades my ability to have that Strategic 
Reserve out there. But that is what we are looking at, is the 
Strategic Reserve piece.
    Mr. Dicks. And are testifying you don't have the equipment 
now?
    General Stultz. Not all the equipment we need. No, sir. I 
can tell you the units that deploy to theater are deployed with 
the best equipment.
    Mr. Dicks. But you don't have the stuff to train the people 
that are supposed to be part of the Strategic Reserve.
    General Stultz. Yes, sir, that is what I am telling you. We 
don't. And a lot of times what we are using is what we call 
``in lieu of'' equipment, which is equipment that we could use 
back home, like an M35 deuce-and-a-half. But that is not what 
you are going to operate when you get to theater. You are going 
to operate a light medium tactical vehicle truck. That is what 
they need to have back here to train on. If we are taking our 
engineers into theater to do route clearance and we are using 
the Huskies and the Buffalos and the RG-31s and the Cougars, 
that is what they need back here to train on, because that is 
what they are going to be expected to operate in the theater.
    So right now the equipping side of the Army Reserve is my 
concern for the Strategic Reserve piece of it; that I look back 
into those earlier years.
    Mr. Dicks. General Bergman, do you have a comment on this?
    General Bergman. Sir, I would suggest to you that the 
Operational Reserve has evolved as a subset of the Global War 
on Terror. And we are looking now as to how do we sustain our 
forward presence capability. And because the Guard and Reserve 
forces have continued to step up to the plate to the tune of 
millions of man days, it has been able to sustain us. So this 
is a byproduct. And the future--and also meeting the future 
expectations of the future Soldiers, Sailors, Airmen, Marines 
and Coast Guardsmen who look to join a Service and say, how 
long do I want to spend on Active Duty; how do I want to 
dovetail that with my civilian career?
    The continuum of service will be the next step in the 
evolution of the Operational Reserve.
    Mr. Dicks. Thank you Mr. Chairman.
    Mr. Murtha. Well, I will tell you, it is somewhere in 
between what you are saying. If we have a major confrontation, 
there is no Strategic Reserve. It is just like every war that 
has come about; we have to fall back, unfortunately, until we 
build up to the point where--what I am trying to do, what this 
subcommittee is trying to do, is look to the future, look 
beyond Iraq, make sure you have the equipment, make sure you 
have what you need so that somebody doesn't have a 
misconception that we are not prepared. That is the thing that 
worries me.
    So that is why we are looking at more ships, we are looking 
at more--for instance, we have a list for the subcommittee to 
know of things that they are short, and it is substantial. And 
we are going to try to fulfill that list with these two 
supplementals that are coming up, because we know damn well you 
don't have the equipment to train on, we know damn well you 
don't have the equipment to deploy with if you had to deploy. 
So we are going to try to come up with the money to take care 
of that. Plus the infrastructure money that we have committed 
to the Military Construction Subcommittee.
    Mr. Young.

                  PERSONNEL RETENTION/EQUIPMENT NEEDS

    Mr. Young. Mr. Chairman, thank you very much. And I just 
want to say thank you for the men and women that you lead in 
your Reserve units. Without them and without your organizations 
we couldn't get there, where we have to be, and so we 
appreciate very much that.
    And Chairman Murtha just cited something that we have both 
been concerned about for a long time, and that is being 
prepared for any other contingency other than what we are 
involved in today. And he specifically mentioned equipment, 
which is, of course, important. But what about the personnel? 
Are your tables of organization, are you at full strength, not 
at full strength?
    And, secondly, what is your recruiting situation? Are you 
able to get recruits to fill in the attrition or to maintain 
what your end strength needs to be?
    Mr. Hobson. And retention, if I might add.
    Admiral Cotton. I will jump in first. The Navy Reserve is 
over strength by almost 3,000. We are in a very enviable 
position right now, as we look toward the end of the fiscal 
year, to pick and choose the ones we want to keep and transfer 
the others to the IRR.
    Recruiting has improved greatly because we have combined 
recruiting. The best recruiters now are the commanding officers 
on Active Duty and the senior enlisted advisors that encourage 
people to serve in a continuum of service, Sailors for life. So 
we are getting much more transfers from the Fleet to our 
centers.
    With that said, I will tell you I think all of us have a 
shortage of junior- to mid-grade officers and also senior 
enlisted, perhaps past the 20-year point, the experienced 
people that stay. So the incentives, the bonuses, the things 
that we ask for to target those kind of skill sets capabilities 
that we need at those officer and enlisted year groups, that 
has really been beneficial to us. So thank you.
    General Stultz. From the Army Reserve's perspective, sir, I 
will tell you this. Currently we are at 193,500 and we are 
authorized 205K, so we are 11,000-some below end strength of 
where we need to be. That is not all a bad-news story. We took 
our end strength down to almost 185K in the past couple of 
years because we had a lot of trash we needed to clean out of 
the system. If we are going to be an operational force and if 
we are going to ask soldiers to go and step forward and risk 
their lives, then we have got people who aren't willing to 
serve we have to get rid of. Every day, almost, I sign papers 
discharging officers, lieutenants and captains who just refuse 
to participate. And I have told the other officers in my corps, 
you know, I owe it to them not to let those soldiers leave 
without something on their record. So we are sending them home 
with a less than honorable discharge. So we are cleaning up the 
force.
    So we went down to about 185K. Today we are 193,500. We 
have come up 5,000 in the last 12 months. So we are bringing 
into the force the right quality that we need. And we are 
turning upward to get to the 205K by fiscal year 2010.
    The other thing that is a good-news story is last year we 
reenlisted 119 percent of our goal. In quantitative, we 
reenlisted three times more soldiers than we did the year 
before that were first-term soldiers.
    In January I went to Iraq, and in the palace with General 
Petraeus, we reenlisted 100 Army Reserve soldiers to celebrate 
our 100th anniversary year of 2008, all in one ceremony. So the 
good news is those young soldiers that we brought in after 9/11 
knew what they were getting into and they are sticking with us 
because they trust us that we are going to give them some 
predictability, that we are going to give them the right 
incentives and compensation and we are going to take care of 
their family. So I see a real positive trend. But we have got 
to maintain that support in terms of the incentives and the 
compensation and everything that they deserve if we are going 
to maintain this all-volunteer Reserve force.
    General Bergman. 39,600 is the authorized end strength of 
the Marine Corps Reserve. We are at about 38,300 right now, a 
little bit lower than authorized end strength. That really 
doesn't tell the whole story. The Marine Corps, the Active 
component Marine Corps, is growing to 202,000. Some of those 
prior-service Marines who would normally join the Reserves are 
staying on Active Duty because it is the right thing to do and 
we need them. We exist for one reason and one reason only in 
the Marine Corps Reserve, and that is to augment and reinforce 
the Active component. So we have a short-term challenge with 
some of those young sergeants and corporals who won't be 
available to us because they will still be on Active Duty.
    We have always had a challenge with company-grade officers 
in the Reserves, because in the Marine Corps all of us serve 
our company-grade time, that lieutenant time, on Active Duty in 
our initial commitment, because that leadership in the Marine 
Corps Reserve has that Active component background.
    We have instituted some new programs that will mitigate the 
company-grade officer shortfall somewhat. We still have room to 
grow there. But the young 18- to 22-year-old who is the non-
prior-service Marine, those numbers are still strong. 
Challenging, you have to work to have them join, but the bottom 
line is they are still coming in the door so we are in good 
shape.
    Mr. Hobson. What is your retention?
    General Bergman. About 82 percent.
    General Bradley. Mr. Young, the Air Force Reserve is doing 
fairly well, I would say. I am very happy with our recruiting. 
We have for the seventh year in a row recruited more than 100 
percent of our goal. Not as hard to recruit for the Air Force 
Reserve as it is maybe for some other Services or components. 
So I am very pleased with our recruiting.
    What I will tell you, though, it is a less experienced 
force than we have had in the past because we have to recruit 
more non-prior-service people, people who have not been in the 
military, than we used to, because the Air Force is a lot 
smaller and fewer people are getting out and transferring into 
the Reserve or the Guard than used to because of just a smaller 
force overall in the Active component. Our retention is okay, 
but some people are leaving sooner than they have to, even 
retiring, because they are eligible.
    And the demands have been pretty tough. We have asked a lot 
of people to deploy a number of times. I have many units who 
have deployed four or five times in the last six years. My 
deployments are not as long as the Marines or the Army, so 
truth in advertising there.
    But we have had a fabulous rate of volunteerism with a 
predictive model the Air Force has, our Air Expeditionary 
Forces. So our folks know when they are going to go, when they 
are going to come back and when their next time is. And we have 
had no shortage of volunteers. We would rather use volunteers 
than mobilize people. We have done a fair amount of 
mobilization and that has worked okay, but I would rather use 
volunteers.
    So our retention is okay, but there are some people in the 
15-year point to 20-year point who sometimes also decide to 
leave. And that is really tough because we hate to lose those 
middle-manager kind of people. So retention is all right, but 
not quite as good as I would like it to be.
    Mr. Young. You know, in view of the many deployments and 
the length of some of those deployments, this is a pretty good 
news story. And I think it says something very special about 
the young men and women that serve in our uniform. And that 
just makes me feel really proud, even more proud than I was 
when I walked in this room this afternoon.
    General Bradley. Sir, if I can make another comment along 
that line. I really believe it is true. I get out to my units a 
lot and I talk to people at all levels. I go to the AOR. I have 
been to Iraq and Afghanistan several times, and I talk to 
people. And as I said in my answer to Mr. Dicks, our folks I 
believe really want to be involved in our Nation's important 
business. So it is more stress on the force, but they would 
rather do that than just sit at home and train all the time for 
it to be a Strategic Reserve. They like being operational. And 
I think our retention is good.
    And I will tell you, I have been in this Air Force Reserve 
for 35 years and I think our morale is much better today than 
it was 15, 20, 25 years ago.
    Mr. Young. Well, with all the technology that we talk about 
and the equipment and the things that we are going to buy for 
you and replace that you have worn out, the most important part 
of this whole equation are the men and women that operate them 
and make them function. So that is also a sign of good 
leadership at the top.
    Thank you all very much for what you do and the folks that 
work with you.
    Mr. Dicks. Would the gentleman yield for one question? How 
long are your troops sent out there for?

                          LENGTH OF DEPLOYMENT

    General Bradley. Varied lengths, sir. I have some people 
who are mobilized for a year and deployed. I have some that are 
mobilized for six months and deployed. Most of our deployments 
are 120 days, similar to the Air Force model for active duty 
rotations. However, some key positions stay longer. But the 
average Active Duty person goes for 120 days. And my people do 
that as well. But we do have the capability sometimes to rotate 
people at 45, 50, 60-day tours inside those 120.
    So the Air Force gives us some flexibility, and that allows 
more of my people to volunteer, relieving stress on the Active 
force, so that they don't have to deploy too often. So it is a 
good thing, because we get to deploy and do that, but it is a 
shorter tour sometimes.
    Mr. Murtha. Ms. Kaptur.

                      RECRUITING/RETENTION BONUSES

    Ms. Kaptur. Thank you, Mr. Chairman. And Admiral and 
Generals, welcome. It is really good to have you here today. 
Thank you for your service.
    I just wanted to ask in terms of retention and recruitment, 
are the bonuses being paid by the Reserves per individual at 
the same level as in the Active Duty.
    General Stultz. No ma'am. Our average--I think the average 
reenlistment bonus for the Army Reserve is somewhere between--
we can pay $20,000 to $30,000, somewhere in that range. It 
depends on some of the specialties. And what you will find in 
the Active forces, theirs are much larger. That seems to be--
you know, it gets to the point--I keep saying I would prefer we 
manage one end strength in the Army. Right now we manage three 
end strengths. We manage an Active Army, an Army Reserve and an 
Army Guard, and in a lot of cases we are competing with each 
other.
    And I will give you a good example. If you are in an Active 
Army and I am Reserve, and you have 100 people and I have 100 
people, if 10 of my people leave Reserve duty and go to Active 
Duty the system shows 10 gains. If 10 of your people leave 
Active Duty and come to the Reserve, we show 10 gains. So now 
we show 20 gains in the system but we still only have 200 
people. We need to get to the point of managing one end 
strength so that we can flow between components freely and we 
can pay bonuses and incentives equally for service, not service 
on Active Duty versus service in the Reserve or service in the 
Guard.
    Mr. Murtha. Will the gentlewoman yield? I will tell you, 
the bonuses went from $187 million to $1 billion. We talk about 
how good the troops are, but these bonuses, this is real money. 
My God, I mean, I hope there is some consideration for--we are 
borrowing all this money from somebody in order to pay these 
bonuses. Can we not do this without bonuses and reenlistment 
and so forth incentive? Can we do this without it? Does the 
volunteer Army have to have the bonuses?
    General Stultz. Sir, I think the answer there is, from my 
perspective, it is almost like a value equation; here is what 
we ask and here is what you get in return. And it used to be we 
asked 1 week in a month, 2 weeks in the summer, and here is 
what you get. Now we are asking--every 4 or 5 years we ask you 
to leave your family, your life, your job, and you risk your 
life.
    Now, to your point. I think in the future we need to look 
at not just throwing money, we need to look at things and say 
how do we sustain a person's lifestyle. Maybe health insurance 
in lieu of an enlistment bonus is a good thing. Maybe prepaid 
tuition for your kids instead of an enlistment bonus, so we are 
taking care of your family and not just spending money, 
throwing money idly out there.
    Ms. Kaptur. What if we had no bonuses, what would happen?
    Admiral Cotton. I want to say first of all in the Navy we 
manage one end strength, and we use the bonuses to target 
behavior of skill sets and capabilities we need to sustain the 
force and especially deploy with in the Global War on Terror. 
So you are looking at some pretty varsity skill sets--civil 
affairs, provisional reconstruction teams, doctors, dentists, 
nurses; you know, people who deploy and build things--to 
sustain. And this behavior we have of the repeated deployments, 
this is where the bonuses come in. If we had none of them you 
would still have a force, but I don't think you would have the 
numbers that we have now. It has grown to be an expectation. 
And I will also admit that you see some behaviors of our 
youngsters today that will shop their skill sets between the 
Services, who will wait a certain time to be out to get back 
in, because they know we all need these skill sets. But I also 
look at our young Sailors, Soldiers and our Marines, too. They 
all want a little time off, go into something else, come back 
to us; so we see all new behavior of the people that we are all 
recruiting from.
    General Bradley. Ma'am, it might be that is kind of a cost, 
the portion of the bonus the Chairman is talking about which 
goes to Guardsmen and Reservists. It might be the cost of the 
Operational Reserve versus a Strategic Reserve, which is 
probably a heck of a lot cheaper than paying to have all of 
that from the Active component because that is more expensive.
    Ms. Kaptur. Well, in view of what you said and the Chairman 
has said, what has troubled me about this war from the 
beginning is that only some people fight and only some people 
sacrifice, only some families sacrifice and some sacrifice a 
whole lot.
    And if one looks at a bonus versus a patriotic sense of 
duty, I really am troubled by the apparently larger and larger 
amounts we are having to extend for bonuses as a society, as 
opposed to asking all families to sacrifice. I am troubled by 
the trend.
    But I would appreciate if you would place on the record the 
comparison between your bonuses versus Active Duty and the 
amounts of funds that have been expended to date, if you could, 
in each of your branches, and the increasing rate that we are 
paying for bonuses.
    [The information follows:]

    The Active Duty and Air Force Reserve provide similar bonuses to 
Airmen to help meet recruiting and retention goals. Below is a breakout 
of the funds spent or budgeted for the different types of bonuses.

                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                   Active                           Air Force Reserve
                                    ----------------------------------------------------------------------------
             Bonus type                                           FY08                                     FY08
                                       FY07     FY08     FY09    YTD *       FY07        FY08     FY09    YTD *
----------------------------------------------------------------------------------------------------------------
Non-Prior Enlistment...............      5.9     13.0     13.0      1.0     12.4          14.4     15.3      6.0
Prior Enlistment...................      0        0        0        0        5.7           8.5     10.4      2.1
Reenlistment.......................    146.0    131.0    179.0     64.0      8.4          10.5     12.8      2.0
Health Specialist..................     12.5     11.5     52.3     34.0      3.1           7.2      9.8      0.1
Affiliation........................      0        0        0        0        0.07          0.3      0.2      0
Educational Loan Repayment.........    126.0     14.0     71.0      1.0      1.4           1.4      1.7      0.3
Foreign Language Proficiency.......     20.5      0       21.8     10.0      0.5           0.5      0.5      0.1
Aviator Continuation Pay...........    153.1    149.7    127.3     59.7      4.6           4.4      2.9      1.9
                                    ----------------------------------------------------------------------------
        Totals.....................    310.9    169.5    337.1    169.7     31.6          42.8     50.7     12.5
----------------------------------------------------------------------------------------------------------------
Dollars may not add due to rounding.

* As of end of March 2008.

    For clarification, the term ``bonuses'' will include Incentive 
Pays, Special Pays and Allowances, Stipends, Enlistment/Reenlistment 
Bonuses, and various other bonus-type payments.

------------------------------------------------------------------------
        USN Active Duty Bonuses            USN Selected Reserve Bonuses
------------------------------------------------------------------------
Incentives Pay (Examples: Submarine      Enlistment Bonus (New accession
 Duty, Flying Duty, Parachute Jumping     Training--NAT)
 Duty, Incentive Bonus for Conversion,   Affiliation Bonus (Prior
 etc.).                                   Service Veterans)
Special Pays (Examples: Physician Pay,   Education Pays
 Hardship Duty, Linguist Pay, Combat     Critical Wartime Specialty Pays
 Injury Pay, etc.).                       (Examples: Health Professional
Special Duty Assignment Pay               Special Pays, Medical Stipend,
Enlistment/Reenlistment Bonuses           etc.)
Education Pays                           Rating change to critical skill-
Loan Repayment Program                    set (RESCORE-R)
                                         High Priority Unit Pay
                                         Second BAH Allowance (without
                                          dependents)
                                         Income Replacement (for
                                          extended or frequent
                                          involuntary mobilizations)
                                         Loan Repayment Program
------------------------------------------------------------------------

    The amounts of funds that have been expended to date on bonuses and 
the increasing rate that have been paid for bonuses are summarized as 
follows:

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                              Increase              Increase              Increase
                                                                     FY04     from 04-     FY05     from 05-     FY06     from 06-     FY07    2008  (to
                                                                                 05                    06                    07                  date)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Active Duty.....................................................    $1,392M      4.02%    $1,448M      4.12%    $1,508M      7.22%    $1,617M      $500M
Drilling Reservist..............................................      $7.7M      58.5%     $12.2M     339.3%     $53.7M      31.9%     $70.8M     $15.2M
--------------------------------------------------------------------------------------------------------------------------------------------------------

SMCR (Selected Marine Corps Reserves) Enlistment Bonus
    --$20,000 lump sum payment for a 6X2 contract (6 years of drilling 
time followed by 2 years of Inactive Ready Reserve (IRR) time)
    --Only certain critical skills qualify
    --USMC has issued enlistment bonus agreements totaling $4.82 
million in FY08 (to be paid in full once reserve members complete all 
required training)
* Active Component (AC) Enlistment Bonus
    --$10,000 for a 4X4 contract (4 years of active duty followed by 4 
years of IRR)
    --$15,000 for a 5X3 or 6X2 contract
    --Only certain critical skills qualify
    --Expended to date: $27 million
SMCR Reenlistment Bonus
    --$15,000 lump sum payment for a 3-year reenlistment
    --Only certain critical skills qualify
    --USMC has issued reenlistment bonus agreements totaling $1.6 
million in FY08 (to be paid in full once reserve members complete all 
required training)
* AC Selective Reenlistment Bonus
    --Max $80,000; average is $30,000 for a 4-year reenlistment
    --Only certain critical skills qualify
    --Expended to date: $224 million
SMCR Enlisted Affiliation Bonus
    --$15,000 lump sum payment for a 3-year SMCR unit affiliation
    --Only certain critical skills qualify
    --USMC has issued enlisted affiliation bonus agreements totaling $2 
million in FY08 (to be paid in full once reserve members complete all 
required training)
SMCR Officer Affiliation Bonus (Total obligated for FY08 is $320,000)
    --$10,000 lump sum payment for a 3-year SMCR unit affiliation
    --Offered to company grade officers and aviation majors
    --USMC has issued officer affiliation bonus agreements totaling 
$320,000 in FY08 (to be paid in full once reserve members complete all 
required training)

------
* There is no comparable AC bonus to this bonus.

    Based on available data, for the past 3 years, Active Duty, 
Military Personnel Army (MPA) funds accounted for the following overall 
Recruiting & Retention bonus payments: $671,478,000 (FY05); 
$1,090,077,000 (FY06); $1,038,764,000 (FY07); and $1,011,962,980 (as of 
March 31, 2008).
    Further, Army Reserve, Reserve Personnel Army (RPA) funds accounted 
for the following overall Recruiting & Retention bonus payments: 
$180,979,000 (FY05); $330,711,000 (FY06); $314,742,000 (FY07); and 
$271,027,532 (as of March 31, 2008).
    The accompanying chart depicts fiscal year 2007 side-by-side Active 
Duty and United States Army Reserve incentive comparisons.

                     POST TRAUMATIC STRESS DISORDER

    I also wanted to make a comment. Earlier today we had an 
excellent hearing on health care. And I would say in the 
Reserve and Guard forces, which I tend to represent more of 
than the Active Duty forces, like some of my dear colleagues--
like Sanford Bishop here--my impression is that the assistance 
rendered to returning veterans, Iraqi veterans, Afghani 
veterans, health care simply just isn't as good, because of the 
way that the units are deployed, and also the fear of people in 
the ranks that if they report a condition such as PTSD, that 
they will lose their promotion. I just want to sensitize you to 
that.
    I asked this morning for the doctors to report back on one 
Army unit in my area, the 983rd Engineering Battalion, which 
has had several combat deployments. And I know there is PTSD in 
the ranks. The unit is from Ohio, the members are from 
everywhere, the commanding officer is over in Chicago, the Ohio 
system isn't terribly organized to receive them back.
    We simply have to have a more thoughtful manner in which to 
take care of those who are coming back. And I would posit the 
theory that in the Guard and Reserve, more will come back with 
PTSD perhaps than in Active Duty ranks. And readjustment will 
be more difficult because they don't come home to a base. And I 
would like to use the 983rd as an example of how it is 
currently working versus how it could work.
    How could we make treatment available, how could we make 
assessment available when they come back? That microcosm will 
help me understand whether the policies we have set in place at 
the national level are really working to take care of our 
returning Guardsmen and Reservists who have been in combat. Are 
you capable of doing that, general?
    General Stultz. You are striking to the heart of one of my 
concerns, and that is the overall wellness of our force in the 
Army Reserve. And I have said this for some time. We have to 
figure this out. We have got to figure out how to provide 
continuity of health care for an operational force both on the 
front end, to make sure they are healthy and ready before they 
deploy--because we can't afford time at the end to try to get 
their teeth ready or whatever--we have got to have some 
confidence in our system to say we know our forces are ready in 
terms of their health and their dental health before they are 
deployed, but on the back end especially.
    When I came out of Iraq after 2 years in 2004, before you 
left country they give you a screening. And they say, tell us 
if anything is wrong so we can keep you here. Well, you are not 
going to tell them anything is wrong. Then when you get back to 
the mobilization station where you left from, they tell you the 
same thing: We are going to put you through a screening, but 
tell us if anything is wrong so we can keep you here. You are 
focused on going home. I want to get home with my family.
    We need a system in place that says, listen, the primary 
objective when a soldier comes out of theater is to get him 
back, reintegrated with his family. Then let us start taking 
care of him. Let us don't demobilize him and say, okay, now you 
are on your own. We have to have a system of health care that 
says, okay, when you come home, the first month you are home we 
are going to do some screenings and look at your health care, 
the second month we are going to start looking at your mental 
situation; the third month we are going to look at your family 
situation. We are going to reintegrate you over a period of 6 
months and we are going to have that system in place.
    That is what we have got to have, because a lot of these 
symptoms, like PTSD or traumatic brain injury, do not manifest 
themselves. Soldiers don't know they have a problem. And we 
have got to have a way of identifying when a soldier needs 
help. And we have got to take that stigma away that says if you 
ask for help there is something wrong. We have got to have a 
system in place that says everybody goes through this.
    Ms. Kaptur. And, sir, even when they can identify, what 
happens then is unfortunate oftentimes at the unit level, and 
the systems do not work for them, and they are lost. It is not 
like they return to Fort Hood or Fort Benning or wherever. They 
are out there somewhere across Ohio or Michigan or Indiana, the 
ones that are in our region of country.
    I would invite you to come and visit the 983rd with me. 
They are a wonderful combat engineer unit. They deserve better 
health care.
    I will also tell you--Mr. Chairman, I know I am over time--
I will say this morning when we had the doctors before us, I 
said the DoD is so big that one smokestack doesn't know what 
another smokestack is doing. And we in Ohio try to prepare 
early for the return of our Guard and Reserve through General 
Wayt at the State level--who is a saint--and our local units 
and our doctors at Case Western Reserve University.
    The docs at Case, who aren't DoD doctors, they are private 
doctors, the best psychiatrists we have in the entire Midwest, 
I would have to say; the worst experience they ever had in 
their career was trying to work with DoD so we could be ready 
early, okay? We could not connect to DoD. And I would love for 
you to talk with Dr. Calabrese from Case Western Reserve 
University in Cleveland and figure out why can't we get this 
done. For me to go out to these units and to see these sick 
people--and we tried to prevent what is happening and we were 
not successful. I did everything I could in my job to provide 
the money, to fight certain forces inside this place that don't 
recognize this set of illnesses. And then to have these 
illnesses happening right before my eyes, and I can't help 
these soldiers, is a horrible thing to experience.
    So I would invite you. This is a wonderful unit, and I 
don't want to blame any commanding officer or anybody, but I 
want to help these soldiers.
    Thank you. Thanks, Mr. Chairman.
    Mr. Murtha. The time of the gentlewoman has expired.
    I just visited Fort Hood, and I want to tell you the 
Regulars have it down to where they are screening, they are 
counseling. But it is a problem with the Reserve and Guard, 
there is no question about it. I mean this is a real problem 
for us because these folks are no longer from the same town, 
they are from all over the country. And it really is a dilemma.
    And I would be very interested if your folks could come 
over and talk to the staff and tell them exactly what you have, 
what plans you have in order to try to solve this problem. 
Because I have got a young fellow that is working for us that 
has taken him over a year, and he is getting counseling and 
everything else, but it has still taken him a year to adjust 
back to normal life. It was Reserve, 15 months in Iraq and 
Kuwait. So it is a hell of a problem.
    I talked to a woman just the other day. She said one of her 
sons was killed in Iraq and one of her sons committed suicide 
who was in the Army. And her husband is an officer in the Army. 
So, you know, we face this kind of stuff. He is in the Regular 
Army. But I think we still have a long ways to go, even in 
Regulars, but especially Reserve and Guard.
    General Stultz. Yes, sir. The policy that was put out last 
January for the involuntary recall of the Reserve and Guard put 
in place a policy that said when a unit returns they do not 
come back together, are not required to drill or anything for 
the first 90 days.
    I have sent a letter to General Casey asking him to reverse 
that policy. We asked for relief of that, because to that exact 
point, the worst thing we can do is bring soldiers home from 
war and say we don't want to see you for 90 days. We need those 
soldiers back in their formations immediately so we can look at 
them and take care of them.
    Mr. Murtha. The gentleman from New Jersey.

                            PAY AND BENEFITS

    Mr. Frelinghuysen. Thank you, Mr. Chairman. When you are at 
the end of the food chain of questions, you can just do your 
level best to try to ask something that has not been asked 
before. But like my colleagues, I thank each of you for your 
leadership and the men and women you represent.
    I sort of want to get into the issue of pay and benefits. 
We have sort of touched that issue and if there is, in your 
view, some inequity. Obviously we are proud of everybody who 
fights and who wears the uniform. And I always preface all of 
my public appearances by thanking those in the Regular military 
and Guard and Reserve. And I talk a lot about the 
inseparability, everybody working very closely together.
    But there are some pretty basic inequities. There are no 
pay inequities, as I understand it, on the war front, is that 
right, in terms of pay? But in terms of benefits, Guard and 
Reserve are not in the same category.
    And you, General Stultz, you talked about things that we 
might do to enhance benefits for our citizen soldiers. Could 
each of you perhaps add on to that aspect? I mean, this gets--
you know, historically there had been sort of a separation 
between the Regular and the Guard and Reserve. And I would like 
to believe that that inseparability has been erased. I know the 
Air Force historically was ahead of the curve. But I would sort 
of like to know on the benefit side what we might be doing.
    General Bradley. Well, sir, I have one thought that--I do 
not know how my fellow colleagues feel about it, but on which 
that I am very grateful has changed. It is something our people 
have been asking for quite some time relative to retirement.
    As you know, Reservists and Guardsmen who serve the proper 
number of years in a good status receive their retired pay at 
age 60. This past year, the Congress passed legislation that 
would allow some who have been mobilized or served on active 
duty for long periods of time to get credit for that and get 
their retirement pay earlier, based on the number of months 
they were mobilized or on active duty.
    And I am very grateful for that provision. It is a 
wonderful change, and I think our folks are very happy about 
it. However, they said the clock starts when the President 
signs the National Defense Authorization Act. And so all of the 
things that our folks have done for the last 6\1/2\ years in 
combat, in great tragedies, that time does not count.
    I wish that provision had not been written quite that way.
    Now, I hate to look a gift horse in the mouth, but our 
folks have worked hard. And you all have held them in high 
honor, as do we; and I wish that we could count those months 
and years of mobilizations, many people who have deployed--from 
the Army particularly and Marines, multiple tours--and the 
other Services as well, the Navy and the Air Force, that time 
since September 11, 2001, does not count.
    Mr. Frelinghuysen. We hear about it. People, you know, suck 
it up, but in reality it is one of those things that does 
affect morale. And I assume, even though there are some fairly 
rosy and recruitment and retention figures, these are things 
that worry you as military leaders.
    General Bradley. Yes, sir. I have had many, I have had 
thousands in the Air Force Reserve who have been mobilized for 
two years. And it is a wonderful service; they are proud of 
their service, and I appreciate what they have done. I wish 
they could get credit for that on their retirement.
    Mr. Frelinghuysen. General Bergman or Admiral Cotton?
    General Bergman. Sir, I would suggest to you that as we 
design benefit packages, if we are designing again for that 
young man and woman who is very early in the stages of their 
career, those of us who have been around a while, we are pretty 
much----
    Mr. Frelinghuysen. But just for the record, many of those 
who serve in the Guard and Reserve are not all spring chickens 
here. I mean, they are adults. They are leaving their civilian 
jobs. They are highly motivated and trained.
    General Bergman. Absolutely. I guess my point was if you 
design the package so that that individual, as they weigh the 
value of their service and the time it is going to take away 
from their civilian employment and what it means to their 
family's life plan, and all of those metrics that they would 
apply as individuals--if it is affordable to us as a Nation and 
it is exciting to them as individuals--we will get to where we 
are going.
    There is probably not one size fits all. But the 
expectations of some of the folks who have seen their--in their 
civilian jobs, their pensions disappear, the different kinds of 
things; the one thing you cannot do in life is turn the clock 
back. So we have to be very proactive and visionary in how we 
provide benefits packages for the not-so-spring chickens, as we 
said, the youngsters who contemplate military service part-
time, full-time, and balancing that with a career.
    I guess it is not a one-size-fits-all, but I think there is 
an answer in the middle ground that we can afford as a Nation 
and the young people and not-so-young people will take 
advantage of.
    Mr. Frelinghuysen. We are taking advantage of a mature 
population. That is what I see.
    Admiral?
    Admiral Cotton. The new folks that we have in the force are 
incredible, these millenials. The old folks are great. They are 
stepping up, doing everything. The one thing I see that is 
constant amongst all of them, their pay and benefits, their 
bonuses, their medical care, all the things this Committee has 
helped out on is great.
    Next is education. So there are, in our Services, 
differences in tuition assistance for courses, online courses. 
Each Service is a little bit different, and there is a 
disparity between AC and RC expectation.
    And probably the thing we have talked about in the last 
couple of years--I have not seen action on it yet--is the 
transportability of the Montgomery GI bill. So, in other words, 
it is a benefit I have earned, but I am at a station in life 
where I maybe do not need it, but I can't afford sending my 
child: Could I not use my benefit for a family member?
    I think that would be a huge retention tool, particularly 
for the midgrade at the 20-year point where I can jump off and 
get benefits, but if I am a reservist for another 4 or 5 years, 
I can use that benefit for one of my children or multiple 
children.
    I think that might be something we should look at for the 
future.
    Mr. Frelinghuysen. Excellent.
    General Stultz, any additional comments? I know you 
volunteered some information earlier.
    General Stultz. Yes, sir.
    What I propose is, we look at what corporate America does. 
What corporate America and a lot of corporations offer is a 
portfolio approach where you say, look at where you are in your 
life and here is how much we are willing to invest. Now let's 
look at how you want to spend that.
    And it might be to John's point. Maybe instead of an 
enlistment bonus or maybe, for staying a few more years, it's 
going to pay for my children's education, so I can go home and 
tell the family, I am staying in and the kids' education is 
paid for.
    Mr. Frelinghuysen. Or the spouse.
    General Stultz. Or the spouse. Or maybe it is some other 
type of benefit that I need out there in terms of special 
orthodontics for the kids, or eyeglasses, or whatever; but a 
portfolio approach that says, hey, the service I am providing 
to my country is taking care of my family or providing me a 
better lifestyle, rather than just throwing money out there at 
it each time.
    See, I have said for some time I would look at a system 
that says maybe you lower the retirement age that you can 
withdraw retirement based on years you stay past 20. And for 
every year you stay past 20 maybe that retirement is 6 months 
earlier. And if you stay 22 years you could draw your 
retirement at 59. If you stayed for 30, you could draw it at 
55. Then you do not pay incentives or reenlistment bonuses or 
whatever for that time. The reward comes at the other end, 
staying for longer service to your country.
    I think we have got to look outside the box, that we 
traditionally have said, money is the answer.
    Mr. Frelinghuysen. The chairman has admonished, when we 
talk about bonuses, you are talking about real money; and I am 
not suggesting there would not be real money associated with 
some of your proposals. But I know some committees are looking 
at it, and I think it is sort of important to have it on the 
table. I thank you for your response.
    Thank you, Mr. Chairman.
    Mr. Murtha. I am interested in what you said. And we are 
going to release this panel and go to the next panel in a 
minute. Mr. Visclosky will be the first to question.
    But you may remember a few years ago Congress changed the 
pension plan for the military from 50 percent to 40 percent. 
You may not be old enough to remember that. But I went out into 
the field and I saw a fellow sitting here with 40 percent 
pension and a 50 percent pension. And I came back and told the 
Defense Department we could not live with that.
    Well, John Hamre said, You know what? That would cost $15 
billion. I said, It may cost 15 billion, but we have to do it. 
President Clinton agreed with us. Hugh Shelton stepped up and 
said, We have to change it. And we changed it.
    I am gratified to hear you say, that is an important part 
of retaining people because it just was not fair to have half 
the people, just because they enlisted at a later period of 
time, getting 40 percent pension rather than 50 percent 
pension.
    Now, we appreciate your testimony, we appreciate your 
dedication.
    Ms. Kaptur. Mr. Chairman?
    Mr. Murtha. Yes, ma'am.
    Ms. Kaptur. I am sorry, Mr. Chairman, but could I just ask 
General Bergman one question for the record quickly?
    In his testimony on page 4 he says, Marine Force Reserves 
have provided civil affairs capabilities since the start of the 
Operation Iraqi Freedom. My question is, of the Marine Reserve 
forces inside of Iraq, what percent are being used as a strike 
force and what percent are being used for some other purpose?
    I do not know if you know that right now, but I would be 
interested in knowing.
    Mr. Murtha. If you would answer that for the record.
    General Bergman. I will take that for the record.
    Mr. Murtha. Thank you very much, gentlemen. I appreciate 
it.
    [The information follows:]

    The figures for the latest SMCR rotation in Iraq are:

Number of ``Strike Force'' Marines............................     2,161
Total number of SMCR:.........................................     2,910
Percentage of ``Strike Force'' Marines........................       74%
                              ----------                              --
--------


                                PANEL II


                    WITNESSES FOR THE NATIONAL GUARD

LIEUTENANT GENERAL H. STEVEN BLUM, CHIEF, NATIONAL GUARD BUREAU
LIEUTENANT GENERAL CLYDE VAUGHN, DIRECTOR OF THE ARMY NATIONAL GUARD
LIEUTENANT GENERAL CRAIG McKINLEY, DIRECTOR OF THE AIR NATIONAL GUARD

                              Introduction

    Mr. Murtha. I want to welcome this distinguished panel 
before this Committee. I know you have been coached and they 
have been telling you to refrain from any outbursts, refrain 
from any telling us anything that may go on here that is out of 
the ordinary, that you have got plenty of money in your budget 
and there are no problems.
    I know that is what you have been urged to do. And they 
probably have spies in this room----
    Mr. Hobson. I am shocked, shocked.
    Mr. Murtha [continuing]. As to what you might say. But it 
has never inhibited you in the past, and we hope that you will 
have the same kind of frankness with us that you have had in 
the past, because your National Guard has been better because 
of the testimony of this distinguished panel.
    So, with that, I will ask Mr. Hobson if he has any opening 
remarks.
    Mr. Hobson. Not opening remarks, but I have some questions.
    Mr. Murtha. Well, we will ask Mr. Visclosky.
    Mr. Visclosky has no questions. Mr. Hobson.
    Wait a minute, have you got any testimony? You want to say 
anything?
    Mr. Dicks. You are ahead right now, guys. This is when they 
are going to tell us the truth, Mr. Chairman.
    General Blum. We will tell you the truth. I do not care who 
is in the room; we will tell you the truth.
    Mr. Murtha. We will put your comments in the record. But 
give us a short summary.
    General Blum. I would like to put our long comments in the 
record, but this Committee is due at least a short word of 
thanks for what you have done over the years to make sure that 
what those magnificent citizen soldiers and airmen are doing 
every day is possible.
    You and I had a conversation before the hearing, but it is 
worth sharing with the other members that we feel--and the 
enlisted behind us, our senior enlisted advisors--feel if it 
were not for the actions of the Congress and this Committee in 
particular we would not have the tools, the equipment, the 
training or the manning to do what our Nation needs us to do 
overseas and what our governors expect us to do, with no notice 
tonight. So thanks.
    I think I might actually make that my opening statement, 
and we will go right to questions.
    [The joint statement of General Blum, General Vaughn and 
General McKinley follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



                      GUARD AND RESERVE EQUIPMENT

    Mr. Murtha. All right. Well, let me just say to the 
subcommittee that I have asked them to give us a list of 
equipment which they need and may be available. We talked about 
a number of things.
    There are big shortages. If we want them to be operational 
Reserves, we have got to give them the equipment to train on. 
We have got to give them the dual equipment so they can train 
not only for combat, but they can train for any emergency in 
the United States. We either have that list or we will get that 
list. That will help us recommend to the full committee what 
needs to be done.
    Mr. Hobson.
    Mr. Hobson. Thank you, Mr. Chairman. I will try to be 
brief.
    First of all, thank you, gentlemen, for all your help to me 
personally and to the Guard, both the Army and the Air Guard. 
General McKinley and General Blum have particularly been 
helpful with the Springfield Air National Guard situation. And 
hopefully we have got that under control.
    General Vaughn, you have done just a terrific job in 
recruiting. I mean, this recruiting for the Army Guard and the 
Air Guard is just outstanding, but especially the Army. It is a 
tough job. And as I understand it, you guys are ahead of 
schedule, you are retaining people; and that speaks well for 
leadership when that happens, in my opinion, sir.
    But there is a problem, you have a problem with big Army. 
It is always the big Army that is a problem with you guys. They 
have done such a great job in recruiting that they may lose 
some of their money for recruiting at the very time--and you 
can't stop and start this stuff. It has to go.
    I would like one of you to talk about that a little bit, 
Mr. Chairman, because I do not think that came up, because we 
talked mainly about equipment when I walked in the room.
    The second item that is a problem--it is a problem, and I 
am sorry Ms. Kaptur left--but in Ohio, and I think this may be 
symptomatic across the country, we are officially required to 
have about 2,000 full-time Army Guard positions, but it is only 
authorized and funded for 1,200, 800 short, so we have about 60 
percent that we need, and they will not give you the money.
    I do not know how you can continue to do what you are doing 
if there is that kind of disparity in this. And it is the big 
Army I think that is holding back the money for this. And I 
would like you to explain if it is a problem across the 
country, a problem in the Air Guard, we do need to know that. 
And we do have a great TAG in Ohio that fortunately our new 
governor kept the guy on.
    And the equipment, he has got a book on the equipment, the 
little thing he is carrying around with him, so we know what 
the equipment is. The problem with the equipment is--and I need 
you to respond to this--it goes into the wrong accounts, and 
you lose control and it gets siphoned away into the big Army. 
And they get caught short again; they do not have the 
equipment.

                           EQUIPMENT ACCOUNTS

    First of all, am I right about it being siphoned off into 
other accounts, the equipment?
    General Vaughn. Sir, I am getting coached here. We do not 
have visibility on it.
    Mr. Hobson. General Blum can answer it. You do not have to 
answer that one. I want you on the recruiting one.
    General Blum. I would not use the words ``siphoned off.'' 
That would imply there is a deliberate scheme to rob the 
National Guard, deny them.
    Mr. Hobson. We would not want to say that.
    Mr. Dicks. That would be wrong.
    Mr. Hobson. You certainly would not want to say that. I 
might want to say that, but you might not.
    Mr. Murtha. That would be terrible.
    General Blum. But I will tell you when we get NGREA money I 
know exactly where every penny is going, what it was spent on, 
when it arrived and where it went.
    Mr. Murtha. We are going to make sure that happens.
    General Blum. General Vaughn, do you want to talk about the 
recruiting issues that the Congressman brought up?
    General Vaughn. Congressman Hobson, on the recruiting 
issues, we testified to this last year, that it was not in the 
base, that we were dependent on the supplemental for something 
that ought to be in the base program.

              PERSONNEL FUNDING, RECRUITING AND RETENTION

    We come over on the Hill with a very distinguished group, 
and we were told that that would not happen again. It appears 
it is going to happen again.
    I will tell you that I think that we have got enormous 
support out of the Army to make sure that gets paid, but right 
now it does look like, you know, if it does not come in the 
supplemental--and supposedly it was put back into the sup--we 
were going to be faced with another omnibus reprogramming. So 
we are dependent on that sup----
    Mr. Murtha. I do not understand this. So the staff 
understands what we are talking about, go over this for us. 
Tell us what the situation is here.
    General Blum. Let me set the stage for it, and then General 
Vaughn can run the details to you.
    My issue has been and continues to be that I do not believe 
that the manning of the force to the end strength authorized by 
Congress should be any other place but the base budget. It is 
not for the Army National Guard; it is for the United States 
Army to a large extent. They have some grow-the-Army in the 
supplemental, but most of their manning of the force is in the 
base budget.
    Ours is not. We are dependent significantly upon 
supplemental funds, which this body knows full well arrive at 
different times for different reasons; and unless they arrive 
early, they are often not effective. Right now, frankly, we 
will run out of money for recruiting about April 15th of this 
year.
    We have assurances--commitments by senior leaders in the 
Department of Defense and the Army--that we will be funded to 
continue our bonus programs and our recruiting and retention 
programs. However, it is now March. We do not have that money. 
We will run out next month; we will not have that money. That 
money is contained in a supplemental that no one in this room--
well, maybe somebody in this room can guarantee. But I can't 
guarantee we will receive it in time to execute it, which will 
require some extremely painful reprogramming and put other 
significant readiness programs at risk to pay that bill until 
that bridge happens, if the supplemental arrives.
    Mr. Murtha. How much money are we talking about?
    General Blum. We will give you the exact figure, sir.
    General Vaughn. Chairman, it is $440 million in recruiting 
and retention. It is $299 million in bonuses and incentives.
    General Blum. Roughly $700 million is the number we have 
been operating on.
    Mr. Murtha. You are telling this committee there is $700 
million, not in the base budget, supposedly in the 
supplemental.
    And when you say ``in the supplemental,''--we are the ones 
that provide the supplemental, just like we provide the base 
bill--and you are saying at this point you do not know whether 
it is going to be available or not?
    General Blum. Sir, I am going to be absolutely honest and 
blunt with you. I have been assured by the Secretary of the 
Army that they will pay the bill. I have been assured by the 
Chief of Staff of the Army that they will pay the bill. But the 
resources to pay that bill are contained in the supplemental. 
And if the supplemental arrives, I have reasonable assurances 
we will get that money.
    But what I am trying to say is, I would much prefer that 
that is in the base budget so that we do not have to 
continually manage to grow the force and maintain the force at 
a critical time when our Nation is at war and we need the 
biggest Guard we have ever had.
    Mr. Murtha. I hate to tell you, I do not know what the Army 
is assuring you, but we do not know a thing about it. My staff 
does not know a thing about it.
    Mr. Hobson. And tell him the consequences if you do not get 
this money.
    General Blum. The consequences are that the National Guard 
recruiting machine will stop, which means, frankly, the Army's 
recruiting machine will stop because we are recruiting for the 
United States Army today as well as the National Guard.

              PERSONNEL FUNDING, RECRUITING AND RETENTION

    We are so successful--General Vaughn has got a program that 
is so successful that the Army has asked us to recruit for 
them.
    Mr. Murtha. They tell us the military personnel budget is 
the most stressed budget in the military. Now, I guess what 
they are telling you is, if there is a supplemental, they will 
find a way to reprogram money for this program. Because we are 
going to look at it now that it has been brought to our 
attention.
    General Blum. I am telling you, the condition that the 
leadership of the Army National Guard operates under is one of 
trust in the senior leadership of the Army.
    Mr. Murtha. Yeah, but you have got to remember what they 
told you. They told you, if a supplemental passes; when it 
passes, that is when you have the money.
    This supplemental, I met with leadership yesterday. 
Hopefully, I thought we would be able to pass a supplemental 
because we are going to be finished with this subcommittee by 
the end of this month. But the other parts of it are not ready, 
so it is not going to be passed until sometime after our recess 
at Easter.
    General Blum. In that case, sir, then the senior leadership 
of the Army has got some very painful reprogramming to do to 
deliver on the promise of the money that they assured us we 
would get.
    Mr. Murtha. This is why I say over and over again, we 
should have no supplementals; put it all in the base bill so we 
know what the hell we are doing. I mean, that is the problem 
that we have.
    Mr. Hobson.
    Mr. Hobson. Well, I just wanted to raise those things.

                           FULL-TIME MANNING

    General Blum. There is another aspect of that that gets to 
your question, Congressman Hobson. The issue in Ohio is not 
unique. All across the country, if you were to ask all of your 
adjutants general in every State, they do not have sufficient 
full-time manning to do the job that you are asking them to do.
    It is not a problem in the Air National Guard. The Air 
Force stepped up to the plate. When we went to the volunteer 
force, they recognized that we were an operational force then. 
They were visionary and knew that the United States Air Force 
could not do its job, day to day, without the Guard and 
Reserve, and they invested the resources, to include full-time 
manning, to assure that they would be an operational part of 
the Air Force when we went to the volunteer force.
    The Army, frankly, the land forces we are in, I do not want 
to use the word ``denial,'' but they failed to realize that 
when we went to a volunteer force, we would be forced to use 
the Reserve in a sustained conflict or any large conflict as an 
operational force; and they did not resource the Army National 
Guard or the Army Reserve to be able to accomplish that task.
    We have now done this for 6\1/2\ years at an unprecedented 
rate, and we are operating with an authorization for full-time 
manning that is built on the Cold War, when we were going to be 
a strategic reserve, going to show up at the end of World War 
III, and where you find two people in an armory in Ohio to push 
out 175 to go to war, to go to Afghanistan, to go to Iraq, to 
go to the Horn of Africa, to defend, to keep the peace treaties 
in the Sinai, to go run Guantanamo, to go keep the peacekeeping 
operations in Kosovo, to send troops to the Southwest border, 
to respond to the 17 natural disasters that your governors 
called the Guard out on yesterday.
    We are supposed to do that with two guys in the fire house, 
and it isn't going to work that way.
    That model allows for an authorization that is 40 percent 
higher than what we are able to fill. We are only resourced to 
hire the full-time guys to man the equipment, train the force, 
administer to the citizen soldiers and their families, and to 
reintegrate the people coming back home. To do all of this 
work--administrative, logistics, operations, training and 
maintenance, we are authorized to do that and fill it at 67 
percent.
    It is time to throw in the flag and question the model.
    We need additional funds, frankly, to grow the full-time 
manning force, or we cannot deliver on the promise that we made 
to the President and the Secretary of Defense and the governors 
to do the job the American citizens expect the Guard to do.
    So what I am saying is, we are authorized one number, we 
are funded at 67 percent of that number at a time when they are 
using us in an unprecedented manner; at times where we are not 
only doing what we are doing at home, we are providing 50 
percent at times--or more, at peak times--of the ground combat 
forces, Mr. Chairman, not just the combat support and the 
combat service support, but at times we have actually surged 
and provided over 50 percent of the brigade combat forces on 
the ground, and yet we have not moved up the full-time manning 
fill any higher than it was during the Cold War pre-9/11.
    I think that time has come.
    Mr. Hobson. And it is going to break. It is going to break.
    General Blum. It is placing challenges on us heavier than 
we should place on the force right now.

                           FULL-TIME MANNING

    Mr. Hobson. Thank you, General. I think the chairman 
understands the immense problem.
    Mr. Murtha. Mr. Hobson has done a service, because I asked 
our expert on O&M, I said, Where in the hell does the 
information come from? I do not know where Hobson gets his 
information. He has a pipeline someplace that I do not know 
about. That is really----
    Mr. Hobson. I was listening.
    Mr. Murtha. Mr. Dicks.
    Mr. Dicks. So you said 67 percent of full-time manning. 
What would that be in people? What are the numbers?
    General Blum. You want to talk about the numbers?
    General Vaughn. Fifty-seven thousand. So it is roughly 15 
percent of our force. I mean, you are talking about a percent 
of a percent. We are supposed to have----
    Mr. Dicks. That is to run everything, to make sure when 
they come in that they are going to have good training and 
everything.
    And you really have to have those people to make the Guard 
work; isn't that right?
    General Blum. Yes, sir.
    General Vaughn. Most people would equate readiness with the 
number of active folks that you have got doing things. In other 
words, if the Army says, You all can't be as ready as us, the 
active Army--because they do this all the time--I constantly 
tell them, if you want us to have a higher level of readiness, 
you have to give us more folks that do this full-time.

                          EQUIPMENT SHORTFALLS

    Mr. Dicks. And you have got to have the equipment.
    General Vaughn. And we have to have the equipment.
    Mr. Dicks. What is the number now, 40 percent? Is that what 
your statement said? You are about 40 percent of the equipment, 
State by State, it averages out?
    General Blum. There are two numbers here, sir. They are 
very close, as a matter of fact; they are within 1 percent of 
each other. We have 66 percent of the equipment that we are 
required to have in our hands back here at home for the units 
that are not deployed overseas, the units in the Army Guard.
    The units that are overseas have 100 percent of what they 
are supposed to have and then some, and that is fabulous; that 
is the way it is supposed to be.
    What we are saying is, the units that are back here at home 
are underequipped. And the Army has made historic commitment to 
this. And this is General Casey's letter to the Congress that 
was sent to the Honorable Duncan Hunter, but is also copied to 
Chairman Murtha and Chairman Young. So he is saying, for the 
first time in the history of the Army National Guard and the 
Army's relationship, that they now recognize that there is a 
requirement for the National Guard to be able to respond here 
at home, to weapons of mass destruction, counterterrorism or 
natural disasters; and that we have agreed, General Casey has 
agreed, the Guard leadership has agreed--Jack Stultz, who was 
just in here before, has agreed.
    We have nicked that down to 342 pieces, items of equipment, 
certain types of equipment that are absolutely necessary for 
any unit to be able to do command and control, transportation, 
medical assistance, communication, aviation, maintenance, 
logistics, those kinds of things, if we were called upon 
tonight to either do counterterrorism, respond to Weapons of 
Mass Destruction (WMD), or go out and respond to an act of 
Mother Nature or a man-made accident.
    The Chief of Staff of the Army signed the letter and listed 
an abbreviated list of the 342 items, but it gets to the 
essence of what I am talking about. And he puts a bill on there 
for $3.9 billion above what is in the budget and in the 
supplemental that we expect or we hope to receive.
    So even after the supplemental funds were to come in for 
2009 and the budget, base budget, would come in for 2009, 
General Casey, the Chief of Staff of the Army----
    Mr. Dicks. You still need $3.9 billion.
    General Blum. You've got it, sir. You have it.
    Mr. Dicks. I was good in math.
    General Blum [continuing]. But for once we are speaking 
with one voice: The Chief of Staff of the Army says we need it, 
and we checked his math and we agreed, we need $3.9 billion.
    Mr. Dicks. Then we have got to get it in the budget 
somehow. I mean you have to get the Defense Department to 
request it.
    General Blum. Now, the budget is quite an ample budget. The 
President's budget is a much better budget for the Guard than 
we have ever gotten before.
    Mr. Dicks. Right.
    General Blum. But General Casey is saying, if additional 
money were available, this is what we would spend it on. And we 
totally agree. The only thing I would prefer is, if I get to 
choose the wrapping paper if the gift is coming, we would like 
it wrapped in NGREA.
    Mr. Murtha. But that would be an earmark.
    Mr. Dicks. It is a national program, Mr. Chairman. We can 
increase those.
    Mr. Murtha. Oh, I am sorry.
    General Blum. I will not label what it is called. I just 
know we need it.
    Mr. Dicks. You need it.
    However you get it, you will take it, right?
    General Blum. Yes.
    Mr. Dicks. Also, in the Air National Guard which--you guys 
are doing a fantastic job. I see that your airplanes are now 
what, 27 years old?

                          EQUIPMENT SHORTFALLS

    General McKinley. Sir, that is the average age. Our tankers 
are 45 years old.
    Mr. Dicks. We want to do something about that.
    General McKinley. Yes, sir, we do. But our aging fleet is 
our problem.
    We have got 36,000 full-time members of the Air National 
Guard. As General Blum said, that is what keeps us whole. That 
is what keeps us ready. That is what lets us deploy in 72 hours 
anywhere in the world with our Air Force.
    Our biggest problem, Mr. Chairman, members of the 
committee, is recapitalizing the fleet. And we have got to 
build some new airplanes, we have got to look at how to do that 
in proportion so that the active, the Guard, and the Reserve 
get those airplanes.
    Mr. Dicks. How many airplanes are in your budget this year? 
How many do you get out of this budget?
    General McKinley. Sir, it is the Air Force's budget.
    Mr. Dicks. Right.
    General McKinley. And we will not get any new aircraft this 
year.
    Mr. Dicks. So the airplanes you have will just get older, 
another year older?
    General McKinley. Yes. I was here a year ago, our planes 
are a year older.
    We do have some MQ-1 unmanned vehicles that are new. Those 
went to North Dakota, Arizona, California, and they will go to 
New York, but that is all our new aircraft.
    Mr. Dicks. And most of the Air Force's new airplanes are 
UAVs, I think.
    General McKinley. Yes, sir, a high percentage is unmanned 
vehicles.

                            YOUTH CHALLENGE

    Mr. Dicks. I think you are doing a tremendous job. And 
General, I was proud of you both at the Youth Challenge event 
the other night. I do not mention it because of anything 
specific, but I do think this program--this is a program they 
have that is in 30 States now, where they take 150 students 
twice a year, and these are kids that are dropouts, and they 
have a phenomenal program of bringing them around--these kids, 
when you hear their testimonials about what this program means, 
which we fund, and I just want to encourage you to keep this 
thing going because I think it is doing a lot of good for a lot 
of people. And it is a real example, I think, in every State 
that has it.
    We are looking forward to having ours in Washington State 
this next year.
    General Blum. Thank you, sir. That program has saved almost 
80,000 young men's and women's lives, or at least given them a 
second chance in life so that they do not end up incarcerated 
or in a cemetery. So we are quite proud of that. And we are 
even more proud that, as busy as we have been in the last 7 
years, we have still found time to expand that program. We did 
not shrink it or walk away from it.

                            YOUTH CHALLENGE

    So I am quite proud of all of the States that do that. And 
I appreciate your support, and I know you are going to beat 
Oregon.
    Mr. Dicks. We are going to do our best.
    General Vaughn. You know there is another program that we 
are very proud of called the GED Plus Program that we run down 
at North Little Rock at the Professional Education Center. We 
take folks that have dropped out, a little older than the ones 
that you saw, and help them get their GED. And we are actually 
averaging about 94 to 95 percent graduation down there.
    So we are after the Nation's youth, and giving them a 
second chance. And if they turn out, great, you know, for the 
American public, and if they happen to join us, that is fine 
too.
    Mr. Dicks. And our General Lowenberg is doing a great job. 
He is one of the best.
    General Blum. He is one of the best.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Murtha. Let me get this straight now. You gave us a 
list of the equipment. That does not include the people 
shortage you have. In other words, you have to add another $700 
million onto the equipment shortage, right?

                           FUNDING SHORTFALLS

    General Blum. Only, sir, if that money is not provided to 
us, as has been assured by the leadership of the Army--the 
Secretary of the Army, the Chief of Staff of the Army. Not only 
to us; they made those assurances to the Senate, they made 
assurances to congressional hearings.
    There is a no-kidding, honest commitment to provide that 
money. The only thing I can't tell you is----
    Mr. Murtha. I am not doubting General Casey's word. But you 
know how things go: If this does not happen, that does not 
happen.
    What I am concerned about is, you are now the operational 
reserve for this Nation, the operational reserve.
    General Blum. Yes, sir, we are.
    Mr. Murtha. And you are short by 33 percent of the 
personnel that you need--37 or 33 percent?
    General Blum. We are filled to 67 percent of the authorized 
requirement on the full-time manning. So we are short roughly--
the appropriate math is probably what, 33?
    Mr. Murtha. Why should we have to depend on the regular 
Army to fund this? Why should not this be part of what we 
appropriate directly to the National Guard? Why should we have 
to depend upon General Casey sending you a letter?
    General Blum. I would welcome the money no matter in what 
form it came. I would prefer it would come in a form that 
ensures the money was used for the exact intended purpose.
    Like NGREA, last year. When you gave us the NGREA money for 
the Air Guard and the Army Guard, for every dollar I can 
account to the last for penny what was spent. And by the way, 
it was all spent, and it was spent on exactly what you asked 
for. Because your staff came back and said, ``Show me what you 
spent it on''; and when they saw it, they said, ``My God, you 
spent it on exactly what you said.''
    Well, I thought that is what we were supposed to do. So 
that is what we did.
    Mr. Murtha. The gentleman from New Jersey.
    Mr. Frelinghuysen. Thank you, Mr. Chairman; General Blum 
and colleagues.

                               READINESS

    General Blum, I think you know half of the New Jersey 
National Guard will be deployed to Iraq starting in June--I 
said this in other hearings and--literally half. That obviously 
exposes New Jersey; and we are not the only State that is in 
that type of predicament. And as you are aware, many of these 
citizen soldiers were over there in Iraq in 2004.
    I know we have talked about, you know, the force generation 
model, but to some extent, to a great extent, it is a future 
goal.
    General Blum. It is a future goal. And the future goal is 
to get it to one deployment followed by about five periods of 
equal time back. If that goes to 10, we would be delighted.
    But that goal is not attainable right now, and the reality 
is that the average unit is turning about one in three. And 
that is what is happening with New Jersey.
    Sir, you are rightfully concerned about having half of the 
Guard deployed.
    Mr. Frelinghuysen. The troops are not complaining, I must 
say.
    General Blum. No, the troops are not complaining, but the 
governors are quite concerned; yet they do not mind shouldering 
the burden. As a matter of fact, they have done a magnificent 
job of providing every unit we have asked for when we needed 
it.
    We have had no push-back from any governor of any State or 
territory in 6\1/2\ years. They understand their role as 
commander in chief in providing the Guard when we need it for 
overseas duty. But what we did was make a commitment to them 
that we would not take more than half of their force at any 
given time.
    We have just gone to the high end of the promise with New 
Jersey. But we will leverage what we call the Mutual Assistance 
Compacts that every State has signed, including all of the 
other adjutants general around New Jersey: New York, 
Pennsylvania, Maryland and Delaware, and as far away as Ohio 
and West Virginia. If an event would occur in New Jersey that 
would require a response greater than the governor could 
deliver, we would flow forces into New Jersey from all the 
neighboring States to help them. And if it were a regional 
effort that really would not permit that, we would flow forces 
in from the disaffected or unaffected States.
    And to those that say, ``does that work?'' Yes, it does. 
Remember Katrina, we flowed 50,000 soldiers into Louisiana and 
Mississippi in 6 days from every State and every territory of 
this great Nation. Nobody said ``no.'' And that included even 
the States that were right in the hurricane belt, Florida and 
Puerto Rico and the Virgin Islands and Alabama; everybody ran 
to assist them. With that happening when we had 70,000 people 
overseas--it was our high water mark for overseas--we still 
were able to flow 50,000 into Katrina, and we still had 300,000 
left in the country.
    You talk about a strategic reserve, you are looking at it. 
You are talking about America's force, I think you are looking 
at it. I think it is exactly the way we should do business. We 
should never send troops overseas without involving the 
National Guard, because when you call out the Guard, you call 
out America. But what we should do that we are not doing is 
making sure they have the equipment they are supposed to have 
to do both missions through----

                               READINESS

    Mr. Frelinghuysen. And to which this committee has 
committed help.
    General Blum. Absolutely. And we need the full-time 
manning. If you take away the military gobbledygook and just 
talk about, every place where you live you have a fire house--
and most of you have volunteer fire departments, because it 
costs a lot of money to have a full-time fire fighting force.
    You still have fire engines that are modernized, because 
nobody wants an old clunker coming to their house fire. And you 
still have modern hoses and turnout gear and equipment. That is 
what we are asking for.
    We do not want to be a reenactment group; we want to be a 
real capable force when you call us. And there are a couple of 
full-time firemen in all those fire houses that maintain that 
equipment and make sure the firemen are trained and they are 
alerted, so when you call them, they show up, where they push 
the gear out, and these guys call in on them.
    That is what the Guard's got to be, your 21st century 
Minutemen and women that respond locally in your ZIP Code, 
exactly that way; and respond to go overseas--to get to the 
chairman's point earlier--so that we do not have to tie them up 
for 4 months, handing them a radio to teach them how to use a 
radio they should have had in their possession for 2 years. And 
we are experts on how to maintain it and operate it.
    I am sorry for the digression.
    Mr. Frelinghuysen. I wanted you to digress, because I think 
that is obviously essential, and you represent the critical 
mass.
    And I may say, in those fire departments and police forces 
quite a lot of those people are wearing that National Guard 
uniform. If you look across the country, it is amazing how many 
have stood up to be counted.
    A couple of related questions: family support, the whole 
readiness issue, how you work with families to embrace those 
families as their loved ones go abroad. And would you comment 
on the--we have not talked about it today--the employer angle 
here. At times you hear good stories, and in other cases--
because of, you know, so many deployments--there are some 
pretty horrendous stories; and what we should be doing and, 
perhaps, what you were doing to provide a higher level of 
support to make sure that the jobs are there when these 
soldiers return.

                      FAMILY AND COMMUNITY SUPPORT

    General Vaughn. Sir, as you are aware, we have a good 
number of family assistance centers and family readiness 
groups. We have had them for as much as 20 years. I mean, we 
have been about taking care of all the service members. But for 
the Army National Guard, it is a big deal because we are by far 
the largest of all the community-based defense forces.
    We team with the Army. The Army is going to put a lot of 
money in reaching out into these communities. And they know 
obviously that is where we are at. Their plan with us is to 
stand up 250 permanent family readiness groups around this 
Nation. And this is to help folks--you know, especially with 
all the youngsters in the active force that have grandmothers 
and grandfathers and moms and dad and are not necessarily 
married, but how do they interact, how do we all solve the 
different problems they have?
    So I think over the last 3 or 4 years we have made great 
strides, you know, in what we do with our families.

                            EMPLOYER SUPPORT

    The employer piece is another problem, and we do not have 
that solved. The big employers in this Nation, I think are 
doing a wonderful job; but the self-employed and the small 
employers, there has to be something, you know, that we make 
progress on this, because if we do not, we are going to end up 
seeing just people that belong to the big organizations in our 
Army National Guard.

                          STRESS ON THE FORCE

    I will tell you that there is a tremendous amount of stress 
on the force right now. And I know that there have probably 
been questions asked earlier maybe about the suicide thing. We 
have looked at it and analyzed it every way we can. Less than 
half of those soldiers involved in suicides have actually 
deployed. And so, you know, why is it that our suicide rate is 
creeping up? And it has to do with stress. And it really has to 
do with--what our folks tell us, as much as anything, is this 
relationship with employers and the lack of predictability.

                            EMPLOYER SUPPORT

    We try to get the predictability better. This thing, on the 
12-month mobilization problem, is huge, because the more we can 
cut down on time away from employers the better off we are.
    Our folks tell us the primary reason we are having trouble 
in the families is because of the employers and the fact that 
they do not have any way--when they come back, in many 
instances, they are afraid of what they are faced with, you 
know, with reduced amounts of income and supporting their 
families.
    Mr. Frelinghuysen. They are the breadwinners often; I think 
there is an element of despair, and we hope it does not 
translate into suicide. I am not sure what there is because 
there are so many different types of employers.
    But I assume you have been analyzing this--analyzing and 
reanalyzing this, and hopefully there is some prescription that 
you can come up with where we can be of assistance.
    General Blum. The Federal Government's been a little slow 
to be frank about it, in responding to exactly the issue you 
are talking about. The States have been much more agile.
    You will find that some States----
    Mr. Frelinghuysen. Some.
    General Blum. Some States. That is true. Because there is 
no universal statement for all 50 States. I appreciate that. 
You are right.
    But some States have stepped forward and made low-interest 
loans to small business operators and self-employed members of 
the Guard, so that they can reestablish and get back on their 
feet when they come home.
    If you are a small business owner, particularly a very 
small business owner--in other words, two or three people--and 
a significant rainmaker is mobilized for a year, year-and-a-
half, it essentially puts the business on ice. So they realize 
that, and they need to kind of jump-start their organization 
when it gets back.
    So we have seen some help in that effort in regard to the 
States. The Federal Government has not yet decided exactly how 
they are going to handle large employer incentives, self-
employed incentives or small business incentives. All three 
have to be dealt with somewhat differently.

                            EMPLOYER SUPPORT

    It is quite different dealing with Home Depot as opposed to 
Joe's House Painting Company, you know. It is quite a big 
different level of magnitude. Home Depot is a great patriotic 
employer. I think they have 1,500 people deployed right now out 
of their workforce, which is a huge number, except that they 
employ about 38,000 people nationally. And then they literally 
have more people out sick with the flu on any given day than 
they have mobilized. So they can handle and absorb that much 
better than Joe's Hardware Store where the manager is deployed 
or something like that.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    General McKinley. Mr. Chairman, could I make a quick 
comment on New Jersey while we have a minute?
    Thank you for your support. We have got two great fighter 
units.

                           AIR NATIONAL GUARD

    Mr. Frelinghuysen. I didn't want to turn my back on the Air 
Force. I apologize. We need some new tankers, too.
    General McKinley. But we want to let you know that under 
General Blum's leadership the Air National Guard really has 
become a Joint Force in the National Guard. So in the event of 
an emergency in New Jersey, that Air National Guard force of 
almost 3,000 people would be available.
    I am very proud of our relationship with the Army National 
Guard; it is working very well. And I did not want to leave out 
a couple things, because I know General Vaughn and Chief Blum 
said there are needs in the Army National Guard.
    We have about a $1.5 billion need, too, which will help 
baseline the Air Sovereignty Mission. That is a mission which 
the Air Force has not baselined. We would like to see that 
baselined so that we can encourage members to stay on more 
often. We have some recruiting and retention issues also.
    Sir?
    Mr. Murtha. Is this in this list here?
    General McKinley. It is on the budget card, yes.
    Mr. Frelinghuysen. All the Air----
    General McKinley. Yes, sir, it is an Air National Guard 
unfunded requirement.
    General Blum. Mr. Chairman, I will leave a document that 
captures all of the needs in a very concise fashion with you 
before I leave the hearing.
    General McKinley. And that is all I had, sir. Thank you for 
the time.
    Mr. Murtha. Mr. Visclosky.
    Mr. Visclosky. I am fine, Mr. Chairman.

                        INTERAGENCY COORDINATION

    Mr. Murtha. I just want to ask what DHS and NORTHCOM--do 
they coordinate all this for you? They provide forces and money 
for you--do they?
    General Blum. No, sir. That is not well understood. They do 
not actually provide any forces for the Guard. The governors 
provide the forces for the Guard here in CONUS. Anything that 
happens domestically.
    Mr. Murtha. What do they do?
    General Blum. Sir, they have a very vital role to play.
    Mr. Murtha. Like what?
    General Blum. For instance, I have no ships in the National 
Guard, and if I needed a ship or I needed a maritime 
capability, the place to go for that would be Northern Command, 
and they would in fact coordinate that.
    But Northern Command cannot do their job without the Army 
and Air National Guard, and the Army and Air National Guard 
cannot do everything that we could be asked to do without them. 
So there is a very real need for the Northern Command and the 
National Guard Bureau to have a very close coordinating and 
collaborating effort.
    Now, with the National Defense Authorization Act of 2008, 
there are certain reports and requirements in there that will 
force that to a much further degree than they have. The 
Congress----
    Mr. Murtha. How about DHS?
    General Blum. Up until very recently, the Department of 
Defense and the DHS were kind of two separate and totally apart 
organizations. There is a recognition that the two of those 
departments must work closer together, or the American people 
are not going to be very well served when they need to be.
    The National Guard does not control either one of those, 
but we are absolutely critical to the linkage of one to the 
other. So we will play in that arena with them and coordinate 
and synchronize. Where it does work is at the State and local 
level, where the State equivalent of DHS and the State 
equivalent of DOD are merged seamlessly by the governors, 
because they cannot do their operations without joining them 
together. So if we take that State and local model and build on 
it at the regional and national level, I think we will all be 
better served.
    Mr. Murtha. Thank you very much, gentlemen. We appreciate 
it.
    The Committee is now adjourned.
    [Clerk's note.--Questions submitted by Mr. Hobson and the 
answers thereto follow:]

                          Marine Corps Reserve

    Question. Several Marine Reservists are being cherry picked from 
Ohio's Marine Corps Reserve ``Lima Company'' and sister units in the 
3rd Battalion 25th Marines in order to deploy to Iraq with another 
battalion, the 2nd Battalion 25th Marines. This practice, known as 
``Cross Leveling,'' steals the leadership, experience, and cohesion of 
an infantry unit. It places the unit that lost Marines at a horrible 
disadvantage when it has to deploy, and initiates a vicious cycle of 
``robbing Peter to pay Paul.'' Why are you not filling these open spots 
with Marines from the IRR (Individual Ready Reserve)? Isn't that what 
the IRR is for?
    Answer. The IRR is a pool of reservists who can be called to active 
duty in case of crisis. In the case of OIF/OEF, the Marine Corps uses 
its IRR to source individual augments to support the transition 
training teams, Joint Manning Documents, and other Total Force Marine 
Corps requirements. The IRR is used to source requirements when 
sourcing from the active component operational forces, bases and 
stations, and the Selective Marine Corps Reserve (SMCR) (with units or 
unit detachments) have failed to provide the solution. The IRR requires 
a separate SECDEF authority and is the solution used prior to 
activating retired reservists. The IRR does not exclusively support the 
SMCR.
    The Marine Corps invokes the least amount of mobilization authority 
required to satisfy requirements. When an infantry battalion cannot be 
sourced to the minimum required manning levels, the net is cast 
throughout the next higher unit in its chain, i.e., the regiment. If 
the regiment cannot source the requirement (by using its HQ and its 
other battalions) then the net would be cast over the next higher unit 
in its chain, i.e. the division (by using its other regiments), and so 
forth.
    The use of the IRR to attempt to round out NCO leadership of an 
infantry battalion produces much more risk than our current practice of 
allowing the Regiment to first source from sister battalions. IRR 
Marines don't have the benefit of training with the Battalion prior to 
activation. The Marines from 3/25 have already started to drill and 
have had a two-week annual training package with the Marines that they 
are deploying with and will be leading into combat. These cohesion 
building training events will increase the combat effectiveness and 
survivability of the Marines scheduled to deploy. Additionally, several 
individual block training events will be completed by the time the unit 
is activated. Use of IRRs to fill the NCO shortfall would require 
activation followed by the need to conduct all individual pre-
deployment training while the unit is conducting unit pre-deployment 
training. This would be detrimental to unit cohesion.
    Question. A 19 January 2007 Memorandum from the Secretary of 
Defense states ``mobilization of ground combat, combat support and 
combat services support will be managed on a unit basis. This will 
allow greater cohesion and predictability in how these Reserve units 
train and deploy. Exceptions will require my approval.'' Do you have/
need approval of the SecDef?
    Answer. A 19 Jan 07 SECDEF Memo published Departmental policy 
changes resulting from an assessment on how best to support global 
military operational needs. In addition to this assessment, and as 
noted in this Memo, these changes were also based on recommendations 
made by both the uniform and civilian leadership. The 19 Jan 07 policy 
was further implemented in a 15 Mar 07 USD (P&R) Memo containing 
additional guidance that is currently used by the Joint Staff, Service 
Secretaries, and OSD when approving individual activation packages. As 
previously addressed in our answer to question 1, this activation 
process recognizes that although we try to manage mobilizations 
``primarily on a unit basis,'' there is a necessity to fill unit 
manning shortfalls. In this case, MARFORRES generated a sourcing 
solution based on cross leveling of units organic to the 25th Marine 
Regiment (2/25's parent regiment). This package was routed via the 
Commandant of the Marine Corps to the SecNav for determination, in 
compliance with paragraph lf of the USD (P&R)'s 15 Mar 07 implementing 
guidance directing that, the Service Secretary ``determine the best 
method to fill unit manning shortfalls.''
    Question. I understand that junior marines, who have never 
deployed, volunteered to make up the compliment. However, they were 
taken off the list and replaced with Corporals and Sergeants who had 
previously deployed with Lima Company in 2005. Some of these Marines 
were wounded in action. How will involuntarily striping the leadership 
benefit Lima Company when it deploys, possibly in late 2009?
    Answer. The deployment of selected NCOs from Company L will not 
adversely affect the Company when it activates in late 2009 and 
subsequently deploys in 2010. The Company and Battalion will have 
sufficient NCOs to provide leadership to its Marines should the Company 
L NCOs selected to augment 2nd Battalion decide to not reenlist and not 
deploy in 2010.
    Company L currently has 55 of its 56 NCO billets filled [per the 
Company's Table of Organization]. Over the intervening two-year period, 
approximately 85 Company L Marines will be eligible for promotion to 
NCO (given current promotion rates).
    The Company L NCOs selected to augment 2nd Battalion have Mandatory 
Drill Stop Dates prior to 3rd Battalion's next OIF deployment. 
Therefore, their participation in the next Battalion deployment would 
be strictly voluntary and is not assured. Ho ever, by deploying with 
2nd Battalion, the command is able to fully utilize their combat-proven 
leadership and occupational skills to train and lead the Marines of 2nd 
Battalion. In addition, this plan allows junior Marines within Company 
L to progressively assume greater responsibility during peacetime 
training events, and thereby be better prepared to assume NCO billet 
during 3rd Battalion's next deployment. Consequently, the current plan 
optimizes the quality an quantity of NCO leadership provided to both 
2nd Battalion and 3rd Battalion during combat operations in support of 
the War on Terror.
    ** Note: Of the augments only [delete] was previously wounded in 
action. He sustained a shrapnel wound to his right calf during 
Operation MATADOR in Al Qaim. He was medically evacuated from theater 
and subsequently returned to full duty.
    Question. Three Lima Marines have been waiting for some time to 
attend sniper training. These three Marines will now have to forgo that 
training due to their involuntary activation. How will forgoing the 
training of these ``would be'' Marine snipers benefit Lima Company when 
it deploys, possibly in late 2009?
    Answer. When Marine Forces Reserve researched this question it was 
determined that the three Marines awaiting Scout Sniper training are 
all members of Weapons Company, 3d Bn, 25th Marines. Further, they did 
not meet all of the prerequisites. One needed to retake the ASVAB since 
his GT score was not high enough and the others did not have a current 
HIV on record. Those discrepancies have been rectified and all three 
Marines (delete) are scheduled to attend the below Scout Sniper Course 
at MCB Camp Lejeune, NC and will join 2d Bn, 25th Marines upon 
graduation. They all have approved orders in the system and have been 
notified by their command.

CID: M0381Z4
COURSE: SCOUT SNIPER CRS
LOCATION: CAMP LEJEUNE
CLASS#: 2008003
REPORT DATE: 20080413
GRAD DATE: 20080627

                           Air Force Reserve

    Question. General Bradley, the recently published report from the 
Commission on the National Guard and Reserves included a number of 
recommendations that have budgetary impact on the Services. Are the 
Reserves included in the dialogue on how to address the impact to your 
budgets?
    Answer. My personnel have been fully involved in developing the Air 
Force position on the Commission's 95 recommendations. Initially we 
were not invited as a member of the working group that will be 
discussing the budgetary impact of the Commission on the National Guard 
and Reserves recommendation on the Total Force. However, Major General 
(Select) James Rubeor, my deputy, was added to the General Officer/
Senior Executive Service working group, but will not be a voting 
member.
    Question. Do you feel that the funding level for NGREA (National 
Guard and Reserve Equipment Account) is sufficient for the Air Force 
Reserve to allow you to modernize and remain a viable tier one ready 
force?
    Answer. While we are resourced through the Air Force budget 
process, we have combat requirements that are not funded. The National 
Guard and Reserve Equipment Account (NGREA) has been a lifeline to Air 
Force Reserve modernization. While the NGREA funding has helped keep us 
a ready and relevant combat force, it is insufficient to meet all 
modernization efforts. Over the past three years NGREA funding 
increases have allowed improvements in defensive systems, advanced 
targeting pods, radars, multifunction displays, communications and 
night vision equipment. The Air Force Reserve has over $670 million in 
modernization shortfalls each year. The NGREA covers approximately 5% 
of this shortfall, but partial funding of the shortfall increases the 
time to field capabilities. Air Force Reserve aircraft and systems 
modernization requirements are projected to increase and, while NGREA 
funding has increased, it alone is not sufficient to keep Air Force 
Reserve a viable tier one ready force.
    Question. Are there any other budgetary areas where you feel as 
though you are at risk?
    Answer. The Global War on Terror (GWOT), Base Realignment and 
Closure (BRAC) and Total Force Integration (TFI) have created 
considerable pressures on the Air Force Reserve's budget. Recruiting 
and retention challenges, along with the training of Air Force to 
Reserve personnel due to BRAC/TFI mission changes create potential 
funding shortfalls in these areas. Additionally, the Fiscal Year 2009 
depot purchased equipment maintenance funding level of 79% has resulted 
in the deferment of program depot maintenance on numerous aircraft, 
increasing risk to our readiness. While we strive to mitigate this risk 
in execution year, our ability to attain an acceptable level of risk is 
becoming more difficult. The under execution of our programmed flying 
hours and the increase in GWOT flying results in budget reductions to 
our training hours, which may effect readiness in the future, 
especially if GWOT flying decreases. Lastly, long term Military 
Personnel appropriations orders by Reservists volunteering to support 
GWOT results in the under execution of Reserve Personnel 
appropriations, which may result in baseline cuts to this appropriation 
effecting the ability for Reservists to train in the future.
    Question. What impact is the Air Force Reserve's participation in 
the war having on your readiness, in terms of your personnel and 
operational capabilities?
    Answer. Although the readiness of the Air Force Reserve training 
objectives is still being met with an increase in the operations tempo 
due to the war, wear of our equipment has accelerated above normal 
peace time standards. Results of this acceleration increases concerns 
for the need to recapitalize equipment as well as the funding needed to 
ensure Reservists are able to maintain operational readiness. 
Additionally, under-execution of programmed flying hours may lead to 
reduced appropriations for flying hours. This could result in a 
shortfall of flying hours when the Reserve returns to a peace time 
operations tempo. Lastly, Air Force Reserve missions are being 
accomplished primarily with volunteers on Military Personnel 
appropriation orders which results in an under execution of the Reserve 
Personnel appropriation account. As with flying hours, if Reserve 
Personnel appropriation funding is reduced, the ability for Reservists 
to train during a peace time environment could be jeopardized.
    Question. How has AF Reserve recruiting and retention been affected 
by the increased demands of the Global War on Terrorism?
    Answer. The Air Force Reserve has met its recruiting goals for the 
last seven years. While we anticipate challenges in the future due to 
Base Realignment and Closure, and Total Force Integration initiatives 
and a shrinking active duty force in which to recruit from, we have 
seen nothing to indicate that Global War on Terrorism has affected our 
recruiting efforts. As for retention, we've met or barely missed our 
retention goals during the same period. We are monitoring this area 
closely as there are some indications for potential concerns with first 
term and career Airmen reenlistment rates. However, as with recruiting, 
we cannot say with any degree of certainty that Global War on Terrorism 
is adversely affecting our retention rates.

    [Clerk's note.--End of questions submitted by Mr. Hobson. 
Questions submitted by Ms. Granger and the answers thereto 
follow:]

                      South Texas Training Center

    Question. The Texas Governor and the Texas Adjutant General have 
discussed establishing at least one additional training center in the 
southern portion of the state in order to provide more training space 
to our Guard. What is being done to address this issue that affects the 
Guard's readiness for both overseas and domestic missions?
    Answer. The establishment and enhancement of National Guard 
response capabilities (Civil Support Teams, Chemical Enhanced Response 
Force Package, National Guard Response Force, etc.) to provide support 
to civil authorities have created additional training and training 
space requirements for nearly all of the states. The National Guard 
Bureau continues to work on developing training capabilities and 
identify facilities that would support the effective and efficient 
delivery of training, exercise, and evaluation of the readiness of the 
domestic response capabilities.
    Question. Are other states facing the same training space dilemma?
    Answer. Yes, states with Chemical, Biological, Radiological, 
Nuclear, and High Yield Explosives Enhanced Response Force Package 
(CERFP) teams have a valid issue because of the specialized nature of 
the venue required to train for their mission. The cost of these 
training areas would be prohibitive if established at one time, but 
could be feasible in phases. The National Guard Bureau has recommended 
that up to six regional training centers be established and that 
funding be provided to allow CERFPs to use the regional centers on a 
rotational basis. This solution would provide a 1 to 3 training site to 
CERFP ratio and would likely be a more cost effective solution.

                               Pay Issues

    Question. Late last year, NBC ran a story describing multiple 
instances of pay problems with members of the National Guard. The story 
made reference to a GAO report that examined six National Guard Units--
94% of those Guardsmen had pay problems. What is being done to remedy 
this and to ensure that our National Guardsmen are being paid correctly 
and in a timely manner?
    Answer. The NBC story refers to a November 2003 GAO Report entitles 
``Military Pay: Army National Guard Personnel Mobilized to Active Duty 
Experienced Significant Pay Problems.'' That GAO report correctly 
identified several deficiencies in our pay system, mostly relating to 
adjustments in pay and benefits when Army National Guard soldiers 
transitioned between reserve duty and active duty assignments.
    Those widespread, systematic problems have been addressed. In 2003 
I began working with the Assistant Secretary of Army, Financial 
Management and Comptroller, an the Director of Defense Finance & 
Accounting Service (DFAS) to address these pay problems.
    Among the corrective actions taken includes establishing joint 
National Guard Bureau and DFAS dedicated support team to assist 
mobilizing and demobilizing soldiers; enhancing demobilization 
briefings and ensuring that all personnel know how to contact the 
Soldier and Family Support Centers for any pay assistance or other 
problems arise. Additionally, we have implemented standard operating 
instructions to prevent problems from arising due to turnover of 
financial personnel. Also, we have established procedures for reviewing 
and monitoring the pay process by DFAS, Army, and the Army National 
Guard; and improving the quality and availability of online pay and 
benefit information for soldiers.

    [Clerk's note.--End of questions submitted by Ms. Granger. 
Questions submitted by Mr. Murtha and the answers thereto 
follow:]

                National Guard Role in Homeland Security

    Question. Has the Guard defined its operational requirements for 
its domestic mission?--what missions are expected of the Guard--and is 
there a plan, and do units regularly train for this mission?
    Answer. The National Guard has worked hard to define our 
operational requirements for domestic missions, especially in the area 
of consequence management. These efforts have resulted in the 
development of specialized units and capabilities, including: Joint 
Force Headquarters (JFHQ) and Joint Task Force-State (JTF-State); Joint 
Incident Site Communications Capability (JISCC); Civil Support Teams 
(CST); Chemical, Biological, Radiological, Nuclear, and High-Yield 
Explosive Enhanced Response Force Package (CERFP) teams; National Guard 
Response Forces; and Critical Infrastructure Program-Mission Assurance 
Assessment teams. Additionally, the National Guard has analyzed civil 
support operational requirements and has defined the service-provided 
Army National Guard and Air National Guard equipment that specifically 
supports civil support missions. These equipment lists have been 
provided to service staffs to influence the rapid fielding of specific 
sets of equipment to National Guard units to enhance the National 
Guard's overall capability to respond to domestic incidents.
    Although National Guard has made significant progress in defining 
our homeland defense and civil support operational requirements, there 
is more to be done. That is why the National Guard Bureau is also 
institutionalizing a Capability Assessment and Development Process that 
will use National and Defense Planning Scenarios to systematically 
define future National Guard capability needs across the spectrum of 
homeland defense and civil support missions.
    As to what missions are expected of the Guard, it serves our nation 
and communities across the full spectrum of domestic missions, 
including, but not limited to: Counter Drug, protecting critical 
physical and cyber infrastructure, air sovereignty, air and ballistic 
missile defense, transportation, engineering, and medical. These 
responses are to both natural and manmade disasters, as well as civil 
disturbance.
    Over 70 Domestic Operation plans involving the National Guard have 
been written by United States Northern Command (USNORTHCOM), the 
National Guard Bureau and the 54 states, territories and the District 
of Columbia. In addition, the National Guard Bureau, in coordination 
with the 54 Joint Force Headquarters-State, has developed a Joint 
Capabilities Database (JCD) that focuses on ``Essential 10'' 
capabilities that are needed and available for homeland defense, 
homeland security, and civil support missions that are frequently 
conducted by the National Guard. The JCD is designed to assess current 
and future National Guard joint capabilities required by the Governors 
in the event of an emergency, and to inform both Contingency and Crisis 
Action Planners on the status of capabilities and where capability gaps 
lie when formalizing plans.
    The National Guard Bureau, in conjunction with USNORTHCOM, has 
developed and implemented a Joint Interagency Training Capability 
(JITC) that includes a regional exercise program, staff training for 
JFHQ/JTF State staff elements, and collective chemical, biological, 
radiological, nuclear, and high yield explosives (CBRNE) training for 
National Guard CERFPs and CSTs. CSTs also have rigorous internal 
exercise programs and CERFPs have focused individual and collective 
training events.
    Additionally, the National Guard regularly participates in National 
and Combatant Command homeland defense and civil support Exercises. 
However, although the National Guard has made major strides in 
developing effective homeland defense and civil support training, there 
is much left to be done to assess the sufficiency of this training with 
respect to the increasing National Guard homeland defense and civil 
support responsibilities and to address continued training gaps in the 
areas of port and border security, information sharing and Continuity 
of Operations and Continuity of Government planning and exercises.
    Question. Regardless of the source, would it be helpful if 
additional funding, over and above that provided for military 
readiness, were to be made available to states for domestic planning 
and exercises performed by the National Guard?
    Answer. Yes, additional funding for domestic planning and exercises 
would significantly improve the National Guard's readiness to respond 
to domestic emergencies. While the National Guard has made progress in 
domestic planning and exercises, increased funding would enable us to 
address gaps in training, to improve the assessment of that training, 
and to fully integrate our planning efforts at the federal, state and 
local levels.

         National Guard and U.S. Northern Command (USNORTHCOM)

    Question. If there is federal military support to civil authorities 
that needs to be provided for a disaster relief operation, is that the 
responsibility of the Reserve Component or NORTHCOM?
    Answer. Disaster relief response within the United States has 
several tiers of response, with the goal of supporting the needs of the 
local authorities. Local authorities, first on the scene, provide 
initial assessments and response. If further assistance is required, 
state assets, such as the National Guard, will be called upon. The 
National Guard also can be employed in Title 32 status if federally 
funded military support is required.
    National Guard units are located in communities across all 50 
states, three territories, and the District of Columbia. If 
requirements exceed the capability of available forces, elected leaders 
may execute an Emergency Management Assistance Compact (EMAC) request, 
a voluntary agreement between states and territories to share National 
Guard and other resources. This tool allows for a sharing of resources 
and solves the problem at a state or regional level. However, EMACs are 
not only for neighboring states. If a disaster is regional in nature, 
states outside the affected area may choose to send assets.
    Federal assistance may also be requested. These requests are 
collected by the lead federal agency and then forwarded to the 
appropriate federal agency. If the Department of Defense receives a 
request, it would pass to USNORTHCOM for execution. At that point, 
USNORTHCOM would provide the required capability. In some cases, 
USNORTHCOM is the only source of capabilities. For example, states 
typically do not have any maritime assets. If required, these would 
come from active duty forces. In some cases this may require reserve 
component elements to be called into active federal service.
    Question. What are some of the challenges with the NORTHCOM 
arrangement?
    Answer. The National Guard can provide significant domestic 
response support by rapidly deploying Soldiers and Airmen and necessary 
equipment over great distances, as was done in the response to 
Hurricanes Katrina and Rita. United States Northern Command 
(USNORTHCOM) is a fully capable Combatant Command (COCOM) that is 
staffed to manage Federal Defense Support to Civil Authorities if 
needed. It is critical that these separate, but complementary, missions 
function together when disaster situations arise.
    While the National Guard Bureau has been working with USNORTHCOM on 
their domestic support plans, there have been limited opportunities for 
USNORTHCOM commanders, staff and forces to assist state forces on 
domestic response missions. This leaves significant room for 
improvement on coordination of efforts and planning. Increased 
coordination and exchange of staff for training and exercises will go a 
long way towards addressing any coordination deficit between USNORTHCOM 
and the National Guard.
    Question. Title 32 operations have been coordinated in the past--
NOT by US Northern Command, but by the National Guard Bureau. What are 
the advantages to having this consistent channel of communication 
between the States and the DOD for operations that are conducted with 
federal funds?--and what role, if any, does NORTHCOM play in these 
missions?
    Answer. The Title 10 requirement for the National Guard Bureau to 
serve as the conduit of information between the individual states and 
the Departments of the Army and Air Force is well established and 
clearly understood by all parties. There would be many advantages to 
continuing this proven process for Title 32 operations.
    The communication process between the National Guard Bureau and the 
individual states is well established and utilized on a daily basis. 
State Joint Operations Centers have been established under the 
Adjutants General and are tied into the National Guard Bureau Joint 
Operations Center. The National Guard Bureau Joint Operations Center 
then makes the information available to the Department of Defense and 
the Department of Homeland Security.
    The National Guard Bureau also manages the distribution of Title 32 
funding that is allocated to the Army National Guard and Air National 
Guard to train for their federal mission. The appropriate fiscal 
accounting processes are already established and used on a daily basis.
    Finally, maintaining a single, consistent Title 32 process that is 
exercised on a daily basis means National Guard personnel are trained 
and ready to react in a disaster the same way they operate day-to-day. 
This ``train like you fight'' concept provides a high state of 
readiness and is well understood and used throughout the Department of 
Defense.
    NORTHCOM, however, does not play a significant role in Title 32 
operational missions. Since command and control of Title 32 operations 
remain with the Governor and state Adjutants General, there is no 
USNORTHCOM involvement in these operations other than maintaining 
situational awareness. Also, not all states and territories reside 
within the USNORTHCOM area of responsibility. Alaska, Hawaii, Guam, 
Puerto Rico, and the Virgin Islands are assigned to either the Pacific 
Command (PACOM) or the United States Southern Command (USSOUTHCOM).

                  National Guard Equipment Challenges

    Question. LTG Blum you have previously noted the relatively rapid 
National Guard response to Hurricane Katrina, but isn't it true that if 
the Army National Guard had had 100 percent of all of the equipment it 
is required to have, that response would have been even faster?
    Answer. There is no doubt that higher levels of equipment generally 
would facilitate a faster response in a catastrophe. While the 
Emergency Management Assistance Compact (EMAC) ensures that a disaster-
affected state can bring in National Guard equipment and personnel from 
other states when needed.
    If the affected state has a relatively low level of equipment on 
hand, this increases the demand on external sources and invariably will 
take a longer time to meet all equipment requirements.
    Question. If the National Guard were to receive the full amount of 
the President's Budget request as well as the full amount currently 
planned over the Future Year Defense Program, how much additional 
funding would still be needed in order to bring the National Guard to 
100 percent of the equipment it is required to have?
    Answer. If the Army National Guard were to receive all of the 
equipment in the President's Budget and the Future Years Defense 
Program, the additional requirement of $9.9 billion to reach full 
equipping levels. However, this figure would not displace all 
substitute and ``in lieu of items currently in the National Guard's 
inventory. Additional funding would be required to fully equip the 
force with the most modern equipment available.
    Question. Please describe the Emergency Management Assistance 
Compact and how it allows the National Guard to mass equipment across 
state lines during disasters--and would this work in a major crisis 
when many Guard units are deployed?
    Answer. The Emergency Management Assistance Compact (EMAC) is a 
national mutual aid agreement administered by the National Emergency 
Management Association (NEMA). All 50 states, as well as the District 
of Columbia, Puerto Rico, and the Virgin Islands, are members. The 
National Guard and other responders (police, fire, etc.) are subject to 
request by the impacted state. It is up to the state receiving such a 
request whether to respond as requested, respond with a proposed 
substitute asset or to decline the request. As a general rule, 
requested support is honored in a timely and efficient manner.
    During a crisis requiring interstate mutual aid a state publishes 
requests for support using the EMAC process. Using its knowledge of 
National Guard asset availability, the National Guard Bureau contacts 
the state owning the appropriate asset and asks that state to consider 
picking up the support requirement identified by EMAC. The state 
accepting the mission then advises the requesting state and NEMA of its 
availability. The actual agreement between the supported and supporting 
states is made between those states, using the EMAC agreement as the 
basis.
    The EMAC system works very well, even when National Guard units are 
deployed. For example, during the Hurricane Katrina disaster the 
National Guard deployed approximately 50,000 troops, with appropriate 
equipment, in a timely and effective response in support of civil 
authorities, and more National Guard personnel and equipment were 
available if they had been needed. At the time, 13,000 National Guard 
personnel and significant amounts of equipment were deployed overseas 
in the Global War on Terror.
    Question. How many full-time personnel is the Army National Guard 
required to have? How many is it currently authorized to have and how 
does this difference affect the readiness of the Army National Guard?
    Answer. The Army validated requirement for Army National Guard 
full-time support is 42,533 Active Guard and Reserve and 42,329 
Military Technicians, for a total of 84,862 full-time support 
personnel.
    The Army National Guard's FY2008 authorization is 29,204 Active 
Guard and Reserve and 28,102 Military Technicians, for a total of 
57,306 full-time support personnel.
    The current full-time support requirements are formulated from a 
1999 manpower study based on the pre-9/11 mission of a strategic 
reserve. The Army National Guard is now an operational force and has 
inherently increased mission needs at the strategic, operational and 
tactical levels. As we prepare and train our force for missions, in an 
era of persistent conflict, the negative delta in full-time support 
adversely affects our ability to meet the readiness levels required for 
an operational force. Our full-time support personnel complete 
essential day-to-day training preparation, maintenance and personnel 
actions that allow our part-time soldiers to maximize training during 
their limited training periods. Full-time support is a key readiness 
multiplier.
    Question. Generals Vaughn and McKinley, can you compare the full-
time percentages of required versus authorized personnel compare to 
ANG? What is percentage of full-time to total end strength? I have 
heard that ANG has it about right as far as working as a true 
operational reserve?
    Answer. The Army's validated fiscal year 2008 (FY08) requirement 
for Army National Guard full-time support is 42,533 Active Guard and 
Reserve (AGR) and 42,329 Military Technicians (MilTech), for a total of 
84,862 full-time support personnel. The Army National Guard's actual 
FY08 authorization is 29,204 AGR and 28,102 MilTech, for a total of 
57,306 full-time support personnel. The Army National Guard's 
authorized end-strength for FY08 is 351,300. This yields an authorized 
level of full-time support at 16.3 percent.
    The current full-time support requirements are formulated from a 
1999 manpower study based on the pre-9/11 mission of a strategic 
reserve. This study validated a requirement for 84,850 full-time 
support positions to perform the Army National Guard mission as a 
strategic reserve. The Army National Guard is now an operational force 
and has inherently increased mission needs at the strategic, 
operational and tactical levels.
    The Air Force validated FY08 requirement and authorization for Air 
National Guard full-time support is 13,936 Active Guard and Reserve 
(AGR) and 22,897 Military Technicians (MilTech), for a total of 36,833 
full-time support personnel. The Air National Guard authorized end-
strength for FY08 is 106,700. This yields an authorized level of full-
time support at 34.5 percent. The Air National Guard's full-time force 
allows it to provide a high level of volunteerism for missions at 92 
percent. This is a proven, ready, combat capability to the Air Force.

    [Clerk's note.--End of questions submitted by Mr. Murtha.]

                                          Wednesday, March 5, 2008.

   DEPARTMENT OF THE AIR FORCE CONTRACT AWARD FOR TANKER REPLACEMENT

                               WITNESSES

HON. SUE C. PAYTON, ASSISTANT SECRETARY OF THE AIR FORCE FOR 
    ACQUISITION
LIEUTENANT GENERAL JOHN L. ``JACK'' HUDSON, COMMANDER, AERONAUTICAL 
    SYSTEMS CENTER
TERRY KASTEN, KC-45A PROGRAM MANAGER

                   Opening Remarks of Chairman Murtha

    Mr. Murtha. The Committee will come to order.
    I want to welcome Ms. Payton and General Hudson to the 
Committee.
    I do not think there is any subcommittee or any committee 
that has done more to try to move this tanker program forward. 
When Bill Young was Chairman, he recognized the problem. We 
tried everything we could to put money in, prompted the Defense 
Department to go forward. All of us realized the critical 
nature and the national significance of this program. This is a 
weapons system just like the F-22 or the JSF or anything else. 
This is absolutely critical to our national security.
    Having said that, what I worry about and the reason that I 
wanted to have a hearing is this also has political 
implications. Not only are the facts important, but the 
political implications are just as important.
    I look at the banks being bailed out by foreign countries. 
I see a rising trade deficit with China, the rest of the world. 
And when my staff gives me a paper that shows our Treasury 
owes--and other U.S. Agencies owe China $922 billion, I think 
it is imperative that the Air Force explain to this committee 
its decision and how it came about to award this contract.
    I do not know what the estimate of the contract is going to 
be. It is going to be a big contract, probably as big as any 
contract that we have had over the years. And I know it will 
grow, because all of them do. Our experience is that all of 
them get bigger. But we want to make sure everybody was treated 
fairly.
    And we want to know as many details as we can. We 
understand that there are a lot of details that you cannot talk 
about because you have not been briefed. But you have to 
remember this: This committee funds this program. And all this 
committee has to do is stop the money, and this program is not 
going to go forward.
    We want to make sure everybody is treated fairly. We want 
to make sure you made the right decision. We want to support 
the right decision in this endeavor.
    So, with that, I will ask Mr. Young for his opening 
statement.

                      Opening Remarks of Mr. Young

    Mr. Young. Well, Mr. Chairman, thank you very much. And I 
want to join you in welcoming Secretary Payton and General 
Hudson to this very important hearing.
    This subcommittee has recognized the need for a new fleet 
of tankers for many years, actually, and we are really 
disappointed that it has taken so long even to get where we are 
today. The fiasco that encircled the leasing program--by the 
way, even back then, we supported buying the tankers as opposed 
to leasing them. But we were overruled in that matter. But the 
important thing here is, when can we put new tankers into the 
air to meet the requirement of the United States national 
security requirements? And that is our issue today.
    Secretary Payton, I read your prepared statement, but also 
I read in The Washington Post yesterday the comments of Loren 
B. Thompson of the Lexington Institute. Frankly--and please do 
not be offended by this--but your statement does not say 
anything about this contract, but Thompson has--well, I am sure 
you have seen this.
    Ms. Payton. Yes, sir.
    Mr. Young. Thompson has a whole list of why this contract 
was awarded. And I do not know that this subcommittee is going 
to try to be in the business of determining which contractors 
get the contract awards; I do not think that is our 
prerogative. But if Thompson knows something about this, we 
expect that you might know something about this as well. So, 
although your statement was not very thorough in detail, I 
think we are probably going to be asking you a lot of questions 
about this.
    So thank you for being here and being willing to----
    Ms. Payton. Thank you.
    Mr. Young [continuing]. Face what you know is going to be 
an interesting session.
    Ms. Payton. Yes, sir.
    Mr. Young. Thank you, Mr. Chairman.
    Mr. Murtha. I am going to ask the two members that have the 
political concerns in their own district to make a few opening 
remarks. First we will hear from Mr. Dicks.

                          Remarks of Mr. Dicks

    Mr. Dicks. Thank you, Mr. Chairman.
    And I wish I could say that I was happy with this decision, 
but I certainly am not. And I have been a very strong advocate 
for this tanker program. There are a number of things that I 
think are basically unfair in what the Air Force did.
    First was the decision not to take into account the massive 
subsidy received by Airbus to build the A330 in launch aid. The 
A330 and the A340 received over $5 billion in launch aid, and 
yet, in evaluating these proposals, the Air Force did not take 
that into account.
    The most damning of all is the bait-and-switch tactics used 
by the Air Force to first say that they wanted a medium-sized 
tanker. They said, we do not want a great big tanker, we want a 
medium-sized tanker to replace the smaller plane, the KC-135. 
This was not a replacement for the KC-10. Had Boeing known--as 
General Lichte kept saying more is better, more is better--if 
Boeing had known that the Air Force wanted more, it would have 
bid the 777. But they were never given that opportunity. They 
were never suggested.
    And let me just read to you what the Air Force said about 
this program. ``We want to buy a tanker. We do not want to buy 
a cargo plane that tanks. We also do not want to buy a 
passenger airplane that tanks. We want to buy a tanker. Its 
primary mission is going to be a tanker. The fact that it can 
carry cargo or passengers is a benefit, but it is not the 
primary reason for the procurement.''
    So I think the Air Force has failed us here. I think they 
went with the wrong airplane. By going with a bigger airplane 
over lifetime, if you compare the two, the KC-767 and the A330, 
the A330 will burn $15 billion more in fuel. It will also have 
higher maintenance costs. It is a 53 percent larger airplane. 
It is going to have higher maintenance costs.
    Also, at the very end, after all the things that the Air 
Force did to capitulate to Airbus and EADS and Northrop 
Grumman, they have had one final capitulation on the integrated 
mission assessment, where they changed it right at the end so 
that they would be able to--instead of having to have--I mean, 
this is a very major issue--a smaller plane, because we have 
learned in airlift an airfield can accommodate more planes. 
They can have more C-17s at a field than C-5s. The same thing 
is true here. You can have more 767s at a field than you can 
have the larger plane.
    But the Air Force changed the criteria. They said, we can 
look at the--instead of looking at the weakest strength of the 
airfield, you look at the strongest strength. They changed the 
distance between wings from 50 feet to 25 feet. They also 
changed the ramps. Also, because of the size of this airplane, 
you are going to have to have a massive military construction 
program to build new hangars all over the world. And so I say 
the Air Force changed the deal in midstream to accommodate 
Airbus because they said they would pull out of the competition 
if we did not do it.
    Also, this is a crown jewel of American technology. We are 
now giving away to the Europeans one of the most significant 
things we, as a country, can do, and that is build these aerial 
tankers.
    Also, you said they have great mission capability, I mean, 
that their boom and their drogue have great capability. They 
have not even passed fuel yet. If they did, it has been in the 
last week. And at the Paris Air Show, they had a wooden thing 
that they had out there that they said was a boom, but it 
wasn't. It was just a piece of wood.
    They are behind in their Australian deal. Boeing has 
delivered a tanker to the Japanese. Airbus is still 1 or 2 
years behind. So how could you say that they have a superior 
proposal, when they have not even delivered this airplane?
    And then, to take away these jobs from the American 
people--the Boeing Company and our State of Washington, which 
has been one of the greatest supporters and suppliers to the 
Air Force, taking these jobs away and giving this--and 
remember, the major parts of this plane will be built in 
Europe. The tail is built in Spain. Germany builds the 
fuselage. Somebody builds the wings. They are going to send 
that all to Alabama and assemble it. There is going to be very 
little added to that in the United States. It is all going to 
be done in Europe by a subsidized company.
    And one other thing. They also--Boeing has to pay health-
care insurance. I do not think you took that into account, that 
over in these European countries they get socialized medicine--
which is fine; I think it is a great program. But that should 
be evaluated. Boeing has to pay health-care insurance.
    So I just think this thing is totally unfair. I think the 
Air Force has made a big mistake in shifting from the medium-
sized tanker to the large tanker. And I hope that we can 
reconsider this decision and do the right thing, which is to 
build this thing in the United States with an American company 
with American workers.
    Thank you, Mr. Chairman.
    Mr. Murtha. We agreed before we started to let Mr. Tiahrt 
also have an opening statement, and Mr. Cramer, and then we 
will go forward with the witnesses making their statement.
    Mr. Tiahrt.

                         Remarks of Mr. Tiahrt

    Mr. Tiahrt. Thank you, Mr. Chairman, and thank you for 
holding this very important hearing.
    I look forward to hearing from Secretary Payton and General 
Hudson on the Air Force decision to award the KC-X tanker 
contract to a foreign competitor over an American company. I 
understand they want to limit their comments because the 
competitors have not yet been debriefed and there is a possible 
protest decision looming. However, I hope they understand the 
seriousness of our concerns. The committee needs and demands 
answers.
    Mr. Chairman, perhaps we should have had Loren B. Thompson, 
Ph.D., here, because he has been debriefed on this program, but 
we cannot get debriefed on it.
    Mr. Dicks. By the Air Force, in fact. He said the Air Force 
officials gave him the information.
    Mr. Tiahrt. Absolutely.
    Unfortunately, the process of the Air Force's decision 
leaves me asking a tremendous amount of questions. The American 
public is rightfully outraged by this decision. I am outraged 
by this decision. It is outsourcing our national security. An 
American tanker should be built by an American company with 
American workers. Choosing a French tanker over an American 
tanker does not make sense to the American people, and it does 
not make any sense to me.
    But the more I investigate this decision and others like 
it, the more I am beginning to see a pattern that is deeply 
disturbing. We are stacking the deck against American 
manufacturers at the expense of our own national and economic 
security. Three of the last big defense contracts have all been 
awarded to foreign companies, because the deck is stacked 
against American manufacturers. We should have suspected it 
when the Navy awarded the Marine One contract to a foreign 
manufacturer, the replacement of the President's helicopter. We 
should have known when the Army awarded the light utility 
helicopter to EADS. And now, with the Air Force awarding the 
KC-X to a foreign manufacturer, it is as plain as the nose on 
your face.
    Foreign competitors were able to compete and win against 
American manufacturers because our acquisition laws favor 
foreign competitors. If we were to compete Air Force One today, 
it would go to a foreign manufacturer.
    For instance, the Air Force did not take into account the 
illegal subsidies or other nonaccounted-for costs that EADS and 
Airbus receives from European nations. These subsidies make 
Airbus aircraft cheaper in civilian markets, and clearly they 
make the A330 cheaper in this competition.
     Although these facts are well-established, I routinely 
brought them up to the Air Force's attention. In the final 
analysis, it seems that the Air Force did not even try to 
evaluate the impact of European subsidies on a tanker 
competition. And you should have known, when you have an 
airplane that is 43 percent larger built in a country where the 
euro is stronger than the dollar, it should send up a red flag 
that there are subsidies buried in their bid. And that makes an 
unlevel playing field for American manufacturers.
    In addition to stacking the deck against American 
manufacturers, I am concerned that the Air Force poorly judged 
one of the most heavily contested competitions in history. 
Although I am not blaming any one person--and this is not 
personal, as I said earlier to you personally--the fact remains 
that the Air Force looked at this competition, Congress was 
briefed on it, that the competition that we were--but we were 
not shown the same--the same thing you asked for is not the 
same thing we were shown last Friday. And I think Congressman 
Dicks pointed that out.
    You asked--or it appears you were wanting to get a KC-135, 
when you first told us, to replace the KC-135. But the airplane 
you selected is a replacement for the KC-10. That is a total 
switch in the requirements. And based on your selection, it 
appears that the Air Force was interested in a cargo aircraft 
that could tank and not a tanker with a cargo capability.
    It appears that the Air Force was willing to ignore serious 
risks: the Northrop Grumman-EADS proposal regarding supply 
chain mitigation, construction of new facilities, training a 
new workforce, let alone the fact that Northrop Grumman has 
absolutely no experience in air refueling marketplace.
    It appears that the Air Force was willing to ignore EADS' 
past performance history when it came to the A400, which was 
late in delivery; the A380, which was late in delivery; and the 
A330, which was late in delivery. All had scheduled delays, and 
yet that that is not appearing anywhere in the analysis that I 
have seen.
    It appears that the Air Force was willing to ignore the 
mission capability by picking an aircraft that can operate in 
fewer places rather than more. It appears that the Air Force 
was willing to choose an aircraft that, because of its size, 
will require significant military construction investment 
during a time of a shrinking military construction budget.
    Those are just a few of the discrepancies in what Congress 
was originally led to believe. There are many inconsistencies 
in the public statements of the Air Force, and the results of 
this competition are simply astounding.
    One additional point. The Air Force did not take into 
consideration or account for economic security when evaluating 
the KC-X proposal. I understand that economic security does not 
fit into any bid criteria or your KPPs, but the need for a 
domestic industrial base sure should. Congress has made clear 
over the years its intent that taxpayer dollars should be spent 
for American work whenever possible. During a time of economic 
uncertainty, it is baffling why the Department should decide to 
send, at a minimum, 19,000 jobs overseas to the nations of 
France, Germany, Spain and the United Kingdom. And they are 
more likely to gain more jobs than any single State here in 
America. This proposal benefits European aerospace workers at 
the expense of American workers and economic security.
    I have started a survey on my Web site, www.house.gov/
Tiahrt. That survey says, if allowed to stand, this contract 
awarded to a foreign company will: hurt American workers by the 
loss of U.S. jobs; outsource an essential military asset to 
Europe; force the United States to depend on Europe for its 
national defense; result in an inferior tanker for the United 
States Air Force; and result in the U.S. being more vulnerable 
at a time when we need to be less vulnerable.
    We cannot allow this to come true. We must have an American 
tanker built by an American company with American workers. 
Congress must act to save the Air Force from itself, Mr. 
Chairman.
    I appreciate that Secretary Payton and General Hudson have 
agreed to join us today, and I look forward to the informative 
hearing.
    Mr. Murtha. Mr. Cramer.

                         Remarks of Mr. Cramer

    Mr. Cramer. Thank you, Mr. Chairman. I will be brief.
    This is an important opportunity for us, as members of the 
Defense Appropriations Subcommittee, to scrutinize the Air 
Force's process, this country's process, that would allow a 
competition like this to occur and then an outcome like this to 
occur.
    If I understand what the Air Force evaluated, you had five 
categories. And I would like to hear you get into those 
categories: capability--we need some details about that 
capability, how that stacked up proposal to proposal; then 
proposal risk--what issues did you evaluate there; past 
performance--a very important category, especially considering 
the track records of these teams that were involved here; 
price--what place did price have in this and the evaluation; 
and then the Integrated Fleet Air Refueling Assessment. And if 
I am wrong about those categories, I want to be corrected.
    I would like to know how this process worked. It was a 
competition that was started. Was it amended? Was it postponed? 
What kind of reaction did you get from the teams that were 
involved in this? Did they have a chance to amend? Did they 
have a chance to, with the flexibility of this process, respond 
to maybe changing requirements that the Air Force had? Because, 
finally, we have to come out of this with some degree of 
confidence that this process worked and that American workers 
had an opportunity, the kind of opportunity that they should 
have, to have been involved in this.
    Ms. Payton, I would like for you to outline the Federal 
requirements on military contracts. Give us some history to 
judge this competition by, especially regarding the percentages 
of American jobs or the share which is required for large-scale 
procurements. Because what we have here today is an issue that 
reflects on the procurement process of this country.
    Thank you very much, Mr. Chairman.
    Mr. Murtha. Ms. Payton, now we will hear your presentation. 
And normally we put the whole presentation in the record, but I 
think it is so important that you go through the details of 
what the members suggested, so that we can all get a feel for 
exactly what you have gone through.

                    Opening Statement of Sue Payton

    Ms. Payton. Thank you very much. And, Mr. Chairman and 
members of this committee, I am honored to be here today. I am 
very interested in answering as many questions as possible that 
I can, within the law and within the phases of the procurement 
as it is today.
    I am really, really honored to be joined by Lieutenant 
General Jack Hudson, who is our Air Force PEO, program 
executive officer, for aircraft systems, and by Mr. Terry 
Kasten, who is our current program manager for the KC-45A.
    As you are aware, last Friday, the Air Force awarded the 
KC-X contract to Northrop Grumman. And this is a team who met 
and exceeded the requirements of the request for proposals and 
who provided the best overall value to the warfighter and to 
every American taxpayer based on the competition and the 
evaluation factors.
    At this time in the process and in this public forum, we 
cannot disclose proprietary information or source selection-
sensitive data from either vendor. The Air Force must protect 
both offerors' information unless we are given specific 
permission to release it. Of course, now, they are able to 
release their own data, but we cannot validate public comments 
or media information without violating proprietary boundaries. 
We cannot confirm or deny what is in the press.
    Furthermore, after the debrief of the unsuccessful offeror, 
they have the right to file a protest. And we cannot jeopardize 
the Government's probability of winning a protest with any 
comments that are made for the record today.
    I would like to reiterate that the Air Force followed a 
carefully structured source selection process, which was 
designed to provide transparency, maintain integrity and ensure 
a fair competition throughout the entire source selection 
process. The evaluation team was comprised of experts covering 
a broad spectrum of specialties, from acquisition to 
operations, hand-picked from across the Air Force and other 
Government agencies. We had an unprecedented amount of time 
spent to gain a thorough understanding of each proposal.
    Additionally, the Air Force and the offerors had hundreds 
of formal exchanges regarding the proposals throughout the 
evaluation process. The Air Force provided all offerors with 
continuous feedback through discussions on the strengths and 
weaknesses of their proposals.
    Competition for major weapons systems are very complex. 
This entire process was very lengthy, but there were numerous 
exchanges that fostered a mutual understanding and clarity. As 
a result of this fair and open competition, the Air Force will 
deliver a tremendous capability to the warfighter at a great 
value to the taxpayer.
    We are ready now to move forward on something that is very 
late to need, on a program that is smart, has steady 
reinvestment to ensure future viability of something that is 
extremely unique and vital to our U.S. security.
    I would also like to point out that the Air Force's 
acquisition strategy was approved by the Office of the 
Secretary of Defense and is in compliance with the Competition 
in Contracting Act, the Buy America Act, and the Federal 
acquisition regulations that are derived from those acts.
    As part of the acquisition strategy, the contract we 
awarded is the first of a three-part set of tranches to 
recapitalize our entire KC-135 fleet. In a few more years, we 
will take a look at the tanker requirements and evaluate 
whether the KC-45 aircraft is still the best solution or 
whether we need further competition.
    KC-45A is our highest procurement priority. It is critical 
to the entire joint coalition military team's ability to 
project combat power all around the world. It gives America and 
our allies unparalleled rapid response to combat and 
humanitarian relief operations. KC-45A tankers will provide 
increased aircraft availability, more adaptable technology, 
more flexible employment operations, and a greater overall 
capability than the current inventory of KC-135Es and KC-135Rs.
    The KC-45A will be able to refuel receptacle and probe-
equipped aircraft on every mission and, itself, be in-flight 
refuelable. Also, the KC-45A will have an additional role, 
secondary, of carrying cargo, aeromedical evacuation and 
passengers, and will be equipped with defensive systems to 
enhance its utility to the warfighter.
    As you know, the current fleet of Eisenhower-era KC-135s 
averages over 47 years old. The KC-45A program is based on a 
planned purchase of 179 aircraft and is the first of up to 
three recapitalization programs to replace that entire fleet, 
as I mentioned earlier.
    The Air Force has budgeted approximately $3 billion per 
year for an annual production rate of 12 to 18 aircraft. But 
even with this level of investment, it will take several 
decades to replace the 500-plus KC-135s. It is absolutely 
critical for the Air Force to move forward now on this program.
    On behalf of the entire Air Force community, I would like 
to express my appreciation to both the teams for their 
tremendous efforts. I thank you for the opportunity to be here 
today to clarify as much as I can. And I look forward to 
General Hudson, Mr. Kasten and I answering any questions that 
we can within the constraints of where we are in the source 
selection process.
    Thank you.
    [The joint statement of Secretary Payton and General Hudson 
follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



    Mr. Dicks. Mr. Chairman, I would like to ask you a 
question, if I could. It just seems to me that they are not 
going to be able to answer any of our questions that we have 
presented. And I would just like to know when in the 
procurement process can they address the issues that we have 
raised here this morning?
    Mr. Murtha. Let's see what they can answer.
    This is as political as anything that we do. You say you 
budgeted, but we are the ones that appropriate the money.
    Ms. Payton. That is correct, sir.
    Mr. Murtha. When I look at the Dubai crisis that we had--
and the public was up in arms--this committee, the full 
committee, voted 60 to 2 to stop that provision. So this has to 
be completely aired so that the public understands.
    Were any presidential candidates briefed about this before 
the information was released to the public?
    Ms. Payton. Absolutely not.

                          Remarks of Mr. Lewis

    Mr. Lewis. Mr. Chairman? I really hate to--I am going to 
have to run. We have 22 hearings today. But in the meantime, if 
I could just----
    Mr. Murtha. Sure.
    Mr. Lewis [continuing]. Make a comment?
    To you, General Hudson, let me just say that this 
subcommittee has lots of reasons to seriously question what we 
do within the building over there relative to procurement 
processes.
    When I was first a brand-new Chairman of this Committee, 
with both sides of the aisle present, closed the door for 2 
hours and made a decision to pull procurement recommendations 
regarding the F-22. You would have thought we blew the top off 
the Pentagon when we did that. And we did that because we were 
convinced that a lot needed to be done in terms of evaluating 
the capability of that aircraft before going forward, like 
software in the wings, et cetera. I think if we had not done 
that, that program would have fallen off the cliff.
    Now, General, I would make this point. I do not believe 
that the F-22 program was ever scheduled in a fashion to have 
manufacturing take place outside the United States.
    Now, let me further make another comment, General and Madam 
Secretary. It is very important for you to know that Northrop 
Grumman has a very sizable presence in my district. But I am 
not here today and I am not going to be asking questions 
because of employment, period. I am looking at capability. I do 
know that, about 2\1/2\ years ago, we were that close to giving 
the contract to Boeing, and other things developed that caused 
us to reconsider the direction that we were about.
    I want to make certain that we continue with manufacturing 
capability in the United States. I want to make certain that 
any technical developments within this program that are vital 
to the future interests of the United States are not going to 
be transferred to the likes of a country that I do not have all 
the confidence I would like to have in, namely France.
    There are elements like that that are very important. 
Short-term products that will deliver the requirements we need, 
very, very critical. But there is a long-term interest of the 
United States security involved here as well.
    And those are the questions I want to ask you all behind 
closed doors. This is not the place.
    Ms. Payton. Thank you.
    Mr. Lewis. But there was a need for this forum, without any 
question. And so, with that, Mr. Chairman, thank you.

                         POLITICAL IMPLICATIONS

    Mr. Murtha. Yes, the political implications are so severe 
in this case. For instance, we could not even get NATO to give 
us an additional 3,000 troops in Afghanistan. In Iraq, they 
have pulled back most of the forces from Europe. They had 
47,000 there, at one time; now we have 10,000.
    So the political implications are very severe here. So this 
committee, in particular, has to take into consideration not 
only the technical details, the capability, but also the 
possible technical transfer of information. So we would hope, 
as this hearing goes along, you will be able to answer those 
questions, satisfy the committee, and this committee then will 
make a decision whether we are going to go forward.
    Obviously, it is going to make a difference if both 
Democrat presidential candidates are saying--I think they said 
they were against this proposal. This proposal is going to be 
funded over a long period of time. It is going to be a lot of 
money. So it is something that we have to take into 
consideration, because we are going to be here and this 
subcommittee is going to be here, whoever is the Chairman of 
it, and we will have to consider what the White House wants to 
do about it.
    Mr. Young.
    Mr. Young. Well, Mr. Chairman, we have a good attendance 
today. And I am wondering if Mr. Loren Thompson is in the 
audience?
    Mr. Dicks. No.

                             PRESS REPORTS

    Mr. Young. Because some of my questioning goes to the issue 
of why Loren Thompson was given information that this 
subcommittee is not going to receive today from the official 
witnesses.
    Mr. Thompson said that--this is what I mentioned earlier, 
in my earlier statement--Mr. Thompson said that his information 
was based on information from the Air Force and company 
officials. If that is the case, if Thompson is entitled to have 
information from the Air Force, certainly this subcommittee 
should be entitled to have that information.
    But one of the things that Thompson reports on, based on 
his information from the Air Force, said that the awardee and 
its subcontractors were more highly rated. And I just wonder 
about that. Most of the subcontractors, I understand, are going 
to be involved from our friends in Europe. I just tend to 
believe that American subcontractors--actually, what I am 
saying is I am a little offended by the fact that the Air Force 
seems to rate subcontractors outside of the country higher than 
they do contractors, subcontractors within the country.
    Do you have any comment on that?
    Ms. Payton. Yes, sir. And I appreciate the question.
    The Air Force, to my knowledge, no one on this source 
selection team provided any information to Loren Thompson. In 
e-mail traffic that I have seen recently, it did say that he 
did get information from Government individuals and that he got 
information from both of the offerors.
    I cannot comment on the facts of Loren Thompson's article. 
I am more than willing to go behind closed doors and discuss 
these things. But as I said earlier, I cannot disclose things 
that are competition-sensitive, source selection-sensitive or 
proprietary in an open forum. And I cannot discuss this until I 
have debriefed both the successful offeror and the unsuccessful 
offeror.
    Mr. Young. Secretary Payton, I understand that, and I agree 
with that. And I think we have to--it is sensitive here. We 
have to be very careful that we are not trying to, as a 
subcommittee, that we are not trying to affect the outcome of 
any contract. That is not our role in life.
    But it is important that we know that the funding that we 
would appropriate is going to be handled properly.
    Ms. Payton. Yes.

                              JOB CREATION

    Mr. Young. That it was because of a decision based on 
quality, on truth.
    And some of my colleagues here have raised some serious 
questions. And I think that, Mr. Chairman, it may be that we 
would have to have a closed-door session on this subject. 
Because I think my colleagues have a right to have their 
questions answered, because they have very specific parochial 
interests on both sides of this issue.
    The issue of jobs, this is an important issue to the United 
States and to Members of Congress. Can you estimate how many 
jobs would be created if the contract, as recommended today, 
how many jobs would be created outside of the United States for 
this first 179 aircraft?
    Ms. Payton. Job creation, location of assembly and 
manufacturing were not part of this evaluation criteria, 
according to the law. The law gives a special exemption, under 
the Buy America Act, to a dozen countries, and they say that we 
should treat those countries as the U.S. The Buy America Act is 
very clear on that. The countries that have companies that will 
be engaged in the new KC-45A are all on that exempted list. So 
the laws of the Federal acquisition regulation, the provisions 
of the Buy America Act are all being followed here.
    Mr. Young. Okay. And I will accept that. And I understand 
it is important to follow the law. But do you know the answer 
to that? Do you personally know the answer to that?
    Ms. Payton. You know, I do not, because it was not part of 
the evaluation criteria. And as a person who has to follow the 
law, I made sure, as the Air Force made sure, that we stayed 
within what the request for proposal asked for, that we made 
sure that all the requirements were evaluated in the way that 
we had discussed with the offerors.
    We had dozens of discussions with the offerors, so there is 
no mystery here about--and no new information about where each 
offeror stood in relation to the RFP.
    Mr. Young. Okay. And I understand your position and your 
responsibilities. And I am just, sort of, testing to see if we 
can break through that a little bit.
    Ms. Payton. Well, let me put it this way. I wish I could 
award to somebody I like. I wish I could award to somebody who 
offers things that I personally like. But according to the 
law--and, you know, I promised the House and the Senate when I 
went through confirmation that I would uphold the laws as 
written of this country--those things cannot enter into the 
decisions made in acquisition. And that is where I am finding 
myself, sir.

                              KC-135 FLEET

    Mr. Young. Okay. Well, I understand that. And, frankly, I 
appreciate that, and I think it is important that people in 
positions of responsibility like yours do follow the letter of 
the law.
    Okay, but let me ask you something I think you can answer. 
How much time--or maybe General Hudson would have a good answer 
on this--how much time is left in the KC-135 fleet?
    I know there are several different blocks of aircraft. We 
are very, very interested in this issue in my part of Florida 
because of MacDill Air Force Base, and we have some of the 
older KC-135s.
    How much life is left in the KC-135s? And will the new KC-
45A program, will it intersect the line somewhere where before 
the KC-135s all quit flying?
    Ms. Payton. Yes, sir. I would like to have Terry Kasten 
answer that question, because he is very in tune with all of 
that.
    I will say, first of all, that our KC-135s are very old. We 
have incredible maintenance crews, who, honestly, they will 
keep them flying as long as we need them, because that is how 
great they are. But our warfighter deserves better.
    And so I would like Terry to give more detail to exactly 
what the real conundrum is that we are facing here.
    Mr. Kasten. Thank you, ma'am.
    Yes, sir. Our projections are at a recapitalization rate of 
15 aircraft per year, which is kind of the target for the 
source selection, that the 135 fleet is going to be out there 
in diminishing numbers for the next 20 to 30 years, out to the 
mid-2030s and mid-2040s. That would make that aircraft, as the 
last one leaves the fleet, over 80 years old.
    Again, that is driven by how quickly we can bring the KC-45 
into the inventory. But if you are talking about replacing 400 
to 500 aircraft at 15 aircraft per year with the KC-45, you can 
just do the numbers.
    Now, we are going to maintain the 135 and keep it viable as 
best as we can, but when you get airframes operating that are 
that old, you get into the realm of unknowns there. And we are 
just hoping to avoid any catastrophic issues there that would 
force us to ground that aircraft for long periods of time.
    Mr. Young. Well, we need to get these new tankers. And it 
is too bad, as I said in my opening statement, it is too bad 
that we have lost so much time because of the fiasco 
surrounding the proposed lease program some years ago.
    Mr. Chairman, a lot of our members have a lot of 
interesting questions. And I thank you for the time.

                            INDUSTRIAL BASE

    Mr. Murtha. Did the Air Force consider the impact in 
industrial capacity? The reason I ask that question is we 
produced 86,000 airplanes in 1943. We are going to buy about 
400--and a lot of those are UAVs--this year. Did you consider 
industrial capacity when you make your consideration on these 
contracts?
    Ms. Payton. No, sir. Industrial capacity was not part of 
the evaluation criteria. It is not part of the Federal 
acquisition regulation. And so industrial capacity was not 
considered.
    Mr. Murtha. Mr. Dicks.

                               LAUNCH AID

    Mr. Dicks. Was the fact that the A330 received launch aid, 
which is a violation of the WTO regulations, and that the U.S. 
Trade Representative was bringing a case against Airbus and 
EADS for this violation, was that taken into account?
    Ms. Payton. Subsidies are not taken into account within the 
evaluation criteria. However, because of the WTO environment, 
each contractor offered, and they are contractually bound, that 
if there are penalties assessed on them should they lose the 
suit in WTO that they would not convey any of those losses onto 
the Air Force.
    So relative to the cost of the aircraft, depending on who 
would win or lose, because there is a suit and there is a 
countersuit, the Air Force will not be culpable to pay any of 
those.
    Mr. Dicks. Don't you think it is unfair, though? I mean, 
going back to just the fairness of this. You have done your 
work now, and it is the Congress's time to make a decision of 
whether what you did is in the best interest of our country.
    Ms. Payton. Absolutely.
    Mr. Dicks. What worries me is that if we do not take 
subsidy into account, then it allows the foreign competitor to 
have a lower development cost or bid lower on the price because 
they know they have already received a subsidy. And they also 
have been bailed out repeatedly by the European countries. When 
they have gotten into trouble, there have been cash infusions 
into Airbus. Boeing does not get any help like that. Boeing has 
to do it the old-fashioned way; it has to go to the banks. This 
is, I think, a basic unfairness.
    Now, is it not true that the Air Force changed the RFP at 
the final release to include additional evaluation criteria for 
airlift that was advantageous to Airbus?
    And I have the letters, I have the deal, so I would urge 
you not to say no, because you did do it. Okay?

                           KC-X REQUIREMENTS

    Ms. Payton. Well, I would respectfully submit that the 
requirements for the KC-X were approved by the Joint 
Requirements Oversight Council, I believe in early January----
    General Hudson. About right.
    Ms. Payton. Not one requirement has changed since the JROC 
approved them.
    Mr. Dicks. I said additional evaluation criteria for 
airlift.
    Ms. Payton. No, sir, there has not been any additional 
criteria added for airlift. As a matter of fact, we have----
    Mr. Dicks. There was no real--on the airlift, there was no 
real requirement in the document for airlift. Isn't that 
correct? You know, they did not say, you have to have this much 
airlift in order to be able to compete. Isn't that correct?
    Ms. Payton. There were nine key performance parameters--go 
ahead.
    Mr. Dicks. Let him answer. That is a good idea.
    General Hudson. Yes, sir. I will talk to the requirement 
for airlift capability.
    There are nine key performance parameters. These key 
performance parameters are minimum attributes or 
characteristics considered most essential for effective 
military capability. So they are the basic nine. They are 
developed by the warfighting command, in this case the Air 
Mobility Command. They go up through the Air Force Requirement 
Oversight Council; they go up through the Joint Requirement 
Oversight Council. And, at that point, they are fully vetted.
    These requirements then are part of the request for 
proposal. It is called a systems requirements document. We just 
take what those requirements are that are vetted by DOD, and 
they become part of the RFP, and then the contractors respond.
    One of the nine key performance parametersis (KPPs) is 
called airlift capability. This is the ability to carry 
passengers, palletized cargo, and air medical patients in the 
airplane. So there is a fundamental capability in terms of this 
one KPP; it is number four that was in the RFP.
    The contractors responded. We evaluated the proposals from 
both competitors. We fed back our evaluation to them, asked 
questions along the way. In fact, we fed back the data several 
times to the competitors, gave them a chance to clarify their 
proposals and improve them as they saw fit. And then that was 
finally evaluated for the final decision process.
    So that is how that worked. Again, airlift capability was 
one of the fundamental nine.

              INTEGRATED FLEET AERIAL REFUELING ASSESSMENT

    Mr. Dicks. Yes. But the problem I have here is that you 
made some changes in this right at the end. And Boeing was told 
that the reason the changes were made was because Airbus and 
Northrop Grumman and EADS would pull out of the competition if 
these changes were not made. This is what they were told.
    Let me just talk about some of these so that you get a 
flavor of what I am talking about.
    ``Maximum tankers at base have been calculated using 
precise parking space rules multiplied by mission capability 
rate. After the model was run, a 13 percent credit reduction in 
the number of aircraft required was applied for receptacle-
equipped tankers.''
    Then it goes into, ``The maximum takeoff weight and takeoff 
fuel calculations for bases with multiple ramps was determined 
in accordance with the lowest ramp strength, i.e. Pavement 
classification numbers. It is now determined using the highest 
ramp strength, which would obviously favor a larger airplane.''
    This was done in January of this year. Parking space was 
calculated based on wing-tip-to-wing-tip separation of 50 feet. 
This separation is decreased to 25 feet for the two employment 
scenarios. So that would favor, again, a larger airplane.
    Tanker ground turnaround time was set to a fixed number 
plus the time required to ground-refuel the tanker, resulting 
in longer turnaround time for larger tankers.
    So all of these things were done. And we all know--I have 
been in this airlift thing for many, many years. We all know a 
bigger plane takes up more space on the ramp. And that is why 
Boeing went with the KC-767. The requirements were all met by 
the KC-767. All these requirements, these five things were all 
met, every single one of them.
    And you then decided to go with a larger plane. And if 
Boeing had known you had wanted a larger plane, they would have 
bid the 777. But they were told that you wanted a medium-sized 
airplane, and that was in the criteria of the RFP. So that is 
why I say this is bait and switch, very unfair, and cost Boeing 
the competition. If bigger was better, the Air Force should 
have said that up front, and they did not. They said you have 
to meet the criteria. If you meet the criteria, you have done 
it. You do not get any advantage for more air cargo capability, 
for more pallets, for more this, more that. And they were told 
what they wanted was a tanker and it was the tanking that is 
important.
    And Boeing has built tankers. Airbus has never built a 
tanker. And they are 2 years or 1\1/2\ years behind in their 
deal with Australia. They have never had a boom that has passed 
fuel. And you give them a superior rating on the boom drogue 
capability. That is just impossible.
    I mean, this thing is fatally flawed, in my judgment. Can 
you explain all these changes at the last minute in a 
competition of this magnitude?
    Ms. Payton. Congressman Dicks, if I could indulge on Mr. 
Terry Kasten to answer the questions relative--this is relative 
to our Integrated Fleet Aerial Refueling Assessment (IFARA) 
rating. And I think Terry has a lot of detail on that, so if I 
could do that, I would appreciate it.
    Mr. Dicks. Thank you.
    Mr. Kasten. Thank you, ma'am.
    Sir, we have not changed any of the requirements since the 
RFP went out. The things that you talked about were pre-RFP. 
The offerors had an opportunity to see that. All the potential 
offerors had an opportunity to see that.
    Mr. Dicks. And Boeing objected very seriously to your doing 
it and were told, if they did not go along, that the Air Force 
was worried that Airbus would drop out of the competition.
    Mr. Kasten. Sir, I am not aware of that.
    Mr. Dicks. That was what was communicated to them, and that 
is what they told me.
    Mr. Kasten. That was not communicated----

                        CHANGES IN REQUIREMENTS

    Mr. Dicks. And that is why you guys said we have to make 
these changes, we have to accommodate them.
    I can remember way back, at the start of this whole thing, 
when Ken Miller would come in and tell me, ``Hey, Norm, this is 
going to be on tanking only. We don't want a great big 
airplane. We want a plane that can do the tanking mission.''
    And by the way, on this thing, the Boeing proposal met the 
curve, the tanking curve by 20 percent exceeded the requirement 
there.
    But the whole idea was we want a smaller plane because you 
can put it on more fields, it is more energy efficient over the 
lifetime, we will save $15 billion over the lifetime, there 
will be $5 billion less in repair work.
    You know, smaller is better, in some cases. And, you know, 
it does not take up and jam up the fields like a C-5 would 
compared to a C-17.
    So if you wanted a big plane, why didn't you say so right 
up front? Why didn't you say so right up front, that you wanted 
a larger aircraft, instead of saying you want a medium-sized 
aircraft and then going to a--I call it bait and switch. The 
Air Force said one thing and then did the other thing.
    And General Lichte is up there praising the ``more, more, 
more is better, better, better.'' I mean, somebody should have 
showed him the memo from the Secretary that said we want a 
tanker that does the job, we don't want a great big airplane 
that is going to be expensive to operate. And the emissions are 
going to violate all kinds of environmental rules, at some 
point, when we have greenhouse effects and all that.
    Mr. Murtha. I think the member has gotten his point across.
    Mr. Dicks. I do. But I would just like one chance to 
answer, and then I will shut up for a moment.
    Ms. Payton. If I could respond to General Lichte's 
comments, his comments were in relation to the KC-135, not in 
relation to any other proposed aircraft. He was not read in to 
the source selection.
    Mr. Dicks. Why did you have him standing up there?
    Ms. Payton. Because he is the customer for Air Mobility 
Command. He is the customer that--we are meeting the 
requirements of Air Mobility Command.
    Mr. Dicks. Shouldn't you have gone to him first, then, and 
asked him if they wanted a bigger plane? Shouldn't you have 
done that first, instead of waiting till the end to decide 
that?
    Ms. Payton. We had representatives from Air Mobility 
Command on the source selection team. We followed all of the 
laws to specifics. It has been fair and open. We have 
communicated constantly with both of the offerors. There have 
been no change in requirements. And everything we have done is 
in the effort of competition, which is what this is about. It 
is about fair and open competition.
    Mr. Murtha. The time of the gentleman has expired.
    Mr. Young. Mr. Chairman?
    Mr. Murtha. Yeah.
    Mr. Young. I am not sure that we are getting an answer to 
what Mr. Dicks is suggesting about the changes during the 
process.
    Could you give us a direct answer? Were those changes 
actually made, or is Mr. Dicks inaccurate? Give us a direct 
answer on that.
    Ms. Payton. There were no changes made to the requirements 
or the evaluation criteria of this RFP after it was approved by 
the Joint Requirements Oversight Council. There have been no 
requirements changes.
    Mr. Dicks. Were the changes that I suggested made in the 
document that was sent out to both the parties? I have got the 
letter right here that says these changes were made. And it was 
an advantage to Airbus to have them made.
    Maybe they are not requirements, but they may be called 
something else. You are the guy now. Were these changes made or 
not? Remember now, when you are up here before Congress, even 
if you are not under oath, you are expected to answer 
truthfully.
    Mr. Kasten. Sir, I always answer truthfully.
    Mr. Dicks. Thank you.
    Mr. Kasten. As I started to say, no requirements changes 
since the RFP went out, from my recollection.
    Mr. Dicks. What about the changes I mentioned, the ones I 
read to you? Were these things changed?
    Mr. Kasten. Those were, as part of the RFP development 
process. And we discussed those with the offerors and notified 
the offerors of the----
    Mr. Dicks. That you were going to make these changes?
    Mr. Kasten. They saw these specific aspects of the draft 
RFP as we sent those out.
    Mr. Dicks. Mr. Chairman, I have a letter for the record 
that----
    Mr. Murtha. Wait just a minute. Now, as I understand it, 
what he is saying is changes were made in order to accommodate 
Airbus after the RFP. You are saying they were not. That is 
very clear to me. It was clear to me before. There have been no 
changes made----
    Ms. Payton. That is correct.
    Mr. Murtha [continuing]. In the RFP in requirements, in any 
kind of whatever you call them after the RFP. Is that accurate?
    Ms. Payton. Correct.
    Mr. Kasten. Not that I recall; that is correct.
    Ms. Payton. On January 30th, the RFP was released. We 
released various levels of draft RFP well before that to 
coordinate with both offerors so that they fully understood.
    Mr. Murtha. It is fully possible that, before the RFP was 
finalized, that you may have made changes in order to 
accommodate competition.
    Ms. Payton. I would like to take the question for the 
record, so that I can come back with the details of what 
happened back more than a year ago.
    But anything that we looked at relative to this RFP had to 
do with Air Mobility Command and the customer.
    Mr. Murtha. That is not what I am asking. I am asking that 
any of the requirements that were changed could have been made 
to accommodate Airbus, but if they were, they were made before 
the RFP was finalized. Is that accurate?
    Mr. Kasten. That is my recollection, ma'am.
    Ms. Payton. I am not willing to say that changes were made 
to accommodate Airbus. I am not willing to say that, under any 
circumstances. The requirements of the RFP were what the flying 
customer, Air Mobility Command, put in their capability 
development document (CDD).
    Mr. Murtha. Madam Secretary, there was tremendous pressure 
from an individual in the Senate to get competition. We know 
what happened. We know this is costing billions of dollars. We 
are in a terrible position. You are putting us in a position--
when I say ``you,'' the country is in a position where, because 
of the individual in the other body stopping what we--the Air 
Force and this committee agreed to do, it is costing billions 
of dollars. And we are at a point where we do not know how long 
it is going to take to get these things out in the air.
    And so, how many of these have been grounded so far? How 
many are grounded right now, how many of these tankers?
    Ms. Payton. I will have to take that question for the 
record.
    Mr. Murtha. Do you see the dilemma we have been put in?
    Ms. Payton. Absolutely. This is why we have a sense of 
urgency. But I will tell you----
    Mr. Murtha. We have a sense of urgency. We want to make 
sure the right decision is made here. That is our problem.
    Ms. Payton. And I will tell you that there are three things 
that I have encouraged the Air Force team to always consider: 
The motive must be pure, the cause must be just, and the 
process must be sound. And we must have no fear and no favor.
    Mr. Murtha. No, I understand that. But you----
    Ms. Payton. This is done in accordance with the law.
    Mr. Murtha [continuing]. The pressure put on for 
competition in this particular endeavor.
    Mr. Hobson.
    Mr. Hobson. Thank you, Mr. Chairman.
    Ms. Payton, you know I have great respect for both you and 
the General and your staffs. You have to operate within certain 
constraints.
    Ms. Payton. Yes, sir.

                            INDUSTRIAL BASE

    Mr. Hobson. But I have a lot of problems with your 
decision. We have another job, too, that apparently is not in 
your purview, and that is the industrial base.
    I have been told by the previous Secretary of Defense he 
did not care about industrial base; he was going to buy what he 
thought was the best thing wherever he could buy it. We have a 
different duty sometimes than that, if there is an equally good 
proposition.
    And I would tell you that the countries that are on that 
list think the same way when it comes it their country. And I 
will be introducing something that was introduced in one of the 
parliaments of Europe some time ago when a company in my State, 
who actually wins somewhat in this deal, was trying to sell 
something to a country in Europe. And one of their 
parliamentarians stood up on the floor and said in their 
parliament, ``I don't care if it is a better price or a better 
deal; it affects our industrial base. And we are going to buy 
our engines from our country, and not the engines from the 
United States.'' And they did, because their country valued 
their industrial base over what their military said to them--or 
their Navy, in this case, I think it was.
    Mr. Hobson. We have an obligation to do that. Apparently 
from what you say, that is not in your purview; am I correct in 
that?
    Ms. Payton. Let me say a couple of things. First of all, I 
view Northrop Grumman as an American company. I view General 
Electric, who has jobs from this in Ohio and North Carolina, as 
an American company.
    Mr. Hobson. Do you view EADS as an American company?
    Ms. Payton. I view the folks in Mobile, Alabama, and 
Melbourne, Florida, as Americans. But that did not enter into 
my decision here. What entered into my decision is that 
according to the law, the House and the Senate have approved a 
law called the Buy American Act that says that Australia, 
Belgium, Canada, Denmark, Egypt, the Federal Republic of 
Germany, France, Greece, Israel, Italy, Luxembourg, 
Netherlands, Norway, Portugal, Spain, Sweden, Switzerland, 
Turkey, the United Kingdom and Northern Ireland are to be 
viewed as the U.S. views our own industrial base. That is the 
law of the United States of America.
    I look to the legislative branch to write the laws of this 
country, and I am sworn to enforce the laws. When you said we 
want a fair and open competition under the laws of the Federal 
Acquisition Regulation, the Buy America Act, the Trade Secrets 
Act and a million other acts, I complied with those laws. And I 
will tell you that we have a very, very capable new KC-45A. And 
I will tell you that when Congressman Tiahrt and I go out to 
the golf course to tee it up, we either bring our A game, or we 
don't bring our A game. Northrop Grumman brought their A game 
based on the law that I must abide by.
    Mr. Hobson. Well, when they brought it, they brought an 
airplane that has not flown in its capability. You have one 
competitor who has flown an airplane as a tanker who has a 
system that it has used to refuel. I have flown in them. They 
are old, but I have flown in them. They are building a new one. 
The other airplane, has it been delivered anywhere in the world 
to a customer today with the capability, without delays? We 
already know that this program needs to move forward. Had we 
not been messed up before by some inappropriate actions, and 
then had we not had inappropriate actions again, we would have 
had this well on its way by now, and at much less cost than I 
think we are probably going to be at today. You know that 
better than I do.
    Ms. Payton. There are some false assumptions. I believe 
there may be some false assumptions in your statement. I look 
very much forward to talking with you in a closed session.
    Mr. Hobson. What I am talking about, can you tell me when 
we are comparing apples to apples? In the two situations, you 
have one experienced company at this, who I happen to think is 
an American company, and, as far as I, am concerned, Northrop 
Grumman is a front. They are a fine company, but they are a 
front for the French and their other partners, and a company 
that does have problems or whatever you want to call it. And we 
are rewarding that by giving them this thing. This is what I am 
saying. You are not saying it. What I don't understand is there 
doesn't seem to be credit for the people who have delivered and 
who have a proven product versus the people who are giving you 
a scenario that is all in the future of what they are going to 
do. You have made a judgment on that basis that such actions 
don't count, I guess.
    Ms. Payton. The Air Force looked at an integrated 
assessment of all five of the factors that drove the decision, 
and based on the source-selection-sensitive data that was 
provided, the Northrop Grumman proposal offers the very best 
value to the Air Force and to every American taxpayer, and I 
look forward to discussing----
    Mr. Hobson. You keep saying the Northrop Grumman proposal.
    Ms. Payton. Yes, sir.
    Mr. Hobson. Is that the title in it? I thought the title 
was, when I keep reading about--it is the Northrop Grumman-EADS 
proposal.
    Ms. Payton. The prime contractor is Northrop Grumman. The 
prime contractor is Boeing.

                                PROFITS

    Mr. Hobson. How much of the profits from this deal resides 
in this country versus these other countries? Let us assume you 
can't treat them all the same. What percentage of the profit 
resides in this country versus the profit that goes into the 
European countries?
    Ms. Payton. Sir, there were no laws. It was not part of the 
evaluation criteria and----
    Mr. Hobson. I didn't ask you what you the law was. I asked 
you what percentage of profits. You say you didn't take that 
into account?
    Ms. Payton. We did not take it into account, sir.
    Mr. Hobson. That is what I want to know.
    So there are things in here that we may want to take into 
account that you all didn't have to take into any account.
    Ms. Payton. Absolutely. We could not take it into account 
because it was not part of the requirements in the evaluation 
criteria that each of the proposals was going to be evaluated 
against, and that would have been an immediate protest for us 
to throw in any additional things that were not in the 
requirements as traced. I will say the DOD Inspector General 
came in and made sure that we traced every single requirement 
out of the JROC into the system requirements document and into 
the RFP without dropping a single requirement. I have to stay 
within the Federal Acquisition Regulation.
    Mr. Hobson. I know after all the problems on the CSARs and 
the other things, that you tried to scrub everything you could 
on this one. But we still have some disagreements, and, you 
know, I don't care who the contractors are in this deal, 
whether it is GE--I didn't get into that. They are in 
Cincinnati. I don't represent Cincinnati. I represent Wright-
Patterson.
    Anyway, what I am concerned about is we get the best tanker 
for the best dollar value, and it be, frankly, an American one. 
Basically you say you think you have done that. I disagree, but 
that is where we are.
    Ms. Payton. We have to go to the law and look at the law.
    Mr. Hobson. I understand that, and I have no question of 
your integrity.
    Ms. Payton. Thank you, sir. I appreciate it.
    Mr. Hobson. You are tops. You are tops.
    Mr. Murtha. The time of the gentleman has expired.
    Mr. Moran.
    Mr. Moran. First of all, Ms. Payton, when the Chairman last 
year asked me to look into the acquisition procurement process, 
which we were having a great deal of trouble with throughout 
the services, I did a lot of asking around. And it might be 
relevant at this point to observe the fact that you have the 
very best reputation of every service acquisition officer.
    Ms. Payton. Thank you, sir.
    Mr. Moran. I didn't know you. I don't know that I ever met 
you before. I never thought I would ever have reason to mention 
that. But what I was consistently told is that you were the 
one. Maybe it is kind of ironic they would mention it was a 
woman who would stand up when everybody else was trying to cut 
back on the acquisition staff because the authorizing committee 
wanted you to cut about 50 percent. You stood your ground. You 
kept them, and as a result, you kept the highest-quality 
people. It didn't happen in a number of the other services. So 
I appreciate your doing that.
    Ms. Payton. Thank you, sir.

                           FOREIGN SUPPLIERS

    Mr. Moran. I was also a little disturbed, frankly, at the 
implication when--I don't know who this gentleman to your right 
is, but when he had to be reminded to tell the truth, we 
assumed that you have all told the truth, and I am trying to--
as far as I am concerned, it seems to me that we need to simply 
know what the law was and the extent to which that you observed 
the law. If politics is going to trump policy, then it ought to 
be in such a manner to change the law so that the law is 
different next time we have a contract situation like this.
    Now, in the interest of full disclosure, I have all of them 
based in my district in northern Virginia. Most of them are 
just an office, but everybody is there. We don't make anything, 
though, so it has nothing to do with jobs. Now, I have known 
the Boeing people for what, at least 35 years, Mr. Dicks, 
because I used to work on the appropriations staff for Senator 
Magnusson, and I know they are very good people, and I like 
them personally, as I happen to like Mr. Dicks. And I admire 
his commitment to not only his constituents, but to America's 
industrial base. But I am a little bothered by the direction in 
which we are going.
    The Chairman mentioned the Dubai Ports World situation. It 
was a 62-2 vote. I happened to be one of those two, so my 
comments have to be taken in that context. They are hardly 
representative. But the other guy retired. Jim Kolbe.
    I don't go down easily.
    But, you know, I have also had occasion--I don't want to 
get into too much of a digression--but to go with the Chairman 
of Homeland Security Subcommittee. It turns out Dubai Ports 
World has the very best technology, and as a result of that 
politically oriented decision, we made ourselves somewhat more 
vulnerable at the ports, and the Secretary of Homeland Security 
will acknowledge that. It also had implications that may be 
relevant here because when our financial institutions go to 
people with money, mainly the Emirates right now, for a bailout 
of our financial institutions, they tell them that we have to 
attach as much as a 10 percent political risk premium on every 
investment in the United States because of the Dubai Ports 
World situation. So it is going to continue to cost us billions 
of dollars. Now they invest anyways, and they have lost 
billions, but they still want to invest in the United States.
    So with that context, are both contracts in any way using 
foreign suppliers? In other words, we know the EADS role, but 
does the other contract involve any kind of foreign supplier or 
manufacturing base? Do we know that? I know it wasn't your job 
to find out, but I would be curious.
    Ms. Payton. Sir, I would be very happy to take that for the 
record. I think we owe you more detail as to if so, how much.
    [The information follows:]

                           Foreign Suppliers

    This information is source selection sensitive. During the 
Government Accountability Office protest period, such 
information will be provided verbally in a closed session, when 
requested by the Chairman or Ranking Member of the Committee.

    Mr. Moran. I am told both that contracts actually had 
subcontractors who were going to make things outside the United 
States.
    Ms. Payton. The vendor supply chain for both aircraft does 
include piece parts components from people all over the world.
    Mr. Moran. From foreign manufacturers, exactly. And I am 
also concerned, I doubt you are going to be able to tell us, 
but the potential retaliation if we were to deny this contract, 
what might happen to some of the sales overseas. You can't 
answer that, but I think it is worth putting on the record, 
since we are laying out the political context here, Boeing has 
a great deal of foreign operation in other countries, France 
included. But if we are going to get into this, we ought to 
know what the long-term ramifications are going to be, because 
the long-term ramifications of the Dubai Ports World situation 
are lasting and very serious and expensive to the United 
States.

                               SPLIT BUY

    Now, let me ask you another question that, because I have 
been sort of watching this as afar since I didn't really have a 
dog in the hunt, but late in 2007, there was a split-buy 
replacement strategy that was discussed so that we would 
replace the refueling tanker fleet with a split-buy proposal. 
The Air Force and DOD would simultaneously develop, test and 
procure two tanker aircraft, and the people that wanted this 
thought they would reduce costs through enhanced competition 
and expand operational flexibility.
    Was that considered? What was the determination to not do 
that, to go with the one?
    Ms. Payton. At the time that we were looking at a dual 
procurement, I asked Mr. Kasten to go look at how that would 
play itself out relative to having two aircraft in the mix, 
having two production lines, having two supply chains, having 
different configuration management. Out in the field when you 
repair two different aircraft, what does that mean for 
maintenance, training; what does it mean for sparing; what does 
it mean for training pilots? So I want to turn this over to him 
because we found that it was not affordable relative to the 
level of funding that we, the Air Force, had to----
    Mr. Moran. So it was primarily a cost consideration to go 
on dual tracks?
    Ms. Payton. Yes, sir.
    Terry, is there any more?
    Mr. Kasten. No. You answered it pretty well right there. It 
is a cost consideration. We looked at all the plans Mrs. Payton 
indicated and provided that to her prior to--we looked at all 
that, provided that information to Ms. Payton prior to 
finalizing the acquisition strategy and elevating that to OSD 
for the final decision on what the acquisition strategy was----
    Mr. Moran. I am not going to take as much time as my 
colleagues largely because I don't have the political 
motivation in this, but I just want to reiterate something. As 
far as I can see, and I am happy to see any more information 
provided, that you have obeyed the law that you were given as 
well as regulation. If you didn't, and if you had made any 
decision on a political subjective nature, it seems to me any 
criticism would be more than warranted.
    My other concern is that even though our job seems to be 
politics, it is supposed to be legislation, and when we let 
politics trump policy, then we get into very dangerous ground. 
And lastly----
    Mr. Dicks. Would the gentleman yield since he has mentioned 
my name several times?
    Mr. Moran. I mentioned it once, one critical and one 
positive. I will yield to you in a moment, Mr. Dicks.
    Mr. Dicks. Thank you.
    Mr. Moran. Again, if we don't like the way the law is 
written, particularly considering all of our allies as though 
that is apparently part of the expanded industrial base, then 
we ought to consider changing that law, but I would hope that 
we would not criticize you for carrying out the existing law.
    Now, Mr. Dicks.

                          Remarks of Mr. Dicks

    Mr. Dicks. I just would say to the gentleman who I have a 
great deal of respect for----
    Mr. Moran. And you know it is mutual.
    Mr. Dicks [continuing]. We have worked with him many years. 
I would just say to him, both Mr. Tiahrt and I have approached 
this in a very substantive way. We are asking substantive 
questions that we think need to be answered so that the 
American people know how this position was made. I have taken a 
great deal of my own time to try and study this, and I find 
that are there some very serious conflicts here in what 
happened and what was supposed to happen, I mean, in terms of 
the way this was--we are not treating this frivolously.
    Mr. Murtha. The time of the gentleman has expired.
    Mr. Moran. You don't remind witnesses that they have to 
tell the truth. You assume that they do unless they give reason 
not to.
    Mr. Murtha. Mr. Tiahrt.

                         CHANGE IN REQUIREMENTS

    Mr. Tiahrt. Thank you, Mr. Chairman. I appreciate the 
opportunity to ask important questions.
    To go back to this change in requirements, Mr. Chairman, 
perhaps we should request in writing when they can provide it, 
a schedule of the draft RFP and the RFP's release, and any 
changes to those documents or revisions; also include the 
specifications and the statement of work so that we can tell if 
there are any changes during the process, just a schedule of 
any changes, when it was initially released and the final 
release. I think that is important.
    Mr. Murtha. I think it is important to see that.
    Ms. Payton. We look forward to doing that.

                         Remarks of Mr. Tiahrt

    Mr. Tiahrt. Mr. Chairman, I want to mention one more time 
that this Loren B. Thompson, the information that he was given 
by the Air Force was a leak. I believe that leak was 
politically motivated to sway public opinion towards a bad 
decision by the Air Force. So before any of the details can get 
out, here we have something that is trying to influence this 
decision and how wonderful the decision was. It was a slam 
dunk.
    I think this was a strong political statement about this 
decision, and I think we ought to have a chance to talk to Mr. 
Thompson at some point in the future. This is very clear that 
what Ms. Payton says is that the United States job creation or 
impact was not part of the criteria. And as Mr. Moran said, if 
there are problems with the criteria, maybe we ought to look at 
the criteria, because I'm sure these people in good faith tried 
to follow all the regulations they could have.
    There is one thing I would respectfully disagree with. I 
believe the Buy American Act, the law did not list these 
countries that you mentioned, but the memorandum of 
understanding that the Department of Defense released included 
our NATO allies. So I think that is a decision by the 
Department of Defense and not the Congress. But I may stand 
corrected on that. I believe that is the way it came down. Now, 
what this does----
    Mr. Young. We would like to get an answer on that.
    Ms. Payton. We would like to take that for the record if we 
can so do. I appreciate that we will take it for the record.
    Mr. Tiahrt. Thank you. That is a great suggestion.
    [The information follows:]

                  Buy American Act--List of Countries

    The following qualifying countries are party to existing 
Memoranda of Understanding between the Secretary of Defense and 
individual country representatives for increased security and 
cooperation: Australia, Belgium, Canada, Denmark, Egypt, 
Federal Republic of Germany, France, Greece, Israel, Italy, 
Luxembourg, Netherlands, Norway, Portugal, Spain, Sweden, 
Switzerland, Turkey, and the United Kingdom.

    Mr. Kingston. Would the gentleman yield?
    Mr. Chairman, we are getting so many taken questions for 
the record, and you know what is going to happen is we are 
going to get this information back to us in bits and pieces. We 
are going to be distracted with other issues. It might be 
better for us to have a follow-up hearing if it is possible, 
because I just see getting things for the record is not going 
to help the group come up with a decision here.
    Mr. Tiahrt. Reclaiming my time to make the point that this 
puts American manufacturers at a huge disadvantage. Talk to an 
American manufacturer like Caterpillar. Caterpillar makes 
engines for the MRAP and our heavy trucks. They make them in 
South Carolina, and they make them in Belgium. It is cheaper to 
make them in Belgium even though the euro is stronger than the 
dollar because they have a lot of regulations waived, including 
specialty metals. So there is an unfair advantage going into a 
bid like this. This was stacked against an American 
manufacturer from the very beginning.
    I know that this was carefully structured to be an open and 
fair competition, but it was not. It was an unlevel playing 
field. This is just one example. And I will give you some more.
    I want to say one thing. We talked about the requirements, 
the initial requirement, what are you replacing? What is the 
aircraft that you are trying to replace here? Is it not the KC-
135E?

                      TYPE OF AIRCRAFT REPLACEMENT

    Ms. Payton. Yes, sir, the KC-X will replace all KC-135s, 
not just the KC-135E.
    Mr. Tiahrt. What you came up with, though, if you look at 
the size of the airplanes, you are replacing the KC-10, which 
is a larger airplane, not the KC-135, which is a smaller 
airplane. So if your requirements were to replace the KC-135, 
it is a little curious why you came up with a replacement for 
the KC-10. Now, the evaluation criteria, as I understand it, 
according to Loren B. Thompson, you looked at Northrop Grumman, 
and you looked at Boeing. Did you look at EADS in the 
evaluation criteria past performance and risk?
    Ms. Payton. I will turn that question to Mr. Kasten, but, 
yes, we did.
    Mr. Kasten. Yes, we did. We looked at all the offerors 
identified, the major contracts that they had, and principal 
subs and then subs below that.
    Mr. Tiahrt. Did you choose the programs that were using the 
criteria, or did you always choose from a list that was 
presented by those companies?
    Mr. Kasten. No, sir, we did both.
    Mr. Tiahrt. So you chose some of these as per evaluation, 
and you asked for some for evaluation?
    Mr. Kasten. Yes, sir.
    Mr. Tiahrt. Did you look at the light utility helicopter in 
its performance?
    Mr. Kasten. Sir, I can't go into the details of what we 
looked at.

                        LIGHT UTILITY HELICOPTER

    Mr. Tiahrt. If you had looked at the light utility 
helicopter, you would have found out that they made a proposal, 
and it was accepted by the Army on a bid that was based on 
American jobs, and once that contract was awarded, they pulled 
those jobs back to Germany. So it had a worse impact on 
American jobs for a domestic use helicopter than what we first 
thought.
    Now, that is how this is going to work. I believe that is 
how this is going to work anyway. And if you look at the House 
news service, the first five new KC-45s are going to be built 
in Toulouse, France. I think what they are going to say, just 
like with the light utility helicopter, you know, we already 
have a manufacturing line set up. We are just going to keep 
those jobs in France. Right now they are planning on having 
1,800 jobs in America and the rest in France or the United 
Kingdom or Italy overseas the rest of them.
    So you have a criterion here that I think needs to be part 
of your evaluation process. I hope it was. I hope you also 
looked at the A-400, which is late in its delivery. I hope you 
considered the A-380, which is late in its delivery. I hope you 
considered the A-330, which was late in its delivery. All of 
those increased the risk of this program. And if you want to 
know further about risk, which I think you should know, if you 
look at the replacement for the Presidential helicopter, they 
moved the production line from Italy and England to America. 
And when they did that, they couldn't find skilled workers. 
They got behind schedule, and the costs now are 67 percent over 
what their original bid was.
    Do you have provisions in here to pay Northrop Grumman-EADS 
when they go over their original contract? What happens? If 
they can't meet their original contract, original obligations, 
what are you going to do?
    Mr. Murtha. They are going to come to Congress and ask for 
more money.
    Mr. Tiahrt. Exactly right.
    Mr. Dicks. Like they always do.
    Ms. Payton. We would like to address these questions with 
you, because they are source-selection-sensitive, because there 
is proprietary information in our answers. We very much would 
like to discuss this with you. I would say something about the 
KC-135.
    Because we were not developing an aircraft from scratch, 
the KC-135 became the comparative point so that we would be 
able to understand the value of each offeror based on the KC-
135. Our goal was to not end up with another KC-135. It was to 
end up with a better capability for aerial refueling. But the 
only way we could determine, because the commercial aircraft 
are out there, and they are different, was to baseline and 
compare each offeror to the KC-135, and that gave us better 
information.
    Mr. Tiahrt. You came up with an apple-and-oranges 
comparison because you have a replacement for the KC-135 with 
one company and a replacement for the KC-10 with another one. 
So you are saying you got the best value? And how is it that 
you can get the best value when you have an airplane that is 43 
percent bigger, built in a country where the euro is stronger 
than the dollar, and it is still cheaper for all 179 airplanes? 
How can that be?
    Ms. Payton. I think you have a false assumption in that 
last statement that I would like to take behind closed doors to 
discuss with you.
    Mr. Tiahrt. My question is what was the lowest cost for all 
179 airplanes in each phase of that, because I am sure you will 
release that as soon as you can because it's going to be in the 
contract, correct?
    Ms. Payton. We will release that as soon as we can; 
however, there are certain things that we need to at this point 
not discuss.

                     SCHEDULING ADDITIONAL HEARINGS

    Mr. Murtha. Let me ask you a question. When will you brief 
the contractors? When can we have a closed session where you 
can talk to the Members freely?
    Ms. Payton. We are currently scheduled to brief Boeing on 
Friday, and we are trying to schedule the Northrop Grumman 
debrief some time next week.
    Mr. Murtha. So we will tell the staff when you finished 
your briefings because then we will have a closed briefing for 
the Members.
    Ms. Payton. Yes, sir.
    Mr. Young. Mr. Chairman, this is a timely issue because I 
look at the schedule we are talking about, Congress will be in 
the district work period during the time that this information 
will be available to the subcommittee. And I am just wondering 
if other events will take place prior to the time we have that 
opportunity. Maybe we should accelerate this plan.
    Mr. Murtha. We will see what you can work out. Obviously, 
we won't be putting our bill together for a month or so, and 
that is the decision we have to make based on what we hear from 
them, so I think we will have enough time. But let us know as 
quickly, as expeditiously as possible, and then we will have a 
closed briefing.
    Ms. Payton. Yes, sir. Will do.
    Mr. Tiahrt. Mr. Chairman, may I continue?
    Mr. Murtha. Let's go to some of the other Members here. 
Let's go to Mr. Cramer.
    Mr. Cramer. Thank you, Mr. Chairman.

                         Remarks of Mr. Cramer

    As I said at the outset, this is an opportunity for us to 
look at how this process worked. But I am glad the Chairman 
referred to an opportunity down the line for us to have a 
closed-door session because apparently a lot of the issues that 
a lot of us have to be concerned about are issues that you can 
only discuss after the debriefings occur, and those are 
scheduled soon, but not soon enough for us to engage in that. 
So I hope we can come back to this.
    I, of course, have Boeing presence, Northrop Grumman 
presence in my district. I don't have an iron in this very 
fire. My State of Alabama certainly does. And my Governor has 
weighed in on this, and Jo Bonner, our colleague in the 
Congress who represents the Mobile area, they certainly have a 
stake in this, too. So to some extent, I am their mouthpiece in 
this as well.
    But I think, as Mr. Moran said, what we want to do is 
examine this process and make sure that integrity is preserved 
and that fairness is preserved as well. And in the final 
analysis, are we picking the best tanker for our men and women 
that are out there using the tanker and that will represent 
this country in that process?
    So when I referred in my opening statement to the criteria 
that I understand that you considered, capability, proposal 
risk, past performance, price and integrated assessment, I 
assume that you evaluated those criteria based on the teams 
that were involved and not just the lead contractors, not just 
Boeing, not just Northrop Grumman; is that correct?

                      FACTORS IN PROPOSAL REVIEWS

    Ms. Payton. Yes, sir, that is correct. And I would like to 
ask General Hudson if there is anything he would like to add to 
the way that these offers were assessed relative to our five 
factors.
    General Hudson. Sir, if I can, I would like to talk a 
little bit about the process we used in these factors that you 
mentioned earlier. There were five factors that we used in the 
evaluation. We developed these. We worked these with the 
contractors through the draft RFP process, and then the five 
factors were in the RFP. They supplied the proposals to reflect 
their submittal for the five factors.
    The five factors were mission capability, and there were 
subfactors under that: key systems requirements, systems 
integration and software product support, program management, 
technology maturity and demonstration. That was the first 
factor, mission capability.
    The second factor was proposal risk. And we looked at risk 
with four of those first--of those subfactors. Technology 
maturity and demonstrations does not have a risk associated 
with it.
    And then factor three is past performance.
    Factor four is cost price.
    Factor five is the Integrated Air Refueling Assessment.
    The first three factors, mission capability and proposal 
risk and past performance, are all of equal importance. The 
second two, cost price and Integrated Air Refueling Assessment, 
are of equal importance, but each is of less importance than 
the first three.
    Mr. Cramer. But is there a winner and loser in each 
category?
    General Hudson. What we did was we gave for all those five 
subcontractors, mission capability, each one of them received a 
color code, and each one of those received a risk assessment 
except for technology and maturity. That is a pass-fail 
evaluation. And then, proposal risk, it is an overall 
assessment, and it also had subfactors within it that were 
assessed. Cost price, we looked at the most probable life cycle 
cost; that is, everything from development through production, 
through operating and sustaining the fleet of airplanes for a 
25-year lifetime. And then the Integrated Air Refueling 
Assessment generates a number, and we used the KC-135R model as 
the baseline, so that was given a 1.0, and then each 
contractor's proposal, the system was evaluated within a 
complex wartime scenario involving two combat scenarios in two 
major theaters, plus homeland defense, plus deployment. So a 
number was generated that reflected essentially the 
effectiveness of each competitor's aircraft within that complex 
scenario, again with the R model had a baseline of 1.0.
    So, we looked at each one of those factors in the priority 
that I described and with the subfactors that were associated 
with each, looked at, and each one was assessed a grade. And 
then also in cost price we looked at risk associated with the 
development work and the production work for the five priced 
production lots that each competitor bid to us.

                   BRIEFING STRENGTHS AND WEAKNESSES

    Mr. Cramer. At some point in this process, isn't there an 
opportunity for the teams to come in and defend their strengths 
and weaknesses or for you to cross examine their strengths and 
weaknesses?
    General Hudson. Yes, sir. Here is the way this worked. We 
got the initial proposals from each competitor. We did what we 
called an initial evaluation on each, and then we fed all those 
results back to the contractors. They got all of the grades 
that I described. So they had full and complete feedback on 
everything, and we fed that back by means of a face-to-face 
briefing with each competitor.
    As we worked through the evaluation process, we also went 
to each competitor with what we call evaluation notices, and 
these were formal questions that went to each. They were able 
to respond to each. So we used those responses in the 
evaluation as well.

                           SIZE OF THE TANKER

    Mr. Cramer. Because time is limited for me anyway, the 
issue of the size of the tanker and whether Boeing understood 
what size they were being asked to submit for, how would you 
respond to the issues that have been raised about that, 
especially considering the process that was involved?
    General Hudson. Well, sir, each competitor had to make a 
decision about what to submit in their proposal, what kind of 
airplane, what were those military modifications that would be 
made to the baseline commercial airplane to make it compatible 
with the requirements as stated in the RFP. So what was 
submitted was a business decision that each made.

                            ECONOMIC IMPACT

    Mr. Cramer. In any of what you have described, do you 
evaluate economic impact within the United States or jobs 
within the United States?
    General Hudson. Well, as Ms. Payton mentioned earlier, sir, 
each proposal had to be compliant with the provisions in the 
RFP as mandated by the Buy American Act, and both were 
compliant. In terms of X number of jobs or Y number of jobs, we 
did not consider that, nor did we evaluate it.
    Mr. Cramer. Do you even know how many supplier companies 
would be involved if a team wins?
    General Hudson. Well, we knew, inside the proposal, each 
competitor described their supplier chain to us.
    Mr. Cramer. By name?
    General Hudson. By name. Who would make the avionics or the 
other unique things that would go into the airplane. So they 
described, and this is called their subcontractor structure. 
They described that in their proposal, so we were aware of 
that.

                      TIME PERIOD FOR DEVELOPMENT

    Mr. Cramer. And one last question. Within the categories 
that you have described, where is it that--you want this tanker 
produced within a certain period of time. How do you get the 
response? Which of the categories causes them to respond to 
that? Is that capability?
    General Hudson. Sir, we do not mandate a specific time for 
an initial operational capability; in other words, schedule. We 
wanted to have a risk-prudent schedule from each contractor, so 
we let them determine that, and then they told us that.
    Mr. Cramer. And then you evaluate one against the other 
based on what they----
    General Hudson. Well, sir, we didn't have a specific 
criteria that was attached with schedule. So neither got----
    Mr. Cramer. Why not?
    General Hudson. Well, because the interest was that we get 
a risk-prudent schedule from each competitor. And we wanted a 
plan, a program that would come in from each contractor to be 
one that we would have confidence in, that we would be able to 
award, and they would successfully execute to. So therefore the 
evaluation did not say, for example, it had to be available by 
a certain time.
    Mr. Cramer. By a day and year. But then you react to what 
they say they are capable of doing and what the schedule will 
be that they submit to you?
    General Hudson. Yes, sir. And we evaluate that. We looked 
at the proposal that was submitted by both, looked at the 
program plan that they gave us, and then looked at--for 
example, in the case of the program management subfactor, we 
looked at the program plan that each laid out, looked at its 
risk, and we fed that back to both contractors. So we gave them 
a chance several times to iterate that and improve it as they 
saw fit.
    Mr. Cramer. Thank you, Mr. Chairman.
    Mr. Murtha. We have about 15 minutes, and then we will be 
about an hour of voting, so we want to try to limit the other 
folks as much as we can.
    Mr. Kingston.
    Mr. Kingston. Thank you, Mr. Chairman.

                         DECISIONMAKING PROCESS

    Madam Secretary, you obviously have a battery or team of 
people who make these decisions. Can you describe the hierarchy 
of the decisions?
    Ms. Payton. Yes, sir. We have what is called a source 
selection evaluation team. That is comprised of well over 100 
people. And they are composed of skill sets that are very 
important. So we have subject matter experts that look at the 
proposals as proposed and assess whether the proposal is 
substantiated, and is realistic and is reasonable.
    And the source selection evaluation team does their job. 
They then provide information to a source selection advisory 
committee. The source selection advisory committee then 
provides their outbrief to the Source Selection Authority 
(SSA), and decisions are made.
    And I would like Mr. Terry Kasten to even further talk 
about this because he has lived a lot of it over the last year.
    Mr. Kasten. That is correct. We had a team of well over 100 
people from across the Air Force and around the country. Other 
government agencies come in and evaluate proposals. 
Periodically, throughout the summer and the fall, they 
evaluated all the offers relative to the criteria and provided 
a feedback to them specifically on what their scores were, what 
their ratings, what their color ratings were relative to the 
things that General Hudson just described.
    Mr. Kingston. It is a series of microdecisions that maybe 
make up the tipping point towards the ultimate decision, 
correct?
    Mr. Kasten. Yes, sir.
    Mr. Kingston. And it is not a vote. Is there ever a vote in 
the process? Is this mostly a gradual micro-decision-making 
process to big decisions?
    Mr. Kasten. Yes, sir. At my level that is what we do, and, 
in fact, we very much tell the teams going in doing the 
evaluation don't even compare the offerors here. Put the 
assessments out there. At the very end of the process, just in 
the last few weeks to a month or so, that information is 
provided for offeror A and offeror B to a source selection 
advisory council. Very senior Air Force people that review the 
results do the comparison and then make a recommendation to the 
source selection authority, who then ultimately makes the final 
decisions.
    Mr. Kingston. And I understand your issue is not jobs or 
the industrial base that are some of the considerations that 
Congress has. If Congress, because of these other issues, 
decides to reverse this decision, what happens to this process? 
What happens to the tanker program?
    Mr. Kasten. That would be tough to speculate, sir.
    Ms. Payton. I absolutely have to take that question for the 
record, because I think that it will impact acquisition 
programs in general. I am really not sure how to answer that at 
this point. But we have a process that is regulated according 
to the law.
    [The information follows:]

                     Impact to Acquisition Process

    Subsequent to the posing of this question, the Boeing 
Company filed a protest with the Government Accountability 
Office on March 11, 2008. The Air Force has suspended 
performance on the contract as a result of this protest. We 
look forward to working with the Congress and the Government 
Accountability Office while seeking to conclude this matter as 
expeditiously as possible. It is important to national security 
that we commence recapitalizing our aging tanker fleet without 
further delays. If we have to conduct a new competition, it 
will delay the delivery of tankers to the warfighter by 18 to 
24 months.

    Mr. Kingston. In that process that is regulated according 
to the law, was that developed or passed by a legislative act 
and then fine-tuned over time?
    Ms. Payton. Yes, sir. To my knowledge, that is----
    Mr. Kingston. But it does not take the jobs or the 
industrial base consideration in it?
    Ms. Payton. No, sir, it does not.
    Mr. Kingston. Is that something that we should revisit at 
some point?
    Ms. Payton. Well, I don't know. I am really not prepared to 
answer that at this time either. I think that it is up to our 
policy people and our legislators to determine policy for the 
United States of America. I am in a position where I just 
enforce the law relative to acquisition regulations, and I 
can't speculate as to unintended consequences or the upside or 
the downside of that action. Thank you for the question.

                              BUY AMERICA

    Mr. Hobson. Chairman, Mr. Tiahrt asked you a question 
about--because we don't remember all those countries being in 
the Buy America thing. If you were to find out that that was a 
waiver by the Defense Department, then it wouldn't necessarily 
be passed by this Congress in what you filed; would that be 
correct? Or do you have to take that for the record, too?
    Ms. Payton. Sir, I really do have to take that for the 
record because I am under the defense Federal Acquisition 
Regulation. Buy America is part of that. And these exemptions, 
I believe, have been in effect since 1970 or 1980. So I 
appreciate being able to take that for the record.
    [The information follows:]

                        Buy American Exemptions

    The ``The Buy American Act,'' 41 U.S.C. Sec. Sec. 10a-d, 
enacted on March 3, 1933 during the Depression was designed to 
save and create jobs for American workers. The central 
consideration of the Act is the place of manufacture as opposed 
to the nationality of the contractor. Congress has recognized 
that application of the Buy American Act in certain instances 
might unduly restrict an agency's ability to meet its needs; 
however, the Buy American Act and the Trade Agreements Act of 
1979, 19 U.S.C. Sec. 2501 et seq. establish a number of 
exceptions to provide procuring agencies with certain 
flexibilities. Additionally, the Trade Agreements Act 
authorized the President to waive any otherwise applicable 
``law, regulation, procedure or practice regarding government 
procurement'' that would accord foreign products less favorable 
treatment than that given to domestic products (19 U.S.C. 
Sec. 2511(a)). That provision of the Trade Agreements Act has 
been implemented by the President in Executive Order No. 12260, 
46 Fed. Reg. 1653 (1981). Therefore, the Buy American Act 
restrictions favoring domestic products have been superseded 
for specific products from certain countries. The European 
Community has entered into a Memorandum of Understanding on 
Government Procurement (Agreement) that provides appropriate 
reciprocal competitive government procurement opportunities. 
The Trade Agreements Act of 1979, as amended (19 U.S.C. 2511-
2518) signed by President William J. Clinton, implemented the 
following:
    Section 1. The heads of the agencies, as of the date of 
this order, shall not apply a price differential between 
articles, materials, or supplies of U.S. origin and those 
originating in the member states of the European Community.
    Section 2. The rule of origin shall apply in determining 
whether goods originate in the member states of the European 
Community.
    Section 3. This order shall apply only to solicitations, 
issued by DoD (and other agencies) listed in 19 U.S.C. 
Sec. 2511, Annex 1, Parts A and B above the threshold of 
$176,000 for goods. According to existing Memoranda of 
Understanding between the Secretary of Defense and individual 
country representatives, the DoD has determined it is 
inconsistent with the public interest to apply the Buy American 
Act to the acquisition of end products from the following 
qualifying countries: Australia, Belgium, Canada, Denmark, 
Egypt, Federal Republic of Germany, France, Greece, Israel, 
Italy, Luxembourg, Netherlands, Norway, Portugal, Spain, 
Sweden, Switzerland, Turkey, and the United Kingdom. Based on 
federal law and these memoranda, the content of these products 
are counted as U.S. content. Much of the foreign content of the 
KC-45 comes from Germany, Spain, and France.

    Mr. Murtha. Mr. Rothman.
    Mr. Rothman. Thank you, Mr. Chairman.

                         Remarks of Mr. Rothman

    Mr. Chairman, it seems to me that there are two tasks for 
the Congress, and in particular this committee. The first one 
is to evaluate how this decision was made and whether, given 
the law that was guiding the decisionmakers, the decisionmakers 
made the right judgment under the law. And apparently we are 
unable to get all the answers that we have sought, and we are 
waiting. We will wait for answers to be forthcoming at either 
another hearing or in written form. And I look forward to 
receiving those answers so we can do our job and evaluate 
whether the decisionmakers made the right decision under the 
law that they were given.
    But, Mr. Chairman, I believe that there is another 
obligation of the Congress, which is to decide, perhaps in 
hindsight, but to decide whether--let's assume for argument's 
sake that the decisionmakers here made the judgment that they 
made according to the law that they had instructing them, but 
that we, today, as representatives of the American people, 
understand that what was guiding them in the law led them to 
the wrong answer, bad policy, a bad judgment. Then I believe it 
is the requirement of this Congress and this committee to 
overturn that decision and to embrace the right decision.
    Now, it may require for future projects that we amend the 
law so that our decisionmakers can be guided the first time 
with a comprehensive list of criteria, including perhaps, 
perhaps not, this is subject for debate in the future, job 
creation, location of manufacturing, industrial base, whether 
the competitors are receiving subsidies from their governments 
or not, the location of where the profits reside and other 
elements. But that doesn't mean that we have to accept--if, in 
fact, the law was guiding these decisionmakers in the wrong 
direction, it doesn't mean we're handcuffed to the wrong 
decision that will be against the interests of the United 
States and the American taxpayers.
    Mr. Murtha. You got that right.
    Mr. Rothman. So I would suggest that our work is not done, 
Mr. Chairman, and that the work of the decisionmakers here may 
have been done in an exemplary manner with the highest of 
professionalism and integrity, but because perhaps they were 
given the wrong list of criteria or an incomplete list, they 
were bound to come up with the wrong answer.
    We will find out when we get the responses to our 
questions, but in the end, Mr. Chairman, I do believe it is up 
to the representatives of the people, the taxpayers, to 
ultimately make the right decision whether or not every--the 
directions were followed under a bad set of directions and the 
wrong outcome came to be.
    Thank you, Mr. Chairman.
    Mr. Murtha. Mr. Bishop.

                         Remarks of Mr. Bishop

    Mr. Bishop. Thank you very much, Mr. Chairman.
    Let me thank the panel for the information that has been 
brought to us this morning. Seems to me that, as I understand 
it, the tanker procurement program is the Air Force's number 
one priority because of the aging of the 135 fleet. However, we 
are now tied in knots, if you will, because based on the policy 
decisions that have been made, the Air Force is going forth in 
a way that seems to be very disturbing to a number of the 
members of this Committee and, of course, to some of our 
colleagues outside the committee. And it is disturbing to me 
that we are now placed in a position where we can't provide for 
the needs of our servicemen and women and the needs of our 
national defense in providing this particular equipment because 
of the lack of clear guidelines and policy set by our 
policymakers in the procurement process.
    I don't know how we resolve this other than to have us take 
another look. I think that the suggestion that we have a 
follow-up hearing might be appropriate when we can get answers 
to some of the questions that have been raised.
    I certainly am sympathetic to the awardee of the contract. 
I happen to be a native of Mobile, Alabama, and, of course, 
Alabama named me, but Georgia has now claimed me. I still feel 
compelled to try to look at this situation in an objective 
fashion, and I would hope that that is what our committee and I 
am sure the Chairman will lead us in that direction.

                         Remarks of Mr. Murtha

    Mr. Murtha. I want to say this: None of us dispute the 
integrity of this panel. We understand you follow the law. 
There may have been some insinuations and so forth; we have no 
question you did the best you could do. But we are going to do 
the best we can do also in evaluating this thing politically. 
When I say ``politically,'' I am talking about industrial base 
which with the Navy we consider very carefully. As you well 
know, they put the ships, they announce where the ships are 
going. So this is part of it. So we have that responsibility 
under the Constitution.
    So we will have another briefing with you as soon as we 
can. As Mr. Young said and Mr. Kingston suggested, we will have 
a private briefing so we can get some of the answers.
    I think you had pointed out you followed the law to the 
best of your ability, and we all appreciate that, even though 
some Members may disagree with the outcome.
    Mr. Dicks has a clarification.

              INTEGRATED FLEET AERIAL REFUELING ASSESSMENT

    Mr. Dicks. I wanted to clarify that when I spoke earlier, 
the changes were in the Integrated Fleet Aerial Refueling 
Assessment. That was made in February, I believe, of 2007. That 
was different.
    The other change, Mr. Chairman, if you just give me a 
little time here, this is Reuters, weeks before a final 
decision, the U.S. Air Force changed criteria used to assess 
rival bids from Boeing Company and Northrop Grumman for new 
refueling tankers. Loren Thompson of the Lexington Institute 
said the last-minute change in the evaluation criteria could be 
significant since both proposals met nine key requirements for 
the new tanker, including aerorefueling, capability range, and 
ability to carry cargo and passengers.
    So, again, I want to ask you, was there a change made? I 
asked this question, and I was told repeatedly there wasn't. 
But here it is right in the Loren Thompson, who is the Air 
Force's Bible.
    Ms. Payton. Yes. I believe you might be referring to 
something that had to do with the model, and this would have 
been February 2008.
    Mr. Dicks. Yes.
    Ms. Payton. Not 2007.
    Mr. Dicks. No, this was 2008.
    The other one I talked about was changes in airlift 
evaluation. That was the runways and the distance between the 
wings.
    Ms. Payton. And we have taken action to bring you back the 
timeline on any changes.
    But I would like General Hudson to address the model, the 
IFARA, and what that involved.
    Mr. Dicks. So we have two changes, one in seven and one in 
eight.
    Ms. Payton. No. I am not saying we had two changes. We did 
not have any changes in requirements, but I would like to 
clarify what went on with the model in 2008.
    General Hudson. Sir, I will talk about the IFARA model and 
the process we used. The IFARA model has been in existence 
since the 1980s. It is an air mobility command model, and it is 
used for looking at fleet effectiveness given a fleet of 
airplanes, in this case of the competitors' proposals.
    What we did is we provided both offerors all the 
information on the model so they could use this themselves and 
then generate their own numbers for IFARA and then submit that 
to us. And then we took their information and evaluated it, had 
the same kind of feedback process back and forth with them.
    Last fall, we were in the process of evaluating the model, 
looking at what we call receptacle credit, and that is the 
ability.
    Mr. Murtha. This is factor five, isn't it?
    General Hudson. Yes, it is factor five of----
    Mr. Murtha. I think you explained that very well.
    Mr. Tiahrt, you had something else?

                         Remarks of Mr. Tiahrt

    Mr. Tiahrt. Yes. First of all, I hope we can make this 
transcript available to the public as soon as possible, because 
I believe the Air Force has made a big mistake here. They just 
don't realize how big a mistake it is yet.
    One thing I want to point out in addition is under proposal 
risk, according to Loren B. Thompson, Ph.D., who was debriefed 
on this program even though we can't be, he said the proposal 
risk, the competitors matched in this area, but only after 
Boeing agreed to lengthen its development schedule. The 
rescheduling added cost to the Boeing proposal.
    Now, in another point in this proposal, I understand that 
the Air Force believed that they would have more aircraft on 
the tarmac by a certain point in time from EADS than they would 
from Boeing. So in other words, they think it is okay for EADS 
to have an aggressive schedule, but if Boeing has an aggressive 
schedule, then we are going to penalize them with a higher 
cost. These kind of details need to be brought out.
    Ms. Payton. This is very important for a closed hearing, 
because there may be some false assumptions.

                    Concluding Remarks of Mr. Murtha

    Mr. Murtha. We are going to have a closed briefing, but we 
appreciate the panel, and it has been very helpful, I think, to 
the committee to make a final judgment. So I appreciate very 
much the time that you have come up here.
    Ms. Payton. Thank you all for what you do for our Air 
Force. We appreciate it.
                                          Wednesday, March 6, 2008.

                     UNITED STATES CENTRAL COMMAND

                                WITNESS

ADMIRAL WILLIAM J. FALLON, COMMANDER, UNITED STATES CENTRAL COMMAND

                              Introduction

    Mr. Murtha. The Committee will come to order. I want to 
welcome Admiral Fallon, one of the premiere commanders in the 
field, one of the really--people who turned things around, an 
individual that has had a phenomenal influence on what is going 
on overseas. And we appreciate it. A lot of confidence in 
yourself. And I see you have a very light staff. Most of these 
guys come in, they got it filled up in the back room and right 
behind them. You have got yourself and a couple other people. 
We like to see that. We like to see somebody that--are your 
people outside or where are they?
    Admiral Fallon. No, sir, this is it. We are traveling 
light.
    Mr. Murtha. Where is the spy from the Defense Department?
    Admiral Fallon. We are trying to slash staff.
    Mr. Murtha. Where is the spy from the Defense Department? 
Who is representing them? Because they always send a spy over. 
No spy?
    Admiral Fallon. Spy, please stand up and identify yourself.
    Mr. Murtha. No spy. All right. Well, we welcome you and we 
look forward to your statement. And Mr. Young.

                          Remarks of Mr. Young

    Mr. Young. Mr. Chairman, I move that those portions of the 
hearing today which involve classified material be held in 
executive session because of the classification of the material 
to be discussed.
    Mr. Murtha. Without objection. You have an opening 
statement?
    Mr. Young. No, just welcome Admiral Fallon here. I have had 
a chance to visit with him the weekend before last and went by 
his headquarters, and I picked out a spot for a new building 
that he really needs.
    Mr. Murtha. Is there anything that you don't have down 
there that Bill has not put in there already?
    Mr. Young. There is not much room left, I tell you that.
    Admiral Fallon. We are anxious to get the rest of that 
headquarters.
    Mr. Murtha. We welcome your statement, Admiral.
    Admiral Fallon. Thanks very much. I have submitted a 
written statement.
    Mr. Murtha. Without objection it will be part of the 
record.

                  Summary Statement of Admiral Fallon

    Admiral Fallon. Thanks. And just a couple words. Chairman 
Murtha, Congressman Young, distinguished members of the 
Committee, it is a pleasure to be back here with you. And I am 
honored to have the opportunity to spend a little bit of time 
with you. I would like to, first of all, give credit where it 
is really due, and that is to our people, men and women in 
uniform who continue to astound me with their good works every 
day in Iraq and Afghanistan and throughout the theater, whether 
it is the Horn of Africa. As I see the young people and the 
responsibility that they are very willing to accept, the way 
they discharge their duties, most impressive to me are those 
small units, individuals, most of them pretty low ranking that 
are out there using their heads. They have got the picture on 
where we are trying to go, and they just figure out how to do 
it, the smart way and the effective way. We are really honored 
to have them working for us.

                         CENTRAL COMMAND ISSUES

    There are lots of challenges and issues in the Central 
Command region. I think you know that as well as I do. I look 
at the countries here, and every day I say let's see, let me 
find a glowing spot of goodness here. And I think I came 
closest to that in Oman the other day, where they actually have 
a ruler that is progressive and wants good things for his 
people, and the country is stable and secure, and they get 
along with their neighbors, and they maintain their own 
internal security. Of course, it is still a one-man rule. He is 
trying to loosen that up. But the other places all have some 
degree of instability, insecurity or challenge. And it is just 
the facts of life. We have to deal with them, which we will.

                                  IRAQ

    I will tell you that I am very encouraged with Iraq since I 
was last here about 10 months ago. Real progress, and it has 
been enabled by a lot of things. Great work by our people using 
their heads, refocusing on what they are doing, doing it much 
smarter. And they are getting a lot of help from many things. 
And we can talk about all that. I will save that until your 
questions.

                              AFGHANISTAN

    There is real progress in Afghanistan. I know there is a 
lot of chatter in the air these days about how this is going 
bad and that is going bad and bombings are up and things. The 
facts are the facts. I look at this from my perspective in a 
couple ways. One is when I look at the number of events in 
Afghanistan and I compare them to what has been going on in 
Iraq, there is absolutely no comparison. The scales just are 
not even appropriate to look at. That said, there are some 
challenges.
    In Afghanistan, the leader, President Karzai, actually 
enjoys support from the majority of his people. And that is a 
really good start. Governance is a major issue. They do it 
their way. It is very different than ours. And it is a 
struggle, frankly, to import our kind of democracy into their 
way of thinking. I do not think we are going to change this any 
time soon, nor probably should we. But for the most part they 
not only enjoy the support of the people, they are actively 
working to try to give people something that they can be happy 
with.
    Again, it is a huge difference from Iraq. In this country 
70 percent of the people are illiterate. Most of them live in 
remote places, inaccessible, very few roads. They have lived 
that way for centuries. It is just a different problem set than 
in Iraq. There are other things that I would like to highlight 
in a positive way. The Afghan Army is coming along very well. 
They are making progress. They are small, but they are well 
led. The leaders all have experience fighting the Soviets. 
Could be good, could be bad. I view it as good because they 
understand how armies are supposed to work.
    They understand the primacy and importance of leadership. 
And they realize that unless they figure out the enablers all 
the way down to the bottom they can't get a job done. And they 
are actually working on these things. The people that make up 
the Army are ethnically mixed. I do not have the problems that 
we had faced certainly a year ago in Iraq, where if you were 
not a Shi'a, you were going to have a tough time getting into 
the security services.
    In this Army, they really do get along whether they are 
Tajiks or Pashtuns or whatever persuasion they are. We have 
some additional American forces that are coming into 
Afghanistan in the next couple of months. One is a Marine 
maneuver unit that I think will be very helpful in the south, 
that will help us to leverage where we left off in the fall. 
The other unit is just as important, maybe more important to 
me, and that is a Marine battalion that is going to be mentored 
to help in the training piece. Because that is the real future 
is to get the Afghan security people ready to take over 
security for their people. And we will be able to hand it over 
to them and significantly reduce our footprint. Just across the 
border in Pakistan, in my mind, cannot separate Afghanistan 
from Pakistan. There may be a border out there, but the reality 
is that the people that make up a large part of Afghanistan and 
a significant part of Pakistan are Pashtun tribesmen.
    The border is insignificant to them. and we have to deal 
with the reality that they are on both sides, and it really 
complicates business, particularly in Pakistan. There are, as 
you know, elections were just held. They are in the process of 
trying to form a new government. I am anxiously watching to see 
how this is going to work out. The good news is it is a 
democratic process. People were elected to form a government. 
The challenge is just the traditional insecurity and 
uncertainty within that country and how this is going to work 
out. So we are certainly following that closely.
    There is some good news, though. Kenya, which as you know, 
was just torn by ethnic fighting amongst the people there, Kofi 
Annan went down there and brokered a peace deal finally between 
Kibaki and Odinga, and fingers crossed that they will follow 
through not only with what they say and what they agreed to, 
but that they actually put in place things that are going to 
give confidence to people to get back together again.
    I will spare you the rest of the litany of the 27 other 
countries, except to say that we spend a lot of time working on 
trying to build capacity within these countries to provide for 
their own security so they can do it rather than us. But we 
recognize how essential it is for American leadership and 
presence in this region to try to get people to work together. 
They do not come naturally to it. It is just a fact. Most of 
them are very willing to work with us. They do not like to work 
with each other. And that goes for most of the Arab countries 
as well as the others, but I think it is in our best interests 
to keep pushing it, so we do that. I think I will end it here. 
Thanks for the opportunity to be here. And why don't I turn it 
back over to the Chairman and let you all see where you would 
like to go. Thank you, sir.
    [The statement of Admiral Fallon follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    
                           FINANCIAL CONTROLS

    Mr. Murtha. A couple things that I just want to point out. 
One, I worry we have so much problem in Iraq with the 
acquisition program, where cash was just such a temptation. I 
worry about the program that the troops are actually running, 
because these people, may of them were uniform people that were 
involved in this acquisition program. You keep asking--when I 
say you, most of the commanders keep asking for more money, and 
I realize the value of it. But we got to be very, very 
cautious. And they have got to be told, you know, when that 
cash is floating around, they have got to be responsible for 
it. And at the early stages of the war there was all kinds of 
access to that money, and it was not necessarily the military, 
but certainly lately it has been, and I am hoping that your 
commanders understand they have got to be very responsible for 
that money and to be very careful in the way they hand it out.
    Admiral Fallon. Sir.

                             PRISON SYSTEM

    Mr. Murtha. The prison system, talk about the prison 
system. When I was over there at Thanksgiving I visited the one 
prison. I was so impressed by what General Stone was doing. And 
I think that was a big part of the change, because I saw--staff 
told me 6 months or so before that it was ready to explode. 
Stone came in and did a job. here is it now?
    Admiral Fallon. Chairman, I concur with your assessment. 
When I first went over there last year and took my first look 
at Buca the smoke was still rising from the latest riot. They 
burned down their hooches in these. And I took one look at it 
and said oh, big trouble. Big strides. In the probably two 
significant areas of approach here, first the physical 
dimension of moving away from those cages and putting people 
into much smaller confinement areas, hardening some. And most 
importantly is what is going on with the individual people. As 
you know, the approach here has been to not treat them all like 
they are all arch criminals, but to actually spend some time 
sifting through each of the cases trying to sort out the bad 
from the real bad from those that may have gotten--they may not 
be purely innocent, but we can figure out a way to work with 
them. My sense is that we have to figure this out and to try 
our best to return to society as many of these folks as we can. 
Otherwise I suspect that the day we finally leave they are just 
going to get turned over and they will all run.
    General Stone has done remarkable work in first thinking 
through this problem, recognizing that everybody is not the 
same. And we have to figure out a way to try and rehabilitate 
those that can be done, and not let them get tied up with the 
zealots, of which there are certainly some in there. And so he 
has worked hard at separating them. This is a tough sell, I 
will be honest with you. Our troops were gagging at the idea 
that we were going to turn these guys loose. They said we 
captured the, we found them out in the field trying to kill us 
and do other things, and they just did not like it at all. 
There is a process now for reviewing each case.
    They bring the field commander's representatives in to let 
them sit in, watch and see so they can have a vote in it. But 
the deal is that the numbers are going up that are being turned 
back into society. And they are not just being turned over. 
They are being trained, educated. And the guys are taking to 
it. Most of these people do not have a high school education. 
And part of the deal is to offer them a chance to learn 
something. And we actually had a case some months ago where 
there were a bunch of youngsters, there were teenagers, I think 
about a hundred and some, or I think there was like 700 total 
that were under 21. They were in an education program. And a 
large number of them said we do not want to be released yet. We 
want to finish the schooling, because it is our only 
opportunity.
    I think that is success in my book. So it is coming along. 
I have got to tell you we have got to do the same thing in 
Afghanistan. Numbers are dramatically smaller, less than a 
thousand detainees, facilities unsat. Have not been coming at 
it the same way. Asked General Stone to go down and take a look 
at this. He spent a week out there, came back, kind of verified 
my first impression, and is helping us to craft a program and 
do the same thing in Afghanistan.
    Mr. Murtha. You mentioned the possibility that you needed 
money for a prison.
    Admiral Fallon. Need to rebuild that facility.
    Mr. Murtha. Have we gotten that request?
    Admiral Fallon. You have not. It is in work back in the 
building. We will figure it out.

                                PISTOLS

    Mr. Murtha. One other thing I wanted to mention is when I 
was over there the trainers themselves said the pistols did not 
work, that they had problems with it the safeties were 
defective. I talked to a lot of trainers, and they all agreed. 
Now, your staff came back and said there is no problem with 
these pistols. I wish you would have them relook at that 
because I am talking to people who are actually training 
people, looking at it, and they are telling me personally that 
these things do not work.
    I do not know how far your staff looked into it, but 
somebody sitting at your headquarters may not know as much as 
they know. So I would appreciate it. There is 37,000 of them. 
They are Smith & Wesson pistols. And every trainer I have 
talked to felt they were defective. So I would appreciate it if 
you would look into that yourself.
    Admiral Fallon. Will do, sir.
    Mr. Murtha. Mr. Young.

                    EUROPEAN SUPPORT IN AFGHANISTAN

    Mr. Young. Mr. Chairman, thank you very much. Admiral, 
welcome. Always glad to have you here. We appreciate your 
responsibility and the really good way that you carry it out. 
Chairman Murtha this morning at a hearing relative to the Air 
Force's decision on awarding the contract for the new tankers 
made a point that I have been thinking about all day. And I 
thought it was a pretty good point. And that is in this 
contract, many of our European friends are going to have strong 
economic effect, positive economic effect, but they are the 
very ones who are refusing to help in Afghanistan to meet what 
really is their part of the share--that share of the burden as 
part of NATO. Is there a good reason why these other countries 
do not want to join up in Afghanistan as we face an aggressive 
Taliban?
    Admiral Fallon. In my mind, no, sir. I think it is a lack 
of will, a lack of leadership, lack of willingness to accept 
some casualties. It is, frankly, just not wanting to get hands 
dirty doing the tough jobs. The lists of qualifiers, of caveats 
as they call them that General McNeil has to put up with from 
the majority of our allies is pretty sad. He is a better man 
than I am. I probably would have lost patience with this 
sometime ago. They just do not seem to have the stomach for it. 
Happy to talk about it, but walking the talk is a different 
matter. I think that is just what it comes down to.

                            REGIONAL THREATS

    Mr. Young. I know that you are in contact with the leaders 
of at least most of these nations, especially the ones in your 
AOR. Do they understand what the long term threat from the 
Taliban might be or al Qaeda if they are not held in check?
    Admiral Fallon. I think they do. Different degrees of that. 
And perceptions are all over the place. Certainly in 
Afghanistan, Karzai and his leadership recognize the challenge 
these folks present to them. In Pakistan, the leadership 
understands it. There is a significant part of the population 
that is very sympathetic to these folks, though. In the rest of 
the region it depends on who you are and where you are as to 
who you see as threat. Most of the other countries feel Iran is 
the long term concern because of doubts about where the 
Iranians' intentions really lie. Most of them, if you get them 
off line, will tell you that they think they want to create 
another Persian empire, and they are going to try to do 
whatever they can to be in that position. So they recognize 
these things.
    One of the challenges we deal with, frankly, and in some 
places, Pakistan is a good example, is that they see us do 
things that they like, but then they doubt how much or to what 
extent we are willing to stick by them for the long term. They 
recognize that a lot of these problems are not going to be 
solved overnight, and they look at things like actions that we 
take that they feel are not in their best interests. We had 
about a 12-some-year hiatus when the General ran them and other 
things, and I understand why these things get ginned up, but at 
the end of the day, we have now lost 12 years' worth of time 
with the leadership in the military, for example, who during 
that period when we had no engagement are tending to be 
distrustful of us.
    And you know, okay, you guys talk, but are you going to be 
here if we really need you? So that presents some challenges. 
There is also the reality that these folks, for a host of 
reasons, do not really cooperate too well with one another. 
They will go, they will smile, they will drink tea, they will 
all attend various summits, but when it comes to real 
cooperation, well, let's band together and do this, we will 
work with you. Let's leave these guys out of it for now. So 
that is reality. We deal with it as best we can. I think most 
of them recognize the threats. They see Iran, Iranian behavior, 
do not like it. They see the nuclear program that has a big 
question mark over it. And then they look at what the Taliban 
have done, they look at the methods of al Qaeda, kill people to 
make their point, torture people, and I think these things 
register with most of them.

                             PAKISTANI ARMY

    Mr. Young. One of the important players, maybe I should not 
say players, but one of the important individuals in this area 
is the general who is the new commander of the Pakistani Army. 
Is he somebody that we can depend on or----
    Admiral Fallon. I think so. I have met General Kiyani 
several times. I was just telling Chairman Murtha that I spoke 
with Admiral Mullen early this mo ning. He had just flown back 
from Pakistan. Had another meeting with him. We both feel the 
same way, that even though he has only been on the job a few 
months, he seems to understand the strategic priorities. He has 
taken pains to try to pull the Army away from politics. They 
had gotten pretty enmeshed in it as Musharraf was both chief of 
the Army and the President, the lines got blurred. He has 
directed Army guys to start backing away, including retired 
people, to get out of a lot of these civilian institutions that 
are part of the government.
                                ------                                

    So these things tell me that he gets it. And we will try 
and help him in any way we can.
    Mr. Young. Does he have control of Pakistan's nuclear 
weapons?
    Admiral Fallon. ------.
    Mr. Young, Well, you have a real heavy responsibility. And 
I appreciate the way that you have taken over and charge in 
running your responsibilities so well. So thank you very much 
for that, and thank you for being here today.
    Admiral Fallon. Thank you, sir.
    Mr. Young. Thank you, Mr. Chairman.

                     TRAINING TEAMS IN AFGHANISTAN

    Mr. Murtha. One of the things I did not mention is these 
training teams you have in Afghanistan, my understanding are 
the most part of our deployment, because they react with the 
people, they train the Afghans. That is really what it is all 
about. And it is supposed to be a State Department training 
team. Of course, not all of your people. But your protege 
there, young woman you introduced me to is going to AFRICOM, 
tells me they are loading it up with the Commerce and so forth, 
which I am glad to hear, because that is really what we need to 
be involved in with these other agencies. I know the shortages 
that I heard about were agriculture, commerce, and things like 
that. So the State Department, this committee has offered over 
and over again to give them money if they would provide the 
leadership of those teams, but they just can't do it.
    Admiral Fallon. This is a case of, first of all, the Armed 
Forces are expeditionary by designed and by nature, and so the 
idea that we have an emergency, we pack up and go is part of 
the business. Our other institutions except the Department of 
State generally are domestically focused, always have been. And 
so to change the culture to one that is expeditionary I think 
is a real challenge. And the numbers are really thin.
    So we are doing what we can. We are blessed with folks in 
uniform, a lot of the Reserves and Guardsmen that have other 
jobs that are in these areas. So we are trying to leverage 
those for the time being. And actually, what is really 
interesting, some of these PRTs, these Provincial 
Reconstruction Teams that are being led by uniform people, 
completely new, different than what they ad done, I went to one 
place, and I kid you not, the commander and two of his 
subordinates were submarine officers, nuclear engineers that 
are out running these things.
    And by all accounts, the guys were ding pretty darn good at 
it, pretty darn well at it. An F-18 pilot, Navy guy, and again 
these are just Navy examples because they highlight them to me, 
they think I am still in the Navy every day, but there are 
folks from every walk of life that are stepping up and doing 
these things.

                         EUROPEAN CONTRIBUTION

    Mr. Murtha. One of the things Mr. Young mentioned that I 
talked about this morning, the last time we were over there we 
were waiting on the Europeans to put mere troops into NATO. And 
this was one of the things finally we had to send the Marines 
in. But the frustrating thing is they tell me the British lose 
more people from drug abuse than they do in Afghanistan. And 
the poppy growing has increased so significantly, it all goes 
to Europe, and they still can't understand the importance of 
this effort, or at least they do not seem to participate. They 
just let us do it. But we appreciate your difficulty in dealing 
with them. And Mr. Cramer?
    Mr. Cramer. Thank you, Mr. Chairman. Admiral Fallon, 
welcome back. I want to stick on this Afghan issue. You sounded 
fairly optimistic about Afghanistan, yet everything I hear and 
read would indicate there is not much reason to be optimistic 
about what is going on there.

                        SITUATION IN AFGHANISTAN

    Admiral Fallon. I guess my sense is you got to keep putting 
it in context. I have to do that myself. Even within the 
Interagency, I have to tell you it is actually a great novel 
idea, and one that I much appreciate, is some of our 
intelligence agencies are now actually sending me their draft 
reports for comment. And the last one that I saw I actually 
said, interesting. I understand what you are trying to say 
here, but I choose to disagree with this conclusion and this 
conclusion, and here is why.
    Part of it is data. Afghanistan is a challenge because it 
is so rugged geographically and so chopped up by tribes and 
district and so forth. We have a significant presence in a 
relatively small percentage of that country. There is a lot of 
data extrapolation in my opinion that takes a point here and a 
point here, and next thing we have--the data that I have seen 
indicates that somewhere in the 70 to 80 percent of all the 
kinetic activity takes place in about 10 percent of the 
districts in the country. And so the converse of that is that 
there are large tracks of this country where it is pretty 
benign.
    I try, every visit to that country, to go to a different 
place so I can have my own assessment of what it is really 
like. And I have been to some places that are very benign. I 
take my wife to Afghanistan almost every trip. And I am tied up 
in meetings a good chunk of the time, but she is not, and she 
gets a chance to go meet real people in real places. And is it 
great? Is it totally secure? Are people not nervous? No. There 
are definitely problems. But my sense is it is not as bad as 
some might have yo., believe.

                           NATO CONTRIBUTION

    Mr. Cramer. The NATO presence there is uneven. I mean with 
the caveats and the division of the PRTs and their ability to 
engage in direct combat, and some countries are, some countries 
are not. By the way, which ones are?
    Admiral Fallon. To be quite frank, our best partners to 
date by demonstrated performance are the Canadians. And after 
that it is starting to get pretty spotty.

                            POPPY PRODUCTION

    Mr. Cramer. Even the Brits, and I think their PRT is the 
biggest poppy-producing region, or one of the bigger.
    Admiral Fallon. Well, but that is kind of by circumstance. 
Helmand Province is the number one poppy-producing area in 
Afghanistan. A lot of that, to be fair, is geography. It 
happens to sit right athwart probably the biggest river valley, 
which means the most irrigation, which means the most fertile 
land, and it is a huge province. And it has traditionally been 
a poppy growing area. That said, and I keep my observations to 
the security side rather than the PRTs and others. But each of 
them have restrictions, stated or otherwise. And when General 
McNeil, our commander, has to--wants them to do something, in 
many cases they tell him to hold the line for a bit, and they 
will go back and even go all the way back to their capitals to 
ask a specific permission to do a single operational thing. And 
that is certainly not the way to do it.
    Mr. Cramer. Are the Italians making any progress? Aren't 
they charged with trying to create or help create a judiciary 
there?
    Admiral Fallon. I can talk more of the security. They just 
had the west until recently. And I did not see much action at 
all. They have got people on the ground, but not doing the 
things that----

                      U.S. MARINES IN AFGHANISTAN

    Mr. Cramer. Our 2,200 Marines that are employed there, will 
that be for a seven-month deployment?
    Admiral Fallon. There are actually two different groups of 
Marines.
    Mr. Cramer. One for training and one for----
    Admiral Fallon. Total of about 3,200. The one of 2,200 size 
is going to be a maneuver unit. It is going to go and work for 
the NATO command for General McNeil. And he has told me he 
expects to use them in the south, where he thinks he has got 
his biggest problem. They will be there until next fall. And I 
specifically asked for a unit for that period of time, because 
that is when I think they are going to be useful. In the 
winter, things really tend to die down because the weather just 
is too difficult to operate. So given the demands on our forces 
right now, it seemed to me this was a prudent use of them and 
will not tie them up excessively after that.
    So I think they can get a lot done, because this is going 
to be the--in Afghan tradition, we do not like the choice of 
words, but they call the spring, summer and fall the fighting 
season. And then they go back and try to stay out of the 
weather during the winter. So they are there for that purpose. 
The battalion that is going to do the training, working 
directly for me in the OEF hat, to do that, they will also be 
there for about that period of time. Because of the demands on 
the system, I do not want to--I would like to be able to come 
up with replacements for them later in the year.
    We will have to jump that fence when we get there. But they 
are going to be there just for a limited period of time. But I 
think in the case of the maneuver unit, it is exactly the right 
period of time and should----

                MINE RESISTANT AMBUSH PROTECTED VEHICLES

    Mr. Cramer. I want to ask you a question about MRAPs in 
Iraq. When MRAPs were first deployed to Iraq we were using 
contractors to train Marines to use the new vehicles. Are we 
still doing that?
    Admiral Fallon. I couldn't tell you the answer to that one 
directly. I can tell you that the MRAPs are now in widespread 
use throughout the country. In fact, I rode in one the other 
night when the weather, sandstorm shut us down and couldn't fly 
to get back to Baghdad. They are very, very helpful. They have 
saved a lot of lives. In fact, to the best of my knowledge we 
have had two people killed in these things, one when the thing 
blew up and actually rolled over and the gunner unfortunately 
was crushed but the people inside survived. And another one 
when some terrorist actually managed to shoot an RPG into the 
turret of the gunner.
    But the things have been remarkable in keeping our people 
from being seriously hurt. And they are there in significant 
numbers. In fact, I just saw an e-mail this morning from 
TRANSCOM that they have hundreds queued up now ready to go, and 
they have made a big difference. The training, I think--
whatever the training, is, they appear to be doing fine, 
whoever is doing it. And I will get back to you.
    [The information follows:]

    Mine Resistant Ambush Protected (MRAP) Vehicle training is the 
responsibility of the Joint Program Office, Program Manager, MRAP (JPO 
PM MRAP). The training team is comprised of a consortium of contracted 
instructors from the respective MRAP Original Engineer Manufacturers 
(OEMs).
    MRAP New Equipment Training (NET) is a 32 hour block of instruction 
conducted over a four day period. Pre-requisite for the course is 
assignment or anticipated assignment to a unit operating MRAP vehicles. 
NET consists of Vehicle Characteristics, Preventive Maintenance Checks, 
Emergency Egress/Roll-Over, Vehicle Driving Operations Phase I and II 
(Day/Night), Operating Under Unusual Conditions, Government Furnished 
Equipment (GFE) Training, Vehicle Self Recovery/Auxiliary Equipment/
Flat Tow and Operator Level Vehicle Troubleshooting and Maintenance. 
NET concludes with a Final Exam an End of Course Critique.

                         LENGTH OF DEPLOYMENTS

    Mr. Cramer. We have an opportunity to go to Iraq from time 
to time And one of the biggest issues that I hear from my 
constituent troops there is about the length of deployment 
there. This time last year, the Secretary announced that tours 
would be increased from 1 year to 15 months. How is that 
having--what morale effect is that having?
    Admiral Fallon. Clearly, 15 months is a long time. I have 
been around this institution for 40-some years. I have made a 
couple of 10-month deployments at sea, and they get pretty old 
after a while. 15 months in a combat zone is a long time. We 
know it. The expectation is that as the drawdown accelerates 
here later this year, General Casey has indicated he thinks he 
can go back to 12-month deployments with 12 months off.
    We all know that is not good enough either. We want to get 
much more time. We would like to go to twice as much time at 
home before you go out, Marines on a little different cycle, 
but the stress is about there. It has an effect no doubt on it. 
It has a big effect on families. And my assessment is that you 
can only keep this up for so long. And we have got to bring it 
down. And we are going to work to that end. But when they are 
out there despite the amount of time, the troops are performing 
terrifically. With very, very few exceptions they are just 
getting the job done, and they are sucking it up, and we ought 
to be really grateful for what they do. But we know we have to 
change this. And we are going to do it.
    Mr. Cramer. Thank you. Thank you, Mr. Chairman.
    Mr. Murtha. The gentleman from Georgia.

          CONGRESSIONAL SPOUSE TRAVEL TO AFGHANISTAN AND IRAQ

    Mr. Kingston. Thank you, Mr. Chairman. Admiral, I want to 
ask you a question. First of all, in terms of when we go to 
Afghanistan, we are not allowed to take our spouses. When will 
that be allowed on a CODEL?
    Admiral Fallon. I don't know. And that is a loaded 
question. If I could come back at you.
    [The information follows:]

    The Department of Defense limits combat zone visitations to mission 
essential personnel only. Members of Congress qualify as mission 
essential due to their oversight capacity. However, current United 
States Central Command policy denies spouses and children accompaniment 
on Congressional Delegations for security reasons.
    United States Central Command cannot provide a specific timeline 
when the benefits and symbolism of spouses attending Congressional 
Delegations to a combat zone will offset the security concerns. Admiral 
Fallon concurred that spouses and family members provide significant 
partnership benefits with host nations. He endorsed the return of 
dependents to the Kingdom of Saudi Arabia and Bahrain, in part because 
of the contribution their return would make in our relations. As the 
security situation improves in Afghanistan, prohibition of spouse 
accompaniment into a combat zone may change as appropriate for the 
conditions
    United States Central Command, the Chief of Mission to Afghanistan, 
and Combined Joint Task Force-101 continually assess security concerns 
in Afghanistan. Should the situation warrant a change in Office of 
Secretary of Defense policy, United States Central Command will conduct 
proper coordination.

    Mr. Kingston. It would have a lot of not just symbolism, 
but substance if we could do that.
    Admiral Fallon. I will be frank with you. I actually had 
planned to take my wife to Iraq last month. And at the last 
minute a decision was made to not let that happen. It really 
irritated her. And we had a whole program set up. But I think 
that is part of the problem, that Iraq's a little bit less 
stable than Afghanistan. And my sense is that right now we are 
probably about where we ought to be. Let's get this thing moved 
down. My wife can go--or I want her because she is actually 
engaging with Karzai's wife, for example. They have become more 
than just passing acquaintances. And it is interesting how 
effective sometimes that those messages that we are trying to 
send can be. So I understand what you want to do. I think we 
probably ought to wait a little bit longer.

                            AMERICA'S IMAGE

    Mr. Kingston. Thank you. Another question, we often hear in 
popular discussions that America's image overseas has fallen 
and so forth. And so often I always think, well, that is just 
because France is mad at us, and usually it is the Europeans 
who are constantly very unhappy. Do you find that to be true in 
your 27 countries? Would you say our stock is about where it 
has been or is it down or up?
    Admiral Fallon. It all depends on where you are. I think 
that we are seen in a better light now just because our folks 
have been successful in Iraq, for one thing. There is a 
continuing criticism, frustration with the situation in the 
Levant with Israel and the Palestinians. And this is constantly 
being spread out. And we are blamed because we have been 
historically very supportive of Israel. Of course we are 
supportive of the peace process, and trying to get everybody a 
fair shake here.
    And I heard something I actually thought remarkable. I was 
sharing a dais and a forum in Doha a few weeks ago, and a 
gentleman who had been the chief negotiator for the 
Palestinians for about a decade was speaking. And he actually 
said, and I almost fell out of my chair, he said, you know, we, 
and he pointed to himself, he said we have to take 
responsibility for a solution here. Not the Americans, not 
others, we have to do it. We have to figure out how we are 
going to deal with Hamas and get this job done. And I thought 
wow, that is terrific. Record that. But then he regressed into 
some other stuff about the U.S. should do this, and this and 
this. But this is a job. The Palestinian issue in the Arab 
world is a continuing thorn in our side in terms of thrown in 
front of our faces constantly.

                                 ISRAEL

    Mr. Kingston. And as long as we have our relationship with 
Israel, then that is going to continue to be a problem.
    Admiral Fallon. Well, I have another view of this thing. It 
is also a handy whipping boy, in my opinion, for lack of people 
getting along to knuckle down and get stuff done. One of the 
other challenges in the Arab world, frankly, is they just will 
not cooperate well enough in my opinion with each other. And so 
it is easy to have somebody else be the bogeyman for this 
stuff. I got to tell you something else. On the flip side of 
this, the engagement and the good will that our people 
generate, our individual soldiers and sailors and civilian 
employees of the Department and of the other agencies that 
actually get out and do real work in these countries, that is 
appreciated--recognized, appreciated, and that is its own 
little enclave of goodness. And you know, word gets around.
    So it seems to me that the right approach here is to 
continue to work these seemingly intransigent issues which 
sooner or later they are only going to get solved by people 
that are willing to take leadership positions and force the 
solutions and to keep our people working at the grass roots 
level.

                            TRADE AGREEMENTS

    Mr. Kingston. The only country we have a trade agreement 
with I think is Jordan, relatively new, '05 I think, and then 
Bahrain.
    Admiral Fallon. Bahrain, too.
    Mr. Kingston. That is not on line yet, is it? Or is it just 
getting on?
    Admiral Fallon. I think Jordan and Bahrain are both----
    Mr. Kingston. Jordan was '05 I think. I am not sure, but I 
know our trade with them has gone up 90 percent since the 
implementation of that agreement. Is that something we need to 
start really running out and doing a lot of these trade 
agreements like that?
    Admiral Fallon [continuing]. A little bit out of my lane, 
but it seems to me it is the economy, and this where you can 
really make some hay. And so without being the expert by a long 
shot here, it seems to me that these are good areas to move 
down.

                                SOMALIA

    Mr. Kingston. And I have one more question, Mr. Chairman. 
Where are we on Somalia these days? You only had a paragraph in 
your statement on it.
    Admiral Fallon. Somalia is one of the few countries that I 
have not put my feet on the ground. It is very unstable. It has 
had a succession of challenges. As you know, it is very tribal. 
The idea of a central government is kind of wishful thinking it 
seems to me. It got pretty bad last year, so the Ethiopians 
decided to go fix it. It got too bad for them. And they have 
another problem because they have a region of Ethiopia in the 
east called the Ogaden which has been traditionally a very 
distressed and fractious area. The instability in Somalia was 
spilling over, and they finally had enough and went in to try 
to fix it. As they discovered, along with some of us, it is a 
lot easier to get in sometimes than get out, and so now getting 
out without leaving total instability has been a problem. They 
are working on it. They are trying to train security forces and 
so forth.
    Somalia is still pretty dicey. It is a very tough, tough 
area. And as you probably saw, we actually did a
                                ------                                

    So Somalia is very tough. It is certainly not a place that 
I think is going to get much better any time soon.
    Mr. Kingston. Thank you. Thank you, Mr. Chairman.
    Mr. Murtha. Mr. Rothman.
    Mr. Rothman. Thank you, Mr. Chairman. Admiral Fallon, great 
pleasure to have you back.
    Admiral Fallon. Thanks.
    Mr. Rothman. How many carriers do we have in the Persian 
Gulf now, sir?
    Admiral Fallon. One.
    Mr. Rothman. One. And I read we were about to have three 
warships off the Lebanese coast. Or are they there yet?
    Admiral Fallon. One for sure. And actually Lebanon is my 
responsibility, but the waters to the west of there are 
NAVEUR's. I think the plan was to have three out there for some 
period of time.
    Mr. Rothman. Is there one there now?
    Admiral Fallon. There was a destroyer out there this 
weekend.
    Mr. Rothman. There is a lot of speculation as to why we 
would have that show of force there. Thee are lots of reasons. 
My question is--well, first of all, what is the reason?
    Admiral Fallon. The idea is to demonstrate that we care a 
lot about this country called Lebanon, that we are aware that 
among others, Syria is influencing it negatively. And it is a 
show of interest rather than a show of force. It is a show of 
caring. And it is one of these balancing acts. You do not want 
to be obvious----
    Mr. Rothman. Right.
    Admiral Fallon [continuing]. In terms of being seen or 
threatening, but you want to show that you are interested.
    Mr. Rothman. There is a belief that if Israel has to go 
into Gaza to try to stop Hamas from sending these rockets and 
killing the civilians that this warship the several warships 
off the Lebanese coast will have a chastening effect or 
chilling effect hopefully on Hezbollah. Is that related at all? 
And if Israel did enter--or rather if Hezbollah attacked Israel 
from the north, would those warships be involved in any 
military operations?
    Admiral Fallon. No. Not unless some discussion and 
agreement were made. They are not connected at all.
    Mr. Rothman. Okay.
    Admiral Fallon. But Israel has gone into Gaza, though. In 
fact, they just pulled back yesterday after an incursion to go 
after the rocket men.

                         TROOP STRENGTH IN IRAQ

    Mr. Rothman. Right. And without much effect on the numbers 
of rockets sent into Ashkelon. With regard to Iraq, it was 
reported that you had said that there should be a pause in the 
troop reductions in Iraq.
    Admiral Fallon. I did not use the term--I think we probably 
ought to stop using that term pause because it is not really 
appropriate. What I think, and I am waiting for General 
Petraeus coming back to me with his proposals, the way this 
works, I had sent him what we call a planning order a couple 
months ago and said as we look ahead, and I did the same thing 
back last summer as we try to figure out, so I said after July 
what do you think we ought to do? And to help you, I want to 
frame some scenarios for you.
    Conditions continue to improve, conditions are staying 
about the same, or conditions deteriorate. Give me your 
proposed ways you are going to come to grips with this. And so 
he is going to get that back to me here. We will consider it at 
our headquarters, and we are going to talk to the Chairman of 
the Joint Chiefs. Now, here is what I think is going on in the 
background.
    Mr. Rothman. So those report were inaccurate, sir?
    Admiral Fallon. Well, they are inaccurately stated. But if 
I could----
    Mr. Rothman. Please.
    Admiral Fallon [continuing]. Explain why I think it is 
appropriate to have some assessment. What I think--General 
Petraeus, I am ahead of him, because he is the guy on the 
ground, he has got to deal with this, he is going to come to 
me. But what I expect him to tell me is that what is going on 
between now and July is that we are going to pull back four 
brigade combat teams very quickly. We are also in the process 
of changing out two other brigade combat teams, whose 
replacements will continue to maintain our force level at 15 in 
the country. That is a lot of moving parts in a short period of 
time.
    The reality, if you could picture Iraq, God's eye view 
looking down on it as a big chess board, and the operational 
commanders have divided responsibility for various pieces of 
the turf to different commanders, as we cull these commands and 
all their troops out of there, those areas of responsibility 
are going to have to expand. And so the new commanders on the 
ground are going to take responsibility for areas they did not 
have before. There are a lot of places that this is going to be 
pretty interesting, because we have had difficulties, as you 
know, in the past in Baghdad and Diyala and certain other 
places.
    And so as these things change around, I think it is 
probably pretty smart to take a little 1ook at this and see 
what it is. How long? Do not know. We are all of the same mind 
here. We want to bring our forces down, and we would like to do 
it as quickly as makes sense. We do not want to throw away the 
blood, sweat and tears that have just been poured into this 
thing in the last year. And the solution here is Iraqi Army 
stepping up to take over responsibility.
    At the same time we are moving all of our forces, they are 
going to be moving forces as well to take over chunks of this 
turf. So all these things going on, I think it is probably 
going to be prudent, I will be surprised if General Petraeus 
doesn't come back to me and say let's take a look at this for a 
little bit.

                             IRAN AND SYRIA

    Mr. Rothman. If I may follow up, in analyzing how fast to 
draw down, lots of people talk about concerns regarding Iran 
and Syria. Can you talk to us about what is the level of 
Syrian--or rather Iranian involvement in Iraq good and bad, and 
Syrian involvement good and bad? It is reported that 90 percent 
of the foreign fighters are coming in through Syria. Have they 
done anything positive to help us or is it just one good effort 
and then one bad effort equals nothing?
    And if I may, since I know we have to vote, I will just 
throw this question out, if it is not too flippant, but I am 
concerned, if you get a chance to read other than the 
extraordinary materials that you do, what fiction book are you 
reading?
    Admiral Fallon. It is not a fiction book, and I will 
confess Chairman Murtha might get a kick out of this. I had a 
special treat last week in that I discovered down in Tampa that 
one of my childhood idols, a baseball player by the name of 
Robin Roberts, who used to pitch for the Philadelphia Phillies 
had actually retired to Tampa. So I immediately got ahold of 
him and asked him to come in and maybe honor me by coming to 
lunch one day. So he did. And on Monday he showed up, and I was 
just thrilled. And he is a great gentleman, mind sharp as a 
tack, and remembers those games almost a lot better than I did.
    And when he left he was kind enough to leave me with a 
couple books that he had written. And one of them is the 1950 
Whiz Kids and their story. So that is what I am actually 
reading in my spare time. I have got about 20 pages done.
    Syria.
                                ------                                

    Iran has got to play a better role.
    Mr. Rothman. Thank you.

                         EUROPEAN CONTRIBUTION

    Mr. Hobson. Thank you, Mr. Chairman. Admiral, it is good to 
see you again. I want to go to Afghanistan. And Mr. Murtha may 
have talked about some of this, but I want to go over a little 
bit of it. Mr. Murtha and myself went to Afghanistan, and we 
found out some disturbing things there. We found a situation I 
think could be winnable. I think Mr. Murtha agrees. But we 
don't see the Europeans doing their part. I think we have been 
awfully nice about this with the Europeans. They are in right 
now stealing jobs from this country on an airplane at the same 
time--that is not your problem--but at the same time they are 
lot living up to the responsibilities that they voted to do.
    For example, the number two guy in Afghanistan told us that 
if they had about, maximum, maybe 3,500 more troops they could 
pretty well contain--over what we are already putting in they 
could pretty well get around this thing, but the Europeans 
won't do it, and I guess the Germans don't go out at night and 
lots of caveats and things. And it still continues, I 
understand, and there has been no change in that?
    Admiral Fallon. The bottom line there is they have more 
reasons than you can count for not doing the job. It is more 
than troops. The numbers of troops are interesting, but my 
opinion is if all the folks who were on the ground already were 
doing what they should be doing we would be in tall cotton 
right now.

                      AGRICULTURAL TRAINING TEAMS

    Mr. Hobson. One of the things he told us they needed to 
win, and I am going to meet this afternoon with my Department 
of Agriculture of Ohio State, is these teams to go out and help 
the Afghans get some infrastructure. And let me give you an 
example, just see if you agree with this because I am going to 
be talking about this, I think Mr. Murtha is probably talking 
about this to others. Pomegranates, they have the ability to 
grow lots of fruits, vegetables, and one example they gave to 
us was they grow these and there is no way to process them. So 
they send them to Pakistan where they pay somebody an extra fee 
to do, and then they send them out through their port. They 
apparently used to have this, but the Russians or somebody blew 
up all this infrastructure and even the irrigation stuff.
    Is there a program that you all are sponsoring that maybe 
the Europeans could get into that they might be more willing to 
do something like that to put these teams out there under some 
protection from our troops and their troops to get this going 
in a meaningful way?
    Admiral Fallon. If I could give you an opinion, first of 
all, that in Afghanistan the priorities, the needs are 
electricity, roads, agricultural development and water 
management far exceed all the other things in the country.
    Mr. Hobson. Aren't there some movement on the electricity?
    Admiral Fallon. Yeah, but it is not the kind of movement 
that is really going to get the results. There is, each is, and 
that is the problem. I have seen people coming to me with a 
half dozen proposals on agriculture, specifically grow this, 
and pomegranates are one of them. Any one of these things would 
be helpful. The challenge is getting the right people with the 
right skill sets to get engaged and actually do it. And it is 
certainly something the Europeans could do. If they would be 
willing to undertake in a coordinated manner these other 
things, they would be very, very helpful to us.
    What I see is there are lots of folk who will volunteer to 
come help, most of them working in small groups individually, 
and it needs to be a much more comprehensive approach to this 
that would be helpful. So we have asked from the U.S. side our 
AID folks in the embassy to take a turn on this. I have hired--
not hired but I have talked to one of our senior AID personnel 
to come and work with my staff to help, to add her insight. She 
has been in the field about 35 years. She knows how to do this 
stuff, and we will try to get it done.

                       ELECTRICITY IN AFGHANISTAN

    Mr. Hobson. What about the electric? What would you do--if 
you could play king for a day or Karzai for a day or yourself, 
how would you fix the electric problem?
    Admiral Fallon. First thing I would do is to get the 
leaders of Afghanistan and other neighboring countries to,
                                ------                                

    But they have phenomenal potential in water reserves. They 
have some huge piles of snow up there all the time in the 
winter. They have some dams they are building. They could be a 
good source of power. There needs to be a comprehensive 
approach. There was a meeting in November----
    Mr. Murtha. What was the question, Mr. Hobson?

                             WATER PROBLEMS

    Mr. Hobson. Remember, they told us about the water problem. 
I said how would you fix the water problem; if you could play 
king for a day, what would yo do to fix the water?
    Admiral Fallon. You need a comprehensive approach. Here is 
what I see: I go over there and the same complaint everywhere. 
There are provinces over there that have zero electrical power 
except for generators. Everybody wants it. And what is 
happening is we have been trying to solve it at the local 
level, solve it at the provincial level. It is not going to 
work. You need a national, and really an international 
solution, in my opinion, because each of those countries have 
similar challenges, Pakistan, Afghanistan, Tajikistan, 
Kyrgyzstan. If they can figure out a way to cooperatively say 
we are going to build a dam here and a dam here and a dam here, 
run the lines, we would be in tall cotton. But it needs a big 
picture, coordinated approach. Okay, we will hope for that and 
try to move it along.
    Meanwhile back at the ranch in Afghanistan today there is a 
dam at a place called Kajaki in the south. Unfortunately, it 
sits in a hotbed of insurgent activity. But the dam is up and 
there is a power plant next to it. It happens to have one 
operable turbine in it today. It is designed for three. I have 
been trying since I got in this job to get three turbines in 
the plant installed and operating. It took me several months to 
get the rest of the story. It turns out you can't just put the 
turbines in. That is a chore in itself. With one turbine 
operating at max capacity, it turns out that the power lines 
are maxed out. So they need to put new power lines up. Of 
course power lines mean new towers. That means you have to have 
some security. Frankly, I couldn't get the Brits to do anything 
last year. Wouldn't even talk to me. Wouldn't even fly my team 
up there to look at this. They are not in charge anymore. And 
we are going to figure this out. And clever man that he is, old 
General McNeill and General Cohen, they have taken a look. It 
just so happens that the turf where Marines are going to be 
operating may just include the turf that we need. So we are 
going to get it done one way or the other.
    But if we can get that power plant functioning and it is 
going to take a year probably, maybe more than that to get it 
up, we will provide power for large areas of those provinces 
that are most problematic. And I think this is what people 
need.

                              POWER LINES

    Mr. Hobson. Can I make one suggestion to you? I have two 
quick things I want to add to that. On the power lines, 3M 
Company makes a product that will boost those power lines 
dramatically and DOE didn't want to look at it. I got an 
earmark, and now DOE loves it. They think it is the greatest 
thing since sliced bread on power lines. You might have 
somebody look at that.
    Admiral Fallon. Name, address and phone number? I'm all 
ears.

                                PISTOLS

    Mr. Hobson. We will help you. One other thing, and I will 
yield back. I have a lot of stuff, but the one thing I want to 
talk about that really is distressing when we go some place and 
talk to somebody and we are out there talking about a neat 
program, I think, because one of the problems is in the police 
departments in how they handle the cops and the training. So we 
go and we are visiting this thing and they are showing them off 
to us and I know you don't have the paper on this but I am 
going to hit you with it anyway. You can find out because it is 
really frustrating to me and I think to the chairman, all of 
us, when we do this. So we are touring this place and they are 
showing us how they got these guys and they got them doing this 
stuff and they are clicking the guns and the pistols and 
everything. So we start talking to the guys that are doing the 
training. And the guy--I said, how is everything going? And the 
guy says everything is fine, sir, it is a good program. We 
think we are going to get good results from this, but these 
damn pistols aren't worth a god damn. And then I get a report 
back.
    Admiral Fallon. These were the police trainers, right?
    Mr. Hobson. Yes. One guy is from Pennsylvania. I don't want 
to get him in trouble.
    Mr. Murtha. State policeman?
    Mr. Hobson. State policeman. He didn't just make this up, 
sir, but when I get the stuff back that I got here, it is from 
DoD. It is like you guys don't know what you are talking about. 
Nobody ever told you this, I mean, summary of report of 
province, no manufacturing defects have been reported. Well, I 
just reported one. Stovepiping. I mean.
    Admiral Fallon. Tell me the place you were. Where were you? 
Kabul?
    Mr. Hobson. Kabul, in that little place where they are 
training the police. Who is the contractor? These guys were 
DynCorps. These guys were trying hard, doing well. But I don't 
understand it. How many times do we go through this situation 
where, you know, it is like we didn't hear it. It is like who 
are you guys? Well.
    Admiral Fallon. Don't worry. I get that same effect.
    Mr. Murtha. Power line problem in Iraq, we had the same 
problem he is talking about in Afghanistan. Haditha.
    Mr. Hobson. We went to Haditha Dam to visit Marines there.
    Admiral Fallon. By the way that refinery they tell me is 
going to be operating up there in about 2\1/2\ months. Told me 
it couldn't be done a year and a half ago.

                          HYDROELECTRIC POWER

    Mr. Hobson. We went to Haditha. I said why didn't you get a 
Corps of Engineers guy up here? And it took how long to get a 
Corps of Engineers guy up there and look at the dam and tell 
them what to do with the dam. The general there couldn't get 
anybody up there to look at the dam to make it work better. You 
got to be--if it frustrates us, it has to drive you crazy.
    Admiral Fallon. Invite NATO to come in with all the caveats 
and then see.
    Mr. Hobson. We got into the Dutch guy over there atNATO. 
But it is McNeill, let me tell you, McNeill is a straight commander, I 
think, and he came in and did a lot of good stuff. But I think he is 
very frustrated as he goes out the door. But I think he is a good 
warfighter from what I can see. I think he thinks it is winnable if he 
could get the right stuff done. But anyway, I don't mean to beat you up 
about this.
    [The information follows:]

    I have confirmed with the Combined Security Transition Command in 
Afghanistan (CSTC-A) that they are confident the 9mm Smith & Wesson 
Sigma Series pistols provided to the Afghan Army and police do not have 
manufacturing defects. That said, the S&W Sigma, though a modern and 
effective handgun, is considered by some observers to be a somewhat 
lesser-quality pistol compared to more expensive handguns such as the 
U.S.-issue M9 Beretta, the Glocks or Sig Sauers. Additionally, some 
individuals do not like certain features of the Sigma's design such as 
certain disassembly procedures and the lack of a positive thumb safety 
feature that some other models offer. While the S&W Sigma 9mm meets all 
requirements, it has been decided future pistol procurements will 
specify features comparable to the M-9 Beretta that is issued to U.S. 
forces.

    Admiral Fallon. I will be looking for pistols, 9mm.
    Mr. Hobson. They are the stupid 9mm, which don't kill a 
lot.
    Mr. Murtha. Gentleman from Georgia
    Admiral Fallon. It was a congressional decision, I think, 
wasn't it, to replace all those guns?
    Mr. Hobson. But I wasn't here at the time and I have been 
fighting it ever since.
    Admiral Fallon. What happened to the old 45s?
    Mr. Murtha. General Moseley said to us he wants 45s for the 
Air Force. So we put money in to experiment with the 45s. I 
said what do you carry? He said a 38.
    Mr. Bishop. Thank you, Mr. Chairman.
    Mr. Murtha. Gentleman from Georgia.

                             AFRICAN COMMAND

    Mr. Bishop. Thank you. Admiral, I have a couple questions. 
The first has to do with the stand-up of the African Command. 
Of course General Ward got a star and then of course he was 
designated to head up the new African Command, and that means 
that the Horn of Africa region will transfer from your 
responsibility to CENTCOM to AFRICOM, and reportedly it is 
supposed to happen by October.
    Do you know whether or not a decision has been made on the 
home for AFRICOM? Do they have a home?
    Admiral Fallon. They have not found a home other than 
Germany, and this young lady behind me is going to be their 
chief of requirements and resources. So I think they will 
probably give her one of those jobs to try and find a place. 
Right?
    No, they are still working on it. There is a problem, of 
course, real anxiety in Africa about where this place goes.
    Mr. Bishop. Because Nigeria said absolutely not. And next 
place I understand is Liberia, and I don't know what the status 
of that is. Do you have any idea?
    Admiral Fallon. No.

                                 PIRACY

    Mr. Bishop. What is the status of the efforts to transition 
the command, and the piracy, as I understand, off the coast of 
Africa has been increasing. Do you have enough international 
effort for that, a long-term solution to that? You have to take 
control of that and be responsible for policing those waters.
    Admiral Fallon. Our idea here is to take the Horn of Africa 
Command, Joint Task Force Horn of Africa, which now reports to 
me, and to chop that over to General Ward with the idea that it 
stays intact, and it really crosses the boundary between 
AFRICOM and CENTCOM. I would like to stay very well connected 
to this entity because frankly AFRICOM is not going to have the 
resources, knowledge, or experienced people to do the things we 
have going on for quite some time.
    Mr. Bishop. Will that be left up to you or be left up to 
the----
    Admiral Fallon. The way this whole thing will really work 
is they will ultimately report to General Ward. If I see 
something that I think needs doing, I can through the staff 
call up and say here is what we recommend. And we have had this 
discussion already. I think that is the way it is going to 
work. Most of the reason is that they don't have assets. We 
still have them and so piracy, we will be working that one 
pretty much from NAVCENT.

                  ETHIOPIA AND ERITREA BORDER DISPUTE

    Mr. Bishop. What is the current status of the situation 
with Ethiopia and Eritrea, the border dispute and the U.N. 
mission in Eritrea and Ethiopia?
    Admiral Fallon. Tensions are rising. Background here is 
that two leaders, Isaias and Meles use to be good buddies. In 
fact now they are--not only buddies, they are cousins of some 
pedigree. They really don't like each other now, and the 
personalities drive this agenda, friction between the two. The 
problem in the last few weeks is that the Eritreans have been 
starving the U.N. contingent in there of all supplies and 
basically forcing them to leave the country as unsustainable, 
and as they withdraw it is going to leave no buffer between the 
two.
    My assessment of the situation, and I will admit I haven't 
been to see Isaias yet, hasn't been very welcoming. I have 
talked to Meles about it. Neither one probably wants a war. 
They might be able to stumble into it if they are not careful, 
so it is something that needs attention. I know the U.N. is 
focused on it. We don't really have the ability to go help 
negotiate much at this point from what I can see, so we have to 
be careful.

                          SURGE UNIT EQUIPMENT

    Mr. Bishop. I am going to have to run and vote. But I did 
want to switch gears on the surge equipment. I hear about what 
happens with equipment that has been used by the surge units 
when they depart. Are they taking them with them? They normally 
would be--equipment would stay to be used by replacement 
follow-on units. But some of the equipment will be sent back 
for reset. Will it be reconditioned for theater?
    Admiral Fallon. Most of it is coming out. We are bringing 
it out, yes, sir.
    Mr. Murtha. Well, Admiral, we appreciate your coming before 
the Committee. We appreciate your dedicated work and we hope 
your protege is going to do as well in Africa. We hope she 
straightens it out in Africa. Thank you very much. The 
Committee is adjourned until 10:00 o'clock Tuesday.
    [Clerk's note.--Questions submitted by Mr. Murtha and the 
answers thereto follow:]

                          Extended Deployments

    Question. Admiral Fallon, when you last appeared before this 
Committee, Secretary Gates had just announced that all active-duty 
soldiers currently deployed or going to Iraq and Afghanistan would see 
their one-year tours extended to 15 months. In his statement, the 
Secretary said that the extended tours were necessary to support the 
surge in Iraq and to allow for 12 months at home between tours for rest 
and reset.
    Admiral, the drawdown in the number of soldiers, marines an 
supporting forces involved in the surge has begun, but so has talk of a 
pause in the drawdown. What are the metrics that are in use to help 
inform decisions about the continuation of the surge, or a pause in the 
drawdown?
    Answer. ------.
    Question. What are the resource implications of a pause in the 
drawdown? Will additional funding be needed?
    Answer. Resource implications depend on the length of the pause. 
United States Central Command does not see an immediate need for 
additional funding to support operations due to a pause in the 
drawdown. However, we would likely require additional funding 
commensurate with the force levels retained, if the pause continues 
into the second or third quarter of Fiscal Year 2009. We are 
coordinating with the Services to identify specific funding 
requirements necessary to support a prolonged pause in the drawdown.
    Question. Admiral do you endorse a drawdown in troop strength to 
pre-surge levels, or can we drawdown to significantly lower levels?
    Answer. As you know, we are currently reducing forces to pre-surge 
levels as directed by the President. Planning efforts are underway to 
determine the appropriate longer-term troop strength for Iraq. It would 
be premature to comment on the results of those efforts, but any 
determination will be based on the conditions on the ground, and the 
judgment of commanders in the field.

                         Iraqi Security Forces

    Question. Part of the new strategy in Iraq is to use larger numbers 
of trained Iraqi security forces, accompanied by U.S. forces to ``clear 
and hold'' sectors of Baghdad and other places in Iraq.
    What can you tell us about the numbers of Iraqi Army units that are 
accompanied by U.S. forces, their manning strengths, their capabilities 
and desire to engage in the fight, and most importantly, their ability 
to assume the lead in counterinsurgency operations?
    Answer. ------.
    Question. Reports from Iraq generally conclude that the Iraqi 
military forces are improving steadily. However, the Iraqi police have 
so far been less capable, and mere prone to corruption. What is your 
assessment of the Iraqi police forces?
    Answer. ------.
    Question. Some U.S. military personnel are living with their Iraqi 
counterpars in the neighborhoods they are securing in Iraq. Can you 
inform the Committee process is progressing?
    Answer. ------.
    Question. How many U.S. personnel are involved in operations 
teaming with the Iraqis? Is this number increasing or decreasing as the 
surge draws down?
    Answer. It is impossible to provide a specific number of U.S. 
personnel who are involved in operations teaming with the Iraqis. Many 
U.S. personnel are members of transition and training teams, who work 
directly with Iraqi units every day. Even those not on transition and 
training teams are still involved in operations, as members of units 
partnered with Iraqi counterpart units. In this role, U.S. personnel 
work with their Iraqi partner unit to conduct training and work 
together in combined operations. This is true for personnel in combat, 
combat support and combat service support positions, since nearly all 
of these types of units have counterparts in the Iraqi Security Forces. 
The number of U.S. forces involved in operations with the Iraqis will 
decrease as overall force levels decrease, but the proportion will 
remain about the same--however, over time the nature of the 
relationship will change as Iraqis increasingly take the lead in 
security operations.
    Question. How many U.S. soldiers are in the typical small unit, or 
team, that is embedded with the Iraqis?
    Answer. ------.
    Question. What are the experience and training levels of the 
officers and NCOs that are provided as members of embedded training 
teams?
     Answer. ------.

                   Progress by the Government of Iraq

    Question. In mid-February, Iraq's parliament passed three key 
pieces of legislation that (1) set a date for provincial elections, (2) 
approved $48 billion for 2008 spending, and (3) provided for limited 
amnesty for detainees in Iraqi custody.
    How specifically do these legislative actions influence security 
and stability in Iraq?
    Answer. Setting a date for provincial elections are a key to 
rebalancing of Iraqis and empowers decentralized governments in the 
provinces. An approved budget brings along money for reconstruction and 
government services that employ and better the conditions of Iraqi 
citizens. The Iraqi motivation for the passage of a general amnesty law 
was to further reconciliation efforts by pardoning certain offenses and 
allowing those individuals a second chance to become productive members 
of the new Iraq. The passage of the law is a significant reconciliation 
step, given its clear benefit to the Sunni community that constitutes 
an estimated 85% of the detention population.
    Question. Highlight some of the important aspects of the fiscal 
year 2008 Government of Iraq budget?
    Answer. On February 13, 2008, Iraq's Council of Representatives 
(CoR) passed a $49.9 billion budget for FY 2008--21% rise in 
expenditures over last year's budget. Based on increased crude oil 
exports and persistently high oil prices, Iraq is well positioned to 
afford an expanded budget in 2008. Oil revenues are expected to grow 
from $31.0 billion in 2007 to $35.5 billion this year, an increase of 
15%. Other revenues are expected to grow from $2.4 billion to $6.9 
billion.
    Total 2008 budgetary expenditures will increase to $49.9 billion, 
including $37 billion for operating expenditures, a 19% increase over 
last year. Security expenditures will increase by 23%--from $7.3 
billion to $9.0 billion--with $5.1 billion earmarked for Ministry of 
Defense and $3.9 billion earmarked for Ministry of Interior.
    2008 Budget allots $13.2 billion for investment spending, an 
increase of 32% over last year's $10.0 billion. Capital funds allocated 
to the 15 provinces will increase over 50%, from $2.1 billion to $3.3 
billion, reflecting the improved budget execution performance by the 
provinces in 2007. Total capital allocations for the Kurdistan Regional 
Government will grow from $1.6 billion to $2.7 billion, keeping them at 
17% of GoI revenues after deduction of ``Sovereign Expenses.'' Ministry 
of Oil's investment allocation will be cut back from $2.4 billion to 
$2.0 billion, based on this Ministry's persistent under-spending, while 
Ministry of Electricity will be budgeted a flat $1.3 billion. Iraq's 
2008 budget contains funding for key investment programs necessary to 
promote economic development and support security gains, including: $70 
million for a Disarmament, Demobilization and Reintegration (DDR) 
program, $417 million for public works programs, $250 million for 
housing and construction programs, and $62 million for agricultural 
programs.
    Question. Can you describe for us some of the improvements in Iraqi 
Provincial and local governance?
    Answer. Iraqi provincial and local governance continue to improve 
and build upon the progress seen during last quarter. The provinces 
made some real progress in the past year, particularly when many of the 
provinces executed only a very small portion of their budgets in 2006. 
They spent most of their $2.0 billion allocation for 2006 in 2007.
    Mentoring by Provincial Reconstruction Teams (PRT) has resulted in 
17 out of 18 Provincial Councils submitting their Provincial 
Development Strategies (PDS) to the Ministry of Planning on a timely 
basis. The PDS serves as the framework document for building provincial 
budgets and links the provinces to supporting ministries throughout the 
Government of Iraq. According to preliminary Iraqi budget execution 
data, most provinces are making significant progress in capital 
projects as well. These improvements are due in part to capacity-
building efforts, including Procurement Assistance Centers, training 
activities and capacity development programs in the ministries and in 
the provinces.
    In addition, the PRTs are helping to successfully nurture this 
process. At present, there are 11 PRTs working at the provincial level, 
13 PRTs embedded with Brigade Combat Teams (BCTs) and seven Provincial 
Support Teams operating from established bases at the local level. They 
draw on U.S. interagency and Coalition expertise to assist local, 
municipal and provincial governments to strengthen the Government of 
Iraq's capacity to deliver basic services to its citizens, facilitate 
economic development, foster reconciliation and encourage application 
of the rule of law. PRTs are working to facilitate this transition by 
assisting provincial and local governments in meeting basic needs 
related to schools, roads, sewage, an water services.
    Question. Can you also discuss the impact of the Concerned Local 
Citizens groups, which I understand are now called Sons of Iraq? Are 
the members of these groups all Sunni?
    Answer. The Sons of Iraq (formerly known as Concerned Local 
Citizens) are an indigenous ally fighting a common adversary in Iraq, 
Al Qaeda. Their activities range from conducting joint Coalition Forces 
and Iraqi Army patrols and manning check points providing actionable 
intelligence on weapons caches, terrorists and criminal elements in 
their areas. Their effort constitutes a new, armed ally for the 
Coalition, while simultaneously drawing from the Al Qaeda recruiting 
pool. These groups are force multipliers that have played an integral 
part in reducing Coalition casualties, equipment losses, and the 
overall violence in Iraq. The overwhelming majority of the Sons of Iraq 
are Sunni.
    Question. How much U.S. funding goes to support the Concerned Local 
Citizens groups?
    Answer. From 1 Jul 07 to 31 Jan 08, $148M has been expended on CLC 
programs. As the program grows, more funding will be expended. However, 
this summer the program will start transferring to the government of 
Iraq.

             Jordanian International Police Training Center

    Question. The Jordanian International Police Training Center was 
created to train Iraqi police cadets. The cost to construct the 
facility was over $140 million.
    What is the current usage of the facility?
    Answer. Training at JIPTC has lately been dedicated to developing 
security forces of the Palestinian Authority (PA). 418 PA Presidential 
Guard personnel graduated a 2-month program at JIPTC on 13 Apr 2008. A 
battalion (approx. 600 soldiers) of PA National Security Force 
graduated a 4-month course on 28 May 2008.
    Question. What are the future plans for the facility?
    Answer. Palestinian Authority security force training at JIPTC has 
been very successful this spring. Negotiations for follow-on training 
are ongoing. While the current round of U.S.-funded training has 
concluded, Jordan has agreed in principle to work with us in the future 
to provide mutually beneficial internal security force training for any 
number of friendly nations.
    Question. Does the facility continue to receive U.S. funding?
    Answer. The Jordanian International Police Training Center (JIPTC) 
is not receiving funding from the Department of Defense. Department of 
State is currently paying the Jordanian government to train Palestinian 
forces at the JIPTC.
    Question. In addition to the Jordanian International Police 
Training Center, are there plans underway to complete construction of 
the King Abdullah Special Operations Training Center. How are these 
training facilities not duplicative of each other?
    Answer. The Jordan International Police Training Center (JIPTC) was 
originally used to train Iraqi police, but now has moved on to train 
international police officers, most recently for the Palestinian 
Authority. This center focuses on interaction with civilians, rule of 
law and basic police tactics. The facilities are largely oriented 
toward this law enforcement role and consist largely of classrooms, 
basic small arms training ranges, and a driving course.
    In contrast, the King Abdullah Special Operations Training Center's 
(KASOTC) primary mission is training U.S. and international special 
operations forces in counter terrorism operations. This facility has 
military-oriented capabilities including a sniper/rappelling tower, 
aircraft breeching facility, 360 degree live-fire shoot houses, as well 
as classroom facilities and dorms.

                     Troop Strength in Afghanistan

    Question. We have heard a lot about an anticipated spring offensive 
in Afghanistan by the Taliban. The United States is sending a force of 
approximately 2,200 Marines to bolster combat power to counter the 
Taliban Spring offensive, and another 1,000 to train and otherwise work 
with and strengthen the Afghan military.
    Where in Afghanistan will the Marines conduct combat operations?
    Answer. For the past several years we have observed a natural 
pattern in the resumption of Taliban activity in the spring months 
building up to a summer peak and tapering off as the harsh Afghan 
winter sets in. To characterize this activity as a ``Spring Offensive'' 
is to give inordinate credit to an enemy incapable of making a 
coordinated effort. International Security Assistance Force (ISAF) 
forces have been very effective in preventing the Taliban from 
coordinating their efforts and in 2007 had significant successes 
against Taliban core leadership.
    This year, we committed additional forces to give ISAF an 
additional combat punch to continue pressure on the Taliban and to 
bolster security for the Afghan people in the southern region. General 
McNeill, followed by General McKiernan, will position these forces as 
they see fit, but the 2,200 Marines are currently forecast to conduct 
combat operations in Regional Command (RC) South.
    Question. After their seven month tour is up, will they be replaced 
with another Marine unit?
    Answer. Currently, the 24th Marine Expeditionary Unit and the 2D 
Battalion, 7th Marines is a one time U.S. deployment to Afghanistan. 
Any replacement units will be a Secretary of Defense decision.
    Question. As U.S. brigades are withdrawn from Iraq, will you 
request additional brigades for combat operations in Afghanistan?
    Answer. There is no relationship to the drawdown of forces in Iraq 
and the buildup of combat power in Afghanistan. All sourcing options 
are considered when trying to fill U.S. force requirements and 
shortfalls in any region; however, withdrawals of U.S. brigades from 
Iraq do not necessarily trigger additional requests for U.S. brigades 
for Afghanistan.
    Question. Assuming that the additional U.S. trainers are mid-grade 
NCOs and officers, how will this surge in trainers impact dwell time 
for those soldiers that comprise a part of the force that is already 
difficult to retain?
    Answer. The additional U.S. trainers are a Marine Air-Ground Task 
Force containing a mix of all grades, not a concentration of mid-grade 
NCOs and officers. As for the impact of dwell time for these Marines, 
this question is best answered by Headquarters Marine Corps. USCENTCOM 
does not have visibility on Marine Corps retention and/or dwell time 
statistics.
    Question. What is your overall impression of the situation in 
Afghanistan, the capability of the Taliban, and the preparedness of the 
Afghan security forces to fight and defeat them?
    Answer. The insurgency in Afghanistan's predominantly Pashtun south 
and east will not directly threaten central institutions or prevent 
progress in the north and west. However, Afghanistan's challenging 
situation is likely to become more difficult over the next year despite 
planned improvements to governance, development, and security.
    Afghan Security Forces continue to mature and develop, especially 
the Afghan National Army (ANA). The ANA took several steps forward over 
the past six months. In December 2007, the ANA played a prominent role 
in retaking Musa Qaleh in Northern Helmand Province. In March 2008, the 
first ANA Battalion was certified as fully capable of conducting 
independent combat operations. The Afghan National Police (ANP) has not 
yet progressed as well as the Army, but significant effort is being put 
into the ANP to improve their performance.
    Question. What is your assessment of the capabilities and abilities 
of the various NATO member contingents and their ability to engage in 
combat operation against the Taliban?
    Answer. We appreciate the troop contributions the many NATO nations 
and other partner states continue to make to International Security 
Assistance Force (ISAF). These forces are engaging the Taliban 
effectively. Last year's predicted Spring Offensive did not materialize 
largely due to ISAF troop effectiveness. Earlier this year, ISAF forces 
in conjunction with the Afghan National Security Forces (ANSF) re-took 
the vital Musa Qala area from Taliban control. While there are 
shortages in resources, the NATO and ANSF forces on the ground are 
taking the fight to the Taliban and effectively delivering improved 
security and stability throughout Afghanistan.
    Question. Which NATO countries provide forces to engage in direct 
combat, and in what numbers?
    Answer. NATO contributes approximately 26 thousand of the 45 
thousand ISAF forces with Great Britain, Germany, Canada, and Italy 
making the largest contributions. NATO is committed to the mission in 
Afghanistan and understands that it is a long-term commitment in which 
all NATO nations share the borders. Nations participate in the 
International Security Assistance Force (ISAF) according to their 
individual national interests and capabilities.

                        Violence in Afghanistan

    Question. While violence seems to have decreased in Iraq, violent 
acts in Afghanistan appear to have increased including the use of 
Improvised Explosive Devices, and suicide bombers. There are those who 
are concerned about the situation in Afghanistan, highlighting levels 
of violence and suicide bombings. Others point to progress made in 
curbing violence, improving governance, and expansion of the Afghan 
Security Forces.
    Is timely and accurate intelligence available on the Taliban?
    Answer. Our intelligence on the Taliban and other insurgent groups 
is timely and accurate, but is now and will always be incomplete based 
on the nature of the enemy and this war. We continue to use all our 
capabilities to collect the most accurate information possible, and 
send the analysis of that information to the units and decision makers 
who most need it. Increasing the number of ISAF personnel on the ground 
in Afghanistan in 2008 will further enhance our understanding of the 
enemy in Afghanistan and the tribal support network they rely on so 
heavily for sustainment and to conduct operations.
    Question. Please describe the contributions of the various NATO 
member countries to combat operations and support operations in 
Afghanistan.
    Answer. There are currently 26 NATO member countries and 13 partner 
nations providing significant combat and support operations in 
Afghanistan as part of the International Security Assistance Force 
(ISAF) and Operation Enduring Freedom (OEF). These NATO member 
countries are providing a full range of operations from war fighting to 
civil reconstruction operations to include: Command and control, combat 
maneuver units, special operations, psychological operations (PSYOPs), 
regional signal intelligence/electron warfare/human intelligence teams 
and enhanced medical treatment facilities capable of delivering primary 
surgical treatment. In addition, instrumental contributions are made by 
NATO provincial reconstruction teams (PRTs) which provide critical 
support to the Government, Islamic Republic of Afghanistan local 
representatives for civil/admin law and order, justice, and public 
services.
    Question. Is the NATO experiment working?
    Answer. The NATO ``experiment'' in Afghanistan is working. NATO 
member nations are supporting the International Security Assistance 
Force (ISAF) mission with national treasure and blood. International 
cooperation towards the noble goals set forth by the Afghans and the 
International Community to rebuild and develop Afghanistan is 
unprecedented. ISAF forces in Afghanistan are making a difference. 
Security, despite reports to the contrary, is improving in Afghanistan.
    Question. Are you adequately resourced for the mission in 
Afghanistan?
    Answer. No. For U.S. forces in Afghanistan, the Commander, Combined 
Joint Task Force-82 and the Commander, Combined Security Transition 
Command-Afghanistan (CSTC-A), submit their requests for forces to U.S. 
Central Command for consolidation and prioritization. The outstanding 
priorities for U.S. force fills in Afghanistan are embedded training 
team personnel to mentor and train Afghanistan National Army and Police 
forces; and additional intelligence, medical, criminal investigation, 
and other support personnel needed for combat support requirements.
    The Commander, International Security Assistance Force (ISAF) 
identifies combat force requirements via the Supreme Allied Commander, 
Europe in the Combined Joint Statement of Requirements (CJSOR). The 
CJSOR is sourced through for ISAF via NATO channels. The outstanding 
priorities in Afghanistan include requirements for rotary wing 
aircraft, maneuver forces, operational mentor liaison teams, and 
medical support.
    Question. Are coalition forces adequately resourced?
    Answer. Yes, coalition forces have the resources and equipment 
required to defeat the insurgency and assist in rebuilding of 
Afghanistan. NATO mandates that countries are responsible for their own 
national training, equipping and human resources. Partnering NATO 
countries have many avenues to acquire the best personal military 
equipment for their fighting forces; however, there continues to be a 
need for high demand items which are fielded as soon as they are 
produced.
    Several of our coalition partners have training facilities, and 
trainers that rival those found in the United States. These countries 
offer a variety of training opportunities for partnering countries who 
feel they can benefit from training and developing relationships with 
other countries.
    Adequate manpower is always a challenge, but our partnering NATO 
countries are constantly evaluating how they can contribute more. We 
are seeing our coalition partners contribute in a variety of ways 
including military forces, civilian expertise, in country and out of 
country training, equipment and weapons donations, and funding support.

                                  Iran

    Question. Admiral, it seems that Iran is pursuing a multi-track 
policy in Iraq, consisting of overtly supporting the information of a 
stable, Shia Islamist-led central government while covertly working to 
diminish popular and military support for U.S. and Coalition operations 
there.
    What actions does CENTCOM have underway in the region to prevent or 
curtail Iran's destabilizing activities that contribute to internal 
Iraqi or Afghan frictions, and that threaten regional stabilities?
    Answer. In Iraq, Multi National Forces--Iraq (MNF-I) is using 
Intelligence, Surveillance and Reconnaissance (ISR) assets to monitor 
border activities for lethal aid flow. Special Operations forces, along 
with Iraqi Special Operations Forces, are targeting Iranian surrogates 
and Qods Force operatives in Iraq. Coalition Forces are assisting the 
Iraqi Department of Border Enforcement by training, and reinforcing 
ethical border enforcement technique at border crossings in Maysan and 
Basrah Provinces. MNF-I leadership continues to encourage GoI to 
diplomatically engage Tehran to stop the flow of lethal aid into Iraq. 
As Coalition Forces unearth caches with Iranian munitions, information 
is cataloged and presented to the GoI as further proof of Tehran's 
meddling to destabilize security in Iraq.
    Regionally, CENTCOM is partnering with Gulf Cooperation Council 
(GCC) members to deter Iran's maligning influence in the region. 
Through theater security cooperation and multi- and bi-lateral 
exercises with our GCC partners, we convey to Iran our strong resolve 
for regional stability. Our operations in and around the Arabian Gulf 
prevent Iranian Qods Forces from further maligning influence and from 
pursuing greater control of international commerce flowing through the 
Gulf. Our presence in the Gulf also curtails piracy from Iranian 
surrogates and Islamic Revolutionary Guard Corps Navy--Qods Force 
(IRGCN-QF).
    Question. What is the status of your contingency plans for 
potential operations in this theater and what shortfalls or concerns 
have you been able to identify?
    Answer. CENTCOM is always looking at ways to ensure we are prepared 
for a range of contingencies in this very dynamic theater of 
operations. As you know, there are many threats we face on a day to day 
basis that require a critical eye and focus. Iran's maligned influence 
throughout the region, most notably in Iraq, their defiance of the 
international community with respect to its nuclear program and recent 
reckless behavior at sea demonstrated by their Revolutionary Guard 
Corps Naval Forces against a U.S. Naval Vessel are all troubling signs 
that require our attention and concern. CENTCOM will be prepared to 
support any military option should it be necessary to confront Iranian 
aggression, but I'm optimistic that the current U.S. Government and 
international community efforts to work towards a diplomatic solution 
in dealing with Iran's destabilizing policies in the region will be 
successful.
    Question. Considering the recent Strait of Hormuz encounter between 
the U.S. Navy and Iranian speed boats, do you believe Iran has become 
more aggressive against U.S. and Coalition Forces?
    Answer. ------.
    Question. How would you characterize Iran's influence and 
objectives Iraq?
    Answer. Iran's objectives include an Iraq that is militarily weak 
and able to maintain its own security, free from Coalition or U.S. 
military presence, receptive to Iranian influence, and led by a Shia 
Islamist government. Iran works to build long-term influence among 
Iraqis by pursuing humanitarian, reconstruction, and economic projects 
and by providing Shia militia the means to achieve their goals, 
including weapons, training, and funding. These efforts are almost 
entirely led by the Islamic Revolutionary Guard Corps--Qods Force 
(IRGC-QF). Iran, through the IRGC-QF, pursues its short-term objective 
of a painful Coalition military withdrawal by encouraging Shia 
militants under varying degrees of influence to attack Coalition 
targets. Iran pursues its long-term goal of an Iraq free from U.S. 
military presence through attempts to influence Iraqi Shia, Sunni and 
Kurdish politicians.
    Question. In probable reaction to Iran's nuclear program, Egypt and 
many Gulf Cooperation Council countries expressed an interest in 
developing a peaceful nuclear program, individually and collectively. 
What is your assessment of the underlying rationale for peaceful 
nuclear programs when most of these countries possess abundant oil and 
natural gas reserves?
    Answer. Many Arab countries have a long-standing interest in 
nuclear technologies. Arab governments have closely monitored the 
Iranian nuclear negotiations, and are aware of the prestige and 
bargaining power Iran derives from its nuclear program. Rapidly 
expanding populations and the expectation of an improved standard of 
living in Arab nations is creating chronic energy deficiencies 
throughout the region. Greater quantities of fossil fuels will be 
required to meet the growing demand for electricity thus limiting 
potential export profits. While the region is rich in fossil fuels, 
natural gas (the preferred fuel for electrical power generation) is 
unevenly distributed, and transporting industrial quantities of natural 
gas requires a highly specialized infrastructure. The additional 
revenue available from the record price of petroleum products 
encourages maximum export vice internal consumption and further 
encourages alternative methods of power generation.
    Question. As a follow-up question, how concerned are you that these 
nuclear programs could rapidly transform from a peaceful power-
generation program into a nuclear weapons program?
    Answer. While the proliferation of nuclear knowledge and materials 
are worrisome, Egypt and the Arabian Peninsula countries that are 
interested in nuclear power have pledged to develop transparent 
programs in compliance with International Atomic Energy Administration 
guidelines. These nations have traditionally respected their 
international obligations and have lived peacefully in the region. 
There is no reason to believe that these nations would be anything 
other than responsible in their peaceful development of nuclear 
programs.

                                Pakistan

    Question. The U.S. and Pakistan are fighting a common enemy in the 
Taliban. The U.S. provides material assistance and training to Pakistan 
which is intended to support a common strategic effort to counter 
extremism and militancy.
    Are you comfortable with your ability to measure accountability and 
effectiveness of funding and resources provided to Pakistan?
    Answer. The U.S. provides significant support to Pakistan, 
commensurate with its importance to U.S. national security interests. 
It is difficult to make a direct correlation between the dollars we 
provide and Pakistan's actions, but Pakistan has been and continues to 
be an essential ally in the war on terror. Our engagement and security 
assistance programs are effective in building trust and confidence 
within the Pakistani Army; however, it will take time to overcome 
imbedded perceptions that have resulted from years of sanctions.
    We have a comprehensive process to reimburse Pakistan for the 
additional costs it incurs as a result of operations conducted in 
support of the war on terrorism. This process has served us well in 
allocating an appropriate level of assistance and supports our other 
security assistance programs (Foreign Military Finance, International 
Military Education and Training). It is important to ensure that our 
various assistance programs are focused on not only reimbursement, but 
also with the aim to solidify a strategically focused, long-term 
balanced bilateral relationship. This requires that we constantly 
assess whether the tools we are using lead to this end.
    In the case of Coalition Support Funds, we have asked for and are 
now receiving additional accountability detail to justify these claims. 
We continue to closely scrutinize Pakistani claims and are working with 
the Pakistanis to clarify what is and is not reimbursable. With regard 
to Foreign Military Financing (FMF), we have begun moving towards 
funding efforts that more closely support the war on terrorism and will 
work with the Pakistanis on FMF for 2010 and beyond. Congressional 
funding of the Security Development Plan will directly target 
improvements to Frontier Corps capabilities that support our regional 
efforts. Equipment that we provide to Pakistan is typically procured 
through the Foreign Military Sales (FMS) process, regardless of funding 
source and so includes the End Use Monitoring provisions that are part 
of that system.
    Question. Given ongoing media scrutiny over Pakistan's ability to 
safeguard its nuclear weapons during periods of instability, are you 
convinced the Government of Pakistan has taken adequate measures to 
ensure their nuclear weapons remain secure?
    Answer. We are confident Pakistan's military maintains firm control 
of its nuclear weapons and will continue to do so throughout periods of 
political uncertainty. The exponential growth of Pakistan's nuclear 
program coupled with the A.Q. Khan scandal (late 2003) posed inherent 
security concerns and revealed program vulnerabilities. Since then, 
Pakistan's Strategic Plans Division, charged with oversight of its 
nuclear program and headed by now retired Lieutenant General, has 
implemented a variety of physical and personnel security measures 
designed to eliminate threats to its nuclear program. They have 
expanded outer perimeters of nuclear facilities to counter suicide 
attacks, enhanced nuclear accounting and control procedures and 
implemented a more robust personnel reliability program.
    Question. How will recent elections in Pakistan affect our 
relations with the Pakistan military?
    Answer. I expect positive military-to-military relations will 
continue, barring any major changes to Pakistan's willingness or 
commitment to reject extremism in favor of ideologies that are 
responsible and enduring. Pakistan and the United States share a common 
goal to dissuade extremism and defeat the terrorism which threatens 
world security--and we are both strongly committed to this end. This 
mutual goal eclipses all political dynamics and serves to foster an 
already productive and strong military-to-military relationship between 
our two countries. The recent election and its developing outcomes do 
highlight changing political dynamics in Pakistan, which will require 
acknowledgment and some adjustment on our part, although I foresee no 
major changes in our strategic relationship. The changing political 
dynamics as a result of the recent elections will affect the position 
of Pakistan's military in society and government. Prime Minister 
Gillani's stated desire to put a Pakistani face on the war on terrorism 
domestically may result in Pakistani efforts to downplay the U.S. 
military role in Pakistan.
    It is vital that we maintain continuous military relations with the 
Pakistan military while their civilian political process unfolds. This 
election gives the U.S. the opportunity to further relationships with 
institutions and individuals other than Pres. Musharraf as well as 
provide support to Pakistan for countering extremists' activities. 
Outside of Admiral Mullen's two meetings with Pres. Musharraf, the 
engagement of U.S. senior military leaders has been almost exclusively 
with their Pakistan military counterparts since Pakistan's 
parliamentary elections. During these meetings, Admiral Mullen has 
stressed the importance of the U.S.-Pakistan relationship to both 
countries and his commitment to strengthening that relationship. 
Although Chief of Army Staff, Gen. Kayani, and the Pakistani Army would 
prefer Musharraf remained president, even out of uniform, Musharraf 
would serve as a known quantity that will protect the interests of the 
army. However, the army will not likely choose to support Musharraf 
over its own corporate interests or in the event of untenable levels of 
civil unrest. Generally there is agreement amongst the politicians and 
the media that the extremist activity emanating from the Federally 
Administered Tribal Areas (FATA) is an issue that needs to be addressed 
at the national level. In fact, several politicians have emphasized the 
need for a ``two-pronged'' approach where political development and 
security initiatives in the Northwestern Frontier Province (NWFP) and 
the FATA complemented one another. Further, administrative isolation of 
the FATA was a colonial policy that made no sense for a modern Pakistan 
and needed to be redressed through a series of steps beginning with 
extension of the Political Parties Act to the FATA and reform of the 
Frontier Crimes Regulation. These attitudes and approaches bode well 
for continued military-to-military relations between our two nations.
    Question. What is your assessment of the cooperation and assistance 
the coalition is receiving from Pakistan?
    Answer. Pakistan has been, and will remain, a key ally in the War 
on Terror; however, the type and scope of their support is heavily 
impacted by Pakistan's regional security concerns and domestic 
politics. Statements by recently elected Pakistani officials indicate 
that Pakistan will remain an ally in the War on Terror; however, they 
may review the nature and level of that support. Since 2001, Pakistan's 
support has been a key enabler of coalition operations in Afghanistan. 
Without their contributions to Operation Enduring Freedom (OEF), 
crucial air and ground links which provide a lifeline of support and 
operational flexibility to coalition forces would not be possible. 
Moreover, despite growing public resentment, the government has 
maintained approximately 100,000 security forces throughout Baluchistan 
and the Federally Administered Tribal Areas.
    Question. Please describe the anti-Taliban operations underway in 
Pakistan and how have these operations evolved over time?
    Answer. Pakistan launched counter-terrorism operations in the 
Federally Administered Tribal Areas (FATA) in December of 2001 in 
support of our operations in Afghanistan. The historic animosity 
between the tribes and the Army, combined with a well equipped and 
aggressive foreign fighter element, challenged Pakistani security 
forces. In July 2006, the government entered into a peace accord with 
the tribes and militant leaders in order to regain stability and 
relieve pressure on the Army.
    Violence increased significantly in July 2007 following the 
government's raid on the Red Mosque in Islamabad, because it fueled 
extremist animosity toward the government. Pakistani security forces 
continued counter-militancy efforts in the FATA and surrounding regions 
through late 2007; however, the Army shifted to a less aggressive 
posture to allow the elections to proceed in early 2008. As of early 
April 2008 the ceasefires between the government and tribes are 
holding; however, there are indications the situation is eroding.
    Pakistan's priorities in the border region are domestic politics 
and Pakistan's regional security concerns. As a result, their military 
posture, strategy and operations are focused on countering the domestic 
militant threat emanating from this region. Improving Pakistan's 
ability to address U.S. concerns in this region will require more than 
diplomatic pressure, funding and training; it will also require a 
change in the current domestic and regional environment that creates 
conditions that allow Pakistan to take steps to address U.S. concerns.
    Question. How are these operations likely to change in the short- 
and long-term, particularly in light of increasing cross-border 
incursions by the Taliban into Afghanistan?
    Answer. First, available data does not indicate ``increasing'' 
cross-border incursions, but rather a predictable return to heightened 
militant operations that occurs each year in the spring as weather 
improves. Pakistan's current political situation and statements by 
military and civilian leaders indicate we are unlikely to see a renewal 
of large-scale military operations in the tribal areas in the near-
term. The long-term plan for the FATA focuses on development and 
improved governance, supported by a strong yet constrained military 
presence. Pakistan's long-term plan for improved border security 
includes developing Frontier Corps capacity to better interdict cross-
border activity.
    Question. Do you believe you have all the assets important to your 
mission requirements in Pakistan?
    Answer. The U.S.-Pakistan military-to-military security 
relationship is strong and improving. We must continue to support 
Pakistan in its efforts to combat terrorism on its own territory, while 
respecting Pakistani sovereignty. Legislatively, supporting Pakistan's 
legitimate defense and counter-terrorism needs will improve both its 
capability and our relationship. The war on terror is as much a 
challenge for Pakistan as it is for the U.S. The Government of Pakistan 
(GoP) is empowering the Frontier Corps, a largely indigenous force that 
has traditionally operated in the Federally Administered Tribal Areas 
along the Pakistan-Afghanistan border. We support this effort through 
the U.S. Security Development Plan and are working with Pakistan to 
make the Frontier Corps into an effective security force through a 
long-term plan to address shortfalls in equipment, training and 
intelligence capability, in concert with Embassy and GoP efforts. Line 
item funding of this program for 2009 and beyond would help ensure that 
we are able to focus our efforts on these most critical forces. Foreign 
Military Financing (FMF) for Pakistan currently runs through 2009. 
Continuing FMF funding at current levels in the out years would 
simultaneously provide tangible evidence of U.S. commitment to Pakistan 
and help fund programs that support both Pakistani and U.S. efforts in 
the war on terror.

                   Military-to-Military Relationships

    Question. Admiral, please describe for the Committee some of the 
key military-to-military relationships within your area of 
responsibility and why these relationships are important to you as a 
combatant commander.
    What can Congress do to support these relationships?
    Answer. The U.S.-Pakistan relationship is absolutely vital to 
ensuring we succeed in the war against terrorism. Pakistan is a major 
contributor to our operations, having killed or captured more 
terrorists than almost any other partner. Pakistan has suffered as 
consequence as well, losing more than 1000 military personnel as part 
of operations conducted in support of the U.S. since 9/11. The bulk of 
our ground and aerial resupply for Afghanistan operations flows through 
Pakistan. More importantly, Pakistani support for the war against 
terror is essential due to its geographic location and relationship 
with Afghanistan. In addition, as the sole Islamic nuclear power, 
security and stability in Pakistan is of the utmost importance to U.S. 
national security interests. Congress can support this vital 
relationship by continuing to fund critical programs in Pakistan, 
including the Security Development Program and by continuing to support 
Pakistani efforts to meet legitimate defense needs, such as with the F-
16 sale. Through these efforts the U.S. will signal that it is 
committed to a long-term bilateral relationship and continues to build 
essential trust and confidence within the Pakistani military.
    Jordan is an ally on the War on Terror, a steadfast regional 
partner, and at peace with its neighbors. The ties between our 
militaries are deep and longstanding, with an extremely robust 
bilateral exercise schedule and frequent, fruitful exchanges between 
officers at all levels of command. However, Jordan has made this 
commitment to our mutual success at a higher percentage of their gross 
national product than is sustainable. Congress can help by funding 
Jordan's Foreign Military Financing allocation at the requested multi-
year level of approximately $345 million, as well as continuing to 
support programs which contribute to Jordan's ability to defend 
themselves and secure their borders.
    Egypt is another of our key partners and serves as an anchor state 
towards achieving CENTCOM's Theater Strategic Objectives in the region. 
The Egyptian military is a coalition partner with us in Afghanistan, 
provides expedited canal transits, grants nearly unlimited overflights 
for our aircraft, and serves as a moderating voice of support for our 
efforts in the region. The cornerstone of our partnership with Egypt is 
commonly recognized as the $1.3 billion annual Foreign Military 
Financing (FMF) allocation that was established in 1979 following the 
historic Camp David Accords. Over the last three years, that FMF has 
been the target of proposed reductions and conditioning by members of 
Congress. Those attempts to reduce FMF have led many of our Egyptian 
friends to question the U.S. commitment to the partnership and threaten 
to undermine the relationship that has been built over the past twenty-
nine years. I encourage Congress to preserve current FMF funding levels 
for Egypt and protect its FMF from conditionality or reduction.
    The UAE is another key partner within our area of responsibility. 
Our relationship with this progressive and forward thinking military 
friend and ally is very strong. Its importance not only lies on its 
strategic location but more so in its commitment to regional security 
and its efforts in the war on terrorism. Its Armed Forces have been 
working hand in hand with us toward peace and stability in the Middle 
East. Congress can best sustain our excellent relations by ensuring 
quick action on notifications of defense related hardware of mutual 
interest and by considering the UAE's requests for defense systems on 
their merits, not linked to other countries' requests. Additionally, at 
every opportunity, we can thank the UAE for their steadfast support of 
Coalition and U.S. Forces in the region and for leading and 
participating in several multilateral, as well as bilateral, military 
exercises and symposiums.
    Congress helped greatly by approving JDAM and LANTIRN sales to the 
Kingdom of Saudi Arabia. Both of these programs increase our military 
interoperability and modernize the weapons of a key partner. Congress 
can further help by approving the AIM-9X missile program. The AIM-9X 
will be a key component in Saudi Arabia's ability to counter regional 
threats. Additionally, the U.S. is working with the Kingdom to enhance 
its navy and secure critical infrastructure. Both of these are key 
areas of interest for regional stability and continued economic access. 
As requests in these areas come before Congress, CENTCOM looks forward 
to working with members to facilitate approval and show our key partner 
that the U.S. takes Saudi security seriously.
    Question. Please describe the influences of China and India in the 
geopolitics of the area and what you are doing to counter these 
influences.
    Answer. China's influence in the CENTCOM AOR is growing in 
proportion to China's investment in the energy sectors of various 
countries in the region and China's expanding markets for its 
commercial products. China remains an alternative market for arms 
purchases and a limited amount of military assistance for many of the 
region's nations, but has its strongest role in this regard with 
Pakistan. China is seeking to ensure access to energy resources to meet 
its growing energy demand, especially via overland routes. In terms of 
energy, China is significantly invested in Sudan, Qatar, Iran, 
Kazakhstan, and recently signed a $30 billion pipeline deal with 
Turkmenistan that has yet to be constructed. China's most significant 
investments are in Pakistan where it provided funding for the 
construction of Gwadar Port and other infrastructure projects--
investments which augment the robust security partnership the two 
countries have shared.
    India's influence in our AOR is not as significant as China's, but 
is also growing, especially in regard to expanding energy relationships 
with Iran. India has continually sought to remain engaged in 
Afghanistan's reconstruction, primarily to demonstrate its role as a 
regional power but also to frustrate Pakistani interests in denying 
India access to Afghanistan. The most significant influence India has 
in the AOR is the potential for conflict with Pakistan and the tensions 
arising from Kashmir and water management issues. India's increasing 
economic strength and diplomatic status have consequently led to 
India's expanding contacts in the AOR, especially in Central Asia and 
Iran.
    Neither China nor India actively seek to counter U.S. interests in 
the region, per se, but more accurately, they are pursuing their own 
economic interests and desire to achieve access and diplomatic 
relationships to support their commercial and energy requirements. They 
are not deterred by any potential conflicts of interest with the U.S. 
or Europe as they pursue their own national interests. China and India 
would prefer to see less U.S. military presence in the region, but they 
generally support U.S. security interests in defeating violent 
extremist organizations; both China and India support the role of the 
international community in stabilizing Afghanistan.
    CENTCOM does not specifically focus any of its activities in 
countering Chinese and Indian influence in the region. CENTCOM programs 
and operations support U.S. national security interests in the region; 
at present, neither China nor India are officially viewed as strategic 
threats to be actively countered. In most cases, regional militaries 
require more assistance than is currently allocated by the U.S. and 
Europe, which leaves room for China, Russia, and to a lesser extent 
India, to contribute as well. The lack of U.S. economic and military 
engagement with Iran and Syria, naturally forces those countries to 
look elsewhere.
    Question. Are military to military programs adequately resourced?
    Answer. Military to military programs are generally adequately 
resourced. As our security cooperation relationships in the region 
expand, however, the need for additional resources will also increase. 
Currently funding for Central and South Asia has been adequate, 
however, each source of funding has its own restrictions on how monies 
can be spent, creating a challenge to support all military contact 
events. Additionally, a number of Central and South Asian uniformed 
services do not align perfectly with Department of Defense (DoD) 
military branches, yet the need for military contact events with these 
foreign uniformed services are necessary to build stronger security 
cooperation relationships. For example, the Border Guards of some 
Central Asian countries do not fall under the Ministry of Defense and 
therefore are not eligible for DoD funded military contact events. 
However, the Border Guards play a significant role in counter-
narcotics, counter-terrorism and regional stability and so CENTCOM 
explores other ways to fund this sort of engagement. Funding for 
Pakistan's Security Development plan, while adequately met in FY08 
through supplemental and other funding sources, will require additional 
resources in the out years, ideally as a line item in the DoD budget. 
In short, we are adequately resourced, but we must remain flexible in 
order to maximize our security cooperation potential.

                Cooperation With Central Asian Countries

    Question. The U.S. has expanded its security cooperation with the 
Central Asian regimes since 2001, to include varying levels of military 
basing and access.
    What is your assessment of the current U.S. military relationship 
with its Central Asian counterparts?
    Answer. The military relationship with most of our Central Asian 
counterparts is good and improving. Soon after the September 11th 
attacks, Uzbekistan stepped forward and offered basing access and 
overflight rights to the U.S. for operations in Afghanistan. While this 
relationship soured late in 2005 after the Andijon events and 
termination of the access agreement, recently there have been modest 
signs of improvement in the relationship. Since the U.S. left Kharshi-
Khanabad Airbase in Uzbekistan, Manas Airbase in Kyrgyzstan has become 
more important as the only remaining northern Central Asia base. The 
Kyrgyz have been willing to expand and solidify that relationship and 
improvements to the infrastructure and capabilities of Manas airbase 
continue. Kazakhstan has aggressively pursued strengthening of the 
bilateral relationship with the U.S. The Kazakhstanis recently signed a 
five-year-plan of military cooperation with the U.S., which is further 
proof of our strengthening cooperation. Although Turkmenistan's 
approach to the bilateral relationship has been quite circumspect since 
2001 it has improved and shows real promise since the death of 
President Niyazov last year. Turkmenistan's new President 
Berdimukhammedov continues to allow U.S. humanitarian overflight and 
gas and go operations within Turkmenistan. Recent gestures toward 
improving the international investment climate as well as breaking down 
Niyazov's cult of personality suggest a much brighter future for the 
bilateral military relationship with Turkmenistan.
    Question. Does CENTCOM have an interest in long term military 
basing and access in support of operations in Afghanistan?
    Answer. Yes. In our annual Master Plan submission we stated that we 
desire long term access to two locations in Afghanistan. One location 
is Bagram Air Base which will serve as the long term operational hub 
for CENTCOM military operations in Central and south Asia. The other 
location is Kandahar which provides critical support for U.S. 
operations in Afghanistan and would provide surge capability for U.S. 
military activities in this region in the future. This basing and 
access is assessed each year and provided to SECDEF for approval and 
submitted to Congress in our annual Master Plan submission.

    Recent Report Findings Concerning the Security Situation in Iraq

    Question. In general, incidents of violence are down significantly. 
However, these are many, intertwined reasons for this including: the 
surge, changes in the tactics employed by U.S. and coalition forces, 
cooperation between tribal leaders (the ``tribal awakening''), ethnic 
cleansing of formerly mixed localities, and the continued cease-fire on 
the part of Sadrist militias.
    Admiral, do you believe that Iraqi security forces are capable of 
operating independently soon?
    Answer. ------.
    Question. Recent reporting available to the Congress suggests that 
Iraqi forces have not reached a point of being able to operate 
independently. Would you comment?
    Answer. ------.

               The Iraq Weekly Security Incidents Report

    Question. The Iraq Weekly Security Incidents, 15-21 February 2008 
reports incidents of violence in total and stratifies incidents based 
on an assessment of the intended targets. The reported period is March 
2005 through the present and shows a decline in weekly incidents of 
violence from a high of nearly 1,600 incidents per week in early June 
2007 down to about 450 incidents for the most recent reporting period, 
a level roughly comparable to the level reported in March 2005.
    Admiral, do you believe that we should be encouraged that the level 
of violence since the surge is roughly comparable to the level in March 
2005?
    Answer. The reduced level of violence in Iraq is encouraging and it 
allows the Government of Iraq to work on creating a functioning state 
that is not totally focused on security issues. That said, the nature 
of violence has changed and it continues to have the potential to 
spike. Sectarian violence is the primary area where attacks have been 
reduced in the past year. The U.S. ``surge'' set conditions that 
allowed tribal efforts (Sons of Iraq) to blossom, creating jobs for 
many disaffected Sunni Arabs. This enabled Sunnis to reduce support for 
and to combat al Qaeda in Iraq (AQI). Additionally, Sadr's call for a 
Jash al Mahdi (JAM) ceasefire further reduced sectarian violence. 
Finally, coalition pressure on AQI reduced AQI's ability to sustain 
attacks.

                             The 9010 Report

    Question. What is your assessment?
    Answer. I've got to tell you that, after going to Iraq, I am very 
encouraged. The situation has improved substantially in the security 
arena, and I believe that there are many other aspects of the situation 
that are coming together that have contributed to this improvement, and 
I see this on an upward vector. General Petraeus has the major task of 
resetting the battlefield there. He has to focus on keeping this 
momentum moving towards increased stability and security. It is truly 
remarkable today to look at the statistical evidence and--as many of 
you know because you were there to see it, to actually see the 
difference on the ground.
    Further progress will depend on the continued ability of Iraqi 
leaders to capitalize on the hard-fought gains achieved by the 
Coalition and Iraqi forces and gradually assume responsibility for 
security in their country. However, I remain concerned that real, 
sustained progress in Iraq over the long term will depend on their 
ability to address a complex set of issues associated with key 
political and economic objectives.
     On the political front, I am concerned that the Iraqi political 
leadership continues to squander the opportunity our troops and 
taxpayers gave them. Much in Iraq will depend on the continued 
legislative progress, improvements in the Iraqi ministries and their 
will to turn nascent political accommodation at the local and national 
levels into lasting national reconciliation. I am troubled by the fact 
that our soldiers continue to risk their lives while Iraqi politicians 
continue to refuse to take political risks.
    On the economic front, any enduring improvements for Iraq will be 
dependent on the government of Iraq's still-tenuous ability to provide 
essential services and improve the oil, electricity and water 
infrastructures. Advances in these areas will be critical to keeping 
Iraq on the path to sustainable economic development. As the economic 
activity levels increase in Iraq, this is really the longer-term 
solution. We've got to have help from the development agencies and from 
others. I'm encouraged by the beginnings of investment from outside 
private money into Iraq in the future of this country, and that's the 
real answer, giving them alternatives.
    Question. The Measuring Security and Stability in Iraq (the 9010 
Report), December 2007 makes several references to ``bottom-up'' 
reconciliation which is reconciliation among Sunni and Shi'a tribal 
leaders who are increasingly working with the Government of Iraq and 
Provincial Reconstruction Teams.
    Please explain the ``bottom-up'' reconciliation.
    Answer. Bottom-up reconciliation efforts represent one way we have 
been able to work towards national reconciliation within Iraq. Because 
national-level progress continues to be hindered by competing political 
interests, we initiated some local-level, bottom-up level security 
improvements in Anbar province that has led to favorable conditions at 
the local level for positive movement in the areas of reconciliation, 
political accommodation, economic development and the provision of 
basic public services. Once it took hold in Anbar, we expanded it to 
other areas--and we were able to incorporate growing numbers of Sunni 
and Shi'a tribal leaders into working with the Government of Iraq and 
the Coalition to improve security and economic conditions at the local 
level.
    While the record on ``top-down'' reconciliation remains mixed, the 
Awakening movement among the tribes of western, central and northern 
Iraq continues to grow. Sunni Arab and a growing number of Shi'a 
sheikhs are now working with the Coalition. Their tribal members and 
other local citizens are fighting AQI through participation in the Sons 
of Iraq groups. Nationwide, some 91,000 members continue to reject 
extremism and are joining the political process by working through 
established governing institutions. The Sons of Iraq groups complement 
Iraqi Army, Iraqi Police and Coalition forces and have begun to 
integrate its members into the Iraqi forces. Some senior Iraqi 
politicians who formerly opposed Sons of Iraq members have begun to 
recognize the value of these groups in stabilizing Iraq. These 
politicians are making public statements about the significance of this 
``bottom-up'' initiative and supporting the program.
    Question. Admiral, would you comment on the progress on key 
legislation, as well as political reform and reconciliation?
    Answer. The Government of Iraq passed a number of key pieces of 
legislation this past reporting period. In early February, the Iraqi 
Government passed the Accountability and Justice Law, reforming the 
draconian de-Baathification measures that were in place. This was a 
controversial bill on all sides, and was never going to please all 
former Baathists and all victims of the Hussein regime. But it was also 
a compromise in which all sides took some risk. We are watching closely 
now to see that it is implemented in a spirit of reconciliation. Even 
more impressively, on February 13, the Council of Representatives (CoR) 
passed three laws; the 2008 Budget, the Amnesty Law and the Provincial 
Powers Law. This was an unprecedented legislative grand bargain that 
included major compromises across political alliances and ethno-
sectarian lines. On February 26, 2008, the Presidency Council endorsed 
the Budget and Amnesty Laws, but Vice President Mehdi returned the 
Provincial Powers Law for amendment on constitutional grounds. On 19 
Mar, VP Mehdi waived his objection, provided the CoR consider 
amendments in the future. The passing of the Provincial Powers Law, in 
concert with the Provincial Elections Law now in the works, puts into 
motion the possibility that provincial elections will be held before 
the end of 2008. And ultimately these elections are the means by which 
the provinces of Iraq will realize their individual importance within a 
functioning federal system. This will be an eye-opener for all Iraq 
leaders; reforming the political landscape at the local, provincial and 
federal levels and above all localizing politics and the means of 
providing for the population. These types of legislative successes 
represent a significant step toward broader political reconciliation 
within Iraq.
    The passing of the 2008 Budget was a significant event. There were 
numerous contested issues with regard to the budget, but none more so 
than the overall percentage of the budget provided to the Kurdistan 
region in the North (17%). This was the major sticking point in the 
budget's passage, but this was overcome by a CoR that recognized the 
importance of their offices and their duties and responsibilities to 
the Iraq citizenry.
    The Amnesty Law passage was a major accomplishment toward 
reconciliation and reform. It greatly reduced an obstacle to the return 
of key Sunni parties to the political process by releasing significant 
numbers of detainees from Iraqi custody if they have not been charged 
or convicted of serious crimes.
    Several key laws remain to be tackled in the weeks and months to 
come; the Provincial Elections Law just mentioned, and the package of 
Hydrocarbon laws being the most prominent. But the actions of the CoR 
this past February indicate that dialogue can occur, compromise can 
happen, and Iraq's future looks brighter today than in recent past.
    As I mentioned earlier, reconciliation in Iraq is taking on a 
``bottom up'' flavor. The tribal sheiks and provincial leaders are 
searching for avenues for reconciliation. This momentum will be 
fostered (I believe) by the Provincial elections that are now on the 
calendar. They will further power an Iraq reconciliation that will 
recognize the right to religious differences and yet instill a sense of 
nationalism amongst its people. I would like to point out that the 
Government of Iraq also passed a highly symbolic flag law, eliminating 
the Saddam Hussein-era flag. Today, the new Iraqi flag flies over all 
parts of Iraq, including Iraqi Kurdistan.
    It's been encouraging to watch the development of the Iraqi 
leadership, from Prime Minister al-Maliki on down, to see them take 
responsibility. It's not a straight line, and I don't think it's going 
to be. And there are things that are frustrating. This is a different 
culture from ours, and, frankly, it's a different political process and 
philosophy in this country, but its coming along. So I think we have to 
continue to engage them, continue to point out to them the cost of this 
in terms of blood, sweat and tears on the part of our people, which is, 
as you know, very substantial--the resources that we've devoted to this 
country. They're working on it. They're taking responsibility, in my 
view. Whether it's in the political process or in recognition, it seems 
to me they are more aggressive now in going out and addressing issues 
away from the capital, and this is essential to me. If they can't 
figure out how to get people in the provinces, the basics that they 
need, we're not going to be successful nor are they. But increasingly I 
see them paying attention to it.
    Question. With regard to the officer and NCO shortfall, the report 
finds that it will be years before Iraq can round out its leadership 
requirements because of constrained training facilities which are 
presently operating continuously at or near capacity.
    Admiral, would you say that Iraqi forces are dependent upon 
Coalition enablers?
    Answer. ------.
    Question. Please describe these ``enablers'' and those that are 
most critical to the effectiveness of the Iraqi security forces.
    Answer. ------.
    Question. Admiral, according to Measuring Security and Stability in 
Iraq (the 9010 Report), dated December 2007 ``Syria is estimated to be 
the entry point for 90% of all foreign terrorists known in Iraq''.
    Would you comment?
    Answer. ------.
    Question. Would you comment on the continuing activities of the 
Kurdistan Peoples Congress (KGK) such as its cross-border raids into 
Turkey? How do you believe the current situation can be resolved?
    Answer. ------.

                      The Jones Commission Report

    Question. Address the training, equipping, command, control and 
intelligence, and logistics capabilities capacity of the ISF, and 
Assess the likelihood that the continued support of U.S. troops will 
contribute to the readiness of the ISF to fulfill its missions.
    Admiral, the Jones Commission found that ``. . . the Iraqi Security 
Forces will not be able to secure Iraqi borders against conventional 
military threats in the near term.'' Would you comment?
    Answer. ------.
    Question. The Jones Commission reports signs of improvement 
including evidence that baseline infrastructure is forming to lead to 
successful national defense capabilities but the ISF will be ``unable 
to fulfill their essential security responsibilities independently over 
the next 12-18 months''.
    What is your assessment?
    Answer. ------.
    Question. The Commission report states: ``The Iraqi Police Service 
is fragile . . . the force is underequipped and compromised by militias 
and insurgent infiltration. In general, the Iraqi Police Service is 
incapable today of providing security at a level sufficient to protect 
Iraqi neighborhoods from insurgents and sectarian violence''. Admiral, 
how is this being addressed?
    Answer. ------.
    Question. The Commission found specific weaknesses due to a lack of 
key support functions such as aviation support, intelligence and 
communications and found that the Iraqi Defense Forces lack required 
combat support services such as adequate indigenous training, 
logistics, supply chain management and equipment maintenance 
capabilities. The Commission concludes: ``Logistics remains the 
Achilles's heel of Iraqi ground forces''.
    Do you agree with the commission's assessment that, `` . . . 
achieving an adequate force-wide logistics capability is as least 24 
months away''?
    Answer. ------.
    Question. Are the Iraqis making progress on improving their 
logistics capability?
    Answer. Iraqi Army logistics have improved significantly since June 
2007 and continue to move forward. All logistics disciplines exist in 
various stages of independence. Leveraging existing Iraqi processes, 
overarching policies and procedures are still in early stages of 
development across the logistics spectrum. Life Support Self Reliance 
(LSSR) is the process furthest along and independence increases 
monthly. Ministry of Defense (MOD) is becoming less reliant on 
coalition fuel support.
    While the Iraq Air Force development began in earnest just one year 
ago, the Air Force logistics concept is similar to the Army system with 
the maintenance system having four levels or lines of maintenance, 
currently using a mix of Iraqi Air Force technicians (under advisement 
of Coalition military and contractor personnel) and contractors at 
regional maintenance facilities.
    The Iraqi Navy, meanwhile, utilizes organic sustainment capability 
which currently completes mainly first and second line repairs on their 
vessels and vehicles. Third and fourth line repairs will likely be 
conducted by contractors which is consistent with the Gulf Naval 
forces.
    Question. How can U.S. Forces assist the Iraqi armed forces to 
improved their logistics capability?
    Answer. Partnership and over watch are linchpins to successful 
transition to Iraqi logistics self sufficiency and is a joint Iraqi 
Ministry of Defense (MOD)--Coalition imperative. Both Multi-National 
Corps--Iraq and Multi-National Security Transition Command--Iraq have 
coordinated to accelerate the development of logistics capabilities and 
capacities in partnership with Iraqi leadership. Coalition over watch 
along side Iraqi counterparts enables the identification of logistics 
priorities through joint assessment and engagements, facilitating Iraqi 
solutions and priorities to Iraqi challenges.
    Question. Do the Iraqis lack logistics ``know how'', or do they 
lack the actual supplies and delivery capability?
    Answer. It would be incorrect to state the Iraqis lack the know how 
or the delivery capability, but rather state there are limitations in 
both areas. While there are current Iraqi processes in place, 
additional overarching procedures continue to be developed. In 
addition, while there are certain categories of logistics that are 
farther along than others, the development of additional trained 
personnel and facilities for the storage, repair and distribution of 
supplies and equipment continues. While the system is not sufficiently 
developed to support and sustain itself, the process is on-going to 
improve both the ``know how'' (the training of personnel and the 
policies and procedures) and the delivery and maintenance capabilities.
    Question. The Commission report states that: ``The Ministry of the 
Interior is a ministry in name only. It is widely regarded as being 
dysfunctional and sectarian, and suffers from ineffective leadership. 
Such fundamental flaws present a serious obstacle to achieving the 
levels of readiness, capability, and effectiveness in police and border 
security forces that are essential for internal security and 
stability''.
    How long do you expect this will be corrected?
    Answer. ------.
    Question. How long do you expect that it will take?
    Answer. ------.

    [Clerk's note.--End of questions submitted by Mr. Murtha.]
                                           Tuesday, March 11, 2008.

                   FISCAL YEAR 2009 AIR FORCE POSTURE

                               WITNESSES

HON. MICHAEL W. WYNNE, SECRETARY, UNITED STATES AIR FORCE
GENERAL T. MICHAEL MOSELEY, CHIEF OF STAFF, UNITED STATES AIR FORCE

                              Introduction

    Mr. Rothman [presiding]. Good morning. This hearing of the 
House Appropriations Committee on Defense will now convene. 
This morning the Committee will hold an open hearing concerning 
the Air Force fiscal year 2009 budget request.
    We are pleased to welcome two distinguished witnesses, Mr. 
Michael W. Wynne, Secretary of the Air Force, and General T. 
Michael Moseley, Chief of Staff of the Air Force. They are very 
well qualified to discuss these areas and to answer the 
questions of the committee.
    Secretary Wynne, General Moseley, thank you for being here 
this morning. The Committee is very interested in hearing what 
you have to say about the Air Force's fiscal year 2009 budget. 
We look forward to your testimony and to a spirited and 
informative question-and-answer session. Now, before we hear 
your testimony and opening statements, I would like to call on 
Mr. Tiahrt for his opening remarks.

                    Opening Statement of Mr. Tiahrt

    Mr. Tiahrt. Thank you, Mr. Chairman. I want to thank you 
for being here for this hearing. I also want to thank Chairman 
Murtha for holding the hearing. I am looking forward to the 
testimony of Secretary Wynne and General Moseley. And although 
this is an annual Air Force posturing, hearing, I hope the 
witnesses will be willing to comment on the recent KC-X tanker 
contract. This controversial decision to award a $35 billion 
contract to a foreign supplier has rightfully outraged the 
American public around the country. The losing bidder has 
announced they intend to protest this decision, and rightfully 
so, but I still believe that both of you need to answer some 
questions on this vitally important issue and also the 
methodology used by the Pentagon on any decision for a 
contract.
    The more I learned about this decision, the more I realized 
that this competition will need to be redone. It will save the 
Air Force time and money to immediately revise the RFP with 
your apparent goal of replacing the KC-10.
    Secretary Wynne, General Moseley, one of the most difficult 
things from this whole experience is that I believe I was 
misled by the United States Air Force. Since 2001, the Air 
Force has said that it must replace the KC-135, our medium-
sized tanker. For 7 years and countless hearings, the Air Force 
has said the same thing: We need to replace the medium-sized 
tanker.
    And now the Air Force buys an airplane bigger than the KC-
10, not as efficient as the KC-10, but bigger. What has changed 
and why was not Congress informed that the Air Force actually 
wanted to replace the KC-10 and not the KC-135? Why did the RFP 
baseline reflect a KC-10 instead of the KC-135?
    It is hard for me to understand how something as integral 
as the size of the aircraft was misconstrued in the award 
decision. This is just one of the many reasons why you will 
save time and money by deciding to recompete this with your 
real goals and intent.
    However, in the meantime, I believe Congress has an 
important role of understanding how the acquisition system 
failed the American people. It is becoming clear to me that the 
government has a stacked deck in favor of European 
manufacturers. As I mentioned last week, three of the last big 
defense contracts have been awarded to foreign companies. The 
Navy awarded the Marine One contract to a foreign manufacturer. 
We should have suspected something was going on. Then the Army 
awarded the light utility helicopter to a foreign manufacturer. 
We should have known something was going on. And now with the 
Air Force awarding the KC-X to a foreign manufacturer, it is as 
plain as the nose on our face. Foreign competitors are able to 
compete and win against American manufacturers because our 
acquisition laws actually favor foreign competitors. The deck 
is stacked for foreign competitors.
    For instance, the Air Force did not account for the costly 
regulations that our domestic manufacturers have to comply 
with. And you simply waive it for our European allies, with an 
internal procedure inside the Pentagon. This includes cost 
accounting standards, specialty metals laws, the Berry 
amendment, Buy American provisions, Foreign Corrupt Practices 
Act and ITAR compliance. These are the ones I know of. There 
are probably others.
    The Air Force did not account for the $5 billion illegal 
subsidy that European governments provided to Airbus for the 
development of the A330. One part of our government is suing 
them for this illegal subsidy, and then another part awards 
them a contract that has it embedded in the price. You simply 
ignore the subsidies, and yet the cost accounting standards 
would require an American manufacturer to amortize such costs. 
Foreign manufacturers gain a huge cost advantage which is 
unacceptable in the final contract award.
    The Air Force did not account for the billions of legal 
subsidies, such as socialized health care and workmen's 
compensation that the American manufacturer, because of cost 
accounting standards in the Federal Acquisition Regulations, 
have to include in their costs. This provides a French company 
with a competitive advantage over an American company.
    The Air Force did not account for the loss of tax revenue 
with fewer American jobs. Under the Airbus tanker, America will 
see a minimum--just taking a minimum of 19,000 jobs, if you 
just take the proposals at their face value. I think it is 
actually going to be greater based upon past performance of 
EADS in other contracts. These are good, high-paying jobs. We 
should expect that these workers would pay a minimum of $10,000 
a year in Federal taxes. If you factor that throughout the life 
of this program, that means lost revenue to the Federal 
Government of $3.8 billion.
    So what does this $35 billion contract cost the American 
people? It costs them 35 billion for the initial contract and 
then an additional 3.8 billion in lost revenue. So it is 38.8 
billion, not 35.0 billion. What should our system do to account 
for these type of lost costs? The Air Force did not account for 
the industrial base concerns. The Navy does when making 
acquisitions for submarines and all ships. They take into 
consideration the industrial base. But the Air Force did not 
even ask that question. Maybe they were not interested in the 
answer.
    The Air Force did not account for the national security 
concerns. As you know, tankers are a single point of failure. 
Our national defense and United States military does not 
project power without tankers. But no consideration was given 
to our national industrial base.
    Secretary Wynne, General Moseley, you may argue that you 
did not have legal responsibilities or requirements to address 
these issues, but didn't you have a professional obligation to 
at least address them? You had two competitors, but they were 
not on equal footing. It was not a fair competition. The deck 
was stacked against the American supplier and against the 
American workers.
    I hope that we can take these things into consideration and 
learn lessons from our experience. But it would save the 
government money if we would just go ahead and put in the RFP 
your apparent intent of buying a replacement for the KC-10 and 
save us all a lot of money. Thank you, Mr. Chairman.
    Mr. Rothman. Thank you, Mr. Tiahrt.
    Mr. Rothman. I know that Mr. Dicks has an opening statement 
as well.

                     Opening Statement of Mr. Dicks

    Mr. Dicks. Well, I want to welcome our witnesses, and I too 
must say this is one of the most regrettable days I have had 
since I have been in the United States Congress. And I say that 
because I, too, feel that I was personally misled. I think the 
Congress was misled, this committee was misled, the Boeing 
Company was misled.
    And, you know, we start with what the Air Force was saying 
in 2002. The KC-330's increase in size does not bring with it 
commensurate increase in available air refueling offload. The 
Air Force went on to say that the EADS aircraft would demand a 
greater infrastructure investment and dramatically limit the 
aircraft's ability to operate effectively in worldwide 
deployment.
    And if we could put my chart up here, in a hearing in 2006 
before this Committee, Secretary Wynne, I asked--we were 
talking about this, and Secretary Wynne said, So as we look at 
this, we would tell you that the first--our highest motivation 
is actually medium-sized tankers. Then our highest motivation 
is mixed fleet. Our last thing we want to do is have a whole 
fleet of large airplanes.
    I also feel that a memorandum that Ken Miller provided to 
me, if we can put that up now, really lays this thing out in a 
way that--and this was given to me in December of 2007. And it 
shows tanker road map, KC-135R, which is a medium-sized tanker 
equivalency. And it shows the first tranche of airplanes is 
going to be the KC-X, 15 years, a medium. Then the KC-Y, 15 
years, a medium. And the KC-Z, 9 years, large. And at the 
bottom we have the KC-10. And it is there all the way through 
this.
    And, General Moseley, I asked the question, How many of 
these do we have? We have 59 of these airplanes. They are the 
newest airplanes. They would be the last that you would replace 
first. In fact, that was testified to in several cases. So I 
feel that I was misled in this. Boeing was misled. They wrote a 
letter to the Air Force after--there were some changes in a 
model that was owned and operated by Northrop-Grumman. Were you 
aware that this CMARPS model, Mr. Secretary, was under the 
control of the Northrop Company, was owned and operated by 
them? And I hope there was a firewall between that model, 
because a number of changes were made to it right up to the 
time of the decision, which made it more--made it possible for 
the bigger plane to be competitive.
    In fact, Northrop-Grumman wrote a letter to the Air Force, 
which I do not think our committee has yet received, which we 
would like to have, that basically said if you do not change 
the criteria then we are going to pull out of the competition. 
So what did the Air Force do? It changed the criteria. Ken 
Miller came to my office and said, We cannot do anything. They 
will drop out. We have to do this.
    And in fact, the Air Force didn't tell anybody until Boeing 
wrote a letter to the Air Force, saying you made these changes, 
and we think it indicates that you favor a large airplane. And 
then they wrote a letter to the Air Force saying, if you want a 
large airplane we will compete the 777. And they were 
discouraged from doing this by the Air Force.
    So I feel that we were misled. And I am with Mr. Tiahrt, I 
think there is only one way to fix this. And that is to go back 
and compete the two planes. And if the Air Force wanted a large 
plane, they should have said it. And they did not say it. You 
said it repeatedly, over and over again. In fact, here is what 
Secretary Wynne said in January of 2007. And I bring this up 
because in the paper there has been all this credit given for a 
larger--for cargo space and passenger space. But those were not 
in the requirements. They were secondary issues. There was no 
requirement for a certain amount of pallets or a certain amount 
of passengers. It was a secondary issue.
    Quoting Secretary Wynne--this is in the ``Inside the Air 
Force.'' We want to buy a tanker. We do not want to buy a cargo 
airplane that tanks. We also do not want to buy a passenger 
airplane that tanks. We want to buy a tanker. Its primary 
mission is going to be a tanker. The fact that it can carry 
cargo or passengers is a benefit, but it is not the primary 
reason for the procurement.
    And General, I got to tell you General Lichte did not put a 
lot of honor on his stars the other day when he said what we 
want is more, more, more. That was not part of the RFP. He was 
wrong to say it. And you cannot take this pig and put a flag on 
it and say it is an American airplane. It is not an American 
airplane. It is built, the wings, the fuselage, the tail, all 
these things are built in Europe. They are going to be brought 
to Mobile, Alabama.
    And we have tried to build some of these projects, the A-6 
rewinging. I think we tried, Northrop-Grumman tried to do their 
Joint Stars program down there in Southern States, and they had 
a hard time getting this thing done. Yet Boeing, who has got a 
plant, who has built this plane, was written down and added 
risk to their proposal for doing an in-line approach to this 
thing, while the other people who have to bring all these parts 
from Europe and bring them to Mobile, assemble them in a plant 
that does not exist, with people that do not exist. The risk is 
clearly on that side of the equation.
    So I urge you to go back and start over. This is a sad day 
because, after all the work and effort--and the necessity for 
these tankers is without question. But you made a big mistake. 
You did not do this right. You were not honest with the 
Congress, myself, or the American people or Boeing, and you got 
to go back and start over.
    [Clerk's note.--The testimony and chart referred to by Mr. 
Dicks follow.]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



                    Opening Statement of Mr. Rothman

    Mr. Rothman. I thank the gentleman.
    Mr. Secretary, General, now I would welcome your opening 
remarks, understanding that your full statements will be 
admitted for the record.
    I did want to acknowledge that the issue that Mr. Tiahrt 
and Mr. Dicks--is of great importance to this Committee. But we 
have already had one hearing on it, and I know that we will 
have another one. We may well have several more. And we are all 
very interested in that subject.
    The subject matter for today's hearing is the Air Force's 
Annual Posture Statement articulating the major element 
requirements for the Air Force to fulfill its entire mission 
and its priorities over the course of the next year and into 
the future, and in particular explaining why the fiscal year 
2009 budget request looks the way it does and why it should be 
changed or should not be changed.
    So Mr. Secretary, if you would begin.
    Mr. Moran. Mr. Chairman.
    Mr. Rothman. Yes.
    Mr. Moran. If, as apparently has happened, two of our 
colleagues have addressed another issue in opening remarks, I 
would like about 30 seconds to reflect another point of view 
from this subcommittee.
    Mr. Rothman. Certainly. If the Secretary and the General, 
if you will just allow me, I will recognize Mr. Moran for 60 
seconds.

                     Opening Statement of Mr. Moran

    Mr. Moran. Thank you, Mr. Chairman.
    Mr. Chairman, there are some on this subcommittee who 
believe that the professionals responsible for this procurement 
acted in a professional manner. And in fact Ms. Payton, from 
everything I can understand, is perhaps the best procurement 
acquisition officer we have in the services, and that she 
followed the law. And that some of us believe that it is the 
Congress' responsibility, if they do not like the law, to 
change the law. But unless there is something that can be shown 
to us where the Air Force did not follow the law that it was 
required to implement, then the disappointment in the results 
may be only that. And you should know that there is a 
difference of opinion with regard to that acquisition. Although 
there may be shared disappointment that the contract is not 
going to be carried out by American firms in all respects, 
there is less disappointment in the way in which the Air Force 
personnel conducted themselves. I think they conducted 
themselves professionally. And I thank you for having 
professional personnel working for you and working for us.
    Thank you. Mr. Chairman.
    Mr. Rothman. Thank you, Mr. Moran.
    Mr. Lewis, would you like to make opening remarks?
    Mr. Lewis. No opening remarks. I am just anxious to attend 
the tanker hearing this afternoon. The posture hearing is this 
morning, I believe.
    Mr. Dicks. The briefing is this afternoon.
    Mr. Rothman. Very well. Mr. Secretary, if you would proceed 
with your opening remarks.

                  Opening Statement of Secretary Wynne

    Mr. Wynne. Mr. Chairman, members of this committee, thank 
you for the opportunity to testify on behalf of America's Air 
Force. Thank you as well for your support to our improved 
readiness via retirement and recapitalization, as we are 
working hard to see it through.
    Today we also urge you to pass the pending supplemental, as 
it will help. Across the Total Force of Active, Guard, Reserve, 
and Civilian, we are America's strategic shield in air and in 
space and in cyberspace. We are contributing to today's fight 
with increasing ordnance drops, and we stand watch at the 
missile fields, and we stand ready in the nuclear field, and we 
are an effective air superiority and strike force to both deter 
and dissuade any opponent who may consider our forces to be 
stretched in the Global War on Terror.
    We are gratified to hear that role reaffirmed by the 
Chairman of the Joint Chiefs in the deliberate message to those 
who might seek to dissuade or deter us from our own options in 
the future. This is why we seek to move forward and not 
backward into fifth-generation fighters, into new expeditionary 
tankers, and into long-range strike assets.
    We recently awarded the new KC-45A air refueling tanker. We 
believe we accurately followed the laws and arrived at a 
decision, selecting the better of two very qualified 
competitors to some published criterion, a major step in the 
Air Force critical recapitalization and modernization effort. 
It is why we seek to modernize space assets as the Executive 
Agent for Space and not see further fragmentation of the 
management of this now vulnerable area. It is why we have 
established the provisional Air Force Cyber Command, and see 
this as a warfighting domain in which we need to dominate to 
remain a netcentric force for the future.
    Clearly, beyond the Global War on Terror, we must not lose 
America's asymmetric advantage in strategic forces. Your Air 
Force has been in the fight for 17 years, and yet has over the 
same 17 years seen underfunded modernization. We thank you for 
initiatives to restore fleet management to the United States 
Air Force, a responsibility we do not take lightly.
    When General Moseley and I came to our posts, we set about 
a strategy to restructure our Air Force, to develop a lean and 
efficient Air Force in order to husband the resources for 
investment. We worried about the industrial base and the need 
to look after the open lines. I am pleased to report to you 
that the Department and the Air Force have indicated a desire 
to not close the F-22 line and to develop the long-range strike 
asset. It is to these we would like to apply the saved 
resources over the near term, while the F-35 proves itself 
through rigorous tests and is effectively capped on production.
    We ask that you agree with an approach for the F-22 
aircraft while we work to restore readiness with younger 
aircraft. The F-35 and the F-22 are complementary. The F-22 is 
bigger, is faster, and is planned to fly higher and can carry 
more air-to-air weapons internally. Also, with less than 20 
penetrating bombers in our current fleet, it is time to develop 
an alternative t as well.
    We have talked about being underfunded, but we here have 
worked to offer a balanced budget prioritized to best defend 
America, and we will continue to do that over the fiscal year 
defense plan.
    The Air Force Research Laboratory is well-engaged in 
technology development, expanding the opportunity for energy 
alternatives, while reducing our demand in our fleet and at our 
bases and also expanding in unmanned flight, in propulsion, in 
material science, as well as in human effectiveness.
    With regard to space, at Kirtland Air Force Base, a branch 
of the Air Force Research Laboratory is creating inherently 
defensive space assets. In cyberspace, career development, 
including the Air Force Institute of Technology and also 
warfighting schools, are keys. Combatant commanders and 
agencies partner with us in this increasingly contested domain.
    I have worked in space for almost two decades, and have 
worked in commercial and classified space as a supplier and a 
customer. We need consolidated leadership to maintain our 
current strategic advantage. Congress asked for a relook at 
responses to the Space Commission, and we should really 
consider what is in the report. The Air Force is undergoing a 
``back to basics'' as well as a ``back to blue,'' complementary 
efforts to restore a steady demand and knowledge base. I 
recommend we keep the executive agency where it is. I have 
engaged Airmen in both theaters of operation, and they have 
asked about the continuation of our presence and the 
continuation of the ground force tasking referred to as ``in 
lieu of tasking.'' My answer is they perform so well that our 
Army colleagues do not want to give them up. And they do 
perform well, many winning Bronze and Silver Stars.
    Your Air Force is currently protecting the air sovereignty 
of these fledgling nations, and until their Air Forces can do 
that, I would not be surprised to see our Air Forces remain. As 
a result, we are reconsidering force cuts, although we are 
currently continuing to give top priority in our budget to 
recapitalization.
    I again thank you for the privilege of leading the best Air 
Force in the world. Every day our Airmen earn the respect of 
our friends as well as our enemies. We worry for their quality 
of life as we seek efficiencies and as we implement joint 
basing, but we never worry about their sense of mission that 
they bring to the task.
    I will not have the privilege to represent them in this 
setting for the force posture again, and I hope I have 
reflected their pride in service, as I have felt myself. I am 
ready to answer your questions.
    Mr. Rothman. Thank you, Mr. Secretary.
    [The joint statement of Secretary Wynne and General Moseley 
follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



    Mr. Rothman. General Moseley.

                  Opening Statement of General Moseley

    General Moseley. Mr. Chairman, distinguished members of the 
committee, thank you for the opportunity for Secretary Wynne 
and I to talk about the posture of the United States Air Force, 
our vision for the future, and the strategy to achieve it.
    If you allow me to take my time, I would like to introduce 
six distinguished Airmen that we brought with us today to put a 
face to the committee on this great Air Force. And I would like 
to, if you allow me to, take my time for a brief introduction 
of each.
    First, Lieutenant Colonel Brian Turner, University of 
Virginia graduate, is a Virginia Air National Guardsman who 
flies F-22As at Langley Air Force Base as part of the First 
Raptor Classic Association between Air National Guard and 
Active units. He is the assistant operations officer of the 
149th Fighter Squadron. He is a symbol of the Air Force's 
ironclad commitment to Total Force Integration and to 
maximizing the strengths of the Air National Guard, Reserve, 
and Active components. He has logged over 3,600 flying hours in 
the F-16A, B, C and D and F-22A. He has got over 300 combat 
hours.
    Mr. Rothman. Excuse me, General, forgive me. We want to 
make sure we get to all the questions, and I am honored to meet 
all the people that you would like to introduce. If we do not 
have to hear every part of their biography, I am sure they are 
all distinguished, but a briefer synopsis of each's 
contribution.
    General Moseley. Yes, sir. And I will stay inside my five 
minutes.
    Mr. Rothman. I am willing to give you leeway, but much more 
than that I think would impinge on the rights of the members to 
ask all the questions they have. But I am anxious to hear your 
presentation, sir.

                          SIX AMERICAN AIRMEN

    General Moseley. All right, sir. One of his roles at 
Langley Air Force Base, Virginia was flying in operation Noble 
Eagle, with sorties over Washington, DC, New York, and the East 
Coast.
    Next is Captain Kari Fleming, a C-17 pilot from Charleston 
Air Force Base, South Carolina. She is a 2003 graduate of the 
United States Air Force Academy. Charleston Air Force Base is 
her first assignment. She has amassed over 1,200 hours, total 
flying hours, including 900 hours in the C-17. She has flown 
124 combat missions, 278 combat hours since 2005 for Operation 
Enduring Freedom and Operation Iraqi Freedom, where she has 
flown missions that include direct supply, aeromedical 
evacuation, and operational air drops, and she has just 
returned from a deployment in the U.S. Central Command Area of 
Responsibility (AOR). She is pretty proud to say she has landed 
that big airplane in the dirt six times. Who would have thought 
not long ago we would be landing a strategic airlifter on dirt 
strips, or dirt roads? That is a face on the strategic airlift 
of our country.
    Next is Captain Scott Nichols of the 55th Rescue Squadron. 
He is an HH-60G combat search-and-rescue pilot from Davis-
Monthan Air Force Base, Arizona where he is a flight commander. 
Like Kari, he is a United States Air Force Academy graduate, 
and he is also a distinguished graduate of the Air Force 
Weapons School. Since May 2002, he has been deployed five 
times: three times to Kandahar, Afghanistan, for Operation 
Enduring Freedom; and two times to Balad Air Base in Iraq for 
Operation Iraqi Freedom. He has logged over 2,000 total flying 
hours, including 158 combat hours and 53 combat support hours.
    Next is Technical Sergeant Jim Jochum. He is an aerial 
gunner on a Special Operations AC-130 gunship out of Hurlburt 
Field in Florida. He joined the Air Force in August 1989, and 
spent five years as an aircraft maintainer before he joined Air 
Force Special Operations. Since November 1995, he has logged 
over 4,300 flying hours, 2,500 combat hours on 367 combat 
sorties, in the AC-130, more than anyone else in Air Force 
Special Operations Command. Since October 2001, he has accrued 
892 days deployed, over three years. He wears an Air Medal and 
16 oak leaf clusters.
    Next is Technical Sergeant Michelle Rochelle. She is one of 
the lead operators on the joint team of cyber operations under 
the tactical control of U.S. Strategic Command's Joint 
Functional Component Command for Network Warfare. There she 
executes computer network attack missions and National Security 
Agency task computer network exploitation missions. She is in 
direct involvement with the Global War on Terror and supplying 
strategic intelligence to America's political and military 
leaders. Mr. Chairman, she represents the vanguard of the 
forces we are organizing, training and equipping to operate in 
cyberspace, and she is a reminder that we believe the cyber 
domain is critical, the nexus of all warfighting domains.
    Last we have Technical Sergeant Michael Shropshire, 
currently the acting operations superintendent for the 12th 
Combat Training Squadron at Fort Irwin, California. The 
National Training Center is our interface between the Air 
Warfare Center at Nellis Air Force Base, Nevada and the United 
States Army. He enlisted in July 1992. He is a battlefield 
Airman who has spent his entire career associated with the 
United States Army. Multiple deployments, from operation Joint 
Endeavor in Bosnia to Operation Iraqi Freedom, he wears a 
Silver Star and a Bronze Star. The Silver Star was awarded for 
heroic actions while surrounded, cut off, under hail of enemy 
gunfire in the largest sandstorm in four decades. He quickly 
coordinated close air support, delivered 12 Joint Direct Attack 
Munitions (JDAMs) on 10 Iraqi T-72 tanks, while constantly 
switching from his radio headset to his rifle, personally 
engaging and killing three hostiles at close range. He wears a 
Bronze Star for exceptional performance as a tactical air 
control party member during the Third Infantry Division's push 
on Baghdad in 2003.
    So, Mr. Chairman, thank you for the opportunity to take my 
time for oral statements to introduce six great Americans that 
wear Air Force blue. Secretary Wynne and I are proud to 
introduce these to the committee today, and I am particularly 
proud to wear the same uniform as the Chief of Staff of this 
great Air Force, serving alongside these men and women that 
represent a variety of functions inside your Air Force.
    Mr. Chairman, thank you.
    Mr. Rothman. General, thank you so much for introducing us 
to these outstanding Americans. If I may ask the committee for 
a round of applause to acknowledge in the briefest way their 
service.
    [Applause.]

                   ORGANIZING, TRAINING AND EQUIPPING

    Mr. Rothman. Let me say a brief round of applause certainly 
is not enough to honor and address what you do, but that is 
what we are here today to accomplish: to provide a budget for 
the Air Force for fiscal year 2009, which will allow you brave 
men and women, and your leaders, to accomplish the critical and 
noble mission that you have accepted on behalf of your country.
    Let me begin by asking some general questions, an overview 
for the General and the Secretary. How is the Air Force today 
organizing, training, and equipping itself to deal with the 
threats that face our Nation today and the threats that you can 
foresee in the future? And how are these efforts reflected in 
the 2009 budget?
    Mr. Wynne. Sir, we believe that we are presently stretched, 
but we are accomplishing the missions that have been assigned. 
We demonstrate that we are being a little bit stressed in a 
couple of ways. One is we took a real position to reduce our 
Air Force from November of 2005 to now by about 10 percent. Our 
Airmen are struggling with that reduction because we have seen 
a growth in the ground forces, and we are responding to that.
    We are stretched in the sense that we have airplanes that 
are 20 years old on average in our fighter world, and 44 years 
old on average in our tanker world, but yet our maintainers are 
doing a crack job. Their best effort is to make sure that those 
airplanes are satisfactory to the mission. So I would tell you 
that we are stressed, but we are proud of the Airmen that are 
keeping us aloft.

                           REDUCTION IN FORCE

    Mr. Rothman. Mr. Secretary, before I get to the General, 
you indicated a reduction in forces. The budget request is for 
a 9 percent increase in Air Force budget over last year. You 
indicated a reduction in forces, but at the same time there is 
an increase in forces, in personnel. My understanding was that 
the reduction in forces was to, for lack of a better term, 
address an oversupply of middle management in the Air Force; 
and the increase in personnel, which would exceed the decrease, 
addresses the need for other types of personnel in the Air 
Force. Is that correct, sir?
    Mr. Wynne. Mr. Chairman, every person in our Air Force, 
whether Active, Reserve, Guard or Civilian is a volunteer. We 
value what they bring to our Air Force. We regretted any 
reduction in force that we were required to do, but the 
affordability is an issue. And affordability is how we are 
responding. We are trying to prioritize what percent of the 
American Gross Domestic Product (GDP) has allowed us to in fact 
protect America. We prioritize this in such a way that right 
now, with the age of our fleet, we need recapitalization. And 
we need the investment. So we decided to prioritize the kind of 
people we had as a reduction.
    Now, I will tell you this is delicately balanced, because 
if you lay off the maintenance people and they can not maintain 
the airplanes, the airplanes will fall out of the sky. So we 
have got to balance the recapitalization along the way with 
this. When the Army and Marines have elected to increase their 
force structure, which they have, we have got to relook at what 
the impact is on our Air Force, because we directly support 
them with our ground units, with our Joint Tactical Air 
Controllers (JTACs), and with our airborne units. And so we 
need to be very careful about making sure that we are not out 
of balance and not out of synchrony with our ground force 
components.
    Mr. Rothman. General, did you want to address this? And by 
the way, we are talking about--by the way, I am sure the 
committee members know, but perhaps not the whole audience, you 
are explaining the President's request.
    Mr. Wynne. Right.
    Mr. Rothman. This is the President's request for the Air 
Force.
    Mr. Wynne. Right.
    Mr. Rothman. A 9 percent increase with these reductions in 
one segment of the force, and increases in another segment. So 
what you are presenting to us is what the President would like 
us to accept. Okay. So you are fitting within a 9 percent 
increase that he has imposed on you as his limit, and the 
priorities you can accomplish for the Air Force within his 
priority dollar figure; is that correct, sir?
    Mr. Wynne. That is correct. We support the President's 
Budget request. We believe we prioritized it within that.
    Mr. Rothman. General.
    General Moseley. Mr. Chairman, as we look at 17 years of 
continued deployed combat in the Middle East, to include 
Bosnia, Kosovo, Mogadishu, Somalia, along with the 12 years of 
no-fly zones, some of the lessons learned from that length of 
deployment in combat operations are we can continue to evolve 
the Air Force. As the Air Force organizes, trains and equips, 
we look at units, look at mission types, look at equipment, and 
determine how to train these great Airmen to conduct tasks.
    So as we look at the growth of unmanned vehicles with 
multiple wings and the growth of combat search and rescue, we 
hope to recapitalize with newer equipment. Now what does that 
mean for our logistics support? For instance, we believe with 
the Joint Strike Fighter, we can reduce the number of Air Force 
specialty codes from 18 to eight relative to those squadrons. 
So we think there are some inherent savings relative to these 
new weapon systems.
    But Mr. Chairman, I will also tell you as our comrades in 
the Army grow, the Air Force interface in Air Force units that 
directly support the Army also grows. For every one of the 
brigade combat teams that the Army grows, we have embedded 
Airmen--we have one Airman sitting behind me here--that 
performs combat communications, combat weather, terminal air 
control parties--all embedded. So for the Army growth that is 
programmed, we grow about a thousand or so Airmen that reside 
inside the Army.
    Mr. Rothman. Gentlemen, if I may, and I am just going to 
ask this question briefly, it is a large question, and then I 
want to recognize Mr. Lewis----
    Mr. Lewis. Go on to Norman.

                       UNFUNDED REQUIREMENT LIST

    Mr. Rothman. Then I will go the other way around then. In 
your opinion, Mr. Secretary, General, you have requested--the 
President's request is a 9 percent increase over last year, 
from 108 to roughly 117.9 billion; but you are looking for an 
additional, or have mentioned that there is an additional wish 
list, so to speak, or rather a list of unfunded mandates as it 
has been called, of an additional 17.9 billion on top of the 9 
percent increase that you would like to have funded.
    In your opinion, is there any part of the President's Air 
Force budget that can be used to address any portion of the 
17.9 billion unfunded mandate list or that should be 
substituted for what is in the President's 9 percent increase?
    Mr. Wynne. Sir, we were pleased to get a nine percent 
increase, as you mentioned. We were pleased that the President 
saw that we needed an allocation of that magnitude. The 
Congress asks us each year to come to them with what is the 
requirement to meet the National Security Strategy, how would 
you spend the next dollar? We felt like the appropriate thing 
to do was stipulate a required force, to come off of that 
required force in a very balanced way, and to defend the 
President's Budget request as an acceptance of risk below that.
    We think, as well, that you deserve to know where we would 
spend the next dollar. And we have established a baseline for 
the required force that we think is necessary. And I encourage 
the members of this committee to become familiar with that, so 
that you understand the baseline with which the Air Force is 
operating. Chief?
    General Moseley. Mr. Chairman, we take the National 
Military Strategy, we dialogue with the combatant commanders, 
we take their demand signals and their requirements, and we 
build a required force that is parallel to those requirements. 
The required force is the amount of funding that we have inside 
the President's Budget request. The delta is a reflection of 
the congressional requested unfunded requirements list.
    Sir, I would take a bit of issue with calling it a wish 
list because it deals with our people, it deals with combat 
capabilities, and it deals with an Air Force that is at war. So 
we provide that to the Congress. And that is a very open 
process that we say, given one more dollar, this is where we 
would spend it.
    Mr. Rothman. So if we wanted to give you more money you 
would not spend it on these things, General?
    General Moseley. Sir, that is where the funding would go, 
because that is what you asked us to provide.
    Mr. Rothman. And let me correct myself. It is not an 
unfunded mandate, these are unfunded requirements. And we are 
grateful that you have thought through and laid out for the 
Congress these additional items.
    Mr. Dicks. Mr. Chairman, would you just yield on this point 
just a second to clarify?
    Mr. Rothman. Yes.
    Mr. Dicks. Congress, by statute I think, has required the 
Air Force to do this.
    Mr. Rothman. Yeah. I am not being critical of that.
    Mr. Dicks. I think this is a good thing so that we know 
what we could do at the margins if we had a little extra money.
    Mr. Rothman. And frankly, I think it is our responsibility 
to analyze the President's Budget and analyze the list of 
unfunded requirements that the Air Force has presided. We may 
have a difference of opinion with the administration, as have 
prior committees with prior Presidents in prior fiscal year 
budgets. But I would like now to--so I do not take all the 
time--to acknowledge and recognize Mr. Tiahrt.

                         FOREIGN MANUFACTURING

    Mr. Tiahrt. Thank you, Mr. Chairman.
    First of all, I want to thank you for introducing the 
troops. Only 1 percent of our population wears the uniform. And 
I believe they are elite. And you just explained why when you 
introduced those six individuals. So thank you for serving. I 
appreciate it very much. And I also appreciate what Mr. Moran 
said about having a professional workforce.
    And Secretary Wynne, General Moseley, Assistant Secretary 
Payton, Special Assistant Ken Miller, you have all done a very 
professional job. And this is not about you individuals, this 
is about the system that I believe is weighted heavily in favor 
of foreign manufacturers. And some of it has come around 
because of a memorandum of understanding within the Pentagon, 
and it has created an unlevel playing field. And that is why a 
lot more contracts today are going to foreign manufacturers 
than ever have before in the history of this country.
    The DFARS 225.872-1, General, is a memorandum of 
understanding. It says as a result of memorandum of 
understanding and other international agreements, DOD has 
determined it is inconsistent with public interest to apply 
restrictions of the Buy America Act or Balance of Payments 
Program to the acquisition of qualifying country end products 
from the following qualifying countries. And you list 18 
countries, which include our NATO allies, basically. And then 
there is another section which adds another three: Austria, 
Finland, and Sweden.
    And yet the requirements that you waive for these countries 
are firmly held for American manufacturers, Specialty Metals 
Act, cost accounting standards, the things I listed in my 
opening statement, ITAR. All these things are paperwork that 
require people and money and time to be invested in our 
products.
    In the future--and you know, we are focusing on the tanker 
today, but this is something that is important to the whole 
procurement system within the Pentagon because it was the Navy 
that bought Marine One from a foreign manufacturer, it was the 
Army that bought the light utility helicopter from a foreign 
manufacturer, and it is the Air Force that made this decision. 
All three of those were impacted by agreements of the 
Department of Defense, internal memorandums and understandings 
that you have in the Department of Defense that have created an 
unlevel playing field for American manufacturers. And we have 
to straighten this out if we ever hope to maintain a defense 
industrial base.
    In addition to the unlevel playing field and regulations, 
where are we going to account for the difference in lost 
revenue? I mean right now it is clear that when you lose over 
10 percent of the cost of this contract--in addition to the 
cost of this contract in lost revenue, what is the true cost of 
a product? What is the true cost of replacing the 179 tankers? 
And how did you take that into consideration? I mean there was 
zero recognition given to it. And you say, Well, we do not have 
a legal obligation to. We should, because it is a net loss for 
the American taxpayer.
    So I think when we point these things out to you, I would 
like you to comment on what we can do to make it a level 
playing field for American manufacturers. How can we address 
the memorandum of understanding that excludes our European 
allies from regulatory--gives them regulatory relief and 
excludes American manufacturers from regulatory relief? How can 
we take into consideration the subsidies, whether legal or 
illegal? And how can we make sure that we take into 
consideration the defense industrial base, as the Navy does 
when they buy ships? Would you care to comment?
    Mr. Wynne. Well, one thing I would tell you, sir, is the 
acquisition system is increasingly complex. And it has been 
layered, as you have seen, by laws and then regulations and 
memorandums. It is a burden.
    I would encourage the Congress to take a good hard look at 
the total system, and especially if the Congress is unhappy 
with the outcome, because for us we are constrained to be 
obedient to the laws, the regulations, and the memoranda, and 
we believe we have fairly applied them.
    If I could take just a second on this Integrated Fleet 
Aerial Refueling Assessment (IFARA) model, we exposed the 
firewall to both Boeing and to Northrop-Grumman. We recognized 
that the Air Force actually owns, operates and changes the 
software, but we gave each of those contractors the model, and 
we allowed them to run their own software. And so they could 
develop their own inferences as to how their product was 
performing. We think we have conducted this hearing now, sir, 
in as open and transparent a manner, but constrained by, as you 
say, a very complex set of rules and regulations.

                       KC-X REQUEST FOR PROPOSAL

    Mr. Tiahrt. In this modeling, the RFP was released January 
of last year, the end of January, I think it was the 30th or 
31st. A week later a change to the modeling comes to both 
contractors. After analyzing, which takes some period of time, 
how did you expect any company to respond in the short amount 
of time you gave them to analyze and produce a proposal? I mean 
they have 90 days to produce a proposal. You took 120 days to 
evaluate it. They get this change to their modeling a week 
after the RFP comes out within that 90 days. And what the 
modeling appears to say is that we are not buying a KC-135, we 
are buying a KC-10.
    And so it really did not give a fair opportunity by your 
own rules--a fair opportunity for the American manufacturer. I 
mean the baseline of the RFP is a KC-135E. Is that not true? 
The baseline RFP.
    Mr. Wynne. The baseline Request for Proposal (RFP) is to a 
set of requirements that were vetted by the Joint Requirements 
Operations Council. It does not favor one or the other. It 
simply states refueling is primary and----
    Mr. Tiahrt. But the baseline RFP is a KC-135E.
    Mr. Wynne. It is a replacement program for the KC-135. It 
does not baseline the KC-135.
    Mr. Tiahrt. Okay. That is what everybody gets on January 
31st. And that is what everything was indicated for the last 7 
years, including the RFI, comes up to this point. And then the 
modeling comes out a week later that says, you know, this 
really is not a KC-135 replacement, this is a KC-10 replacement 
because we are going to put these new scenarios in that include 
longer range. And so after 7 years you expect a company to give 
a complete proposal and address all the things that you have to 
address, it is just unfair.
    Mr. Wynne. Sir, while the contract is under protest I 
really cannot go into the details, but I think you will find it 
was done in a fair and legal manner.
    Mr. Rothman. I thank the gentleman. I am exceeding the 5 
minutes per member and am prepared to do more on the next 
round. Just so we can make sure that we until then have an 
opportunity for everyone to ask their questions. Mr. Dicks.

                        AIR FORCE MEDIUM TANKER

    Mr. Dicks. Mr. Secretary, how can you explain the 
difference from your testimony and what happened here? I mean 
your testimony basically said we are looking for a medium 
tanker. I will read it to you one more time.
    Mr. Wynne. So as we look at this, we would tell you that 
the first, our highest motivation is actually medium-sized 
tankers. Then our highest motivation is mixed fleet. Our last 
thing we want to do is have a whole fleet of large airplanes.
    And I said, Mr. Dicks, and that is because you need a 
number, not just size.
    And Wynne says quantity has a quality all of its own.
    Mr. Dicks. So we were all--Mr. Secretary, I think you are a 
decent person. Everything I have ever dealt with you on has 
been straightforward. You have always tried to help on things. 
This is not personal. And if I said anything that sounded that 
way, I am not saying we were intentionally misled, I am just 
saying we were misled, that we thought you wanted a medium-
sized tanker. And this committee, that you testified in front 
of, how can you explain the difference in what happened? We 
went and did what you said we would never do, and that is buy 
big tankers, because we still have the KC-10. How can you 
explain that?
    Mr. Wynne. The replacement program was for the KC-135. The 
RAND analysis of alternatives ranked various airplanes, from 
the 737 to the 777, the Airbus 330, the Airbus 340 as 
candidates for this. Every competitor understood the offerings 
pretty much of what the other people had.
    Mr. Dicks. But there are just two competitors, Mr. 
Secretary.
    Mr. Wynne. And therefore, I think it was a fair and open 
competition, very transparent, a lot of feedback to the 
offerors of record, done in a very legal way.
    Mr. Dicks. But Mr. Secretary, just to take the opposite, if 
it was transparent and if it was open and honest and wonderful, 
you would have said we want a large tanker. We want a big 
tanker. This is what General Lichte kept talking about at this 
press conference. And Sue Payton says he was not part of the 
selection thing. Because more wasn't part of the selection. 
Cargo--there was no number of pallets, no number of passengers. 
None of that. It was all secondary. You said it over and over 
again: We want a tanker, not a cargo plane.
    Mr. Wynne. I can only tell you----
    Mr. Dicks. So all I am saying to you, Mr. Secretary, can 
you understand why we feel we were misled?
    Mr. Wynne. Sir, I can fully understand.
    Mr. Dicks. Explain your testimony. I am talking about your 
testimony and what had been said over and over again.
    Mr. Wynne. No, sir, there was no size in any of the 
Requests for Proposal. These are very competent suppliers. They 
can read the request for proposal.

                              CMARPS MODEL

    Mr. Dicks. Boeing said it wrote a letter to the Air Force 
after these changes in the CMARP were made to advantage Airbus 
so that they could compete. They could not even have competed, 
had those changes not been made in the criteria. Once they were 
made and acknowledged, the changes were made, Boeing wrote a 
letter to the Air Force saying, If you want a big tanker, we 
will--let us bring in the 777. They were discouraged from doing 
that by the Air Force.
    Mr. Wynne. Boeing had every right----
    Mr. Dicks. And that is why we feel so mistreated in this 
deal. And that is why we are so angry about it, because we do 
not think this was fair, open, and transparent. You keep saying 
those words, but the words do not mean anything if the 
actions--look at the actions. And the actions were not fair, 
open, and transparent.
    Mr. Rothman. Mr. Dicks, this will not come from your time.
    Mr. Secretary, did you want to respond? Did you want to 
respond?
    Mr. Wynne. Only to say that we can empathize, but we have 
to comply with the laws and regulations. Both of these 
competitors brought qualified products. One was judged to be 
better. And you are going to find out about that this 
afternoon.
    Mr. Rothman. Mr. Dicks.
    Mr. Dicks. Now, one thing I keep hearing from the spin 
masters--and Mr. Miller, by the way, is very good at spin. He 
and Lauren Thompson are about the two best in this town, I 
think. But one of the things they keep saying about this--and 
this has been said all over the Hill, and I have people who 
called me and told me about it--is that the Air Force is saying 
that somehow Boeing was discourteous or was arrogant.
    Do you have any indication of any--have you heard this? 
That during this competition Boeing's people who worked on this 
were arrogant or worked not in a professional way? I have not 
ever heard of that ever from the Boeing Company.
    Mr. Wynne. Sir, all my dealings with Boeing were on a 
completely professional and objective manner, even to the point 
of getting notified about the protest.
    Mr. Dicks. And one other thing. You know, the day after the 
decision is made, Lauren Thompson has all of this information. 
And he says to the press he got it from the Air Force. Now, 
that was not right. They should not have leaked this 
information out there, because the other competitor in this who 
did not win had not even been debriefed.
    I mean why would the Air Force do that? Why would the Air 
Force give Lauren Thompson, who gets a huge fee from Northrop-
Grumman to operate his Lexington Institute, why would they give 
him all this inside information? And he says in the paper that 
it was given to him by Air Force officers and Northrop-Grumman. 
How can you explain that?
    Mr. Wynne. We have no way of explaining. We have asked who 
was it----
    Mr. Dicks. Can you check into that for us?
    Mr. Wynne. Yes, sir, I would be happy to. That was a 
violation.
    Mr. Dicks. Thank you, Mr. Chairman.
    General Moseley. Mr. Chairman, can I offer one follow-up? 
Congressman Dicks, I will defend General Lichte for a minute. 
It is my understanding when he said more, he was talking 
relative to the KC-135, not relative to the two offerings. When 
he was talking----
    Mr. Dicks. But more was not part of the competition. And if 
he does not know what he is doing, you should not have him 
standing up there, because he was in contradiction of the 
entire RFP. The RFP was to get a tanker. And the Secretary said 
this publicly many times. It was to get a tanker. And cargo--as 
I said, there was no requirement in the--let me finish this.
    Mr. Rothman. Sure.
    Mr. Dicks. There was no requirement in the bid for a 
certain number of pallets or a certain number of passengers. 
There was some requirement on aeromedical and on fuel offload. 
Boeing met those. Boeing met all the requirements that were 
there in this competition.
    And this general gets up there and says more, more, more, 
and all these things that were not part of the requirement. 
That is, again, trying to spin the obvious change in direction 
that the Air Force went, in picking this large plane over the 
medium-sized plane that they testified here that that is what 
they wanted.
    Mr. Rothman. Thank the gentleman. General, did you have 
another response?
    General Moseley. No, sir. I was just going to say, 
Congressman Dicks, his comments were relative to the advantage 
over the 135, not the two offerings.
    Mr. Rothman. Mr. Lewis, please.

                     AIR FORCE ADVERTISING CAMPAIGN

    Mr. Lewis. Thank you, Mr. Chairman.
    Secretary Wynne, General Moseley, welcome to the committee 
on the posture of the Air Force. As you can sense in this 
environment, it is going to be very difficult to have members 
who are very concerned about their constituencies and 
implications of the process that is before us to spend a lot of 
time on posture. But one area where you could help me and maybe 
the committee would be to spend just a few moments, Secretary 
Wynne, and certainly General Moseley if you like, on the 
funding that you will be delivering for advertising purposes 
relative to the, above all, public understanding of the Air 
Force's role.
    Will you spend a little time doing that for the committee? 
And maybe we will go back to the tanker after a while.
    Mr. Wynne. Sir, the intent of it was to reach the 
influencers. What we find is you have to reach people who are 
inclined to support defense. And what we will tell you is that 
the way we are going about this is to really create an image in 
the press, in the thing that allows coaches, allows people to 
essentially influence these smart kids, that we are going to 
require to keep our high-technology Air Force, to come see us 
and sign up. It is actually far less than our sister Services 
are presently spending. But we asked if they could at least 
make sure that the influencers would take a peek, take it home 
with them and understand that their Air Force is an important 
element in the defense of the country. Chief?
    Mr. Lewis. General Moseley.
    General Moseley. Sir, thank you for the question. We have 
had a couple of questions from the staff that would reference 
that we are attempting to lobby the Congress. And sir, that is 
not the case. We would not do that because it is not right. It 
is also in violation of policies. So that would never happen.
    But I would like to be on the record as saying we have the 
lowest number of recruiters per recruited member. We have a 
fraction of the recruiting budget or the outreach budget of any 
of the Services. We recruit the same numbers of people that the 
United States Marine Corps does. The recruiting population out 
there is getting smaller and smaller. The understanding, as 
Congressman Tiahrt mentioned, the understanding of the American 
military, whether it is Soldiers, Sailors, Coast Guard, Marines 
or Airmen is less and less. This campaign that we started is 
not just in newspapers, it is in magazines, it is in video, it 
is on TV.
    Mr. Lewis. Right.
    General Moseley. And it also establishes directly into an 
Air Force dot.com Web site that goes immediately to enlisted 
opportunities and officer opportunities, and a variety of other 
Web sites, to bring people who are influencers or interested 
parties to understand more about their Air Force as we look at 
air, space and cyberspace.
    Mr. Lewis. Thank you, General.
    Thank you, Mr. Chairman.
    General Moseley. And, sir, if you need, for the record, we 
can get you the numbers and the comparisons with our other 
brothers on recruiting and on outreach and the numbers of 
recruiters.
    Mr. Lewis. It would be appropriate to provide that 
material. Thank you.
    [The information follows:]

----------------------------------------------------------------------------------------------------------------
                FY07                      Air Force             Army           Marine Corps           Navy
----------------------------------------------------------------------------------------------------------------
# of Recruiters.....................              1,312              6,439              2,783              3,501
Advertising Budget..................              $63.1             $308.7             $167.9             $146.7
----------------------------------------------------------------------------------------------------------------


----------------------------------------------------------------------------------------------------------------
                                                                               Marine Corps
                                      Air Force Reserve     Army Reserve         Reserve          Navy Reserve
----------------------------------------------------------------------------------------------------------------
# of Recruiters.....................                175              1,800                N/A                700
Advertising Budget..................              $12.2             `$54.5        Included in        Included in
                                                                                  active duty        active duty
----------------------------------------------------------------------------------------------------------------


----------------------------------------------------------------------------------------------------------------
                                          Air Guard          Army Guard
----------------------------------------------------------------------------------------------------------------
# of Recruiters.....................                408              5,100
Advertising Budget..................              $10.7             $85.6
----------------------------------------------------------------------------------------------------------------
All active duty data and all recruiter numbers received from OSD P&R, all other data received from the
  respective Service components. Dollars are reflected in millions.

    Mr. Rothman. Thank you, Mr. Lewis.
    Mr. Moran.

                      MASSIVE ORDNANCE PENETRATOR

    Mr. Moran. Thank you, Mr. Chairman. What? Did you draw the 
short straw in this hearing here?
    Mr. Rothman. I am proud to be here and in this Chair.
    Mr. Moran. I know you are. Nice job, Steve. Good to have 
you chairing it.
    Would it be okay if I switched the subject for just a 
moment? Would you mind that, Mr. Secretary?
    Last year, in the President's supplemental request, the Air 
Force asked for $88 million to retrofit B-2 stealth bombers. 
That would have enabled the B-2 to carry a 30,000-pound bunker 
buster. You will refer to it as a massive ordnance penetrator. 
At that time, there was speculation that this funding might be 
a signal regarding the Administration's efforts to attack 
Iran's subterranean nuclear enrichment program, either Natanz 
or any other facility. The bunker buster could be used in 
Afghanistan, but really there isn't any need to retrofit a B-2 
stealth bomber since there is less need for stealth 
capabilities in the Afghan skies.
    So some of us in the Congress were concerned about that 
request, since the only justification that we ever received is 
that the funding was necessary in response to, and I quote, an 
urgent operational need from theater commanders. Can you assure 
the subcommittee today that the retrofitting for B-2 will not 
be used for a preemptive strike on Iran? Because that was the 
speculation, as you know.
    Either one of you can answer that, General or Mr. 
Secretary.
    Mr. Wynne. Sir, all I can say is we are subject to the 
guidance of the National Command Authorities, and I know of no 
direct instructions to us to complete that such that it could 
be a preemptive strike. But I will tell you, as a matter of 
policy for the United States, that option is always on the 
table.

                        COMBAT SEARCH AND RESCUE

    Mr. Moran. Well, that certainly is the same script we have 
been hearing from.
    The second-highest priority behind the tanker replacement 
program is the combat search and rescue helicopter replacement 
program. We have had contractual problems dating back to 2007. 
The GAO upheld a protest over the contractual award to the 
company that was initially given it. Just last month, the DOD 
Inspector General said that it will begin an audit of the 
latest competition to determine if the Air Force followed the 
rules regarding the requirements for this aircraft. What effect 
will that delay caused by the big protest have on the program 
schedule and do you still anticipate awarding that contract in 
the next few months, General Moseley.
    General Moseley. Sir, I will defer the contract award 
questions to my boss, but I will tell you the operational 
impact.
    Just like this captain sitting behind me, we are flying HH-
60 aircraft that are limited in range and payload and 
capability in some pretty severe places in combat today. The 
desire is to give our combat search and rescue team the best 
possible flying machine with the best possible capability. 
Because we do combat search and rescue for the entire joint 
team, not just for the Air Force, but for Marines, Navy, Army, 
special operations and for our Coalition partners.
    So, Congressman Moran, that is a great question. And the 
further it slips the more risk we take in theater combat 
operations and the more risk these crews, like this captain 
sitting behind me, take with an aircraft that is underpowered, 
has not much range, and has not much capability.
    Mr. Wynne. Sir, I will tell you that August or September is 
our target. Yes, sir. And, hopefully, everything is saucered 
upright.

                   RELIGION AT THE AIR FORCE ACADEMY

    Mr. Moran. That is good. I am glad to hear that.
    I have one further question. Last night, I saw a movie 
about a subject that I have only heard about, but it was very 
disturbing. It was about the Air Force Academy, and it detailed 
incidences of real anti-Semitism, that religious evangelicals 
have had an undue influence on that university. We heard a 
great deal from the chaplain who was very much troubled by it 
but who had been threatened as a result, and a gentleman who 
sued the Air Force Academy. He had three sons going there. And 
you probably--Mikey Weinstein, I think was his name. He had 
sued, and he has gotten death threats as a result, and it 
detailed what his sons had gone through.
    I have a constituent who is a Dallas State delegate who 
also attended the Air Force Academy who also happens to be 
Jewish.
    This stuff is real, and I want to know that it has now been 
put an end to. There is no more of that kind of real 
discrimination and almost persecution of people who are not 
Christian at that university. Can you assure us of that?
    General Moseley. Sir, let me take that, as the Air Force 
Chief of Staff. It is outrageous that someone would attempt to 
do that to people in an institution, whether it is a public or 
private institution but for sure in the United States military.
    Mr. Moran. But it did happen? You acknowledge it was 
happening?
    General Moseley. We have had issues. So has everyone else. 
And we have taken it on. And it is outrageous that sort of 
thing occurs to people, citizens. We watch this as far as all 
faiths. We hold very dear the notions of dignity and respect 
for all people that go through the United States Air Force 
Academy, as well as basic military training and any place where 
they serve while on Active Duty, in the Guard or the Reserve or 
anywhere in the United States Air Force.
    Mr. Moran. You are telling me what we want to hear, 
General. The problem is that the people who were involved have 
been rewarded by promotions, and I would hope that you are 
looking into that situation with some real depth and not just 
the kind of superficial response that is normally given.
    It didn't happen at the other academies in the way it 
happened at the Air Force Academy. It should not have happened; 
and I would hope that measures have been put in place to ensure 
that the Academy is open for everyone and that everyone's 
participation is desired and that that is not considered to be 
any kind of semi-religious institution, i.e., some kind of 
Christian academy, as some preachers would have wanted it to 
be, such as Ted Haggard.
    I won't go into it in any greater length, but I want you to 
know that there are some people in this subcommittee and I know 
in the Congress who are adamant that that kind of stuff has got 
to stop. It is far beneath the dignity of our service 
academies.
    General Moseley. Sir, as the Air Force Chief of Staff, I 
agree 100 percent with that.
    Mr. Rothman. General, I am just going to exercise the 
privilege of the Chair to ask for further clarification. Is it 
your testimony or your statement to this committee that the Air 
Force is now taking all the necessary steps to make certain 
that this kind of religious discrimination that Mr. Moran 
described will not happen again?
    General Moseley. Absolutely, sir; and we can provide for 
the record all of the studies and the work that we have done 
since those episodes, if you would like that. We had a 
commission run by our Deputy Chief of Staff of Personnel and 
rounded up several outside experts to be able to go look at 
that; and Mr. Chairman, Congressman Moran, we would be happy to 
provide that and answer any other questions. Because it is 
outrageous, and it is unsat, and we don't buy it.
    Mr. Rothman. And, General, you are satisfied that you are 
taking and have taken all the steps necessary to assure that 
this won't happen again?
    General Moseley. Sir, you are never satisfied as a 
Commander or as a Chief of Staff, because you don't know what 
you don't know until it happens. But I am satisfied we have 
made the case that this is unacceptable behavior. We welcome 
all faiths and all disciplines, and that is the way it should 
be.
    Mr. Rothman. This is your watch, General, right?
    General Moseley. Yes, sir.
    Mr. Rothman. Mr. Hobson.

                     MOBILITY AIRCRAFT PROCUREMENT

    Mr. Hobson. Thank you, Mr. Chairman.
    Gentlemen, nice to see you today. I know it is not an easy 
day.
    I want to thank you both for the foreign military training 
mission at the Springfield National Guard base and your 
continued help in making that successful, as you have been very 
helpful in that and continue to be.
    I would like to talk about the C-5s and the C-17s, if we 
could, because we have some of the C-5s. Can you give us your 
perspective on what we are going to do to C-5s and what we are 
going to do with--are we going to buy any more C-17s?
    I think Ms. Granger left. There are a lot of people 
interested in C-17s and C-5s, and you have had some discussions 
on that.
    Mr. Wynne. Sir, I can give you a quick snapshot and then I 
will segue into affordability. There was a recent acquisition 
decision following a Nunn-McCurdy breach. The Nunn-McCurdy 
breach was as a result of the program exceeding its cost budget 
by more than 50 percent of its original baseline and 25 percent 
of its current baseline. The acquisition decision memorandum 
came down from the OSD AT&L that certified the program for 52 
RERP'd, if you will, C-5s; and I believe they are going to be 
called C-5Ms at the time.
    This leaves approximately 59 or so C-5As which we intend to 
Avionics Modernization Program (AMP). You have to AMP them to 
meet the international standards for position and navigation. 
So, right now, it is the policy of the Air Force to follow that 
acquisition model and to re-engine approximately to the total 
of 52 what will be called C-5Ms.
    As to what happens beyond for the C-5 fleet, we are going 
to follow the law. The law currently prohibits retiring of the 
C-5s. We have put forward, I think, an argument for the fact 
that C-17s are being used to a tremendous extent. I would say 
sometimes we use the phrase ``flying the wings off'', but they 
are the workhorse of this engagement, and we believe that the 
models that are used do not accommodate the moving goalpost 
that the mobility capability study did, and we can see a case 
for additional airplanes.
    General Moseley. Congressman, the President's Budget 
request has no C-17s in there. We support that. We have 
discussed this. We don't have an updated mobility capability 
study. There will be one. We are working hard with the Joint 
Staff and USTRANSCOM that hopefully in the early 2009 time 
frame will deploy.
    Mr. Hobson. Will the line be shut down by then, General, 
the C-17 line?
    General Moseley. There were 10 airplanes in last year's 
supplemental. That takes us to 190. There were 14 aircraft in 
the foreign military sale. So that 24 airplanes will go to some 
length to maintain the line.
    Sir, I don't know the answer to that. I will have to take 
that for the record.
    [The information follows:]

    With no additional Air Force procurement above 190 
aircraft, the Boeing C-17 production line may begin to shut 
down in 2008. The last contracted foreign customer deliveries 
are to the United Kingdom--six in June 2008 and the final 
production line C-17 deliveries to the U.S. Air Force--190 in 
August 2009. There are no other orders for C-17s; however, the 
United Kingdom, NATO Strategic Airlift Capability, and Qatar 
(two aircraft each) are potential remaining foreign customers. 
Boeing is currently at risk protecting long lead items for 10 
aircraft. C-17s have a 34 month build time. Without commitment 
for more procurement, Boeing may halt production on protected 
aircraft.

    General Moseley. But, Congressman, the challenge we have in 
attempting to define this requirement has been the goalpost 
being moved. We have an Army and Marine Corps that has grown 
close to 100,000. Most MRAPs are incapable of being transported 
on C-130s. Only the MRAP version RG31, category 1 can be 
transported in a C-130. This MRAP version is used by special 
forces and is currently being procured by the U.S. Army and 
U.S. Marine Corps.
    Mr. Hobson. That you are renting? You rented former Russian 
aircraft?
    General Moseley. Air transport of MRAP vehicles are being 
done with the Russian-made Antonov AN-124. Sir, our C-5 
inventory, the C-5As are less reliable; and that gets to the 
Secretary's point about the Avionics Modernization Program to 
actually be able to fly them in the international environment. 
And then our C-17s and C-130s we are burning up with high 
utilization rates, and this young captain sitting behind me is 
a good example of that. Every month we take somewhere around 
3,500 convoys off the road and close to 9,000 people off the 
road inside C-17s and our C-130s to avoid Improvised Explosive 
Devices (IEDs), to avoid insurgents.
    And so, sir, as you look at all of those, the goalposts do 
continue to move on us a bit when you look at strategic 
airlift. And so the mix of C-17 and modified, reliable C-5s 
takes us to the place where in the unfunded requirements list 
we put additional C-17s. Because, if we had extra dollars, that 
is where we would spend it to be able to maintain this very, 
very critical piece of the joint fight.
    Mr. Wynne. I endorse what the Chairman said. I am very 
pleased with the nine percent improvement that the President 
has offered us, and we have tried to prioritize it within that. 
As the Chief said, though, the goalposts keep moving. We have 
to adhere to that goal.
    Mr. Hobson. But we need your advice. And if Mr. Murtha was 
here, I think he would--I can't speak for him, but I think he 
would say, as I have heard him speak before, if these goalposts 
are moving, you need to help us keep you in the game by telling 
us what you need to stay in the game.
    And, for example, I have a parochial interest in the C-5s 
that are at Wright-Patterson; and I would hope that someday 
those would be C-17s as we move forward and the goalposts--that 
was even before the goalposts changed, so I am not going to 
beat you up about that, but I would like to see that happen.

                          JSF ALTERNATE ENGINE

    I would like to ask your personal feelings about one other 
thing. The President's budget, again, does not contain an 
alternate engine on the joint strike fighter. And you have both 
had experience with the wars of single engines in the past. Can 
you give us your personal opinion--because I wouldn't have 
asked you this, but I think you have been asked this before. 
Will you tell us your personal opinion about the alternate 
engine?
    Mr. Wynne. Sir, the first thing we have to say is that we 
support where the President's Budget request came in. We 
recognize that it was a business case. We recognize that that 
business case tried to postulate where it is.
    Now, having given all that, it is my personal opinion that 
we have many nations participating with us. There is even a 
tendency to go with a single-engine fighter for all the 
American forces; and if it is going to be all of the free Air 
Forces are going to fly the same airplane, I think then you 
have to reach beyond a simple business case into a reliability 
case.
    And if you reach into that reliability case, I can't tell 
you how happy I was when we stood down the F-15 fleet that I 
happened to have a second airplane, namely the F-16s to 
backfill. If I am not going to have any other airplanes to 
backfill, then I ought to have an extra engine to backfill. And 
that is where it makes the case I think for excessive 
reliability, but I think that is what we owe our partner 
nations.
    Mr. Rothman. Thank you, Mr. Hobson.
    General, did you want to address that?
    General Moseley. Yes, please, sir.
    Sir, this, like the C-17 issue, is truly an affordability 
issue. When we say we support the President's Budget request, 
we have been in hard work for over a year to balance our 
Program Objective Memorandum (POM) and to be able to submit an 
Air Force budget. So we support that.
    These issues that we are talking about are absolutely 
linked to affordability; and the $2 billion that it would take 
to field the second engine, my fear is I don't know where the 
$2 billion comes from. And the desire to hold the IOC, the 
initial operational capability, of the airplane constant, I 
don't know where the funding comes from; and I don't know how 
that is squared inside that program. But, sir, if you are 
asking my personal opinion of should there be a second engine, 
I believe there should be.
    Mr. Rothman. Mr. Hobson, did you want to make a brief 
comment?
    General Moseley. I just don't know where the funding comes 
from, sir.
    Mr. Hobson. I understand. We will take care of that. That 
is our job.
    The other thing I wanted to say for the record before I 
leave relates to something we haven't talked about today, but 
it is very important I think to the future of the Air Force and 
the military in general. That is synthetic fuel. I am not going 
to ask you to comment, because I have to leave, and there are 
other members who want to talk. I hope before you leave you all 
will talk about synthetic fuels for our aircraft and where we 
are going with other types of vehicles on that.
    Thank you very much, Mr. Chairman, for your diligence.
    Mr. Rothman. Thank you, Mr. Hobson.
    Mr. Cramer.

                               BRAC 2005

    Mr. Cramer. Thank you, Mr. Chairman; and welcome, both of 
you, to the subcommittee.
    General Moseley, I want to ask you a question about BRAC, 
BRAC 2005; and the Alabama delegation has been trying to 
understand where the Air Force is coming from. This is about 
rotary wing activities. In the BRAC 2005 recommendation, there 
was a consolidation of the rotary wing activities into Redstone 
Arsenal, my base there in North Alabama; and we still haven't 
gotten an answer.
    I think the Air Force has been trying to evaluate whether 
the jobs were related to development or acquisition; and that 
is what the BRAC order more or less said, that these jobs will 
be moved there. And, at first, there were 120 jobs; and then 
the Joint Cross Service Group cost of base realignment 
assessment reduced that number to 50. But we still seem to be 
at a disagreement over whether those 50 will be moved there or 
not; and our offices, Senator Sessions and I, were trying to 
present this issue to your folks early in February. Do you have 
a position on that?
    General Moseley. Sir, if you will allow me to take for the 
record the detailed calendar of what happened, who did what, we 
will get that to you.
    But, sir, you know we will 100 percent comply with BRAC, 
because that is the law of the land, and we will do that.
    Mr. Wynne. I will also add to that, sir, that when we 
completed the BRAC analysis we then turned into trying to make 
sure that they had the right business case and that they were 
accurate when they came up with the information; and I think 
there is some discrepancy in there. I think the Chief is right. 
We should take this for the record, go back and make sure that 
you have a correct assessment of what it is.
    Mr. Cramer. Well, you need to do that.
    [The information follows:]

    BRAC recommendation number 189 consolidates Army and Air 
Force rotary wing (RW) DAT&E from Ft. Rucker, AL, Robins AFB, 
GA, and 50 manpower billets, to the Technical Test Center at 
Redstone Arsenal, AL. This recommendation was the product of a 
Technical Joint Cross Service Group (TJCSG) recommendation.
    In March 2004, Air Force Material Command (AFMC) responded 
to a TJCSG data call, certifying that Robins AFB, GA performed 
RW DAT&E with approximately 10 civilian full time employees as 
of September 30, 2003 (the snapshot-in-time date for all BRAC 
recommendations).
    In May 2005, the Department of Defense BRAC recommendations 
were forwarded to the Commission, and made public. In the 
summer of 2005, the BRAC Commissioners and staff visited all 
locations nominated for BRAC action. In July 2005 through April 
2006, AFMC conducted site surveys at Robins AFB, GA and found 
significant differences in reported data and actual RW DAT&E 
work at Robins. (incidental to other activities then, now 
discontinued).
    In October 2007 AFMC certfied, in a letter to the Air Force 
BRAC Program Management Office that they incorrectly responded 
to the BRAC 2005 data call and that RW DAT&E is no longer 
accomplished at Robins AFB, GA.
    AFMC's re-certification superseded the BRAC requirement to 
relocate the mission and 50 civilian billets, since those 
billets were no longer utilized by RW DAT&E. In short, the Air 
Force cannot move what no longer exists.

    Mr. Cramer. And, of course, we all have to respect the BRAC 
process, and we are bound by law to do that. But if there is a 
disagreement there I would like for you to point that, if you 
think a mistake was made, how that mistake was made. There is 
construction money at stake here, too, so we have got an 
unjoined path of construction of needing to go forward, yet we 
are not clear about where this is going.
    General Moseley. And, Congressman, there is another part of 
that, which is where is the work actually done? Where is rotary 
wing development acquisition test logistics actually done? So 
that will be part of the reply that we put for the record to 
show you where we did that at the time of BRAC and where that 
work is done now because I depend on the United States Army to 
do most of that for us.

                                  TSAT

    Mr. Cramer. And then we need the opportunity to hear where 
you are coming from so that we can respond to that with 
honoring the process, too.
    Secretary Wynne, I would like to ask you a question about 
TSAT. TSAT has been the keystone system in DOD's communication 
and architecture, yet you pulled $4 billion out of the TSAT 
program, which seemed to me further delaying the system's 
protected communication capabilities and communication on the 
move which are critical components in the future combat systems 
as well. Can you respond to that?
    Mr. Wynne. Sir, I can tell you that we were directed to buy 
another AEHF satellite, the fourth one. We saw this as a direct 
influence into where the Congress at the time felt like the 
TSAT program was going. We attempted to be very, very clear 
about the fact that we thought the tactical readiness level of 
the TSAT was higher than the Congress had assessed, but we 
recognized the risk. And I think overall, as we went down the 
road of constructing the budget that we have today, AEHF four 
took a prime position and essentially slid the TSAT; and the 
response was, from inside of the building, that this would give 
us a further opportunity to mature the technologies. From an 
Air Force perspective, we thought they had been matured, but, 
frankly, we went along.
    Mr. Cramer. So this is a slide rather than a 
reconsideration of how TSAT fits in?
    Mr. Wynne. We see that TSAT is a requirement of 
communications-on-the-move. We think that if we are going to be 
overburdened we see it as essentially saving what we forecast 
as a saturation of bandwidth downstream.
    Mr. Cramer. Do you know the time frames for when that next 
AEHF satellite will be available?
    Mr. Wynne. I believe, sir, that they--I don't. I will have 
to take that for the record, just to make sure I don't 
misspeak.
    Mr. Cramer. All right. Thank you.
    [The information follows:]

    The Fiscal Year 2009 President's Budget submission plans 
for the launch of AEHF Satellite Vehicle 4 (AEHF 4) in Fiscal 
Year 2014. Because the production of AEHF 4 follows a four year 
production break, the Air Force is currently conducting a study 
to assess the impacts of diminishing manufacturing sources, 
long lead parts, the production break, and other potential 
vendor issues. Following the completion of this study in April 
2008, any potential updates would be reflected in the Fiscal 
Year 2010 President's Budget submission.

    Mr. Rothman. Thank you, Mr. Cramer.
    Mr. Boyd.

                     ABOVE ALL ADVERTISING CAMPAIGN

    Mr. Boyd. Thank you, Mr. Chairman.
    Secretary Wynne and General Moseley, first of all, let me 
commend both of you for your very distinguished careers serving 
our country. I have had the opportunity to work with your 
offices over the years; and particularly I know, Secretary 
Wynne, you spent most of your career there in research and 
development. And I have my interest in the research labs at 
Tyndall Air Force Base that worked with your office, General 
Moseley, often. I commend you for your service and the way you 
conduct yourselves.
    I want to revert back to a question that Jerry Lewis from 
California asked earlier, and this will be very brief. But it 
is the Above All advertising campaign. Maybe, Secretary Wynne, 
it will be more appropriate for you. In the information I have 
it is about an $81 million cost. Can you tell me, was this ad 
campaign developed completely in-house or was it done outside 
by contractors?
    Mr. Wynne. Sir, I believe it was done outside by 
contractors.
    Mr. Boyd. Can you briefly tell the committee why the Air 
Force felt compelled to run these ads, which to some appear to 
be the kinds of ads that an advocacy group would run, when, in 
fact, it is specifically prohibited in law?
    Mr. Wynne. Sir, we have no intention of lobbying Congress. 
In fact, the survey that was conducted said that we need to get 
noticed by the influencers, the coaches, the counselors, the 
parents of people; and we need to push for the Air Force's 
highest quality individual we can get.
    We recognize that there is only about two or three percent 
of the American population that we essentially compete with. We 
do this with a relatively meager budget. I would tell you it is 
probably one-third of anybody else's. We have one-third the 
recruiters per recruit out there.
    So the fact is, and I will say that the papers that we put 
it in, the New York Times, the Washington Post, go to all the 
school libraries. So it seemed to me to be a very effective way 
of contacting the influencers.
    There was no intent to lobby, advocate, except to make sure 
that the influencers understood that there is an opportunity 
here for their kids to come join the Air Force and defend 
America.
    Mr. Boyd. So your position is it is used as a recruiting 
tool only?
    Mr. Wynne. Yes, sir. It directs those kids to Web sites for 
placement within the enlisted or officer corps.
    Mr. Boyd. Thank you. I have no more questions.
    Mr. Rothman. Thank you, Mr. Boyd.
    Mr. Bishop.

                            F-22 PROCUREMENT

    Mr. Bishop. Thank you very much.
    I would like to ask you about the F-22A procurement 
program. The Office of the Secretary stated that 183 F-22As are 
affordable and sufficient to meet the projected threats. But 
the Air Force continues to state the need to procure a minimum 
of 381 F-22As to meet the national strategic needs. Are there 
plans to procure additional F-22As beyond the 183 aircraft buy? 
Do the problems with the F-15s support the acquisition of more 
F-22As? And does a multi-year current procurement contract 
provide for variation and quantity? If you decide to procure 
more aircraft, can they be added to the multi-year contract and 
purchased at the same reduced price? If procurement is complete 
at 183, when will the F-22A production lines start to shut 
down?
    Mr. Wynne. Sir, the first thing I need to say is that we 
support the President's Budget request, which currently has an 
agreement to not shut the F-22 line down but to allow the next 
Administration to do it. So the budget has essentially removed 
all of the close-down funds, which would probably have to be 
reentered, because I think about $40 million is required by 
about November of this year.
    But, nevertheless, as we present ourselves, we have to say 
that it was a huge argument about affordability, with the 
Office of Secretary of Defense determining that the Air Force 
could not afford to have the F-22 program going forward while 
the F-35 became developed.
    That raging argument, sir, a decision has been rendered, 
although the Deputy Secretary said he would put four more 
airplanes into the supplemental request that is coming out 
later. Now, those four airplanes will be an attempt to add to 
the multi-year. And it is an agreement that has to be made, but 
there is no variation in quantity, to your point. We don't 
think it is sufficient to get it to the other side. But I would 
say that that is up to the contractor of record.
    Mr. Bishop. General Moseley.
    General Moseley. Congressman, I will echo Secretary Wynne. 
This is fundamentally an affordability issue, and we support 
the President's Budget request in trying to square all of the 
requirements we have with the budget authority that we receive. 
The 183 airplanes, plus the perhaps four more, will get us to a 
place that offers us some opportunities to be able to employ 
the airplane.
    There have been discussions about requirements higher than 
that. There have been discussions about the studies that take 
you to those higher numbers. But the affordability question 
that we face now takes us to those smaller numbers.
    Mr. Bishop. So are you saying that you need the 381, but 
you just can't afford it right now? Is that what you are 
saying?
    General Moseley. Sir, my personal opinion as the Chief of 
Staff is that the larger numbers provide much more capacity and 
much more depth than they cover the things like the unforeseen 
grounding of the F-15s and in the numbers of squadrons that we 
need to be able to deploy relative to the national military 
strategy. Except, sir, this is fundamentally an affordability 
issue.
    Mr. Bishop. So that is your personal opinion, not the 
official?
    General Moseley. My personal opinion is more airplanes are 
better.
    Mr. Bishop. And so that would strengthen strategic 
capabilities?
    General Moseley. Sir, it would allow us to retire the 
fourth-generation airplanes that we are having some challenges 
with maintaining. The modification lines that we have, 
particularly for the F-15, I asked General Corley at Air Combat 
Command a week or so ago, of every dollar spent on 
modifications, how much goes to true combat capability? Eighty-
six percent goes to safety and sustainment issues on those 
older airplanes.
    And, sir, we have made this case in supporting the 
President's Budget request and attempting to balance our budget 
authority. This is about funding, and this is about what we can 
afford.
    Mr. Bishop. So every dollar you put in there is like 
throwing good money after bad to work on that maintenance and 
that safety of the old aircraft, as opposed to going on and 
investing in the new?
    General Moseley. Sir, I would say all funding is good, but 
the return on that dollar spent is not necessarily pure combat 
capability because of the age of the system.
    Mr. Bishop. Do you agree with that, Secretary Wynne?
    Mr. Wynne. Yes, sir. In those figures, only 14 percent goes 
to enhanced combat capability; 86 percent goes to essentially 
sustain the system. You cannot at the end of the day survive 
like that as a nation.
    Mr. Bishop. So you have a personal opinion about more 
aircraft being better?
    Mr. Wynne. My personal opinion actually stems from a study 
that was done by an outside contractor. Because I don't have 
the warfighting background that the Chief of Staff has. But 
Whitney, Bradley and Brown, Incorporated (WBB) did a study that 
basically said that the Nation would be in a medium-risk 
category, not in a low-risk category, with a quantity 
approaching 280 ships--280 aircraft, excuse me.
    Mr. Bishop. Because we are talking about 183 versus 381?
    Mr. Wynne. Yes, sir. The WBB study actually took a middle 
position and ended up with about 277 to 280 units.
    Mr. Bishop. So that would be my middle?
    Mr. Wynne. Yes, sir.
    Mr. Rothman. Do you have anything more?
    Mr. Bishop. No.

                       UNFUNDED REQUIREMENTS LIST

    Mr. Rothman. Thank you, Mr. Bishop.
    Mr. Secretary, General, I have a few questions; and then we 
will start the second round. But, for the record, understand 
that we as a committee and as Americans are in awe of the 
capability and the dedication of your service people under your 
command. We know that you are the difference between, you and 
the other services, between the security of our country and the 
insecurity or lack of security. We are extraordinarily grateful 
for what you do, and we are mindful that it is only a handful 
of you with this extraordinary ability and talent and 
professionalism that make our Air Force the best on the planet 
earth.
    It is the responsibility of this Congress, however, and 
this committee to receive the President's budget for the Air 
Force and examine it thoroughly to make sure that our shared 
commitment to our national security is achieved--is maximized 
by the President's allocation of dollars and that we spend the 
taxpayer dollars as wisely as possible. And there may be a 
disagreement about what system, what plane, what ordinance that 
we would include if the President hasn't, et cetera, et cetera. 
But we are sharing the same goal. We are simply doing our job 
to make sure that we examine these numbers ourselves as a check 
and balance and to fulfill our constitutional responsibilities.
    Along those lines, I have been told that in previous years 
the unfunded requirements list was called an unfunded 
priorities list and that not only did the name change this year 
but that the unfunded requirements list this year is not in 
priority order. If that is an accurate statement, I would ask 
for the record for the unfunded requirements list to be 
provided to us in priority order. Do either of you gentlemen 
have a problem with that?
    Mr. Wynne. No, sir.
    General Moseley. No, sir.
    Mr. Rothman. Thank you. Obviously, as soon as we can get 
that, it would be much appreciated and allow us to do our work 
even more effectively.
    [The information follows:]

------------------------------------------------------------------------
                                     FY09 Amount
    Priority         Requirement        ($ M)        Item description
------------------------------------------------------------------------
1...............  B-52 NDAA                183.1  FY08 Authorization Act
                   Compliance (76                  directed 76 TAI/44
                   aircraft).                      Combat Coded (CC)
                                                   fleet with common
                                                   configuration.
                                                   Currently funded at
                                                   56 TIA/32 CC. Funds
                                                   four additional
                                                   aircraft Programmed
                                                   Depot Maintenance
                                                   inductions, increased
                                                   MILPERS/flying hours,
                                                   and modifications for
                                                   additional aircraft.
                                                   Maintains viability
                                                   and execution of B-52
                                                   CONECT program.
                                                   Selective
                                                   Availability Anti-
                                                   Spoofing Module
                                                   (SASSM) GPS receiver
                                                   upgrade is required
                                                   to address capability
                                                   deficiencies,
                                                   maintain combat
                                                   capability and
                                                   ability to deliver
                                                   all modern weapons.
                                                   Supports Required
                                                   Force.
2...............  Blue Ribbon               99.5  Funds the following
                   Review.                         items in accordance
                                                   with the Blue Ribbon
                                                   Review: Remote Visual
                                                   Assessment (RVA)
                                                   $0.3M; ICBM Payload
                                                   Transporter (PT) High
                                                   Security Locks $4.2M;
                                                   Common Vertical Lift
                                                   Support Platform
                                                   (CVLSP) $4.5M;
                                                   Radiation Sensors
                                                   $5.8M; ICBM
                                                   Cryptography Upgrade,
                                                   Increment II $7.5M;
                                                   Nuclear Storage
                                                   Structures/Areas
                                                   Upgrades $15.4M; New
                                                   ICBM Payload
                                                   Transporter (PT)
                                                   $20.0M; Nuclear
                                                   Surety, SDT $6.0M;
                                                   Nuclear Surety, Test
                                                   Equipment $9.0M;
                                                   Nuclear Surety,
                                                   Procure non-powered
                                                   munitions trailer
                                                   $22.8M; Nuclear
                                                   Surety, Powered
                                                   Munitions Trailer
                                                   $4.0M.
3...............  Total Force End          385.0  The FY08 Defense
                   Strength for                    Appropriations Act
                   Required Force.                 tasked the AF to
                                                   report on end
                                                   strength
                                                   requirements. This
                                                   requirement requests
                                                   funding to increase
                                                   Active end strength
                                                   by 13,554, civilian
                                                   by 1,830, and reserve
                                                   by 3,400 in FY 09 in
                                                   support of the Air
                                                   Force's 86 Combat
                                                   Wings (Required
                                                   Force). Also includes
                                                   McConnell AF
                                                   Reserves.
4...............  C-130J (+8               576.0  C-130J procurement
                   aircraft).                      ensures
                                                   recapitalization of
                                                   the aging C-130E
                                                   fleet, in accordance
                                                   with Fleet Viability
                                                   Board recommendation.
                                                   Continued C-130J
                                                   procurement allows
                                                   the Air Force to
                                                   continue meeting the
                                                   Intra-theater Airlift
                                                   requirements for the
                                                   Combatant Commanders.
                                                   Part of Required
                                                   Force.
5...............  C-17 (+15              3,900.0  Procures 15 C-17s,
                   aircraft).                      keeping only active
                                                   strategic airlift
                                                   production line open.
                                                   Part of Required
                                                   Force.
6...............  Special Ops              156.8  C-27B for SOF $74.8M--
                   Aircraft (+2 C-                 Funds two C-27B
                   27Bs, +1 CV-22).                aircraft, initial
                                                   spares, and ground
                                                   support equipment for
                                                   delivery to AFSOC.
                                                   Accelerates delivery
                                                   of C-27B aircraft to
                                                   AFSOC by two years,
                                                   meeting Commander's
                                                   needs for precision
                                                   attack and
                                                   specialized airlift.
                                                   Part of Required
                                                   Force. CV-22 Aircraft
                                                   $82M--Buys one
                                                   additional CV-22 in
                                                   FY09 to accelerate
                                                   fielding of SOF
                                                   aircraft as directed
                                                   by QDR. Part of
                                                   Required Force.
7...............  F-35 (+5 aircraft        828.0  5 additional aircraft
                   in FY09 &                       in FY09 $761M--
                   Advance                         Procures 5 additional
                   Procurement for                 F-35s (including long
                   FY10).                          lead) to meet
                                                   Required Force
                                                   procurement profile.
                                                   Advance Procurement
                                                   for six additional
                                                   aircraft $67M--Funds
                                                   advanced procurement
                                                   items for 6
                                                   additional aircraft
                                                   to be programmed in
                                                   the FY10 budget to
                                                   meet Required Force.
                                                   Without procuring
                                                   additional aircraft
                                                   to meet Required
                                                   Force, the Air Force
                                                   is unable to
                                                   sufficiently
                                                   recapitalize its
                                                   aging aircraft.
8...............  Vanishing Vendor          48.4  ICBM Solid Rocket
                   Base.                           Motor Life Extension
                                                   $31.0M--Following
                                                   completion of
                                                   Minuteman III
                                                   Propulsion
                                                   Replacement Program
                                                   this initiative would
                                                   fund a low-rate ICBM
                                                   Solid Rocket Motor
                                                   sustainment
                                                   production line
                                                   producing 6 booster
                                                   sets per year to
                                                   maintain critical
                                                   industrial skills,
                                                   certifications, and
                                                   supplier base.
                                                   Mitigates impact of
                                                   loss of critical
                                                   propulsion skills/
                                                   industrial base until
                                                   a follow-on booster
                                                   program is approved;
                                                   U-2 Vanishing Vendor
                                                   Mitigation $17.4M--
                                                   Funds for Vanishing
                                                   Vendor Mitigation of
                                                   ASARS On Board
                                                   Processor (OBP).
                                                   Funding will purchase
                                                   two OBPs.
                                                   Additionally,
                                                   diminishing
                                                   manufacturing
                                                   suppliers and
                                                   increased GWOT
                                                   operations tempo is
                                                   accelerating
                                                   depletion of Remote
                                                   Airborne Sensor
                                                   (SIGINT sensor--RAS-
                                                   1R) spares, support
                                                   equipment, Senior
                                                   Year Electro-optical
                                                   Reconnaissance Sensor
                                                   (SYERS) visible and
                                                   IR focal planes and
                                                   circuit card
                                                   assemblies.
                                                   Insufficient spares
                                                   inventory to sustain
                                                   operations results in
                                                   the inability to meet
                                                   COCOM intelligence
                                                   collection
                                                   requirements.
9...............  Quality of Life          166.0  Funds MILCON
                   MILCON Projects.                requirements for
                                                   construction,
                                                   improvement,
                                                   planning, and design
                                                   of facilities to
                                                   improve quality of
                                                   life of Air Force
                                                   personnel. Projects
                                                   include libraries,
                                                   youth centers,
                                                   fitness centers,
                                                   child development
                                                   centers and workplace
                                                   improvements.
10..............  Critical Base            276.9  Provides critical
                   Services.                       funds to base
                                                   services that impact
                                                   the quality of life
                                                   for all Airmen.
                                                   Adjustment will bring
                                                   non-pay programs to
                                                   85% of the total
                                                   requirement,
                                                   consistent with
                                                   historical execution
                                                   rates. FY09 baseline
                                                   funding is at 63% and
                                                   barely covers the
                                                   average execution for
                                                   contracts, and does
                                                   not adequately fund
                                                   services such as base
                                                   shuttle service,
                                                   dining hall service
                                                   hours, fitness/
                                                   recreation programs,
                                                   etc. Lack of funding
                                                   impacts the entire
                                                   base community and,
                                                   specifically, junior
                                                   Airmen. Support
                                                   Required Force.
------------------------------------------------------------------------

                             AGING AIRCRAFT

    Mr. Rothman. In November of '07, the F-15 broke apart. My 
understanding is, as was appropriate, the entire inventory of 
F-15s was then examined with a fine-tooth comb and several of 
the aircraft were deemed to be in danger of falling apart 
because of a crack or other defects. And I am assuming it, but 
I would like you to confirm, that you feel confident now that 
you have identified the problems or problem with the F-15.
    Can you tell me, have you gone through the KC-135s with the 
same fine-tooth comb, given their age, to assure us and the 
American people that we have--we are paying as close attention 
as possible to a potential problem with these KC-135s?
    Mr. Wynne. I can tell you, sir, that there are no 
engineering models that go this long. There are no engineering 
models that have these kind of hours in them. So every day is a 
brand new discovery. Our maintenance people are doing miracle 
work. We do, however, do teardowns; and we look very hard at 
the KC-135s that are going to be flying we think for another 35 
to 40 years, at least the last one.
    We also will tell you that on the F-15s there is the third 
factor of stressing. You know, stresses have to go somewhere on 
an airplane. When you pull an airplane at nine Gs, they have to 
go somewhere. We have chased them down into the region we think 
is the problem, and we are repairing that. We believe that we 
have gotten it down to the point where we can tell our pilots 
that this is a safe and effective fleet.
    But I can tell you, sir, that as time goes on you can't 
patch your way into a combat force. You are going to experience 
what I call geriatric aging, that we all hate to admit among 
ourselves. But it does occur in metal fatigue. It does occur in 
systems.
    Chief.
    General Moseley. Mr. Chairman, thanks for that question.
    We have a fleet viability board that looks at major weapon 
systems. We have looked at the KC-135. We have looked at the C-
5, the C-130, the A-10. Now we are asking the system to look at 
the F-15 to give us some idea about long-term sustainability.
    But the Secretary is exactly right. On the KC-135, we are 
beyond any engineering fail rate data from the company that 
built the airplane. And they build good airplanes. And to go to 
them and ask them what is going to break on this airplane, it 
is tough to know.
    So as the question about dignity and the United States Air 
Force Academy, as the Service Chief of Staff I am never 
satisfied that I know everything about the aircraft as they age 
and that I understand everything that is going to break next, 
because I don't.
    On the F-15s, it was a major wake-up when we had a longeron 
break and have an airplane break apart in flight. We got our 
Missouri Guardsman back. He has had some surgery, and we will 
get him back in shape. But, sir, you are never satisfied that 
you know everything about that.
    Mr. Rothman. As long as you make--I understand what your 
testimony is, that you are making the effort to do as much as 
you can to discover problems in these other aircraft.
    General Moseley. Yes, sir. And on the F-15 side we are 
about to embark on another set of evaluations where we go 
through another set of fatigue tests on an airplane off the 
line as well as a teardown test and let the company partner 
with us on finding out what is any more predictive data that is 
knowable on how to maintain the aircraft that are now 30 years 
old.

                         COUNTERSPACE PROGRAMS

    Mr. Rothman. I have one more question. Then I am going to 
go to Mr. Tiahrt. And this is a general broad-picture question 
about changes that the Air Force has made to the counterspace 
systems programs, if any, in response to the recent Chinese 
anti-satellite test.
    This is an open hearing. I am certain that there are plenty 
of things that are being done that you can't talk about in an 
open hearing. But to address that potential threat, the present 
threat of anti-satellite weapons or the future threat of anti-
satellite weapons.
    Mr. Wynne. I can tell you, sir, this goes to the Executive 
Agent for Space. The Executive Agent for Space, which is 
myself, does not have the authority that he could have. We have 
demanded, for example, that any future space thing come with a 
defensive suite, which can be argued as to whether it has merit 
or not. But I find myself engrossed in a coalition of the 
willing. In other words, I don't have the authority to direct 
it. I have to encourage and essentially take the moral high 
ground that America's space needs defense.

                       EXECUTIVE AGENT FOR SPACE

    Mr. Rothman. Excuse me, Secretary, I am not sure I follow. 
Who do you have to encourage and is this a lack of 
congressional authority or some other authority?
    Mr. Wynne. Sir, there are more people managing space than 
there are suppliers to space in our government; and this is a 
question of who is in charge of space within the national 
security regime.
    Mr. Rothman. Are you requesting that the Congress delineate 
or designate your office, and you in particular, to head this 
effort and that all efforts be unified under your command?
    Mr. Wynne. The Congress actually created a panel to examine 
the implementation of the Space Commission that was chartered 
and chaired by, I think at the time, Secretary Rumsfeld before 
he became Defense Secretary. They have a report coming to 
Congress. I think I would encourage the Congress to review that 
and take them up on their offer that some of the implementation 
is a little bit flawed, and I think they would seek to restore 
the Executive Agent for Space to make sure there is one.
    Mr. Rothman. Do you know when we can expect that report, 
sir?
    Mr. Wynne. Yes, sir. I believe they are making it available 
this spring.
    Mr. Rothman. This spring. Thank you.

                         ANTI-SATELLITE WEAPONS

    General, did you want to comment on that, on the anti-
satellite weapons program?
    General Moseley. Yes, sir.
    Mr. Chairman, thank you for that question. Because that 
also gets at the heart of maintaining space and assured access 
to space for this country, not only military but for commercial 
use. The United States Air Force takes this role very seriously 
as far as space situation awareness and beginning to look at 
ways to maintain security of systems, not just the satellite 
itself but the link in the ground station, because that is the 
synergy of all of that.
    We have Air Force Space Command that spends 24 hours a day, 
seven days a week worrying about this problem; and we have a 
new commander of United States Strategic Command (USSTRATCOM) 
that happens to have been the Commander of Air Force Space 
Command. So I will tell you that we worry about this quite a 
bit, and we understand very well what the threats to those 
systems are and what options we have as we evolve into newer 
systems, fielding newer systems that are much more survival and 
much more capable, that they should fit inside that concern.
    Mr. Rothman. Thank you, General.
    Mr. Tiahrt.

                              KC-X PROGRAM

    Mr. Tiahrt. Thank you, Mr. Chairman.
    Mr. Secretary, you said that you believe you accurately 
followed the law in the procurement of the replacement for the 
KC-135E. And I do believe that within the Federal acquisition 
regulations there is a requirement for the Air Force to provide 
a fair and open competition when they do in fact have a 
competition versus a sole source contract, but I believe it is 
very clear now that this was not a fair competition.
    I think you would agree that it is not a fair competition 
when you demand a set of regulations be followed by one 
manufacturer and you waive those regulations for another 
manufacturer, because that does change the cost scheme. I think 
you would agree that subsidies, whether legal or illegal, do 
change the cost of these products, depending on where they are 
made; and by ignoring the subsidies and not accounting for it 
this is not a fair competition.
    And it is very clear you had no consideration given to lost 
revenue or the revenue that would have been gained, in other 
words, by having an American manufacturer versus a foreign 
manufacturer.
    But there are also areas where it was not a fair 
competition in the way you evaluated risk.
    The Air Force tried to start a program depot maintenance 
facility in Lake Charles, Louisiana. That facility was unable 
to get FAA approval or get qualified aerospace workers.
    The Navy tried to start up a facility in Greenville, 
Mississippi, to do the A-6 replacement wing. That facility was 
unable to get FAA approval or find qualified aerospace workers.
    But yet you completely accepted the risk of a foreign 
manufacturer when they said they were going to--so they 
promised to move and set up I believe two--maybe as many as 
four--production lines in America in a place where they have 
never had FAA certification or they have qualified aerospace 
workers. That is a huge risk.
    And if you look at VH-71, the cost overruns by setting up 
an American manufacturing facility and transferring work from--
a portion of the work from Europe to America, they have overrun 
their cost by 67 percent, a huge risk; and yet none of that was 
taken into consideration by the Air Force and created an unfair 
level of competition. This I think is a bad decision, and it 
was tried to be sold as a good decision. And the way it was 
done is the Air Force, not releasing data, leaked this to a guy 
named Loren B. Thompson, PhD, a guy with a great deal of 
authority; and he is in a think tank, and everybody gives it a 
lot of credibility.
    It was leaked by the Air Force to say that this bad 
decision was a slam dunk for Airbus. And the truth is it was a 
very close competition. In spite of all these inequalities, in 
spite of all these things that pushed this to a foreign 
manufacturer, it was still very, very close.
    And I want to go back to this modeling. Because the RFP 
baseline to KC-135 released on January 31st. I said a week 
later that you had a change to the modeling on February 6th, 
and I was accurate when I said that. What I failed to mention 
is that on February 20th, another 2 weeks later, you came out 
with a third modeling--second-change, third-modeling scenario.
    Now, the first one was clearly--the first that was released 
in October of '06 was clearly a modeling that looked at a KC-
135 replacement. Then on February 6th, after the RFP was 
released, the second modeling started to look like you were 
looking at a bigger tanker. And the third modeling was clearly 
pushing this to a bigger airplane, clearly pushing this to a 
bigger airplane. If you look at the change in scenarios and 
putting greater emphasis, this was pushed by the Air Force to a 
bigger airplane. It wasn't a fair and even competition. So I 
don't see any way that you can claim that it is fair with all 
these inequities, all of these inequities.
    And then there was given extra credit--even though the RFP 
doesn't demand extra credit, it was given extra credit for 
passengers and for fuel capability--or, excuse me, passengers 
and cargo.
    Now, right now, tankers haul about 1 percent of the cargo; 
and when you put cargo in them it really defeats the purpose of 
the tanker portion. I mean, what you want is a tanker up there 
flying around ready to refuel airplanes. If they are carrying 
cargo, they have less capability. And what percentage of the 
time do they even carry cargo? It is such a small percentage of 
the time.
    This is a refueling aircraft, and yet this unfair 
competition was pushed towards a bigger aircraft because it 
exceeds cargo, which wasn't in the RFP. Meeting the criteria 
was what was. It exceeds passenger carriers, which wasn't in 
the RFP. Just meeting the standard was in the RFP.
    So this has clearly been pushed to a bigger airplane and a 
foreign manufacturer. There is just no avoiding that data. It 
is not a fair competition. How can you accept this as a fair 
competition when you know this data exists and you know, in 
fact, that you have waived regulations; you know you didn't 
consider for subsidies; you know that you didn't consider lost 
revenue; you didn't even consider for the lost hangars and the 
reinforced ramps and the extended runways?
    Where is the cost for these items in this solution? It 
isn't. You may have considered it in your scenarios, but the 
cost is not in there. So how can you tell me that this is a 
fair competition knowing that all these inequities exist and 
they are violating the intent of the FAR to provide a fair and 
level competition?
    Mr. Wynne. I would like really to leave the policy 
discussion. I think some of those questions ought to be 
directed to the General Accounting Office to see whether or not 
the policy implications ought to be considered as you have 
indicated in a competition. We currently are not, if you will, 
authorized to examine that under the laws of the United States.
    I would also say that since this isn't--I would love to be 
loquacious about it, but since it is under a protest and you 
are going to get I think a good inside look, I would ask that 
you might reserve an open mind and take a briefing later.
    Mr. Rothman. General, did you have a comment?
    General Moseley. No.
    Mr. Tiahrt. In conclusion, it is an unfair competition. It 
is outrageous that we would do something like this, because the 
FAR demands a fair competition.
    Thank you.
    Mr. Rothman. Thank you, Mr. Tiahrt.
    Mr. Dicks.
    Mr. Dicks. Just to follow up on a few of these issues, and 
I am doing this because this is like a historical record, just 
like we found Secretary Wynne's comments 2 years ago, which led 
us to believe that we were going to buy a medium-sized tanker. 
And let me just go into a couple other things that I think the 
Air Force needs to think about.
    In 2006, the Air Force commissioned a RAND study looking at 
issues associated with the modernization of the aging KC-135 
fleet. It concluded that an inline production approach for a 
new tanker would eliminate risk and reduce cost.
    Boeing proposed an inline approach to the KC-767 tanker 
production.
    Northrop Grumman's approach to production certainly does 
not appear to be inline and, in fact, appears to be 
characterized by significant uncertainty and risk, involving 
manufacturing and modifications in multiple countries, the need 
to build new facilities, hire and train a new work force, 
certify new processes and even to produce an operational boom 
for the first time.
    In light of RAND's conclusions, Boeing was marked down in 
this competition for proposing the inline thing that RAND said 
it should do. They are doing the same thing right now on the P-
3 replacement at the Renton plant in Renton. And everyone says 
after a few initial hiccups--and they have learned a lot from 
that--of doing this is the right way to do it. So this is 
another issue that I think was unfairly discriminated against 
Boeing.
    Also, on this whole--Mr. Tiahrt brought up the area of 
refueling issue and air cargo and passengers. It is normally, 
looking at Air Force records in terms of cargo, only 1 percent 
of cargo that is carried in tankers. It is not a big deal. And 
in most operations of tankers they come back with 70,000 or 
better pounds of fuel when they come back. They don't use up 
all the fuel. So having massive amounts of fuel capacity--in 
fact, I think this plane met the requirement for fuel offload, 
went over by 20 percent, the KC-767.
    So, again, big is not better. Secretary, you said it over 
and over and over again, Ken Miller told me over and over 
again, that the medium-sized plane is better because it costs 
less. You don't burn up as much fuel. Over 25 years, the 
difference in fuel consumption is $15 billion.
    The difference in maintenance--and this plane is 53 percent 
larger than the 767--is $5 billion to $6 billion. So there is 
$20 billion.
    No one has ever talked to Congress about hangars. We are 
going to have to have hangars, new ramps. And the National 
Guard is coming in with a letter saying, wait a minute, we 
haven't got any hangars this large.
    Now, you took most of the tankers away from the National 
Guard. They are still smarting over that. But for the people 
who still have a chance to do it, they don't have any hangars 
this size. That is going to cost billions of dollars.
    And, again, I go back to this scenario. I mean, these 
people over in France having to bring in Germans because the 
manuals on the A-380 were done in German. I mean, you know we 
are going to build the tail, the fuselage, the wings in Europe, 
bring it to the United States and then build it in a plant that 
doesn't exist with a workforce workers that doesn't exist.
    Todd has detailed you all the times we have tried to do 
this before, and it just doesn't work. And this is going to be 
a catastrophic fiasco that is going to hurt the reputation of 
the United States Air Force. You two are the leaders of the 
United States Air Force.
    I implore you to go back and take another look at this and 
do what we have suggested. Redo this competition. Send out the 
RFP.
    And I think big is wrong. I still think that the medium 
size--that Secretary Wynne was right when he said we want a 
medium-sized tanker. Because it is more flexible. It can go to 
more air fields. It is more adaptable. And the bigger the 
tanker is--the more runways are going to have to be 
strengthened for these tankers. They have got to have hangars.
    Big is just not the answer. A medium-sized tanker to 
replace the KC-135R is the answer.
    And we have had a competition. I mean, to me, this isn't 
even a close call; and the idea that it was some kind of a slam 
dunk is just totally ridiculous.
    And again, going back to the spinmeisters over there in the 
corner, you know, you can't spin something that is this 
flagrantly wrong. And so--if you want to comment, fine. I know 
you are going to say we have to defer to the protest and all 
this.
    And, by the way, one other thing. The GAO said they looked 
at this thing on cargo and on passengers, and they said the Air 
Force did not follow its requirements. They did not look at 
whether this was needed. And their conclusion was the Air Force 
could spend billions of extra dollars getting excess cargo and 
passenger capability that is not needed, and they didn't do the 
studies to justify that.
    So the GAO I hope will take a look at this when they 
evaluate this.
    I just want you to know I have been here for 40 years, and 
this is the worst decision I have ever seen. There is no 
justification that I have heard yet for what happened, 
switching this thing in the middle, going away from the midsize 
tanker to a great big tanker that is going to be more 
expensive. And the risk of building this thing is huge, huge. 
And I just hope--I just hope you guys will go back and say we 
have got to do the right thing. We should reconsider this. This 
is obviously a mistake.
    Thank you.
    Mr. Rothman. Do either of you gentlemen wish to respond 
again?
    Mr. Wynne. Sir, I think we took that all on board.
    Mr. Rothman. Mr. Bishop.

                             C-130J PROGRAM

    Mr. Bishop. Sir, I want to ask you about the Air Force's 
supplemental request that included funding for an additional 15 
C-130Js and 2 MC-130Js in the aircraft '08 supplemental 
request. Given the utilization rates of the C-130 and the Air 
Force's request for additional aircraft in '08 and '09, does 
the subcommittee need to consider authorizing a follow-on 
multi-year procurement of additional J models after the current 
multi-year expires in '08?
    Mr. Wynne. Sir, I would say this, that we are very pleased 
that the Department sought to expand the fleet of C-130Js. 
Frankly, we didn't talk about the C-130Es that are out there, 
but many of them have flown the wings off them. They have 
cracked bulkheads. We have a real dilemma on our hands.
    The Air Force Special Operations Command and the Marine 
Corps all want C-130Js. And I will tell you one of the laments 
that people have that I think is so real is when you get 
material assets delivered to you in a supplemental you cannot 
push them into a proper acquisition model.
    So I would encourage this committee to tell the Air Force 
to package up the C-130J program and get a follow-on multi-
year. I think having them delivered, whether they are from the 
regular appropriations or from the supplemental or as it goes, 
we should have the ability--I think somebody mentioned a 
variation in quantity. I think you did, sir. And I think we 
need to be encouraged to get a contract that allows for a 
little bit of growth or a little bit of shrinkage as time goes 
on and do it on a multi-year basis.
    Mr. Bishop. How much are we paying for the supplemental 
aircraft in comparison to the multi-year aircraft?
    Mr. Wynne. Sir, I would have to get that for the record, 
because the supplemental aircraft is an estimate and a multi-
year is an actual contract.
    [The information follows:]

    The cost of the Fiscal Year 2008 supplemental aircraft is 
dependent upon the number of aircraft approved. If 17 U.S. Air 
Force and 7 U.S. Marine Corps aircraft requested were to be 
approved, we are estimating a contract price of $61 million for 
a C-130J, $62.5 million for a KC-130J and $77 million for the 
MC-130J.
    In Fiscal Year 2008 the price under the Multi-Year 
Procurement contract was $59.8 million for a C-130J and $59.7 
million for a KC-130J.

    Mr. Bishop. When will they be delivered?
    Mr. Wynne. The multi-year delivers--sir, I would have to 
take that on for the record.
    [The information follows:]

    The Fiscal Year 2008 GWOT supplemental aircraft delivery 
dates depend upon when the Fiscal Year 2008 GWOT supplemental 
request is approved. Whether the aircraft are procured under a 
multiyear procurement contract or an annual procurement 
contract the projected aircraft delivery dates are the same at 
31 months from Congressional approval to the first C-130J 
delivery.

    Mr. Wynne. But I will only tell you this. The multi-year 
prices lower than if we have to buy the original aircraft on an 
individual basis, and I think the multi-year runs out either 
this year, in calendar year 2008, or in calendar year 2009.
    Mr. Bishop. How many J models have been deployed to the 
AOR?
    General Moseley. Sir, every one we have has been deployed.
    Mr. Bishop. What was the initial estimate of the annual 
flying hours for a C-130J and what have the average actual 
annual flying hours been?
    General Moseley. Sir, let us take that for the record and 
get you the numbers.
    [The information follows:]

    The C-130J continues to perform admirably in the Global War 
on Terrorism and is the intra-theater aircraft of choice for 
the joint force. Since 2000, the C-130J has flown an average of 
over 8,500 hours versus over 8,200 programmed hours programmed 
for an over-fly percentage of 4%.

    Mr. Bishop. Would you say the actual flying numbers have 
exceeded what you had originally estimated?
    General Moseley. I bet that is what we will see.
    Mr. Bishop. You don't have an indication of that?
    General Moseley. I will have to get you those numbers, sir.
    Mr. Bishop. I understand you would have to get the exact 
numbers. You would have to do some calculations. But do you 
have a sense of whether or not you have overutilized what the 
estimates were?
    General Moseley. Yes.
    Mr. Bishop. What is that sense?
    General Moseley. Over the programmed estimate I think we 
are overflying the airplanes. And, sir, if you let me contact 
the Air National Guard and the Air Force Reserve Command and 
Air Mobility Command, I will provide you those actual numbers.
    Mr. Bishop. How many C-130 aircraft that are deployed in 
the AOR have infrared countermeasurement protection?
    General Moseley. Sir, I am thinking all of the new ones, 
the C-130Hs and the C-130Js, but let me provide those numbers 
to you, also.
    [The information follows:]

    All of the C-130's currently deployed in the U.S. Central 
Command Area of Responsibility are equipped with infrared 
countermeasures. This includes 36 Air Mobility Command, 11 Air 
Force Special Operations Command and six Air Combat Command 
aircraft for a total of 53 aircraft.

    Mr. Bishop. You have some old ones there that don't have 
it?
    General Moseley. We have different ways to do that, but 
they don't have the new systems. That is correct. Those are the 
ones we are looking to retire, the C-130Es.
    Mr. Bishop. How many of the C-130s are grounded or flight 
restricted?
    General Moseley. Almost all of the 119 C-130Es. But those 
are the ones we are looking to retire. Some of the C-130Hs are 
also operating under those restrictions.
    Mr. Bishop. My next question is going to be how many of the 
grounded aircraft have been returned to flight?
    General Moseley. Sir, a lot of the aircraft are flying 
under restrictions; and some of the airplanes are so restricted 
that we can only fly the crews. So we have some grounded. We 
have some severely restricted. And those are the older versions 
of the C-130, which is why the C-130J is so important to us, 
sir.
    Sir, if I could follow up, it is also not just for the 
cargo carrier C-130s, but it is for the special operations 
aircraft, also. Those are the ones that are probably more 
critical to replace in the supplemental because of combat 
losses.
    Mr. Wynne. And they are flying more?
    General Moseley. Correct.

                     Closing Remarks of Mr. Rothman

    Mr. Rothman. Thank you, Mr. Bishop.
    Mr. Secretary, General, thank you so much for testifying 
and coming before our committee. We look forward to receiving 
the items that you indicated you would be providing the 
committee for the record and, again, receiving them as soon as 
possible.
    Please convey to the men and women under your command our 
deep gratitude, respect, affection and support for their 
professionalism and effectiveness in defending our country and 
doing what they do better than any other air force, again, on 
the planet Earth.
    We know that you gentlemen, as their leaders, have an 
awesome responsibility to coordinate all of these efforts and 
to do so within the budget provided to you by the President and 
by the Congress; and we are grateful for your many, many years 
of outstanding service.
    You are in our prayers, but we do expect from all of the 
people who work in government, ourselves and you as well, the 
highest degree of excellence, effectiveness and 
professionalism. So Godspeed to you both and to the men and 
women who serve with you.
    This subcommittee stands adjourned and will reconvene at 
1:30 p.m. For another hearing.
    Mr. Wynne. We thank you for your time and attention, Mr. 
Chairman.
    General Moseley. Mr. Chairman, thanks also for watching 
over not just Airmen, but Soldiers, Marines, Sailors, Coast-
Guardsmen, all of the young military members that we have 
defending this Nation. Thanks to this committee for watching 
over them.
    Mr. Rothman. That is our honor and our privilege.
    General Moseley. Thanks, Mr. Chairman.
    [Clerk's note.--Questions submitted by Mr. Tiahrt and the 
answers thereto follow:]

                       B-52 Core Component Jammer

    Question. General Moseley, we understand the Air Force and 
OSD have endorsed the requirement for a stand-off jamming 
capability that supports Air Force and joint operations. With 
the pending retirement of the EA-6B which has been providing 
jamming support to the Air Force, this makes great sense to me. 
However, I am concerned about how tight the Air Force budget 
is, and there does not appear to be sufficient funding for the 
Air Force to seriously begin developing the technology and 
entering into a program of record. Would you please tell the 
committee the Air Force plans for establishing an acquisition 
program that will lead to a fielded stand-off jamming 
capability by the fiscal year 2015 time-frame?
    Answer. To date, we have no plans for establishing an 
acquisition program for a stand-off jamming capability. The 
proposed Core Component Jammer program is not funded. However, 
the Air Force is pursuing technical maturation efforts for a 
possible stand-off jamming solution. In this effort, the 
Service has increased technical materials funding in the 
President's Budget request for Fiscal Year 2008 by $20.5 
million and in the President's Budget request for Fiscal Year 
2009 by $52 million. We have also applied the $4 million 
Congressional added to the President's Budget request for 
Fiscal Year 2008 to risk reduction efforts in pod development 
and design. We are investigating phased array weight and power 
requirements; systems architecture refinement; and development 
of low/mid band phased array suppliers in order to increase 
technical readiness levels and position the service for a 
possible program start of an affordable stand-off capability in 
the near future.

                         Re-Engine of the B-52

    Question: General Moseley, with the current national focus 
on energy dependence on foreign sources for oil, and 
recognizing that the Air Force is the largest consumer of fuel 
in the Defense Department, would you please discuss what the 
Air Force is doing to address recent study recommendations for 
large aircraft fuel efficiency?
    Answer. The Air Force has implemented an energy strategy 
that consists of reducing our overall demand for energy, 
increasing the supply of secure energy, and changing the Air 
Force culture to make energy a consideration in everything we 
do. Through our Air Force Smart Operations (AFSO) 21 efforts, 
the Air Force is reducing fuel demand by purchasing fuel-
efficient equipment whenever possible and flying more 
efficiently. We are implementing cost efficiencies, such as 
reducing the weight of our aircraft and optimizing the routes 
we fly, where mission appropriate. Our goal is to achieve an 
overarching cultural change down to the aircraft commander and 
crew chief level to conserve fuel while maintaining a level of 
accountability.
    In 2007, the National Research Council released a report 
entitled ``Improving the Efficiency of Engines for Large Non-
fighter Aircraft'' that assessed possible technical options, 
including some for the B-52. The Air Force is currently 
examining the report and identifying ways to move forward. We 
are also continuing to pursue new aviation technologies to 
increase the efficiency of jet engines and airframes. Next 
generation aircraft systems will save energy through more 
efficient engine technology. Programs such as Adaptive 
Versatile Engine Technology and Highly Efficient Embedded 
Turbine Engine are expected to produce greater gains in 
performance, while resulting in substantially increased range, 
persistence and speed for both subsonic and supersonic missions 
while significantly decreasing fuel usage.

                     Investing in Air Force Bombers

    Question. General Moseley, concerning our three bomber 
fleets, the B-52, B-1 and B-2, and given each bomber has a 
number of decades of life remaining in the aircraft structure, 
the amount of funding dedicated year over to year toward taking 
advantage of new capabilities that are available such as radar 
upgrades, tactical data links, and getting more smart weapons 
in the weapons bays, has been pretty slim. I recognize the Air 
Force has a very tight budget right now, but, it also makes 
sense that we take advantage of the nation's investment in 
these bombers through a program that provides enhancements that 
keeps them flying safely and allows them to better support 
military operations. Would you please comment on the Air Force 
plans with regard to ensuring the nation has a viable bomber 
fleet for this decade and next through investing in our current 
bombers to sustain and enhance their capabilities, as well as 
though investing in a future bomber?
    Answer. The Air Force is moving forward to enhance its Long 
Range Strike (LRS) capability by implementing a comprehensive 
three-phased LRS strategy which addresses near-term issues 
while also preparing for future operational needs. The strategy 
and upgrades are detailed in the Air Force Long Range Strike 
2007 White Paper, which includes the below highlights:
    Phase I (already underway) of this strategy is to modernize 
the present bomber force and reduce risk. The B-1, B-2 and B-52 
are undergoing upgrades focused on sustainability, lethality, 
responsiveness and survivability that enhance their combat 
capabilities for the combatant commander. Primary among these 
are the following bomber upgrades: B-1--Fully Integrated Data 
Link and Advanced Targeting Pod integration, B-2--Radar 
Modernization Program and Advanced Extremely High Frequency 
integration (with primary flight computer upgrades), B-52 
Combat Network Communications Technology.
    The second phase requires a highly survivable, penetrating, 
persistent LRS capability in the anti-access environment 
expected to exist after 2015. The Air Force has completed an 
analysis of alternatives validating these requirements and 
identified the most promising platform concepts. Phase II, the 
Next Generation bomber program, will leverage existing and 
near-term technologies to meet these requirements by 2018.
    For the longer term, Phase III of the air Force's LRS 
strategy will employ advanced technologies to provide the 
speed, range, accuracy, connectivity and survivability required 
in the 2035 timeframe.

                              Mixed Fleet

    Question. The 2005 Mobility Capability Study stated that 
the United States Air Force should continue to have a mixed 
fleet of tanker aircraft--medium and large. The Air Force chose 
the KC-30 as a replacement for the medium-sized tanker. 
However, the KC-30 is 27% larger than our largest tanker, the 
KC-10.
    Does the United States Air Force still believe we need a 
mixed fleet of medium and large tankers? do you consider the 
KC-30, although it is bigger than our ``large'' tanker, to be a 
medium-sized tanker?
    Answer. The Air Force benefits from the operational 
flexibility provided by a mixed fleet of tankers. We are taking 
a three-phased approach--KC-X, KC-Y, and KC-Z--over the next 
several decades to replace the KC-135s and eventually the KC-
10s. It is envisioned that each phase will be a next 
competition based on warfighter requirements at the start of 
each phase (i.e., for KC-Y and KC-Z), we anticipate repeating 
the requirements and acquisition processes we went through for 
KC-X. at the recapitalization, we still plan to have a mixed 
fleet for the operational flexibility we need.
    The KC-X solicitation was silent as to the size of the 
aircraft in order to give the offerors maximum flexibility in 
crafting their proposed solutions. According to the RAND 
Analysis of Alternatives for KC-135 recapitalization, medium 
sized tankers are those with a maximum takeoff gross weight 
(MTOGW) of 300,000 to 550,000 lbs. Using this Analysis of 
Alternatives, the KC-135, KC-45 (previously referred to as KC-
30 by Northrop Grumman), and KC-767 are all in the medium size 
class. The KC-10 MTOGW is nearly 600,000 lbs., putting it in 
the large size class.

                               Subsidies

    Question. It is clear that Airbus received Subsidies and 
launch aid from European governments for the A-330 and other 
aircraft. Airbus was given $5 billion in subsidies to develop 
the A-330/A-340 aircraft. This launch aid and subsidies allows 
airbus to undercut Boeing's bid the commercial market, and the 
same thing happened in the KC-X competition.
    Given the subsidies and other non-accounted for costs, do 
you believe there is level-playing field for American and 
foreign competitors in Department of Defense competitions?
    Answer. The Air Force worked diligently to conduct a fair 
and transparent competition. This was done throughout by strict 
adherence to the laws and regulations that govern this process. 
Prior to the start of the competition, the Air Force addressed 
the World Trade Organization dispute (both claims and 
counterclaims) with the offerors and Members of Congress. Since 
the dispute had not been resolved, the Air Force sought to 
protect the government and taxpayers by preventing any costs 
imposed by the outcome of this letigation from being passed on 
to the KC-45 contract. Both offerors agreed to this condition 
as evidenced by the contract clauses they submitted in their 
final proposals.

                             Changes to RFP

    Question. It is clear that the Air Force made changes to 
the draft RFP that allowed a large tanker, such as the KC-30, 
to compete in a competition for a medium-sized tanker 
replacement.
    Why did the Air Force change the RFP at final release to 
include additional evaluation criteria for airlift? Were these 
changes directly the result of Northrop Grumman's threat to 
withdraw from the competition unless greater value was placed 
on airlift?
    Answer. There were two draft Requests for Proposals (RFPs) 
prior to the final RFP. The purpose of the draft RFPs was to 
facilitate discussions with potential offerors and government 
agencies to ensure the government clearly stated its 
requirements and evaluation methods and set the groundwork for 
a fair and open competition. Both offerors provided verbal and 
written comments prior to the final RFP. None of the changes 
were made to favor one offeror over another.
    Five amendments were accomplished on the final RFP. 
Amendments one through three were accomplished prior to 
proposal receipt; amendments four and five were done after 
proposal receipt. Amendment one included clarifications of the 
RFP. Amendment two included minor mandatory updates including 
required chemical, biological, and environmental information 
and administrative changes to the Systems Requirements Document 
(SRD). Amendment three clarified the Combined Mating and 
Ranging Planning System (CMARPS) model along with numerous 
administrative changes. CMARPS is a modeling and simulation 
tool used in the evaluation of the Integrated Fleet Aerial 
Refueling Assessment (IFARA). This amendment contained 
clarifications to the SRD. Amendments four and five were 
strictly administrative.
    On February 23, 2007, amendment one of the RFP included 
clarifications of the RFP. On February 28, 2007, amendment two 
of the RFP included minor mandatory updates including required 
chemical, biological, and environmental information and 
administrative changes to the Systems Requirements Document 
(SRD). On March 21, 2007, amendment three of the RFP was issued 
extending the proposal date to April 12, 2007 and included 
administrative changes to clauses, data requirements, and 
Section L. Also included was an SRD update, clarifications to 
the O&S form and CMARPS model clarifications to attachments 
seventeen and eighteen. Two corrections requested drag index 
values and expanded aircraft performance array. All amendments 
occurred prior to the Air Force knowing what aircraft Boeing 
and Northrop were going to bid. Both offerors could have 
offered multiple aircraft types. Both offerors could have 
exploited provisions in the law if they felt any of the RFP 
amendments were unfair.

             Boeing's Past Experience With New Construction

    Question. Gentlemen, Boeing once tried to build facilities 
in Greensville, Mississippi and Lake Charles, Louisiana. Those 
facilities failed due to the difficulty in getting FAA 
certification and difficulty in hiring qualified aerospace 
workers. However, the Airbus proposal apparently contains plans 
for construction of two new manufacturing plants, the training 
of a new workforce, and a shift of the supply chain from Europe 
to the United States.
    During the KC-X competition, did you examine the failed 
experiments at Greensville and Lake Charles to understand the 
risk of starting a new aerospace facility in this region of the 
country?
    Answer. The government carefully examined production 
strategies of both offerors. The assessment of these strategies 
is source selection sensitive. During the Government 
Accountability Office protest period, such information will be 
provided orally in a closed session, when requested by the 
Chairman or Ranking Member of the Committee. We are ready to 
provide such a briefing at your convenience.

                              NG-EADS Risk

    Question. In the KC-X competition, we have two clear 
competitors: Boeing has a flying tanker that is FAA certified 
and delivered to the Japanese Air Force. Airbus has not yet 
produced a tanker and is already falling behind schedule in the 
Australian tanker.
    How did the Air Force evaluate risk given that Boeing has 
delivered a tanker and EADS has not? did the Air Force evaluate 
the failures in the EADS Australian tanker? Why didn't the AF 
deem the NG-EADS proposal more risky given that they have not 
produced a tanker?
    Answer. The risk assessments of each proposal are source 
selection sensitive. During the Government Accountability 
Office protect period, such information will be provided orally 
in a closed session, when requested by the Chairman or Ranking 
Member of the Committee. We are ready to provide such a 
briefing at your convenience.

                              VH-71 model

    Question. The Presidential Helicopter, VH-71, has risen 67% 
since the contract was awarded in 2005. Although the VH-71 is 
being built by Agusta/Westland and Lockheed-Martin, Northrop 
Grumman-EADS used a similar model of migrating minimal supply 
chains from Europe to the United States.
    Did the Air Force examine the VH-71 contract in determining 
contract risk of the Northrop Grumman-EADS proposal?
    Answer. Transition of production facilities from Europe to 
the United States was thoroughly scrutinized during the source 
selection. The details of this evaluation are source selection 
sensitive. During the Government Accountability Office protest 
period, such information will be provided orally in a closed 
session, when requested by the Chairman or Ranking Member of 
the Committee. We are ready to provide such a briefing at your 
convenience.

                   Multiple Production Locations Risk

    Question. The Airbus KC-X proposal apparently involves 
building the first 7 aircraft using multiple production models 
and 5 different production locations spanning two continents.
    Given the complexity and the fact this is all new 
territory, how can the Air Force accurately assess Northrop-
Grumman's tanker manufacturing risk?
    Answer. The Government carefully examined productions 
strategies of both offerors. The assessment of these strategies 
is source selection sensitive. During the Government 
Accountability Office protest period, such information will be 
provided orally in a closed session, when requested by the 
Chairman or Ranking Member of the Committee. We are ready to 
provide such a briefing at your convenience.

                    Past Performance of EADS and NG

    Question. In the KC-X competition, what was the past 
performance criteria used for EADS? Please provide all 
documentation to the Committee.
    Was the Army's experience with the Light Utility Helicopter 
considered in EADS' past performance? Was Northrop-Grumman's 
past performance with Deepwater considered? The A400M is a year 
behind schedule and $2 billion over cost. Was EADS' experience 
with the A400M considered? The A380 is 2 years behind schedule 
and around $7 billion over cost. Was Airbus' experience with 
the A380 considered in past performance in the KC-X 
Competition?
    EADS has demonstrated very poor A400M and A380 performance 
for their own design and build process. How can they be 
entrusted to build a U.S. tanker?
    Answer. As stated in the Request for Proposal (RFP), past 
performance on contracts was evaluated if it was both recent 
and relevant to the mission capability evaluation factors and 
cost/price. The specific contracts considered, and the results 
of the past performance evaluations, are source selection 
sensitive. During the Government Accountability Office protest 
period, such information will be provided orally in a closed 
session, when requested by the Chairman or Ranking Member of 
the Committee. We are ready to provide such a briefing at your 
convenience.

                            Life-Cycle Costs

    Question. In the KC-X competition, how did the AF evaluate 
out-year costs for life-cycle costs? Did the AF take into 
consideration the likely increase in the price of fuel?
    Answer. Life cycle costs include development, production, 
operation, personnel, and sustainment costs. Fuel costs are one 
component of operation costs. For the evaluation, the Air Force 
used the Department of Defense published fuel prices and fuel 
inflation indices that were available at the Request for 
Proposal release.

                      Military Construction Costs

    Question. The KC-30 won't fit in our hangers, it is too 
heavy for our runways, and it needs longer runways than we have 
at many air bases.
    Were the costs of military construction investments, new 
hangers, runways, tools, additional training, etc., considered 
as part of the competition? Were the Military Construction 
costs for any Air National Guard bases considered?
    Answer. One of the five source selection evaluation factors 
was Most Probable Life Cycle Cost (MPLCC). Military 
construction is one component of the MPLCC and includes new 
buildings, modifications to existing buildings, new hangars, 
ramp expansions, and relocation of fuel hydrants. Since basing 
decisions have not been finalized yet, Air Mobility Command 
conducted site surveys at representative bases to support an 
estimate of total military construction costs.

                        Tanker Decision in 2001

    Question. In March 2001, after examining offerings from 
both Boeing and Airbus, the Air Force decided that the Boeing 
KC-767 Tanker was the right choice for KC-X, the Next-
Generation Air-Refueling Tanker.
    At that time, the USAF gave four main reasons for this 
selection of the KC-767 over Airbus's KC-330:
    (1) ``The KC-330 increase in size does not bring with it a 
commensurate increase in available air refueling offload.''
    (2) The KC-330 ``. . . presents a higher-risk technical 
approach and a less preferred financial arrangement.''
    (3) ``The size difference of the EADS-proposed KC-330 
results in an 81 percent larger ground footprint compared to 
the KC-135E it would replace, whereas the Boeing 767 is only 29 
percent larger.''
    (4) The KC-330 requires ``. . . greater infrastructure 
investment and dramatically limits the aircraft's ability to 
operate effectively in worldwide deployment.''
    What has changed from the analysis in 2001 to the analysis 
today?
    Answer. There have been several significant changes since 
then. The Request for Information evaluation in 2001 was 
conducted prior to RAND's Analysis of Alternatives for KC-135 
Recapitalization, which was developed from 2004 to 2006. This 
comprehensive analysis informed both the defining of 
requirements and the drafting of the acquisition strategy. The 
requirements were written by the Air Force and validated by the 
Joint Requirements Oversight Council (JROC) in November 2006. 
The acquisition strategy was approved by the Undersecretary of 
Defense for Acquisition, Technology and Logistics in January 
2007 which then led to the release of the final RFP later that 
month. The source selection decision was based on an integrated 
assessment of the five evaluation criteria described in the 
RFP. This assessment considered capabilities (for example, 
aerial refueling and airlift efficiencies) relative to the 
requirements validated by the JROC and in light of costs, 
risks, and past performance. All the issues enumerated above 
were accounted for in the assessment.
    Since 2001, both offerors have leveraged development 
efforts for international customers, allowing them to propose 
more capable and technologically mature aircraft. For example, 
the A330-based tanker was a paper design in 2001, but prior to 
the conclusion of the source selection, the aircraft had 
entered flight testing.
    Additionally, conducting a competition changes the equation 
because of the motivation to maximize capability relative to 
the taxpayers' investment. As a result, the Air Force concluded 
the Northrop Grumman KC-45 proposal provided the best value 
approach to begin the replacement of our KC-135s.

                                Waivers

    Question. The Department of Defense waives at least 5 
costly regulations for our allies with which our domestic 
manufacturers have to comply. These include ``Cost Accounting 
Standards,'' the Specialty Metal laws, Buy America provisions, 
Foreign Corrupt Practices Act, and ITAR Compliance.
    What is the complete list of regulations in the FAR that 
are waived for foreign manufacturers with which domestic 
manufacturers must comply?
    Answer. Waivers of the FARs are considered on a case by 
case basis and are rigorously reviewed by Air Force contracting 
and legal professionals prior to acceptance using long accepted 
practices and legal precedent. This particular question 
requires some diligent research and cannot be answered 
effectively without completion of such research. A 
clarification must also be made regarding those elements of 
U.S. law that are legally ``waived'' by treaty and therefore 
set forth in the FAR (as supplemented), and those ``waivers'' 
of FAR requirements granted by the Department on a case by case 
basis.
    It is readily acknowledged that the FAR, as supplemented, 
is a complex set of regulations implementing both law and 
exemptions from law derived from lawful negotiated treaty 
agreements. Accordingly, some amount of time will be required 
to fully research which FAR requirements actually incorporate 
treaty agreements that appear to ``waive'' laws that are 
otherwise applicable to domestic entities thereby exempting 
foreign manufacturers that partner with us. The Department of 
Defense does have a few specific waivers in place (including 
some of those things listed in the Congressman's question), but 
it is quite possible that many other waivers are in place and 
appropriately incorporated in the FAR which affect labor, 
environmental, tax, small business, subcontracting, and many 
other laws, any of which could in effect exempt entities 
manufacturing outside the U.S. from U.S. law, and for good 
reason. Furthermore, U.S. law is not generally applicable 
outside the U.S. for entities that are manufacturing outside 
the U.S. Notwithstanding, those same entities would need to 
comply with those laws when their point of manufacture is 
inside the U.S.
    Accordingly, a complete assessment of the issue raised by 
the Congressman will require a team of international lawyers 
and will require an exhaustive sifting of the FAR as 
supplemented in order to determine what is, what is not, what 
cannot be, and what should not be enforced on foreign entities.

                    National Security Considerations

    Question. Did the Air Force evaluate national security 
implications of having a tanker so dependent on a foreign 
company? When you announced buying a French tanker for KC-X, 
you said that U.S. jobs didn't impact the decision. Are you 
implying that we would have no problem buying Russian bombers 
and Korean ships for our military if we thought they were a 
good deal?
    Answer. The Department of Defense believes the 
participation of allied countries in the procurement of weapon 
systems can improve our national security. A Department of 
Defense Memoranda of Understanding (MOU) lists countries whose 
companies are exempt from restrictions in the Buy American Act; 
lifting such restrictions promotes security cooperation. 
Northrop Grumman's major subcontractors outside the United 
States are located in Spain, Germany, and France--all three are 
listed in the MOU.
    Furthermore, these three countries are NATO allies. The 
experiences we have had with our NATO allies on other programs 
have not negatively impacted our national security. As an 
example, the engines that power our KC-135R tankers are 
manufactured by CFM International, a joint venture between 
General Electric and the French company Snecma. Despite past 
disagreements between the United States and France over foreign 
policy, we have not experienced problems in maintaining these 
engines. We have no reason to anticipate negative impacts to 
our national security due to Northrop Grumman's production and 
sustainment of KC-45 tankers.

    [Clerk's note.--End of questions submitted by Mr. Tiahrt.]


                           W I T N E S S E S

                              ----------                              --
--------
                                                                   Page
Bergman, Lieutenant General John.................................    83
Blum, Lieutenant General H.S.....................................   164
Bradley, Lieutenant General John.................................    83
Casscells, S.W. ``Trip''.........................................     1
Cotton, Vice Admiral John........................................    83
Fallon, Admiral W.J..............................................   243
Hudson, Lieutenant General J.L...................................   197
Kasten, Terry....................................................   197
McKinley, Lieutenant General Craig...............................   164
Moseley, General T.M.............................................   315
Payton, S.C......................................................   197
Robinson, Vice Admiral A.M.......................................     1
Roudebush, Lieutenant General J.G................................     1
Schoomaker, Lieutenant General E.B...............................     1
Stultz, Lieutenant General Jack..................................    83
Vaughn, Lieutenant General Clyde.................................   164
Wynne, M.W.......................................................   315

                                  <all>
</pre></body></html>
